<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2011

                              ----------                              


                         THURSDAY, MAY 6, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:17 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairwoman) 
presiding.
    Present: Senators Mikulski, Leahy, Feinstein, Lautenberg, 
and Murkowski.

                         DEPARTMENT OF JUSTICE

                            Attorney General

STATEMENT OF HON. ERIC H. HOLDER, JR., ATTORNEY GENERAL

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning, everybody.
    This is the Commerce, Justice and Science Subcommittee on 
Appropriations and we will come to order. Today, we review the 
budget for the Department of Justice and take testimony from 
the very able Attorney General Eric Holder. After Mr. Holder 
completes his remarks and we have our questioning, we will also 
hear from the Inspector General Glenn Fine. As everyone knows, 
it is the practice now of this subcommittee at every hearing to 
listen to the Inspector General.
    I want to note the fact that though Senator Shelby is not 
here, it is because the Banking Committee is deliberating the 
financial service reform on the floor. Because he is the 
ranking member, he is required to be there. With unanimous 
consent, we will put the Shelby statement into the record.
    [The statement follows:]
            Prepared Statement of Senator Richard C. Shelby
    Thank you, Madam Chairwoman. And thank you, Attorney General 
Holder, for joining us to discuss the Department of Justice and its 
fiscal year 2011 budget request.
    First, I want to recognize and extend my appreciation and support 
to the men and women of the Department of Justice who protect this 
country from crime and terrorism. We owe them all a debt of gratitude.
    The fiscal year 2011 budget request for the Department of Justice 
is $29 billion. This is a $1.5 billion, or 5 percent increase, over the 
fiscal year 2010 request. Via the Second Chance Act, the Department of 
Justice is requesting $140 million to educate and mentor terrorists, 
pedophiles and career criminals--while requesting minimal funds for 
reducing the DNA backlog and tracking the monsters that abducted and 
sexually assaulted Adam Walsh, Elizabeth Smart, Dru Sjodin, Polly 
Klaas, Jessica Lunsford, and others like them.
    Minimal progress has been made in funding and implementing the Adam 
Walsh Act and a long term and efficient plan for reducing the DNA 
backlog by increasing public crime lab capacity is nonexistent.
    How can we look into the eyes of the parents of these children and 
tell them DOJ and the administration are prioritizing criminals' re-
entry into society over funding the Adam Walsh Act?
    In a perfect world flush with resources I would be supportive of 
funding the Second Chance Act, but the very idea of taking money from 
victims and law enforcement officers to educate and comfort terrorists, 
pedophiles, and career criminals is once again, an abomination.
    General Holder, on March 6 of this year, President Obama appeared 
on the 1,000th episode of America's Most Wanted and told John Walsh, 
``We're going to do everything in our power, as long as I'm in the 
White House and as long as I'm the father of two girls, to make sure 
that we're providing the States the support they need to make this 
happen.''
    The President went on to tell Mr. Walsh that the White House had 
increased the number of Deputy U.S. Marshals dedicated to Adam Walsh 
cases from 300 to 400, increased AWA funding by 23 percent, and how 
important it is for the administration to build up the Marshals Service 
as it was something we want to do in our Federal budget.
    I regret to say that the President misinformed John Walsh. In 
reality, the Marshals Service will have a total of 177 operational and 
support personnel solely dedicated to Adam Walsh Act enforcement in 
fiscal year 2010, which is the most they've ever had. This 
subcommittee, not the White House, added the 105 dedicated personnel 
that the president credited himself with.
    In addition to the 177 personnel, 237 Marshals Service 
investigators support Walsh Act implementation on a collateral basis. 
This means Walsh activities are only a portion of their many duties as 
they are also responsible for protecting judges, tracking down non-sex 
crime fugitives, and transporting prisoners. In my 6 years of being on 
this subcommittee, the administration has never requested an increase 
for the Marshals Service purely dedicated to this mission.
    In 2008, Senator Mikulski and I included the first ever funding of 
$17 million for Adam Walsh enforcement in a war supplemental funding 
bill. In 2009, we increased this funding by another $5 million. In 
2010, the President simply requested funding to keep Deputy Marshals on 
board, with no increase. We said that is not good enough, and provided 
a $27.5 million increase above the President's extremely modest request 
of $15 million in 2010. The President has not requested an increase for 
Adam Walsh Act enforcement, but instead is taking credit where the 
Congress saw the need and provided the resources. I would hope that the 
White House would correct the record and take the initiative to provide 
more funding for the Marshals Service to protect children from 
predators, instead of taking credit for the job Congress has done. I 
would suspect Mr. Walsh hasn't heard a word from anyone in the 
administration since the President used him for lip service and 
airtime.
    One issue it seems that both the Department and the subcommittee 
agree on is the importance of the National Center for Missing and 
Exploited Children (NCMEC) and their continuing leadership in combating 
the exploitation of children. DOJ continues to support NCMEC thru the 
Missing Children grants we have appropriated and, by all accounts, 
there continues to be a strong and unique partnership serving the 
interests of our most innocent victims of crime. I am concerned, 
however, that the administration's budget reduces the Missing 
Children's account--the pool from which NCMEC and other child safety 
nonprofits must compete--by $10 million. I hope we can work together to 
increase that level of funding to insure that NCMEC receives the 
continued support it needs and that we are able to also help others in 
this area. We should be growing the pie for helping organizations that 
combat missing and exploited children rather than shrinking it.
    The President also told John Walsh he wanted to provide support to 
State and local officials for DNA testing because they are strapped for 
some of the basic resources. Saying, ``that we're going to get support, 
bipartisan support from Congress on this issue, because it's so 
important to every family across America and there are just too many 
horror stories reminding us that we're not doing enough.''
    Mr. Attorney General, I would first start this initiative by having 
senior program managers at the National Institute of Justice who are 
responsible for DNA solicitations and being accessible to State and 
local crime labs to show up for work more than 3 days a week. I would 
also direct NIJ to stop writing grant solicitations catering to their 
for-profit DNA vendor friends that have had carte blanche access to NIJ 
for too long. DOJ should be more diligent in ensuring that components 
serving State and local law enforcement agencies have representatives 
that are accessible and accountable to the State and local labs they 
are entrusted to support.
    Our Government forensic labs need to continue to build their 
capacity to adequately serve the justice system, and have used NIJ 
funding to make great strides in decreasing backlogs. I know that in my 
State, the Alabama Department of Forensic Sciences has continued to 
make it a focus of theirs to build capacity in an effort to ensure 
backlogs don't recur once they're addressed--and they have been very 
successful. They have erased the backlogs in drug chemistry and 
toxicology analyses, and consistently reduced the DNA backlog, even as 
they have expanded their services. By building their capacity, 
Government labs can process cases efficiently, expand their services, 
and start to test evidence from unsolved petty and property crimes, as 
ours has in Alabama.
    Recently in my hometown of Tuscaloosa, a cold case violent sexual 
predator was identified almost 20 years later as a rapist of a 
University of Alabama graduate student. This case would never have been 
solved without DNA and a dedicated lab which focused on building their 
capacity to efficiently analyze unsolved cold cases. The long term 
solution to forensic backlogs is building capacity for Government labs 
and not in the continual outsourcing to private companies who incite 
victims and victims groups and mislead law enforcement agencies, for 
the sake of a profit.
    The perceived atmosphere of cronyism with private vender labs at 
NIJ is retaliatory and do as I say. If State and local crime labs 
disagree with NIJ on DNA policy, they should not be fearful of 
retaliatory actions by NIJ because they expressed their expert 
opinions. I have expressed this sentiment before to you and the 
previous administration about this unethical behavior yet no concrete 
actions to address this injustice have occurred. The culture of NIJ 
succumbing to influence and policy suggestions by for-profit labs began 
almost a decade ago with NIJ employees wanting to graduate into the 
private sector to double and triple their salaries. Evidence quality is 
paramount in forensics and the highest quality work is done in 
Government labs.
    Continual outsourcing to private labs creates a residual holding 
pattern. While the seemingly quick fixes of loosening DNA technical 
review standards and private labs having access to the DNA database 
sounds like a quick fix to the backlog solution, the long term results 
could be detrimental to the integrity of cases, the database and the 
welfare of victims and law enforcement. NIJ funding should be focused 
on building the capacity of Government labs to address the current 
backlogs, and more importantly, to provide the Government lab with the 
infrastructure to insure these backlogs don't recur. NIJ should not be 
focused on providing a bailout or setting up a welfare system for the 
private DNA labs at the taxpayer's expense.
    Lastly about DNA, I wrote a letter to the FBI director expressing 
concern about undue pressure being put on the FBI to change existing 
DNA policy, citing correspondence from private vendor labs. I am told 
that as recently as this week, a Member of Congress mentioned multiple 
times by the DNA vendor in that correspondence, threatened to change 
the FBI's DNA policy by legislation if the FBI didn't do so on their 
own.
    Mr. Attorney General, for the sake of the integrity of the criminal 
justice system and the Department of Justice, it would behoove you to 
heed the concerns and needs State and local crime lab directors who are 
actual DNA experts--not Members of Congress, their staff, for-profit 
DNA company sales executives, lobbyists, former NIJ employees, movies 
stars, and group advocates who have no DNA training or experience. The 
President's fiscal year 2011 budget fails to fund the critical needs 
that the Attorney General identified and requested funding for in his 
request to the Office of Management and Budget during the budget 
process.
    For example, the budget proposes over $300 million in enhancements 
for national security--but that amount is substantially less than the 
$478 million the Department requested from OMB. In fact, OMB initially 
recommended only $173 million for national security, a mere 36 percent 
of the Department's request.
    When Director Mueller of the Federal Bureau of Investigation 
testified 3 weeks ago, he verified that the President's fiscal year 
2011 budget would cut their terrorism fighting capabilities. For every 
new dollar proposed by the White House for the FBI to fight terrorists, 
$6 of current counterterrorism fighting capability are cut.
    Additionally, the White House does not believe the assessment of 
its own Department of Homeland Security that terrorist use of 
improvised explosive devices--IEDs--remains the greatest threat to the 
United States. If the White House believed that assessment, it would 
not have proposed to cancel $99 million Congress appropriated to the 
FBI for the construction of necessary facilities to forensically and 
technically exploit IEDs and terrorist bomb-making materials.
    Terrorist use of explosive devices continues to be a key threat to 
the United States. In just the past few months, we have seen an attempt 
to blow up a Northwest Airlines flight, a plot to blow up bombs in New 
York City subways, and plots to blow up Federal buildings in Texas and 
Illinois. This past weekend alone in New York's Time Square 
demonstrates terrorists' abilities to use explosive devices in major 
metropolitan U.S. cities. On an almost daily basis, we read about 
terrorists and insurgents using improvised explosive devices to injure 
and kill U.S. and coalition troops in Afghanistan and Iraq. Our 
embassies and consulates in Pakistan, Yemen, and other countries have 
been targeted by terrorist bombers.
    As Director Mueller stated in a letter to you Mr. Attorney General, 
dated December 2, 2009:

    ``The OMB recommendation does not recognize the value of biometric 
information gleaned from recovered and seized IEDs and related 
materials to the intelligence and homeland security communities. In one 
recent instance, a TEDAC latent print examiner enhanced and then 
searched a latent fingerprint initially developed by DOD examiners in 
theater from an IED/weapons cache and determined the individual had 
since been legally admitted to the United States. Previous searches of 
the latent print image by DOD examiners failed to associate the print 
with any individual. TEDAC is responsible for and uniquely positioned 
to provide both tactical support to the war fighter and strategic 
support to homeland security. Given the President's renewed commitment 
to Afghanistan, it makes more sense to act to quickly establish a 
permanent TEDAC facility that can serve as the hub for tactical in 
theater forensic and technical exploitation capacity in support of the 
war fighter and as a strategic homeland security resource to protect 
against terrorist use of explosives at home''.

    I believe the administration is putting you, Mr. Attorney General, 
in a no-win situation, by having you defend their inept decision--a 
decision made by non-accountable bureaucrats at OMB. I know that 
cancelling TEDAC funding was not your decision. I also know that both 
you, and Director Mueller, appealed that decision, yet the 
administration cut the very funding that the FBI Director said he 
believed was necessary to ensure that the FBI has the tools and the 
facilities necessary to respond to the terrorist threat this Nation 
faces. It is clear from the request that OMB is not relying on the 
people who actually have to fight terrorism when it is making decisions 
regarding the threat this country faces.
    Today, the Quantico TEDAC is overwhelmed. For the 56,000 boxes of 
IEDs and materials received since 2004, 37,000 are awaiting processing. 
The FBI estimates that 86 percent of the backlog contains critical 
information like biometric intelligence, fingerprints, DNA, and so 
forth that would assist the U.S. military, the intelligence community, 
and the Federal law enforcement in identifying terrorists.
    The United States needs to prepare for this threat and the proposed 
rescission of these funds only tells me--and this subcommittee--about 
the lack of understanding by the administration of the terrorist 
threat. While the administration may choose to look the other way 
combating the terrorist explosives threat, we will not.
    TEDAC would ensure that the tactical information and intelligence 
gained from analysis of improvised explosive devices and the biometric 
identification data obtained from fingerprints and DNA is shared with 
U.S. intelligence, homeland security, and law enforcement agencies.
    This funding would have mitigated the impacts of the TEDAC workload 
on the FBI laboratory--both the workload of today and for future 
conflicts. What we do know is that there is not enough capacity at the 
current laboratory facility to support both the criminal functions of 
the FBI lab and the TEDAC mission. As a result, turnaround times for 
completing examinations have grown and more and more FBI field offices 
are submitting evidence to State and local labs for processing.
    The FBI laboratory should have the capacity needed to support its 
traditional forensic mission in support of law enforcement and support 
TEDAC. This is not a choice of doing one or the other; both must be 
done.
    The TEDAC forensic capability will satisfy the needs for an 
enduring U.S. Government capability, as well as provide a ``surge'' 
capacity for the FBI laboratory in the event of a major domestic 
incident or crime problem.
    Finally, the TEDAC facility will also provide the FBI with a back-
up forensic capability in the event the Quantico facility is ever 
rendered inoperable. The current FBI laboratory at Quantico is a single 
point of failure within the FBI; there is no current back up location 
to perform that critical work.
    I believe the record shows that the proposal by OMB to cancel TEDAC 
funding is unwise, and I think it is very ill-timed. The threat from 
terrorist use of explosives is significant, real, and I believe 
enduring.
    Unfortunately national security and terrorism are not the only 
areas where the President's budget fails the Department of Justice. The 
Bureau of Prisons, through the Department, sought $875 million in 
additional funding for prisons and incarceration. The President's 
budget proposes $422 million but $237 million, not requested by the 
Department but included in the OMB passback, was added to the 
Department's budget to buy and renovate a prison in Illinois to 
potentially house the terrorists currently incarcerated at the 
perfectly functioning Guantanamo Bay Detention Facility.
    Apparently, OMB believes over-paying the State of Illinois for a 
vacant, decade-old, facility is a higher priority than providing the 
FBI with the forensic and technical capabilities necessary to combat 
terrorist use of explosives. If ever we needed an example of misguided 
priorities, this ranks near the top of the list.
    The administration would like communities to believe it is 
committed to eliminating gangs and gang violence, yet OMB proposed 
eliminating the FBI's National Gang Intelligence Center and reducing 
the number of FBI Safe Streets task forces, DEA mobile enforcement 
teams, ATF violent crime impact teams, and U.S. Marshals task forces 
focusing on arresting fugitives.
    At a time when drug cartels infiltrate the ranks of foreign law 
enforcement--thus risking joint U.S. and foreign efforts to stem the 
flow of drugs into our country--OMB even proposed reducing DEA's 
program to vet and train foreign police officers so we have trusted 
partners to work with overseas. I find this unconscionable, given the 
current border violence in Mexico.
    Thankfully, many of these misguided OMB proposals and suggestions 
were successfully appealed by you Mr. Attorney General, and for that we 
are all grateful, but, those proposals should never have been on the 
table in the first place. OMB should rightfully be embarrassed to have 
even put them forward.
    Basically, the President's budget request for the Department of 
Justice is lacking all of the critical needs that the Department 
identified and proposed to OMB. I believe it is important and necessary 
for the subcommittee to bring those unfilled needs from out of the 
shadows and into the light. If we are to enact a budget that meets the 
Department's critical requirements, we must be able to consider their 
needs outside the President's budget. To do less would be a disservice 
to our constituents and to the Department.
    I will close with a further quote from the FBI Director that I 
believe sums up this request accurately, ``At a time when the Nation 
remains engaged in a long-term conflict with those who advocate the use 
of terror against the United States, the OMB policy guidance and 
funding recommendations for fiscal year 2011 simply do not make sense. 
Even in a constrained budgetary environment, the administration must 
ensure adequate funding for one of its most basic responsibilities--
that of protecting the country and its citizens from hostile attack.''
    Our role is not to rubber stamp the President's budget--we did not 
do that for President Bush and we will not do that for President Obama. 
Given the tight budget situation we face, these budgets decisions will 
not be an easy task. But, I believe the subcommittee is up to meeting 
that challenge and I look forward to working with you Madam Chairwoman 
to undo the damage done to the Department's budget by the bureaucrats 
at OMB.

    Senator Mikulski. We will ensure that Senator Shelby's 
questions will be forwarded to you, Mr. Holder, and we will 
protect all the rights that Senator Shelby has as the ranking 
member.
    This morning, we are going to discuss the Justice 
Department's 2011 budget request, and we will be examining how 
we strengthen national security, counterterrorism, and also 
protect the safety and security of U.S. citizens and prudent 
use of the taxpayers' dollars.
    We welcome Mr. Holder, who brings the experience of a 
career prosecutor, experience in the private sector, but also 
he, himself, has worked diligently on the protection of the 
public from terrorism and violent crime as an Assistant U.S. 
Attorney.
    I have three priorities that I will be examining with the 
Justice Department today. No. 1, national security, which is 
how the Department of Justice is keeping America safe; also, 
community security, or what the Department of Justice is doing 
to keep our communities safe from violent crime, gangs, and 
drug dealers, and what the Department of Justice is doing to 
keep our families safe, whether it is against mortgage fraud or 
the despicable stalking of sexual predators.
    As the Chair of the Commerce, Justice, and Science 
Subcommittee, I want to make sure the Department of Justice has 
what it needs to carry out its mission and its mandate to 
protect the country from predatory attacks, whether they occur 
by terrorists in Times Square or in our neighborhoods. And hey, 
in Times Square, it was in both. We have worked to put dollars 
in the Federal checkbook to be able to do that.
    As we review President Obama's request, we note that the 
request is for $29.2 billion, a $1.5 billion increase over the 
2010 omnibus level. The five highlights of the budget include 
safeguarding our Southwest border for $584 million. That is 
pursuing and dismantling the drug cartels and the smuggling of 
illegal narcotics, guns, and human beings.
    The other is the funding for State and local law 
enforcement, where we worry that the blue line is getting 
thinner and needs all the help it can get in the local 
communities, because all crime fighting begins with the locals.
    And I must say, as we will be hearing about the Times 
Square incident this morning, the fact that local vendors 
cooperated--``see something, say something.'' Also, the New 
York Police Department [NYPD] was right there on the job, 
moving as swiftly as they could because they were there and 
they had the right training and the right equipment and then 
were backed up by Federal agents. It worked, I think, the way 
it should, and we look forward to hearing about that.
    But also there is the rise of white collar crime, and this 
subcommittee believes that that crime, too, needs to be 
followed through with investigation and prosecution and jail, 
if necessary, particularly in the area of mortgage fraud and 
the financial scheming and scams that goes on.
    Last, but not at all least, we are here to also look out 
for the civil rights of our people and that enforcement. 
Previous administrations have cut funding for local law 
enforcement by 50 percent. We don't want to do that. We want to 
make sure that the crime rates don't rise. We want to get crime 
rates down. We want to get unemployment rates down, and this 
subcommittee wants to do its part.
    This budget invests $3.4 billion in State and local and 
tribal partners and looks forward to working with our local 
communities. Last month, we heard about the partnership with 
the FBI, and we reviewed this extensively with the FBI 
Director. We believe those joint task forces, whether it is on 
violent crime, terrorism, or mortgage fraud, are the way to go. 
We look forward to your budget on that.
    I know we have started late, and I just want to make one 
other emphasis, which is on protecting women and children. We 
really salute the Obama administration for increasing funds in 
the Violence Against Women programs. We know that when the 
hotline was created in the Judiciary Committee, and Senator 
Leahy played such an important part in that, along with our 
Vice President--we now know over 1 million women have called 
that hotline, and they have either been saved from death or 
danger. That is as important as standing sentry against any 
other attack.
    And the protection of children--as a former child abuse 
social worker, there is nothing as vile as a crime against a 
child. So we want to make sure we have the right resources for 
you to be able to do the job.
    There are other issues related to Guantanamo Bay, the 
purchase of the Illinois prison, the detention of prisoners. 
But we are fortunate this morning to also have the Chair of the 
Judiciary Committee, and I know he will have his own particular 
questions--he is someone who has been very vigorous in the area 
of the Justice Department--Senator Leahy.
    I am going to ask unanimous consent that my full statement 
go into the record.
    [The statement follows:]

           Prepared Statement of Senator Barbara A. Mikulski

    Good morning and welcome the fifth hearing of 2010 of the Commerce, 
Justice and Science (CJS) Subcommittee. Today, the CJS Subcommittee 
will continue our fiscal year 2011 oversight hearings by welcoming 
Attorney General Eric Holder and Justice Inspector General Glenn Fine, 
who will be speaking to the subcommittee a little later. Thank you both 
for joining us today.
    We have a very positive relationship with Attorney General Holder. 
He brings to the Department the experience of a career prosecutor and 
is dedicated to protecting the American public from terrorism and 
violent crime.
    Today, we will discuss how the Justice Department's fiscal year 
2011 budget request strengthens national security and counterterrorism; 
protects the safety, security and rights of U.S. citizens; and how the 
Department ensures that it uses taxpayer dollars wisely.
    As chairwoman, I have three priorities when examining the Justice 
Department. The first is community security. What is the Department of 
Justice doing to keep our families and communities safe? The second is 
national security. How is the Justice Department keeping America safe? 
And third are oversight and accountability. How is the Department of 
Justice ensuring our tax dollars are spent wisely?
    As chairwoman of CJS, I want to make sure that the Department of 
Justice has what it needs to carry out its mission and mandate to 
uphold the rule of law, and to protect this country from predatory 
attacks by terrorists and in our neighborhoods. I have fought to put 
dollars in the Federal checkbook to support the Department's efforts to 
combat terrorism and violent crime. I also want to make sure that the 
hard working, dedicated individuals who are responsible for carrying 
out this mission have the resources and support they need.
    The President's budget request for the Department of Justice in 
fiscal year 2011 is $29.2 billion, a $1.5 billion, or 4.6 percent, 
increase above the 2010 omnibus level. Highlights of this new budget 
request include: $535 million to fight mortgage fraud and white collar 
crime by targeting the scammers and schemers who prey on hard working, 
middle class families; $3.4 billion to make sure State and local law 
enforcement are not walking a thin blue line and have a full force to 
fight violent crime and drug trafficking; $584 million to safeguard our 
Southwest border by pursuing and dismantling drug cartels that smuggle 
illegal narcotics, guns and humans along the border; $387 million to 
tackle civil rights abuses and discrimination, and go after criminals 
who are motivated by hatred and bigotry; and $1.7 billion to strengthen 
national security and counter terrorism threats, which includes 
stopping cyber crooks from hacking into U.S. networks and identifying, 
tracking and defeating terrorist sleeper cells operating in the United 
States and overseas.
    We can't have strong, economically vibrant communities unless they 
are safe. So I want to know how the Justice Department is protecting 
Americans at home. The previous administration cut funding for local 
law enforcement by 50 percent. Local communities were left scrambling 
to fill public safety funding gaps, and crime rates began to rise for 
the first time in 12 years.
    This subcommittee and the current Justice Department have locked 
arms to reinvest resources in our State, local and tribal partners, and 
are committed to making sure violent crime rates drop. This budget 
request invests $3.4 billion in our State, local and tribal partners. 
It supports both proven and innovative crime prevention strategies that 
help communities with police recruiting, hiring and training; task 
forces to target drugs, gangs and violent crime; and to combat sexual 
assault and violence against women. We need to make sure our police 
have a full team to combat increased violence in communities so they 
can target crime hot spots and focus on gangs, gun violence, assault 
and drug rings.
    I want to know if the fiscal year 2011 request is enough to protect 
hard-working families and their homes against the outrageous predatory 
practices and deceptive lending schemes that have swept across the 
country. Last month we heard from FBI Director Robert Mueller, who 
testified that during 2009 over 60,000 cases of mortgage fraud were 
reported in the United States, nearly 10 times as many in 2002. During 
that same period, financial institutions wrote off $500 billion in 
losses because of fraud in the sub-prime mortgage industry. But the FBI 
is not the only agency at Justice tackling these cases.
    The Justice Department's fiscal year 2011 request has $535 million 
to combat financial fraud, which is $97 million above the fiscal year 
2010 level of $438 million. It provides funding to hire 143 new FBI 
agents, 157 new attorneys and 45 new specialized staff to bring the 
total number to over 2,000 agents, 2,600 attorneys and 150 specialized 
support staff at the Justice Department dedicated to investigating and 
prosecuting complex financial cases. I want to know how this funding 
and coordination will better help law enforcement catch the scammers 
who have caused Americans to lose their homes, life savings and 
dignity.
    Attorney General Holder, I know you are committed to keep children 
safe from abuse, sexual predators and cyber stalkers. The Justice 
Department's request of $336 million focuses resources of the Federal 
Government on child predators like a laser to catch sexual deviants who 
use the Internet to stalk children, break up child pornography and 
prostitution rings, and track down, arrest and prosecute child 
molesters.
    However, the U.S. Marshals Service plays a critical part of the 
Adam Walsh Act but received no additional funding in the fiscal year 
2011 request for this purpose. The Marshals arrest the worst of the 
worst sexual predators and track down over 100,000 unregistered 
fugitive sex offenders. Last year, our subcommittee provided $72 
million for the Marshals, which included $27.5 million to hire 150 new 
Deputy U.S. Marshals to track down and arrest fugitive sex offenders. I 
want to learn why the Department's fiscal year 2011 request does not 
include additional funds for the Marshals Service to hire more deputies 
for this work.
    We are waging a global war on narcotics and violence on four 
fronts: the U.S.-Mexico border, Afghanistan, Colombia and our own 
neighborhoods. The most immediate danger is the drug gangs operating 
along the U.S.-Mexico border. These gangs are fighting for control of 
drug trafficking routes into the United States and now maintain drug 
distribution networks in more than 230 cities in 45 States. Every day 
we hear reports of deaths and violence seeping across the U.S. border 
and spreading outward to the rest of the country. Last year, over 7,000 
drug-related homicides occurred along the Southwest border.
    The Justice Department's fiscal year 2011 request includes $584 
million, a $122 million increase over fiscal year 2010 level of $462 
million, to hire 29 new agents and 58 attorneys. These resources will 
be used to target and dismantle drug cartels that smuggle illegal 
narcotics, guns and humans along the border, and terrorize citizens and 
neighborhoods with fear and intimidation. I want to know if the funds 
requested are sufficient to support tough work of the DEA, ATF, 
Marshals, FBI and Federal prosecutors in shutting down the flow of 
firearms into Mexico and stop drugs coming into the United States from 
Columbia and Mexico.
    The major area of controversy in this budget request is how the 
Department implements President Obama's plan to close down the 
Guantanamo Bay detention facility and determine the fate of roughly 200 
detainees currently held in U.S. military custody there. The fiscal 
year 2011 budget includes two major requests for post-Guantanamo 
activities: $73 million for security costs to hold civilian trials on 
U.S. soil for the five detainees who are proposed to be tried in 
Federal courts; and $237 million to buy, renovate and open a prison 
facility in Thomson, Illinois, which President Obama has designated as 
the preferred location to house detainees. It is worth noting, however, 
that Congress will first have to change restrictions to allow detainees 
to be transferred for detention.
    I want to know how the Justice Department will address the 
additional risk for these high threat trials on U.S. soil and what 
unique costs are associated. Are these costs sufficient to keep 
communities safe wherever trials are held? And I want to know more 
about the Department's plans for the Thomson prison, even if Congress 
does not make changes to allow detainees to be housed there.
    Finally, I want to know how the Justice Department is improving 
accountability of taxpayer dollars so that every dollar spent to secure 
our communities is a dollar well spent. Both Senator Shelby and I have 
required that the Justice Department have internal checks to combat 
waste, fraud and abuse by prohibiting funds for lavish banquets, 
controlling cost overruns and requiring the Inspector General to do 
random audits of grantees. I want to know what steps you have taken to 
put these guidelines into practice to restore fiscal responsibility and 
accountability. As chairwoman of CJS, it is my responsibility to act as 
a good steward of taxpayer dollars. Spending excesses will not be 
tolerated.
    Given all of the Justice Department's important roles and 
responsibilities, we must ensure that it has the resources it needs to 
protect the lives of 300 million Americans. But we also want to make 
sure that the Justice Department is a good steward of taxpayer dollars 
and that every dollar we spend to keep our Nation safe is a dollar well 
spent.
    Attorney General Holder, I thank you for your leadership and I look 
forward to continuing our work together to make a safer, stronger 
America.

    Senator Mikulski. And I would like to turn to the Attorney 
General.

                 STATEMENT OF HON. ERIC H. HOLDER, JR.

    Attorney General Holder. Well, good morning, Chairwoman 
Mikulski, Senator Leahy, Senator Lautenberg.
    Thank you for this opportunity to discuss the President's 
fiscal year 2011 budget for the Department of Justice and to 
provide an update on the Department's progress, its key 
priorities, and also our future plans. I appreciate your 
recognition of the Department's critical mission, and I look 
forward to your continued partnership and support.
    When I appeared before this subcommittee last May, I set 
forth several goals for the Department--to protect our Nation's 
security, to reinvigorate the Department's traditional 
missions, and to restore integrity and transparency at every 
level of the Department's work. I also pledged that under my 
leadership, all decisions and policies would be based on the 
facts, the law, and the best interests of the American people, 
regardless of political pressures or political consequences.
    Almost 1 year later, I am pleased to report that the 
Department has made, I believe, historic progress in meeting 
these goals. Although new challenges and demands have emerged, 
the thousands of men and women who serve the Department have 
advanced efforts to protect our country, to enforce our laws in 
a nonpartisan manner, to defend our interests in court, and to 
ensure the strength and the fairness of our justice system.
    The President's fiscal year 2011 budget request for the 
Department of Justice, which totals, as you said, $29 billion 
and includes $2 billion in program enhancements, will enable 
the Department to build on the progress that has been achieved 
over the last 15 months.
    Now during this time, we have enhanced our national 
security programs and capabilities. We have strengthened 
efforts to support our most vulnerable communities, safeguard 
civil rights in our workplaces, housing markets, voting booths, 
our border areas, and also to protect our environment.
    In light of last week's oil spill in the Gulf of Mexico, I 
want to note that the Justice Department stands ready to 
vigorously enforce the laws that protect the people who work 
and reside near the gulf, the local wildlife, the environment, 
and the American taxpayers. I recently dispatched a team of 
attorneys to New Orleans to monitor the oil spill, and the 
Department will continue to provide critical legal advice and 
support for the agencies that are involved in the Federal 
response.
    As part of our focus on securing our economy and combating 
mortgage and financial fraud, the Department is now 
spearheading the Financial Fraud Enforcement Task Force that 
President Obama launched last year. And in collaboration with 
the Department of Health and Human Services, we have made 
meaningful progress in combating and deterring healthcare fraud 
through the Healthcare Fraud Prevention and Enforcement Action 
Teams, also called the HEAT teams.
    Through this initiative, we have brought the full resources 
of our agencies to bear against individuals and corporations 
who illegally divert taxpayer resources for their own profits. 
Just last week, this work resulted in a $520 million 
settlement, the largest-ever amount paid by a company in a 
civil-only settlement of off-label pharmaceutical marketing 
claims. And over the past 15 months, the Justice Department has 
recouped more than $2.8 billion in healthcare fraud cases 
through the use of the False Claims Act, money that will be fed 
back into the Federal coffers.
    Now, the President's budget request will enable the 
Department to build on these achievements and to continue 
making progress in meeting its responsibilities. Let me assure 
you that in distributing and using these funds, we will think 
carefully and we will think strategically. And we will act to 
ensure accountability and transparency, just as we have in 
managing the billions of dollars that have recently been 
recovered.
    The investments requested in the President's budget would 
allow us to continue aggressively pursuing and prosecuting 
financial and healthcare fraud; to expand the Community 
Oriented Policing Services hiring program, the COPS program; to 
reduce violent crime and drug trafficking; to assist our State 
and local and tribal law enforcement partners; to ensure that 
detention programs are adequately funded and that effective 
prison and jail reentry programs are available; to protect 
civil rights; to combat international organized crime; and to 
enforce immigration laws.
    Now, as you all know, the Department is currently working 
with agencies across the Federal Government and with Congress 
to support comprehensive immigration reform in a way that keeps 
faith, as President Obama has said, with our heritage as both a 
Nation of immigrants and a Nation of laws.
    The budget would also allow the Department to strengthen 
its critical national security work. As you have seen, $300 
million in program increases have been requested to help 
strengthen national security and to counter the threat of 
terrorism. These resources will enable us to expand on the 
progress that we have made in the last year.
    Due to the vigilance of our law enforcement and 
intelligence agencies, we have succeeded repeatedly in 
identifying and averting nascent plots. On Monday, Faisal 
Shahzad, a naturalized United States citizen born in Pakistan, 
was arrested in connection with his alleged role in last 
Saturday's attempted car bombing in Times Square. On Tuesday, 
he was charged with acts of terrorism transcending national 
boundaries, attempted use of a weapon of mass destruction, and 
other Federal crimes. If convicted, he faces a potential life 
sentence in prison.
    During ongoing questioning by Federal agents, Shahzad has 
provided useful information, and we will continue to pursue a 
number of leads as we gather intelligence relating to this 
attempted attack. Although this car bomb failed to properly 
detonate, this plot was yet another reminder that terrorists 
are still plotting to kill Americans.
    In February, Najibullah Zazi, a key participant in the plot 
to bomb New York City's subway system, pleaded guilty to 
terrorism violations. Less than 2 weeks ago, we secured another 
guilty plea from one of Zazi's co-conspirators and revealed the 
role of senior Al-Qaeda leaders in ordering the plot. Three 
others have also been charged as a result of our investigation.
    These attempted attacks are stark reminders of the threats 
that we face as a Nation and that we must confront. For the 
Department of Justice and our partners in the national security 
community, there is simply no higher priority than disrupting 
potential attacks and bringing those who plot them to justice.
    In the Shahzad and Zazi cases, that is exactly what the 
dedicated Federal agents, law enforcement officers, and Justice 
Department prosecutors, along with their State and local 
partners, and particularly the NYPD, what we achieved through 
exemplary investigative efforts. It is in America's best 
interest to ensure that these public servants have the 
resources necessary to continue their outstanding work.
    In this time of unprecedented challenges and new threats 
and ongoing war, your support will be critical in helping the 
Department meet its goals and our obligations. As we move 
forward, I look forward to working with all of you as well.
    Once again, I thank you for inviting me here today, and I 
am now happy to answer any questions that you might have.
    [The statement follows:]

             Prepared Statement of Hon. Eric H. Holder, Jr.

    Good morning Chairwoman Mikulski, Ranking Member Shelby, and 
members of the subcommittee. Thank you for the opportunity to meet with 
you today to discuss the President's fiscal year 2011 budget for the 
U.S. Department of Justice (Department) and the Department's key 
priorities. I appreciate your recognition of the Department's mission, 
and I look forward to your continued support of the important work that 
we do.
    When I appeared before this subcommittee last May, I set forth 
several goals for the Department: to protect the security of the 
American people, restore the integrity of the Department of Justice, 
and reinvigorate the Department's traditional missions. Most 
importantly, I made a commitment to make decisions based on the facts 
and the law, regardless of politics.
    Almost 1 year later, I'm pleased to report that we are on the right 
path to achieving these goals. Although unprecedented challenges and 
new demands have emerged, the Department remains committed to the 
promises that I made to this subcommittee and to the American people.
    The President's fiscal year 2011 budget request for the Department 
of Justice, which totals $29.2 billion and includes $2 billion in 
program enhancements, will enable the Department to continue its 
progress in fulfilling our key objectives. The budget provides the 
Department with the resources necessary to protect our national 
security, bolster our traditional missions, and prevent and reduce 
crime in tandem with our State, local, tribal and community partners. 
These investments would support and enhance the Department's essential 
national security and counterintelligence programs, our vigorous 
efforts to prevent, investigate and prosecute financial, mortgage and 
healthcare fraud, and our prosecutor-led, intelligence-driven strategy 
to protect our Southwest border.
    The budget would also provide funding for an expansion of the 
Community Oriented Policing Services (COPS) hiring program and 
resources for the Department's efforts to ensure that prison and 
detention programs are adequately funded and effective prisoner re-
entry programs are available.

                      STRENGTHEN NATIONAL SECURITY

    The budget requests $300.6 million in program increases to help 
strengthen national security and counter the threat of terrorism. The 
request includes $219.3 million in increases for the FBI and $7.8 
million in increases for the National Security Division (NSD).
    We are working day and night to protect the American people. Due to 
the vigilance of Department of Justice professionals, working in 
partnership with other law enforcement and intelligence agencies, we 
have uncovered and averted a number of serious threats to domestic and 
international security. Recent arrests in New York, Chicago, 
Springfield, Dallas and Philadelphia are evidence of our success in 
identifying nascent plots and stopping would-be attackers before they 
strike.
    One of the most serious terrorist threats to our Nation since 
September 11, 2001, was the attempted attack by Najibullah Zazi, who 
recently pled guilty to three criminal charges in connection with a 
plan to bomb New York City's subway system in September 2009. In 
addition to Zazi, four others have been charged in connection with this 
plot. This attempted attack on our homeland was real, it was in motion, 
and it would have been deadly. Because of careful analysis by our 
intelligence agents and prompt actions by law enforcement, we were able 
to thwart this potentially devastating plot.

                 AGGRESSIVE PURSUIT OF FINANCIAL FRAUD

    As we reinvigorate our traditional law enforcement mission, the 
Department has placed a distinct focus on financial crimes. The Justice 
Department is engaged in an aggressive effort to combat financial fraud 
and market manipulation. The President's fiscal year 2011 budget 
requests an increase of $234.6 million to restore confidence in our 
markets, protect the Federal treasury and defend the interests of the 
U.S. Government.
    In addition, the Department of Health and Human Services (HHS) 
requests an increase of $60.2 million specifically for DOJ components 
involved in the investigation and litigation of healthcare fraud cases. 
This increase will further the efforts of the Health Care Fraud 
Prevention and Enforcement Action Team (HEAT) initiative.
    The budget request would improve the Department's ability to 
collect debts, enforce tax laws and prosecute fraud and will maximize 
the benefits of the Federal Government's investment of resources 
through the American Recovery and Reinvestment Act of 2009. It would 
also continue to enhance the Department's efforts to help protect 
American savers and investors, the national financial market, and the 
U.S. Treasury.

               REDUCE VIOLENT CRIME AND DRUG TRAFFICKING

    Violent crime and drug trafficking continue to demand a significant 
Federal response. Although violent crime has not increased in recent 
years, the share of crimes that require Federal resources continues to 
grow as regional street gangs increase their involvement with national 
and international gangs and drug trafficking organizations. The 
Department requires significant resources to meet these challenges 
through its prosecutor-led, intelligence-driven strategy to address the 
interrelated threats of violent crime and drug trafficking. This budget 
requests an increase of $121.9 million to reduce the threat, incidence 
and prevalence of violent crime and drug trafficking. For fiscal year 
2011, a total of approximately $5 billion is dedicated to target these 
problems, including $1 billion for Federal law enforcement to help 
address violent crime and $4 billion for Federal drug enforcement and 
prosecution efforts.
    We remain committed to eliminating the threat posed by Mexican drug 
cartels plaguing our Southwest border and will continue to coordinate 
with the Department of Homeland Security and international, Federal, 
State and local agencies to ensure that we effectively and efficiently 
reduce the influence and violence of these cartels.
    In addition, this budget supports several programs in place to 
protect the Southwest border, including a significant expansion of and 
investment in the Organized Crime Drug Enforcement Task Force program, 
which is a centerpiece of the Department's drug enforcement and 
counternarcotics efforts. The budget includes resources for Project 
Gunrunner, the Bureau of Alcohol, Tobacco, Firearms and Explosives' 
(ATF) Southwest Border Firearms Trafficking Enforcement program, as 
well as forensic support for law enforcement activities in tribal 
communities. Further, the budget will expand operational capabilities 
at the Drug Enforcement Administration's (DEA) multi-agency El Paso 
Intelligence Center (EPIC) by enlarging the facility to accommodate 
additional participating agency personnel and by improving intelligence 
exploitation abilities along the Southwest border.
    In addition, resources to assist DOJ's State, local and tribal law 
enforcement partners combat violent crime and drugs are requested 
within the Department's grant programs.

             ASSIST STATE, LOCAL AND TRIBAL LAW ENFORCEMENT

    The budget requests a $722.5 million increase for State, local and 
tribal law enforcement assistance programs, bringing total grant 
program funding to $3.4 billion. The Department continues to maintain 
key partnerships with State, local and tribal officials and community 
members. These partnerships include the COPS hiring grant program, 
which enables State, local and tribal police agencies to increase the 
number of officers available to advance community policing, with a goal 
to prevent and reduce crime. In addition, many grant programs are 
provided through the Office on Violence Against Women (OVW), such as 
the Sexual Assault Services program and the Legal Assistance for 
Victims program, which provide communities with the opportunity to 
combat sexual assault and other forms of violence against women.
    Several new programs are requested in fiscal year 2011 for the 
Office of Justice Programs (OJP), including the new Byrne Criminal 
Justice Innovation program, smart policing, and smart probation 
initiatives. The budget includes funding to continue the implementation 
of the Adam Walsh Act of 2006, which established national standards for 
sex offender registration and notification. Resources are also 
requested to assist children exposed to violence, as well as 
enhancements to expand criminal justice research and statistical data 
gathering efforts.

                          PROTECT CIVIL RIGHTS

    Throughout its history, the Department of Justice has helped 
safeguard the civil rights of all Americans by targeting discrimination 
through investigation, litigation, outreach, technical assistance and 
training efforts, and by providing guidance to Federal, State, local 
and tribal agencies. The President and I have recommitted the 
Department to performing this historic role. In fiscal year 2011, we 
will build on the progress made in fiscal year 2010 to restore the 
Department's unparalleled role in protecting civil and constitutional 
rights.
    The fiscal year 2011 budget requests an increase of $19.8 million 
to protect civil rights and vulnerable populations. This increase will 
allow the Department to strengthen its focus on enforcing fair lending 
and housing laws, preventing employment discrimination, protecting 
voting rights, and prosecuting hate crimes. It will also expand 
resources for protecting children from exploitation, tracking convicted 
sex offenders, recovering missing and abducted children, and combating 
human trafficking and sex tourism.

                  COMBAT INTERNATIONAL ORGANIZED CRIME

    International organized crime poses unprecedented threats to our 
country's national and economic security. These threats include 
attempts by organized criminals to exploit our energy and other 
strategic sectors, support for terrorists and hostile governments, 
orchestration of cyber and intellectual property crimes, and efforts to 
manipulate our financial, securities, and commodities markets.
    The budget includes $15 million in program increases that will 
allow the Department of Justice to continue implementing the Law 
Enforcement Strategy to Combat International Organized Crime (``IOC 
Strategy''), which the Attorney General's Organized Crime Council 
adopted in April 2008 to modernize law enforcement's approach to 
international organized crime. This funding will support a unified 
strategy to dismantle international crime organizations that have 
become exponentially more sophisticated and provide for expansion of 
the OCDETF Fusion Center to accommodate the International Organized 
Crime Intelligence and Operations Center (IOC-2).

    MAINTAIN PRISONS, DETENTION, PAROLE AND JUDICIAL AND COURTHOUSE 
                                SECURITY

    As a result of successful law enforcement policies, the number of 
criminal suspects appearing in Federal court continues to grow, as does 
the number of individuals ordered detained and ultimately incarcerated. 
The budget requests $527.5 million in program increases that will allow 
the Bureau of Prisons (BOP), Office of the Federal Detention Trustee 
(OFDT), U.S. Parole Commission (USPC) and U.S. Marshals Service (USMS) 
to continue to protect society by confining offenders in the controlled 
environments of prisons and contract- or community-based facilities as 
well as by offering self-improvement opportunities to offenders that 
will assist them in becoming law-abiding citizens and reduce the 
likelihood of recidivism. Additional resources are also requested to 
acquire and activate high- and medium-security beds to manage the most 
challenging inmates in our custody.
    The BOP operates 115 Federal prisons and contracts for low security 
prison beds to confine more than 215,000 inmates in fiscal year 2010; 
BOP projects that the Federal prison population will increase by 
approximately 7,000 inmates in fiscal year 2011. Therefore, program 
enhancements included in the fiscal year 2011 budget provide $523.2 
million in new program funding to support increases in BOP and OFDT 
operations. These additional funds will allow OFDT in particular to 
support an average daily detention population of approximately 62,100, 
to increase detention bed space in the Southwest border region, and for 
increased prisoner transportation and medical costs associated with the 
rise in average daily detention population.
    In addition, these program enhancements increase funding to support 
Second Chance Act initiatives and re-entry programs, including expanded 
re-entry transitional housing, BOP inmate correctional programs, and 
the District of Columbia Recidivism Reduction and Re-entry Enhancement, 
a new program that will be implemented by the USPC in fiscal year 2011.
    Finally, resources are requested to enhance the law enforcement 
efforts of the USMS, primarily its Special Operations Group (SOG), 
which supports USMS and other agencies with a rapidly deployable force 
of tactically trained officers. SOG provides tactical support for any 
incident involving the judiciary, district operations and witness 
security operations. The President's budget also annualizes into the 
USMS base additional positions approved in fiscal year 2009 (201 
positions) and fiscal year 2010 (700 positions) to support immigration 
enforcement, particularly along the Southwest border. The positions 
will also be used to expand Adam Walsh Act enforcement.

                        ENFORCE IMMIGRATION LAWS

    The Department maintains substantial responsibilities with respect 
to immigration, including enforcement, detention, judicial functions, 
administrative hearings and litigation, among others. The Department's 
Executive Office for Immigration Review (EOIR) serves as the front-line 
presence nationwide in immigration matters overseeing the immigration 
court and appeals process.
    In recent years, however, the Department's resource enhancements 
have not kept pace with those received by the various immigration 
components of DHS. EOIR's immigration court caseload continues to 
increase to unsustainable levels as a result of DHS' heightened 
enforcement efforts. The caseload grew 30 percent between fiscal year 
2004 and fiscal year 2009--from 300,000 to 390,000 new matters coming 
to EOIR for resolution each year. The number of new cases is expected 
to exceed 400,000 annually by 2011.
    An additional $11 million requested in 2011 is therefore needed to 
address the caseload increases emanating from DHS programs, including 
the Secure Communities Initiative and the Criminal Alien Program. These 
resources are necessary to improve the current immigration system and 
to ensure that the Nation's approach to immigration enforcement is 
balanced, reasonable, effective, and humane.
    Similarly, the Civil Division's Office of Immigration Litigation 
(OIL) also plays a crucial role in upholding the enforcement actions of 
DHS and EOIR. OIL provides the Government with the best possible 
defense in district court cases and challenges to removal orders filed 
in circuit courts by illegal aliens, many of whom are criminals. As DHS 
enforcement activities expand with the implementation of the Secure 
Communities Initiative, OIL can expect aliens to continue to petition 
their removal decisions in circuit courts. The fiscal year 2011 budget 
maintains the current staffing levels for OIL.

               ENSURE PUBLIC SAFETY IN TRIBAL COMMUNITIES

    The Department of Justice is deeply committed to working with 
tribal governments to improve public safety in tribal communities.
    We are working to put resources in place quickly and efficiently to 
help American Indian and Alaska Native communities help themselves. The 
budget requests $448.8 million in total resources to assist tribal 
communities. It maintains the increased number of Assistant U.S. 
Attorneys in Indian Country that the Department is adding in 2010 as a 
result of the support of members of this subcommittee. In addition, the 
President's fiscal year 2011 budget includes funds (provided by the 
Department of the Interior) for 45 new FBI agents to support law 
enforcement efforts in Indian Country. The President's fiscal year 2011 
budget provides $67 million under the COPS Office, $140.7 million under 
the Office of Justice Programs, and $47.9 million under OVW for tribal 
initiatives. Within this amount, the President's budget includes a 7 
percent set-aside--$42 million--from the COPS hiring program to support 
the hiring of tribal law enforcement personnel; a 7 percent set-aside--
$139.5 million--from OJP for Indian Country efforts; and statutory set-
asides totaling $42.9 million for certain OVW programs. These set-
asides, combined with numerous Department of Justice programs designed 
exclusively for tribal communities result in a total request of $255.6 
million for Department of Justice grant programs in tribal communities.
    There are over 56 million acres of Indian Country and more than 560 
Federally-recognized Indian tribes. The Major Crimes Act provides 
Federal criminal jurisdiction over certain specified major crimes if 
the offender is Indian, while tribal courts retain jurisdiction for 
conduct that might constitute a lesser offense. Federal investigation 
and prosecution of felonies in Indian Country cannot be deferred to a 
local jurisdiction and therefore Federal law enforcement is both the 
first and only avenue of protection for the victims of these crimes.

                               CONCLUSION

    Chairwoman Mikulski, Ranking Member Shelby, and members of the 
subcommittee, I want to thank you for this opportunity to discuss the 
Department's priorities and detail new investments sought for fiscal 
year 2011.
    Today I have highlighted critical areas that require attention and 
resources so that the Department can fulfill its mission to enforce the 
Nation's laws and protect our national security. I hope you will 
support me in the execution of these worthy efforts. As always, we are 
aware that there are tough decisions and challenges ahead, and I look 
forward to working with you as we move forward.
    Once again, thank you for inviting me here today. I am pleased to 
answer any questions you might have.

    Senator Mikulski. Thank you very much, Mr. Attorney 
General.
    We are going to proceed this morning in terms of arrival. 
We also note the chair of the Judiciary Committee. I am going 
to ask some questions and reserve my right for a second round 
to be sure that members who have really demanding schedules 
have their opportunity.
    Obviously, the Times Square bombing attempt is in the news. 
There are those who will raise issues related to the reading of 
Miranda rights and so on. That is not my focus. My focus is the 
questions to you related to the way it worked and the way you 
feel you have the resources for it to continue to work.
    As press accounts report, vendors saw a smoking car. They 
said something. NYPD arrived. They took the actions they were 
supposed to. Then Federal officials came in. You can relay that 
story.
    My question to you is, is that the correct way? You can't 
have an FBI agent on every corner, but you can have police 
officers on many corners. First of all, I think it is amazing 
that this man was apprehended in 53 hours and 24 minutes.
    Attorney General Holder. Yes, that was.
    Senator Mikulski. I think we really have to congratulate 
law enforcement for that. The watch list is a different bag. 
Talking to me about the watch list is like fingernails on a 
blackboard. But let us talk about what our law enforcement did, 
both State and local, up the chain, and then, what did it take 
to do that? And do you have the resources to make sure, whether 
it is in Los Angeles or Baltimore, et cetera, that we have 
these security mechanisms and people?
    Attorney General Holder. I think that the success of that 
effort is a direct result of the joint efforts that we have 
between the Federal Government and our State and local 
partners. The work that the FBI did in New York with the New 
York Police Department, as well as our counterparts at the 
Department of Homeland Security--I think all of that combined 
for making our attempts to disrupt that plan successful.
    And that is why the budget focuses on getting money to 
these joint terrorism task forces and getting money to our 
State and local partners. I think what you said is exactly 
right. We have to use our State and local counterparts as force 
multipliers. They are the people who are going to be most 
familiar with the communities in which they operate. There are 
far more of them than there are Federal law enforcement 
officials. And without their assistance, without their 
partnership, we will not be as successful as we were in foiling 
this plot.

                              COPS PROGRAM

    Senator Mikulski. So what is it then, do you feel--do you 
want to elaborate on your Community Oriented Policing Services 
[COPS] program, your Edward Byrne Memorial State and Local Law 
Enforcement Assistance Grant Program [Byrne grants]? Do you 
feel that it is because of this? Or do you feel that police 
departments, where there is high risk of threat, New York 
obviously being one, L.A.--we know the list--Washington, DC, 
that there needs to be specialized training? What do we need to 
do, to put in the budget, so that we can deploy people in 
communities and ensure that they have the right training and 
the right equipment?
    Attorney General Holder. Well, I think we have to----
    Senator Mikulski. Because it is just not putting somebody 
in a uniform on the street. It is like boots on the ground in 
urban neighborhoods. They have to be trained and equipped.
    Attorney General Holder. Right. There are a number of 
steps. We have to certainly first support the hiring of State 
and local law enforcement officials. For the COPS hiring 
program, we have a fiscal year 2011 request for $600 million. 
That is up $297 million from this year. So that is the first 
step, to get these people on the force.
    But the point you make is an excellent one--that simply 
having them there is not sufficient. They have to be adequately 
trained. They are interacting with their Federal counterparts 
in these joint terrorism task forces. The training 
opportunities that we can make available, and the knowledge 
that we can glean from them in the interaction that we have 
during training, are invaluable.
    We have built upon the $1 billion that was in the Recovery 
Act that was dedicated to the COPS program to try to make sure 
that we have a constant level of support for our State and 
local partners, both in terms of hiring, and with regard to the 
specialized training that is needed in dealing with these 
terrorism cases.
    Senator Mikulski. Aren't you cutting the COPS program by 
$100 million in the President's request?
    Attorney General Holder. I am not----
    Senator Mikulski. The fiscal 2011 budget request provides 
for $690 million. In 2010, there were $792 million. Mr. Holder, 
why don't you check that out with your team?
    Because I know this subcommittee--on a bipartisan effort, 
if there is one thing we really do support it is the COPS 
program and the Byrne grants. I think, as we look at the 
Justice Department, that is where everyone is on either side of 
the aisle, because every community needs it. Why don't we take 
a look at that and see and come back to it?
    Attorney General Holder. Yes. The numbers that I have show 
us increasing the amount pretty substantially from about $298 
million to $600 million in terms of COPS money, COPS hiring. 
Again, as I said, that is built on top of the $1 billion in 
money that was dedicated from the Recovery Act.
    But we will certainly work through those numbers and share 
them with you.
    [The information follows:]

    The COPS fiscal year 2010 enacted budget includes four programs 
(Sex Offender Management Assistance, the National Sex Offender 
Registry, the Bulletproof Vest Program, and the DNA Backlog Program) 
administered by the Office of Justice Programs (OJP) that are being 
requested under OJP's appropriation in fiscal year 2011. If the amounts 
requested for these four programs totaling $186 million are added to 
the $690 million requested for COPS in the fiscal year 2011 President's 
budget, it results in an adjusted total of $876 million, or an increase 
of $84 million above the fiscal year 2010 COPS enacted level. It is 
important to make this comparison for the same array of programs to 
appropriately evaluate the COPS fiscal year 2010 enacted budget versus 
the fiscal year 2011 request.

    Senator Mikulski. Right. Because I think the point that I 
am making is, let us make certain that there is no reduction of 
support for the COPS program and also for the Byrne grants, 
which allows them to get what they need, depending on the needs 
of the local communities.
    But I want to be sure that we accommodate as many people as 
we can. I will come back to my questions.
    Senator Leahy, we are so glad to have the chair of the 
Judiciary Committee here.

                          TIMES SQUARE BOMBING

    Senator Leahy. Thank you. Thank you and I apologize that I 
am going to have to leave because the committee is going to be 
having a mark-up.
    Attorney General, I called Commissioner Ray Kelly to 
applaud the New York Police Department for their work on the 
Times Square bombing, and I have spoken to you. I applaud you 
and the Department of Justice and the FBI for what they have 
done. It is one of those things where it is nice to see 
everybody working together.
    I should also applaud the citizens who--in this case, the 
vendor--who saw something suspicious and reported it to the 
police. The police reacted immediately, and we won't go into 
all the things you were able to do in tracking phones and 
everything else in this hearing. It was pretty remarkable to 
see all the pieces come together.
    I was rather surprised to hear Members of Congress 
criticize law enforcement for doing what law enforcement has 
always done since the Miranda decision came down in giving 
Miranda warning to the suspect. Now the fact that you had to 
give Miranda warnings, which is required, did that, in any way, 
hinder your investigation?
    Attorney General Holder. No, it did not. As we have seen in 
prior investigations, the giving of Miranda warnings has not 
deterred people from talking to us. And Mr. Shahzad is, in 
fact, continuing to cooperate with us.
    Senator Leahy. In fact, wouldn't it be safe to say--and you 
can rely on your own experience as a prosecutor even before you 
were Attorney General. Certainly, I rely on mine. Isn't it safe 
to say that there are many, many, many cases where a person has 
given a great deal of information about a crime they have 
committed after they have been given the Miranda warning?
    Attorney General Holder. That is absolutely correct. It is 
not conferring a right on somebody or treating them in a 
special way. It is allowing us to make sure that statements 
that they give to us are going to be admissible in court.
    If you look at what we have done in the recent past, the 
following people have been given their Miranda warnings and 
have, after that, continued to cooperate--David Headley, 
Colleen LaRose, Jamie Paulin-Ramirez, Bryant Neal Vinas, Daniel 
Boyd, Dylan Boyd, and Zakariya Boyd. Even after getting Miranda 
warnings, Mr. Zazi and his co-conspirator, Umar Farouk 
Abdulmutallab, ultimately cooperated. All of these people 
received Miranda warnings and still ultimately decided to speak 
with the Government.
    Senator Leahy. Again, I can think back even to murder cases 
where I prosecuted, and now you are dealing with far more 
serious cases where, again, people are given a Miranda warning, 
and they went ahead and gave the information. But you also have 
then, as you said, the ability to use the statements in court.
    Now since taking office, I believe, and Madam Chair, 
wearing my hat as chair of the Judiciary Committee, I have seen 
you use all the options available to try terrorist suspects, 
including Federal criminal courts, military commissions. Since 
September 11, there have been over 400 terrorism-related 
convictions in Federal court. There are hundreds of terrorists 
locked up in our prisons, over 400.
    Now there have been three people convicted in military 
commissions. I think the new manual for military commissions 
was issued last week. Without putting words in your mouth, is 
it safe to say that Federal courts know what they are doing 
when they are handling these kinds of cases?
    Attorney General Holder. I will use those words. We want to 
make sure that we use all the tools that we have available to 
us in trying to prosecute this war. If you were to take from us 
the ability to use the Federal courts, you will weaken our 
ability to win this war. You will weaken the strength of this 
Nation.
    We have to have the ability to use the Article III courts, 
the reformed military commissions, our military power, and our 
diplomatic power. We need to have all of these tools so that we 
are successful in this fight against Al-Qaeda and others who 
would do this Nation harm.

                              BP OIL SPILL

    Senator Leahy. In an entirely different thing, in the wake 
of the recent disastrous oil spill in the Gulf of Mexico, there 
are reports that BP was requiring that fishermen who 
volunteered to help clean up the spill to waive their right to 
sue BP. These fishermen are out of work because of the BP 
spill.
    There are also reports that BP was offering settlements 
capped at $5,000 to residents facing damage from the spill if 
they give up their right to sue. These are people facing 
financial ruin, a lifetime of building up their fishing 
operations being wiped out. Are there ways the Government might 
make the fishermen, the small business owners, the residents, 
and other victims of the oil spill whole immediately, while 
still holding those responsible for the spill, like BP and 
Halliburton and what not, holding them ultimately liable?
    Attorney General Holder. Well, that is one of the reasons 
why I dispatched a task force of lawyers--the head of our Civil 
Division, the head of our Environmental and Natural Resources 
Division, along with other lawyers--to get down there to make 
sure that we protect the Federal Government's rights with 
regard to the costs that will potentially be incurred in this 
cleanup and to make sure those costs are borne by BP. But also 
to ensure that the residents in that area, the business people 
in that area, maximize their opportunities for recovering 
whatever monies they can. It is my understanding that BP has 
backed off on that effort to get people to sign waivers, and I 
think that is the appropriate thing to do. Trying to get people 
to sign away their rights for a mere $5,000 when the damage 
that they might have would far exceed that is clearly the wrong 
thing to do.
    Senator Leahy. Thank you very much.
    Thank you, Madam Chair. And I apologize for having to 
leave.
    Senator Mikulski. I think we are very fortunate to have the 
chair of the authorizing committee of Judiciary and the Intel 
Committee here because of the work of the FBI, so much now 
because of the anti-terrorism issues. And we are going to 
really ask our two authorizing chairs to look at this budget, 
and we welcome their advice and their insight as we put this 
together.
    Senator Lautenberg, you were the second to arrive.
    Senator Lautenberg. Thank you, Madam Chairwoman.
    Senator Mikulski. And then we will go to Senators Murkowski 
and Feinstein.
    Senator Lautenberg. Thank you, Madam Chairwoman.
    And welcome, Attorney General Holder. I say thank you for 
the leadership that you have provided to the AG's operation. 
Everyone knows how energetic and positive your leadership has 
been, and we are grateful to you.
    One of the things that have happened in the world that we 
live in now is with the internationalization of everything, 
with the instant communications, electronic access to data has 
changed the world. We are ever more threatened, in my view, by 
terrorist attack, and confirmed by, though a bumbling one last 
week, the fact of the matter is that--and it is posed as a 
question as well as a statement. And that is, you know, the 
State of New Jersey. You know it very well; it has a 2-mile 
stretch from the airport to the harbor deemed to be the most 
dangerous 2-mile stretch in the country as a target for 
terrorist attacks.
    And yet we are so lean. I wish we could be mean. But we are 
lacking in resources. And the fact that we have an expansion of 
the COPS program, Attorney General, is terrific. It is very 
helpful to us. My State, like so many, is without--almost 
without resources. In Atlantic City, New Jersey, a prominent 
place, we dropped, terminated 59 cops, 59 cops out of the 
police force, a huge number. And some part of that can be 
redeemed by the COPS program that we have here, have seen here 
today.
    Mr. Holder, this suspect spent around 5 months recently in 
Pakistan, came back, and talked about bomb making, training in 
Waziristan. Were DOJ and FBI looking at this fellow at all 
times prior to the attempted bombing?

                          TIMES SQUARE BOMBER

    Attorney General Holder. This is an ongoing investigation 
and we are in the process of looking at indices and files to 
see exactly what we knew about this gentleman and when we knew 
it. I am a little at a disadvantage, because this is an ongoing 
investigation, and there are leads that we are still pursuing, 
so I'm constrained from getting into too much detail about what 
we know at this point. Some of that serves as the basis for 
things that are in the process and that are ongoing.
    But, in answer to your question, we are in the process of 
trying to determine exactly what we knew about him and when.
    Senator Lautenberg. Well, I want to get to a key issue as 
far as my agenda is concerned, and I ask this. It was reported 
that the Times Square bomber left a loaded handgun in his car 
at JFK as he tried to make his escape. The State of Georgia, 
the State legislature recently passed a bill that would allow 
people to carry a loaded gun into an airport.
    Do you support allowing people to carry loaded guns into an 
American airport, this one happening to be the largest in the 
world?
    Attorney General Holder. We certainly have the Supreme 
Court's decision in Heller that says that the Second Amendment 
is an individual right. We have to respect the Supreme Court's 
decision in that regard.
    That doesn't mean, however, that that right is one that is 
absolute, and we have to balance that individual right against 
our collective security. And there has to be a way in which if 
there is a tension, we try to resolve that tension.
    The notion that people could bring guns to airports, 
especially given the Al-Qaeda focus on the use of airplanes as 
terrorist tools, is one that, to me, is very worrisome. I would 
hope that we would try to keep guns away from the very 
instruments that Al-Qaeda and other organizations successfully 
used on September 11 and continue to try to use in the present, 
and I suspect will seek to use in the future as well.
    Senator Lautenberg. Mr. Holder, last month, John Bedell 
wounded two Pentagon police officers before he was shot and 
killed. At least one of the handguns was linked to a private 
gun show sale.
    I brought the legislation to the Senate when Vice President 
Gore was in that position, and he broke a tie, 51-50, for us to 
close the gun show loophole, to shut down these dealers that 
don't have to ask your name, who you are, where you are, 
anything. Would you recommend Congress acting to close the gun 
show loophole once and for all?

                       FIREARM BACKGROUND CHECKS

    Attorney General Holder. We are committed to keeping guns 
out of the hands of people who should not have them. We know 
that people who have access to these guns have committed any 
manner of crimes. We have certainly seen a disproportionate 
number of gun crimes in our inner cities and in other places, 
the incident that you described being among them.
    We want to make sure that we take advantage of the tools 
and make sure that, as I said, we are keeping guns out of the 
hands of people who should not have them.
    Senator Lautenberg. Thank you for that ``yes'' answer.
    I authored the juvenile mentoring program. It created one-
on-one mentoring for a modest cost for at-risk youth. During a 
brief hiatus that I had away from the Senate, the program was 
de-authorized. Now I plan to reintroduce that legislation for 
authorization of this program in coming weeks.
    Do you see any value to that program, to the mentoring? I 
don't know how familiar you are with the results that we had in 
terms of crime prevention and giving our youth an alternative 
to gangs.

                           JUVENILE MENTORING

    Attorney General Holder. That is exactly the approach that 
we have to take. We have to understand that crime fighting 
happens not only by police officers and by prosecutors. Crime 
fighting happens in schools. It happens through mentoring. 
There is a direct correlation between schools that work, 
between mentoring efforts and between high levels of 
employment. All those things counter crime and are good crime 
fighting measures.
    We have to get beyond the notion that crime fighting only 
happens through people in uniform or through people who are 
lawyers who act as prosecutors. We have look at the social 
conditions that tend to breed crime, and if we want to keep the 
crime rate down, we have to deal with those underlying social 
conditions. Mentoring is one of the key ways in which you do 
that.
    I saw this when I was a judge here in the D.C. Superior 
Court. There were too many young people, especially young men, 
who came before me who had no man in their life. Women did a 
great job in trying to raise these young guys, but I think that 
mentoring, especially of young men, is a critical thing in our 
successful crime fighting efforts.
    Senator Lautenberg. Thank you.
    Thank you, Madam Chairwoman.
    Senator Mikulski. Thank you, Senator.
    Next I will call on Senator Murkowski, and then Senator 
Feinstein.
    Senator Murkowski. Thank you, Madam Chairwoman. Thank you.
    And welcome, Attorney General Holder.
    Attorney General Holder. Good morning.

                          9TH CIRCUIT VACANCY

    Senator Murkowski. Good morning to you. I have a question 
for you about a vacancy that we are looking at in the 9th 
Circuit. Andrew Kleinfeld, who has been Alaska's sole judge on 
the 9th Circuit, has notified the President that he is going to 
be retiring from active service in mid June, June 12.
    Now, by my reading, that will place the 9th Circuit out of 
compliance with the U.S. Code, 28 U.S.C. 44(c), which requires 
that there shall be one circuit judge in regular active service 
appointed from the residents of each State in a circuit. So my 
question to you is whether or not you understand, as I do, that 
this requirement under 28 U.S.C., that Judge Kleinfeld's seat 
must, in fact, be filled by another resident of the State of 
Alaska.
    And if you agree with that, can you tell me how the process 
to fill that vacancy is moving ahead?
    Attorney General Holder. We are trying to fill vacancies 
that exist in all of the circuit courts, as well as the 
district courts, as quickly as we can, working with elected 
officials in all of those States, including reaching across the 
aisle to our Republican colleagues to get names of qualified 
people. This President is committed to appointing and putting 
on the bench qualified people who are non-ideological in their 
views.
    One of the things I will certainly look at, having just had 
it brought to my attention, is that vacancy. We will interact 
with you if there are suggestions that you have. The White 
House counsel is chiefly responsible for the organization of 
our effort on judicial nominations. The Justice Department 
works with the White House counsel's office in vetting and 
identifying possible candidates. We will do that as quickly as 
we can to ensure we fill that seat as quickly as we can.
    Senator Murkowski. Well, we appreciate the expediency. But 
again, I just will remind you that that is the only seat that 
is occupied by an Alaskan, and as I read the U.S. Code, it does 
require that there be an appointment from the resident of each 
State. So we would like to work with you on that not only 
ensuring that it is filled quickly, but in consultation with 
members of the Alaska delegation. We appreciate that.
    We also have a U.S. district judge who has announced that 
he is going to be taking senior status next year, and I will 
assume, but I guess I should ask it by way of a question that 
the administration's plan to consult with the Alaska delegation 
will be very similar to what we are talking about with the 9th 
Circuit vacancy?
    Attorney General Holder. Yes. That is the way in which we 
have operated. We have talked to the Senators in the States 
where those vacancies have occurred. As I said, we have reached 
across the aisle. We are always open to suggestions that 
Senators have, be they Republican or Democrat, and we try to 
get the best people that we can for these vacancies.
    I am troubled that, in at least some of our district courts 
and some of our circuit courts, the number of vacancies is 
getting alarmingly high. We need to move as quickly as we can 
both in nominating people and getting them confirmed in the 
Senate. There are a number of judges, I think, who have kind of 
lingered in the Senate, either in the Judiciary Committee or on 
the floor--I think mainly on the floor--awaiting votes.
    And so, I would hope that, in a spirit of bipartisanship, 
we can get those people votes and get them on the bench so they 
can serve the American people.
    Senator Murkowski. We appreciate that. I want to talk just 
a little bit more about the 9th Circuit. I have long been of 
the opinion that the 9th Circuit covers far too much territory. 
Its caseload is too heavy. It is understaffed. The judges of 
the 9th Circuit are being asked to spend a lot of time away 
from their families to hear cases in far-flung States that make 
up the circuit, and I have long supported a split of the 9th 
Circuit into two circuits.
    The question to you this morning is whether or not you see 
any justification in maintaining the 9th Circuit in its present 
form, and what is the administration's view on the legislation 
to split the 9th Circuit. Senator Ensign had legislation 
introduced this year. We have worked with him in the past. If 
you could just address the workload and the situation as to how 
the 9th Circuit could best and most efficiently operate?
    Attorney General Holder. I think the 9th Circuit does 
present unique problems, both in its geographic size and the 
workload that it has. I think we want to look at those two 
issues, and make a determination about whether there is any 
need for some reconstruction or some reconfiguring.
    This is something that I have not really focused on in the 
recent past, but I know I have certainly read articles and had 
conversations about that possibility. We will certainly want to 
work with Congress in looking at the workload and the 
geographic dispersion of the 9th Circuit in making the 
appropriate determination.
    Senator Murkowski. Appreciate that.
    Thank you, Madam Chair.
    Senator Mikulski. Senator Feinstein. Senator Feinstein is 
the chair of the Intelligence Committee and also is an 
outspoken person on the funding for the Office of the Federal 
Detention Trustee fund [detainee trust fund] that is often 
skimpy and spartan. We ask local jurisdictions to hold the 
prisoners that are Federal and then don't pay the bill. So I 
hope you ask some of those questions.
    Senator Feinstein. Well, thank you very much, Madam 
Chairwoman. I appreciate it.

                           NARCOTICS CONTROL

    I want to ask a question in my capacity of Chairman of the 
Senate Caucus on International Narcotics Control, and we have 
been spending some time looking at both Afghanistan and Mexico 
and the cartels. And you could say that there is eruption in 
Mexico in the cartels, and you could say that there is major 
eruption in Afghanistan with the Taliban increasingly taking 
over drug lab activities, transportation of narcotics, and in 
effect, transforming themselves into a narco-cartel, which I 
happen to believe will be the result.
    We have found that as much as $169 million comes from a 
single heroin trafficker in a 10-month period in Afghanistan. 
At present, the Drug Enforcement Administration [DEA], which 
has units to address this type of narco-terrorism, does not 
have the manpower to stand up or devote full-time operations in 
Afghanistan.
    I think they have been very effective. I have talked with 
former agents, Mr. Braun, others, about operations in southern 
Afghanistan and believe that for a fraction of our national 
investment in that country, a DEA unit could, in fact, be 
dedicated to removing narco-terrorists from the battlefield in 
direct support of the administration's top priority.
    So I am asking the distinguished chairman to add money 
either in this bill or to try to put it in a 2010 supplemental 
to stand up a new terrorism investigations unit at DEA's 
Special Operations Division to focus on Afghanistan. Would you 
support such an effort?
    Attorney General Holder. Yes, the DEA has been particularly 
effective in Afghanistan. At the end of fiscal year 2010, we 
expect to have a permanent staff of about 81 DEA positions in 
Afghanistan.
    The reality is that, given the nature of the problem that 
you accurately describe, additional DEA agents, prosecutors, 
and people from the Marshals Service could all help with regard 
to the fight against the narcotics trade--which helps fuel the 
Taliban--and also help that nation in its efforts to adhere to 
the rule of law.
    We have to view this comprehensively. The point that you 
make about the need for expanded DEA resources in Afghanistan 
is exactly right.
    Senator Feinstein. Second question. Yesterday, at the 
request of Senator Cornyn, I chaired a hearing of the Caucus on 
International Narcotics Control, particularly on drug violence 
in Mexico and the implications for the United States. And what 
appears to me is that kidnappings in the last 3 years are up 
substantially. They are in southern California. They are in 
Arizona. Stash houses are up, and home invasions are up.
    And I think that has really fueled the Arizona law, which I 
think is an unfortunate law, but nonetheless, I understand the 
fear that people have. The question becomes, have you looked at 
beefing up even more the law enforcement effort in these 
particular areas, and if so, what is Justice prepared to do?
    Attorney General Holder. We have deployed Justice 
Department resources from the Bureau of Alcohol, Tobacco, 
Firearms and Explosives [ATF], from the DEA, from the FBI along 
the border. I am concerned about the level of violence that we 
have seen increase pretty dramatically, even in the last 3 to 4 
weeks. We are going to make sure that we keep a sufficient 
presence both in Mexico and along the border and that we work 
with our State and local partners in those affected areas along 
the border to keep the violence level as low as we can.
    The efforts that our Mexican colleagues and President 
Calderon have taken are heroic. We have to make sure that we 
are supportive of those efforts. We have to, as I said, make 
sure that we maintain and increase our presence within Mexico, 
but also maintain that presence along the border.
    We have deployed ATF agents there on a rotating basis. And 
I think one of the things we are going to have to consider, 
given the violence level that we see in Mexico and a concern 
about that spilling over, is to perhaps make that presence 
permanent.
    Senator Feinstein. Just one of the things that came up 
yesterday, a captain by the name of Martinez, 24 years 
experience, Chula Vista Police Department. They got a grant, 
and what they began to do is really develop intelligence. A lot 
of these kidnappings in Mexico related to somebody in the 
United States, the person in the United States won't call up 
and say, ``My relative has been kidnapped,'' but they will talk 
about it.
    They pick up this talk, so they are able to go in and make 
an arrest in concert with Mexican police or prevent something 
from happening, and I think that is a very good effort.
    Additionally, the El Paso Intelligence Center [EPIC], my 
understanding is that DEA has requested funding for an 
expansion and renovation project to enlarge the existing EPIC 
facility since 22 of the agencies are planning on adding 
personnel. Is that something that is critical, in your view?
    Attorney General Holder. Yes, I think it is. For us to be 
successful in this effort, we need to gather as much 
intelligence as we can. We need to be able to process that 
intelligence. We need to have the enforcement agencies co-
located so that they can all make use of that intelligence and 
then efficiently deploy the resources that they have.
    The Department's request for fiscal year 2011 seeks really 
significant resources to combat violence along the Southwest 
border, and one of the ways in which we can do that is by 
supporting EPIC, which is a critical part in our efforts.
    Senator Feinstein. Would you allow me one more question, 
Madam Chairwoman?
    Senator Mikulski. Absolutely. I think this is absolutely 
critical and was going to be part of my second round. Please.
    Senator Feinstein. Thank you. You are a good sport. I 
appreciate it.
    Let me ask a couple of Miranda questions because I am 
seeing and reading----
    Senator Mikulski. Oh.
    Senator Feinstein [continuing]. Everything that is going 
on.
    Senator Mikulski. We'll, wait a minute.

                             MIRANDA RIGHTS

    Senator Feinstein. Is it true that every American has the 
right under the Fifth Amendment to a Miranda warning?
    Attorney General Holder. Yes. The Supreme Court in the 
Dickerson case, Dickerson v. United States, when Chief Judge 
Rehnquist was alive, in a 7-2 decision, said that the Miranda 
warnings were of constitutional dimension and struck down a 
Federal statute that tried to get around the earlier Miranda 
ruling that was first established by the Warren court. The 
Rehnquist court said that the Miranda warnings were of 
constitutional dimension.
    Senator Feinstein. So this is now well established, that 
every American, under the Fifth Amendment, has this right?
    Attorney General Holder. That is the way in which the 
Supreme Court has interpreted it.
    Senator Feinstein. Is there any exception?
    Attorney General Holder. Yes. There are exceptions to 
Miranda, and that is one of the ways in which we conduct our 
interrogations of terrorism suspects. It is what we did with 
Abdulmutallab, and it is what we did with Shahzad.
    Senator Feinstein. Could you concentrate on the national 
security exception?
    Attorney General Holder. Yes. It is called the public 
safety exception. It comes from the Quarles case, New York v. 
Quarles and allows a police officer or a Federal agent to 
question a suspect, a potential defendant, or a terrorist, in 
order to protect the public safety, and ask questions such as, 
``Are you acting alone? Are there other bombs that we need to 
be worried about? Are there other people flying in who are 
going to be helping you?''
    To ensure the public safety, we are allowed to ask those 
questions without giving Miranda warnings. With Abdulmutallab 
and Shahzad, we made extensive use of the public safety 
exception before a decision was made to give them the Miranda 
warnings.
    Senator Feinstein. Now, a difficult question. According to 
process and precedent, about what is the vicinity of time that 
that--you call it the public safety, I call it a national 
security--exception can last?
    Attorney General Holder. That has not really been defined 
by the courts. It is not a prolonged period of time. I will 
say, without getting into too much detail, that it has been 
publicly reported that with Abdulmutallab, there was a 1 hour 
interrogation period under the public safety exception. Useful, 
valuable intelligence was gained in that 1 hour.
    A lot of people have said you only spoke to him for about 
an hour, they say 50 minutes, without recognizing that in that 
period of time, qualified, experienced FBI agents can elicit 
really substantial amounts of information. Again, without 
getting into too much detail, with regard to Shahzad, the 
questioning under the public safety exception far exceeded the 
amount of time that we had with Abdulmutallab.
    Senator Feinstein. Is it fair to say that process and 
precedent take that to around 3 to 6 hours?
    Attorney General Holder. The courts have never said 
exactly.
    Senator Feinstein. The courts have not said.
    Attorney General Holder. They have not said how far you can 
go.
    Senator Feinstein. Prior use?
    Attorney General Holder. I think that as long as you are 
asking questions, appropriate questions, probing about public 
safety issues, I think the courts are generally going to be 
supportive. And we have asked those questions, I think, 
appropriately, minding the dictates of the Supreme Court in the 
Quarles case. And as I said, with regard to Shahzad, we really 
made use of that exception to elicit a very substantial amount 
of information from him before the decision was made to give 
him his Miranda warnings.

                         SHAHZAD INTERROGATION

    Senator Feinstein. Could Shahzad be declared an enemy 
combatant, and if that were to be the case, could he retain 
counsel and overturn the decision?
    Attorney General Holder. He could certainly retain counsel 
in whatever forum he was in to try to challenge the decision to 
not give him his Miranda warnings.
    Senator Feinstein. What would be the likelihood of his 
succeeding?
    Attorney General Holder. I am obviously an advocate here, 
but on the basis of the way in which the interrogation was done 
here and the care with which it was done, I don't think he 
would be very successful.
    Senator Feinstein. You do not?
    Attorney General Holder. No.
    Senator Feinstein. Everything I have seen says he would 
have a high chance at being successful in--because he is an 
American, and that seems to me to be a heavier prior right.
    Attorney General Holder. Oh, I am sorry. I didn't hear the 
question. No, what I was saying is that he would not be 
successful in trying to say that the interrogation that was 
done was done inappropriately. That is what I was saying. He 
would not be successful in that.
    Senator Feinstein. Oh, all right. But in other words, 
declaring him an enemy combatant would not void his basic 
rights?
    Attorney General Holder. Again, the courts have not totally 
weighed in on all of these areas, but the courts have indicated 
that there are certain basic rights that are going to apply no 
matter what forum you are in. There was a very big 
misconception that somehow or other terrorists have far greater 
rights in the Article III courts than they would in the 
military commissions.
    Under the reformed Military Commissions Act, there are 
substantial procedural rights that defendants have. It is one 
of the reasons why this administration feels comfortable using 
either military commissions or the Article III courts. There is 
not a distinct advantage that people get if they are in the 
Article III courts. We have successfully prosecuted close to 
400 people who were charged with terrorist offenses in the 
Article III venue.
    Senator Feinstein. All right. Thank you, General.
    Thank you, Madam Chairwoman.
    Senator Mikulski. Absolutely. We could pursue this line of 
questioning, but we have another witness, and I have one other 
substantive question and then something related to Maryland. 
Then we will go to the inspector general.
    Mr. Attorney General, one of the issues that we are deeply 
involved in, whether it is the Judiciary Committee, the Intel 
Committee, or Appropriations, is cybersecurity. And we regard 
this as one of the greatest threats facing the United States of 
America. And as we examine it, for example, in the task force 
that I am on, we are looking at governance, technology 
development to maintain the cyber shield, the development of a 
workforce to be able to be involved in this, and the issue of 
civil liberties.
    My question goes to the Justice Department. In the area of 
governance and civil liberties, there are new definitions that 
are going to have to be developed because, essentially, the 
mother ship of most knowledge on protection lies with the 
National Security Agency whose job is to protect .mil and our 
military assets. But there is .gov. There is .com. There are 
the financial services. There is the power grid.
    I am not going to go into the policies today. That will be 
a subject of other hearings in other fora. But has the Justice 
Department been tasked by the White House to begin to look at 
what are some of the laws pertaining to governance and also the 
laws of civil liberties, where we have defined Foreign 
Intelligence Surveillance Act [FISA] rules, we have defined 
firewalls, which the military can't. What about the role of the 
private sector seeking help from Government? Do they go to 
Homeland Security, which doesn't have a lot to offer right this 
minute? If they do, are they getting it, really, from the .mil. 
So could you share with us what you have been tasked to do?

                             CYBERSECURITY

    Attorney General Holder. Well, we certainly are tasked with 
the responsibility of making sure that the Internet, which is a 
great tool, is used in appropriate ways. One of the things that 
we are tasked with is making sure that it is not used in a 
criminal way by people who would perpetrate frauds, or by 
terrorists who would use it to spread their ideology and 
potentially radicalize people, or in an operational way.
    We are also tasked with the responsibility of making sure 
that we do this in such a way that people who are on the 
Internet are protected.
    Senator Mikulski. Mr. Attorney General, I am not asking 
that. I am asking about the law and the fact that every report 
that has been issued says the law is now either gray, dated, or 
nonexistent on this. We have Mr. Schmidt, a very capable 
professional, the White House czar. We don't know who in the 
hell is in charge. That is No. 1.
    No. 2, there are these issues where the private sector is 
really apprehensive about the ongoing attacks on them. Google 
comes to the National Security Agency. That is really new 
ground. So we want to, as we look at this, protect. We have to 
have a kind of legal framework, also, to be able to define what 
the parameters are for various sectors in our Government, how 
do we maintain the current structure? Do we look at it? Have 
you been tasked to examine this in a comprehensive way?
    Attorney General Holder. We are working with our 
counterparts in various parts of the executive branch and with 
the White House to deal with the issues that you have raised. 
We are concerned about intrusions. We are concerned about 
privacy, for corporations, as well as individuals. We also want 
to make sure that the laws that we have on the books are up to 
date to deal with this new reality that we confront.
    Senator Mikulski. That is right.
    Attorney General Holder. Many of these laws that we try to 
apply in this cyber age are not necessarily consistent with the 
threats that we face in a variety of contexts. What we have 
tried to do is to look at the laws as they exist. We have 
people within the Justice Department, in our Criminal Division 
and in other parts of the Department, who are always coming up 
with suggestions that we take to the White House. We would 
obviously work with Congress.
    Senator Mikulski. I will be honest, Mr. Holder. I am not 
looking for suggestions. I am looking for a comprehensive 
effort tasked by the White House to the Attorney General's 
office that says you have got to put a team together and look 
at this and give the White House a report and give the Congress 
a report to see if we have to move in a direction. I don't want 
to get lost in semantics.
    Or is it kind of, we look at it in one area and we look at 
it in another, because that has been the problem.
    Attorney General Holder. Well, again, I would say that 
there is a comprehensive effort, run through the White House 
and in conjunction with the other branches.
    Senator Mikulski. But you are the President's lawyer. You 
are America's lawyer. Any new legal framework must come from 
the advice, counsel, legal memos, et cetera, from the Attorney 
General's office, or am I wrong?
    Attorney General Holder. No. We certainly play a 
substantial role in that. Bills that go through, suggestions 
that are made, all have to be vetted in the Justice Department 
to make sure that they are legal, and our Office of Legal 
Counsel looks at proposed legislation in that regard.
    Senator Mikulski. Well, I would like your team to talk more 
extensively to Senator Feinstein and me and about something we 
might ask of the President. I don't want a line item and an 
appropriations committee directing it. But there needs to be 
clarification of governance, and there has to be clarification 
and perhaps a new law in this new world that we have to protect 
the American people.
    You did a great job. When I say ``you,'' I mean everyone 
that got the Times Square bomber. There could be somebody out 
there right now that has got their eyes on the grid or any 
number of other things. We have to have our legal framework.
    Meeting with entrepreneurs, they are stealing our secrets 
from the Patent Office. They are raiding our ideas. I mean, the 
private sector needs all the help that it can get, and we have 
certain constrictions that have served us well in the past. So 
we want to maintain privacy. We want to maintain civil 
liberties, but we also don't want to be operating in an area 
where, in our desire to protect the people, we have 
inadvertently made them or our entrepreneurial enterprises 
vulnerable.
    So why don't we talk more about that, involving the Intel 
and Judiciary Committee on this?
    Attorney General Holder. That is fine.
    Senator Mikulski. Senator Murkowski, I understand you have 
another question?
    Senator Murkowski. I do, Madam Chairwoman, just one 
question. And this follows up on some of the comments that have 
been made about the Times Square bomber, the recognition that 
in conjunction with the Federal, the State, and the local law 
enforcement individuals on the scene. It was an effort that we 
recognize and kind of in view of the fact that we have got 
National Police Week beginning next week, I think that it is a 
testament to the work and the coordinated efforts that go on. 
We appreciate that.
    But as good as that was, I think there is a lot of concern 
out there about why the suspect was not apprehended until the 
jet has pulled away from the gate. I come from a State where we 
all fly, and we have got a level of scrutiny at our little 
airports in some pretty remote and out of the way places where 
people feel like the level of scrutiny and surveillance is just 
over the top, and they look then at an individual that has 
all--has triggered all the flags.
    You know, you have purchased the ticket with cash. You 
purchased it just immediately before the flight, international 
flight, all of the indicators. One really has to wonder, where 
was the failing here? What happened with this watch list? And 
Senator Mikulski has used the terminology the watch list is 
like nails on a blackboard. I think that gets all of us charged 
up as we talk about that.
    But we really do have to wonder, okay, why was he not taken 
into custody at the screening point, at the gate, or in the 
jetway? It makes you wonder whether or not there is a lapse in 
communication then between the FBI and the Transportation 
Security Administration [TSA] or perhaps between the FBI and 
other law enforcement agencies that are working at the airport.
    So the question to you this morning is whether or not you 
are satisfied with the way that this take-down went or whether 
there are ways that we can improve on this? And then, secondly, 
whether the take-down of a fugitive onboard an aircraft 
presented safety risk to the other passengers on the airplane? 
So if you can just speak to that end of this issue.

                       TIMES SQUARE BOMBER ARREST

    Attorney General Holder. In direct response to your 
question, I am never satisfied, even with an operation like 
this one, which I think we all have to understand was 
successful. The person who was responsible for placing that 
bomb in Times Square was apprehended in a relatively short 
period of time.
    Now I don't take too much from that. We were successful 
here. That does not mean that we don't have to continue to be 
vigilant. There are going to be other attempts, and we are 
going to have to make sure that we are up to the task.
    We were successful here, but am I satisfied? No. We have to 
always look at our failures, our successes, and figure out ways 
in which we can, in the next occasion, be even better. The TSA 
has already announced that it is going to make changes with 
regard to how often airlines are required to look at changes 
that are made on the no fly list. It was 12 hours. They are 
going to move it down to 2 hours. If that change had been in 
effect, it is possible that he would have been caught before he 
got on the plane.
    Senator Murkowski. Can I ask you about that, though? 
Because I have been one, you know, you purchase a ticket at the 
last minute to go home. I purchase it on my credit card. It is 
not cash, and yet I am subjected, even as a United States 
Senator, I am subjected to the full-on screening because I have 
purchased a one-way ticket at the last minute.
    Tell me why, given all of the red flags again, in this 
particular instance, why we were relying only on that watch 
list, on that no fly list? Was there not sufficient information 
to cause further questioning?
    I mean, I think people are really concerned about how he 
was able to board that aircraft and have that aircraft actually 
leave the jetway before we were successful in apprehending him. 
And we are pleased that he was stopped, but we all have to 
wonder, how did he get on that airplane?
    Attorney General Holder. As I said, we have to look at this 
successful operation and determine how we can do it better the 
next time. But again, I go back to the fact that the foundation 
here is the effort to determine who was responsible for the 
placement of that bomb and his apprehension. We were successful 
in doing that in a relatively short period of time.
    With the screening that people go through, he was not 
necessarily a danger while on the plane. He went through all of 
the metal detectors. The information that was passed to TSA was 
done under a system that is now in the process of being 
changed, in recognition of the fact that as we look, even 
preliminarily, back on what happened with regard to him, we 
already have noticed that there are things that we need to 
calibrate in a different way. Those changes have already been 
announced and are being instituted.
    Senator Mikulski. I would like to help the Senator from 
Alaska out. We are really grouchy about the watch list and what 
happened. We are really proud of law enforcement because they 
knew where to go. But when you have a bomber that we know is 
loose in America, we often presume they want to get out of 
America. So there should have been a significant kind of red 
alert for the methods for leaving the United States of America, 
particularly when you are in New York. You either go north or 
you get on an airplane.
    So the northern border should have gone on red alert. TSA 
should have gone on red alert. Some of these questions, 
Senator, I think are also appropriate for the Secretary of 
Homeland Security. That is the TSA part.
    But the President of the United States was volcanic after 
the Christmas Day bomber and ordered significant reforms. Once 
again, the watch lists seem to be dysfunctional. Are you in 
charge--who is in charge of the watch--who is in charge of 
watching the watch lists, that they really do watch? And who is 
in charge of the watch list, making sure we use the watch list?
    Attorney General Holder. The information that we were 
concerned about him was shared many hours before he actually 
got to the airport. What I would say is this. As I indicated to 
Senator Murkowski, we learned from the experiences that we have 
had. Changes have already been instituted with regard to the 
watch list. If we were faced with a similar situation again, I 
suspect that we would detect him earlier than we did.
    But as I said at the press conference, I was never worried 
about whether or not we were going to apprehend him, given all 
that had been done, the surveillance we had of him, and the 
advance notice we gave to the airports to look out for him. As 
a result of that notification, or those notifications, he 
ultimately was apprehended before he left the country.
    Senator Murkowski. Madam Chair, can I just ask?
    Senator Mikulski. Yes, because I do have to move on to the 
inspector general.
    Senator Murkowski. And this is just very quickly, and it is 
promptly from something that you have said. We have instituted 
in this country this AMBER Alert when a child goes missing, and 
there is a network around the Nation----
    Senator Mikulski. Right, and it has worked well.
    Senator Murkowski. And it has worked very successfully 
well. It would seem to me that if we can have a system like 
that when a child is missing, that when an incident happens in 
New York, that instantaneously there is an alert that goes out 
again to all of the exits, whether it is the border exits or 
the airports, and it just seems to me that we can be doing 
more.
    So I look forward to working with you, Attorney General, 
and certainly you, Chairwoman.
    Senator Mikulski. First of all, I want to thank you for the 
question. Second, the President has got to give us a TSA 
nominee that we can confirm, and then we have to stop screwing 
around with holds so that we can confirm them. I think it would 
go a long way. TSA needs permanent, vigorous leadership. You 
are not the head of TSA.
    But I bet the President is pretty proud of one group of 
Government, but after the Christmas Day bomber, he did order 
significant reforms. And the watch list issue and the TSA issue 
do not seem to have been one of the areas that have quite 
clicked in. But that is not for today.
    We are going to excuse you. We have so much to talk about, 
from the ``third war'' border on our Southwest border to the 
war that is going on against our children. We have a terrible 
situation in Maryland with another violent death on a college 
campus. All these things we could talk about. But your Justice 
Department is working hard with locals on so many fronts, and 
we want to say thank you.
    I do want to raise an issue specific to Baltimore and to 
Maryland. You might recall, Mr. Attorney General, that a young 
police city fire cadet, Rachael Wilson, died tragically in a 
training exercise 2\1/2\ years ago. They have filed for the 
appropriate Federal benefit, and the Public Safety Officers 
Benefit Program, it took a long time to even get a hearing and 
to get the AG's attention.
    Now, there was a hearing on January 20. There was 
additional information. It has now been 90 days since the 
hearing. The family has had no contact. They are really 
frustrated. It is one thing to lose someone you love in a 
training accident. The government failed her then, and we 
cannot let government fail her now.
    I am not commenting on the outcome of the decision, but I 
would like a well-paced decisionmaking process and contact with 
the family. Could I have your assurances that you will look 
into that?

                             RACHAEL WILSON

    Attorney General Holder. You have my personal assurance 
that I will look into that. The concerns that you have raised 
are ones that worry me as well. People who put their life on 
the line in order to protect the rest of us are owed a special 
obligation, and the families, the survivors of those people, 
are deserving of special attention.
    I will make sure that I examine where that case is, and, to 
the extent that I can speed it along, I will do so, or work 
with you if there are legislative ways in which this matter 
might be ultimately resolved. However we can do it, I pledge to 
work with you.
    Senator Mikulski. Thank you. And I appreciate that. I know 
you will bring sensitivity and expedition to this.
    Thank you very much. And you are excused.
    Attorney General Holder. Thank you.
    Senator Mikulski. And we look forward to working with your 
team.
    We are now going to call up Mr. Glenn Fine. As Mr. Fine 
comes to the table, we want to note he is the inspector general 
of the Department of Justice. He was confirmed in December 15, 
the year 2000. He has worked there and has an extensive 
history.
    He has worked in the Office of the Inspector General [OIG] 
ever since 1995. So we just want to thank him, first of all, 
for his service, and as you could see, there was so much we had 
to go over, and the vote also delayed it.
    But Mr. Fine, it is the hope of this subcommittee that we 
function in a very fiscally prudent way. And we look forward to 
your testimony in terms of what you think are things the 
subcommittee needs to be aware of in the area of management 
that we could encourage management reforms, if appropriate, and 
then also where you think we could have better spending.

STATEMENT OF HON. GLENN A. FINE, INSPECTOR GENERAL
    Mr. Fine. Thank you, Chairwoman Mikulski and members of the 
subcommittee.
    I appreciate your inviting me to testify about the Office 
of the Inspector General's oversight work related to the 
Department of Justice. In my testimony today, I will focus on 
significant challenges facing the Department as you consider 
its fiscal year 201l budget request.
    Overall, I believe the Department has made progress in 
addressing many of its top challenges, but improvement is 
needed in important areas. First, the Department has made 
progress in its highest priority--counterterrorism. But the 
Department continues to face challenges in this area.
    For example, last year, the OIG issued an audit report 
examining the FBI's practices for making nominations to the 
consolidated terrorist watch list. A failure to place 
appropriate individuals on the watch list or a failure to place 
them on the watch list in a timely manner increases the risk 
that these individuals are able to enter or move freely within 
the United States.
    Our review assessed the accuracy of the watch list and the 
timeliness of entries made to the watch list. We found that the 
FBI did not consistently nominate known or suspected terrorists 
to the consolidated terrorist watch list and did not update or 
remove watch list records, as required by FBI policy. In 
response, the FBI has made progress in addressing our 
recommendations, including the development of a training course 
to ensure that all FBI counterterrorism personnel are familiar 
with current FBI watch list procedures, improving internal 
controls to ensure that known or suspected terrorists are 
nominated to the watch list, and also ensuring that watch list 
records are modified or removed as required.
    While the Department's highest priority is 
counterterrorism, it must also focus attention on its 
traditional law enforcement functions, including the 
investigation and prosecution of financial crimes, cyber 
crimes, and violent crimes. One critical issue for the 
department is how to allocate its resources among these 
competing demands.
    For example, the OIG has regularly reviewed how the FBI 
allocates and utilizes its personnel resources. An audit we 
issued last month determined that in 2009, the FBI had used 26 
percent of its field agents on counterterrorism matters while 
it used 51 percent on criminal matters.
    Our review determined that the FBI actually used its field 
agents in line with the allocations it had made to its highest 
national priority, including counterterrorism. However, we 
found that the FBI used fewer field agents than it had 
allocated to some other national priorities, including gangs 
and criminal enterprises, white collar crime, and violent 
crime.
    In order to maximize the effect of its resources in 
counterterrorism and in other areas, it is important that the 
Department components coordinate effectively with each other. 
One of our recent reviews found that jurisdictional disputes 
occurred between the FBI and ATF in explosives investigations 
and that both maintained separate and uncoordinated explosives-
related databases and training programs.
    In pursuing its counterterrorism and law enforcement 
missions, the Department must also balance its responsibility 
to protect individual civil rights and civil liberties. This 
issue was highlighted by several reviews we conducted regarding 
the FBI's widespread misuse of national security letters. In 
response to our recommendations, the FBI and the Department 
have taken action to seek to ensure that such misuse does not 
recur.
    Restoring confidence in the Department is also an ongoing 
challenge. In the past several years, the Department of Justice 
has faced significant criticism for alleged misconduct in 
prosecutions, the dismissal of certain U.S. attorneys, and 
politicization in the hiring of career attorneys. While these 
issues involve a small number of the many important 
responsibilities the Department handles, they can affect public 
confidence in the objectivity of the Department.
    The Department also faces challenges each year in managing 
the award of more than $3 billion in grant funds. This 
challenge was heightened when the Recovery Act provided the 
Department an additional $4 billion in grant funding. The 
Department must distribute this large amount of grant funding 
quickly and effectively monitor the use of these grant funds 
while continuing to manage its other grant programs.
    The Department also has ongoing challenges in managing 
information technology systems and in ensuring that its IT 
planning, development, and security measures maximize the 
effectiveness of these expenditures. A major challenge in this 
area has been the FBI's development of its Sentinel case 
management project.
    The OIG has issued a series of reports examining the FBI's 
ongoing development of Sentinel. In our latest report, we 
identified significant concerns about the progress of Sentinel. 
The cost of the project is rising, and the completion of 
Sentinel has been delayed. While we believe that Sentinel can 
succeed, it will take close scrutiny and careful oversight by 
the FBI to minimize any further schedule delays and budget 
increases and to ensure that the final product meets users' 
needs.
    My testimony also discusses other challenges for the 
Department, such as safely and economically managing the Bureau 
of Prisons' rising Federal inmate population.
    In conclusion, the Department has made progress in 
addressing many of its top management challenges, but further 
improvements are needed in important areas. The Department must 
maintain its focus on counterterrorism while effectively 
pursuing its traditional law enforcement duties, protecting 
civil rights and civil liberties, restoring public confidence 
in the Department, providing effective oversight of the 
billions of dollars in grant awards each year, ensuring safe 
and economic detention facilities, and effectively managing 
information technology and financial management systems.

                           PREPARED STATEMENT

    These are difficult tasks which require constant attention 
and strong leadership by the Department. To aid in this effort, 
the OIG will continue to conduct vigorous oversight of 
Department programs and provide recommendations for 
improvement.
    That concludes my prepared statement, and I would be 
pleased to answer any questions.
    [The statement follows:]

                Prepared Statement of Hon. Glenn A. Fine

    Madame Chairwoman, Senator Shelby, and members of the subcommittee: 
Thank you for inviting me to testify about the Office of the Inspector 
General's (OIG) oversight work related to the Department of Justice 
(Department). In my testimony today, I will discuss some of the top 
challenges facing the Department as you consider its fiscal year 2011 
budget request. My comments are based on the many reviews the OIG has 
conducted during recent years and on the general insight we have gained 
through our work in the Department.
    Overall, I believe the Department has made progress in addressing 
many of its top challenges, but improvement is needed in some areas.

                            COUNTERTERRORISM

    Over the years, the Department has made progress in addressing its 
highest priority--counterterrorism. The Department underwent a 
transformation following the September 11 terrorist attacks, when its 
highest priority shifted from traditional law enforcement concerns to 
counterterrorism. While the Department has been effective at 
reorienting its priorities to focus on counterterrorism, the Department 
continues to face challenges in this area.
    For example, last year the OIG issued an audit report examining the 
FBI's practices for making nominations to the consolidated terrorist 
watchlist. This watchlist is used by frontline Government screening 
personnel to determine how to respond when a known or suspected 
terrorist requests entry into the United States. A failure either to 
place appropriate individuals on the watchlist or to place them on the 
watchlist in a timely manner increases the risk that they are able to 
enter and move freely within the United States. Our review of the 
consolidated watchlist was the third in a series of audits assessing 
the accuracy of the watchlist and the timeliness of entries made to the 
watchlist. Our audit concluded that the FBI did not consistently 
nominate known or suspected terrorists to the consolidated terrorist 
watchlist and did not update or remove watchlist records, as required 
by FBI policy.
    In our audit report, we made 16 recommendations to the FBI to 
improve its administration of the watchlist, and the FBI concurred with 
all of the recommendations. The FBI has made progress in addressing the 
recommendations, fully implementing 9 of the 16, including the 
development of a web-based refresher training course to ensure all FBI 
counterterrorism personnel are familiar with current FBI watchlist 
procedures and the establishment of additional internal controls within 
the watchlist process to ensure that known or suspected terrorists are 
nominated to the watchlist and that existing records are modified or 
removed as required. The FBI is in the process of implementing the 
other recommendations.
    Another issue we have reviewed regularly is the FBI's allocation 
and utilization of its personnel resources. In past reviews, we found 
that the FBI was using significantly more field agent resources than it 
had allocated for counterterrorism matters, and was using significantly 
fewer field agent resources than it had allocated for non-terrorism 
matters.
    In a follow-up review we released this month, we again assessed the 
FBI's allocation and management of its personnel resources. Our audit 
determined that in fiscal year 2009, the FBI had used 26 percent of its 
field agents on counterterrorism matters, while it used 51 percent on 
criminal matters. This is a significant change from fiscal year 2001 
when the FBI used 13 percent of its field agents on counterterrorism 
matters and 72 percent on criminal matters.
    Our review determined that between fiscal years 2005 and 2009, the 
FBI used field agents in line with the allocations it made to its 
highest national priorities, including counterterrorism, 
counterintelligence, cyber crime, and civil rights. However, we found 
that the FBI used fewer field agents than it had allocated to some 
other national priorities, including gangs and criminal enterprises, 
white collar crime, and violent crime.
    We also determined that the FBI continued to experience substantial 
gaps between the number of intelligence analyst positions allocated and 
utilized between fiscal years 2005 and 2009. FBI officials stated the 
rate of attrition and time it takes to hire applicants affected the 
FBI's ability to fill vacant intelligence analyst positions.
    In addition, our audit determined that the FBI had improved in how 
it managed its personnel resources. For example, the FBI established a 
Resource Planning Office to oversee the allocation and utilization of 
personnel resources and established other initiatives to manage its 
resources. However, the FBI had not formalized all of the policies and 
procedures related to its resource management initiatives and did not 
fully integrate them into FBI operational practices. This contributed 
to inconsistent execution of some initiatives by FBI operational 
divisions and field offices.
    The OIG report provided 10 recommendations to assist the FBI in its 
resource planning and allocation decisions, including recommendations 
that the FBI require operational divisions to regularly examine 
resource utilization and that the FBI establish policies, procedures, 
and guidelines that formalize resource management initiatives. The FBI 
agreed to implement these recommendations.
    Another area that affects national security is the FBI's ability to 
timely translate the large amount of foreign language materials it 
regularly collects. In previous audit reports on the FBI's foreign 
language translation program, we found that large amounts of audio 
material collected for FBI counterterrorism and counterintelligence 
operations were awaiting translation. In a follow-up audit issued in 
October 2009, we concluded that the FBI continued to have significant 
amounts of unreviewed foreign language materials in counterterrorism 
and counterintelligence matters. However, data on the exact quantity of 
unreviewed material is imprecise, partly because the FBI still does not 
have an automated means for accurately assessing the amount of material 
it collects for translation. In addition, we found that the FBI 
continues to fall short in meeting its linguist hiring goals, resulting 
in a decrease in the number of FBI linguists since 2005, at the same 
time there has been an increase in the amount of material collected for 
translation.
    The OIG made 24 recommendations to assist the FBI in improving the 
management of its foreign language translation program. The FBI agreed 
with our recommendations and is taking steps to implement them, and the 
OIG will continue to monitor the FBI's performance in this important 
area.
    Counterterrorism efforts can also be affected by coordination 
issues between Department components. We conducted a review of 
coordination between the FBI and the Bureau of Alcohol, Tobacco, 
Firearms and Explosives (ATF) in responding to explosive incidents. In 
our October 2009 audit, we found that jurisdictional disputes continued 
to occur between the FBI and ATF in explosives investigations. Despite 
an Attorney General memorandum in August 2004 and a 2008 Memorandum of 
Understanding between the FBI and ATF, the allocation of investigative 
authority between the two agencies remains unclear, and disputes 
between the agencies have continued regarding which agency should be 
the lead agency on explosives investigations.
    For example, our audit found that FBI and ATF investigators 
sometimes raced to be the first Federal agency on the scene of an 
explosives incident, and disputes have occurred when one agency arrived 
first and the other agency believed the explosives incident fell within 
its lead agency authority. These disputes can delay investigations, 
interviews, and crime scene processing; confuse local first responders 
about which Federal agency is the Federal lead on explosives matters; 
and undermine Federal and local relationships.
    We also found that the FBI and ATF still maintain separate 
explosives-related databases to manage laboratory forensic reports, 
incident reporting, and technical explosives-related information and 
intelligence, and the FBI and ATF separately operate their explosives-
training facilities and programs. In addition, ATF does not participate 
in the majority of Joint Terrorism Task Forces led by the FBI. 
Likewise, the FBI does not fully participate in ATF-led Arson and 
Explosives Task Forces.
    Our audit made 15 recommendations to the Department, FBI, and ATF 
to improve explosives-related coordination. The Department appears 
committed to implementing these recommendations, and has established 
four working groups, composed of representatives from the Deputy 
Attorney General's Office, the FBI, and ATF, to address the 
recommendations and to resolve jurisdictional disputes.
    We are currently conducting several reviews that involve other 
aspects of the Department's efforts to address counterterrorism 
challenges. For example, we are assessing whether the Department is 
prepared to fulfill its responsibilities in response to a weapons of 
mass destruction attack, including whether Department field offices are 
prepared to carry out a coordinated response if such an attack occurs 
in the Washington, DC area.

              PROTECTING CIVIL RIGHTS AND CIVIL LIBERTIES

    Meeting the Department's counterterrorism responsibilities is a 
difficult task, but in this mission the Department must also balance 
its responsibility to protect individual civil rights and civil 
liberties.
    The need for the Department to pursue the appropriate balance was 
highlighted by several reviews we conducted on the FBI's use of 
national security letters. We first reported on the FBI's widespread 
misuse of national security letters in 2007 and issued a second review 
in March 2008. Our third report, issued in January 2010, examined in 
detail the FBI's use of so called ``exigent letters'' and other 
informal requests to obtain telephone records without legal process. We 
found widespread misuse of these exigent letters and other informal 
requests for telephone records.
    For example, contrary to the statements in the exigent letters, 
many of the FBI investigations for which the letters were used did not 
involve emergency circumstances and subpoenas had not been sought for 
the records. In addition, the FBI engaged in widespread use of other 
more informal requests for telephone records from communication service 
providers, in lieu of appropriate legal process or a qualifying 
emergency. The FBI asked for and obtained telephone records through 
requests made by e-mail, face-to-face, on post-it notes, and by 
telephone. The FBI also obtained telephone records using a practice 
referred to by the FBI and the providers as ``sneak peeks.'' Our report 
described other troubling practices regarding FBI requests for 
telephone records, including improper requests for reporters' telephone 
records, inaccurate statements made by the FBI to the Foreign 
Intelligence Surveillance Act (FISA) Court, and improper use of 
administrative subpoenas.
    In addition, our report analyzed the various attempts made by the 
FBI to address the misuse of exigent letters. We concluded that from 
2003 to March 2007 when we issued our first report, the FBI repeatedly 
failed to ensure that it complied with the law, Attorney General 
Guidelines, and FBI policy when obtaining telephone records from the 
on-site communications service providers.
    By contrast, we found that after we issued our first report in 
March 2007 the FBI took appropriate steps to address the difficult 
problems that its exigent letters practice had created. For example, 
the FBI ended the use of exigent letters, issued clear guidance on the 
use of national security letters and on the proper procedures for 
requesting such records, and provided training on this guidance.
    Our report also assessed the accountability of FBI employees for 
these improper practices and made 13 recommendations to ensure that 
past abuses do not recur. We believe that the FBI is taking the 
recommendations seriously, but additional work remains in this area. 
For example, the FBI's Office of Integrity and Compliance was 
established after issuance of the OIG's March 2007 national security 
letters report to detect and correct non-compliance with the rules 
governing FBI investigative authorities. The OIG intends to review the 
work of this office to determine whether it is operating effectively. 
In addition, the Department has yet to issue final minimization 
procedures concerning the retention of information obtained through 
national security letters. While a Department Working Group has 
developed recommendations for minimization procedures, the procedures 
have not yet been issued in final form.
    In short, while the Department's counterterrorism responsibilities 
are its highest priority, the Department faces the ongoing challenge of 
balancing individual civil rights and civil liberties as it seeks to 
protect national security.

                 RESTORING CONFIDENCE IN THE DEPARTMENT

    In the past several years, the Department of Justice has faced 
significant criticism for alleged misconduct in prosecutions, the 
dismissal of certain U.S. Attorneys, and politicization in the hiring 
of career officials. While these issues involve a small number of the 
many important responsibilities the Department handles and involve only 
a small percentage of the Department's dedicated workforce, they can 
affect confidence in the objectivity and non-partisanship of the 
Department as a whole. Restoring confidence in the Department is an 
important and ongoing challenge.
    In 2008 and 2009, the OIG and the Department's Office of 
Professional Responsibility (OPR) issued three joint reports which 
substantiated serious allegations of improper politicization in the 
hiring processes for career attorney positions in the Department's 
Honors Program and Summer Law Intern Program, in hiring for career 
positions by staff in the Office of the Attorney General, and in hiring 
lawyers for career positions and making other personnel decisions in 
the Civil Rights Division. Another joint OIG/OPR report issued in 2008 
concluded that the process used to remove certain U.S. Attorneys in 
2006 was fundamentally flawed, and the oversight and implementation of 
the removal process by the Department's most senior leaders was 
significantly lacking.
    In response, the Department has taken steps to address the problems 
we found in these reviews. For example, the Department returned the 
responsibility for hiring career attorneys from politically appointed 
officials to the Department's career management officials, and the 
Department has provided training to these selecting officials on 
inappropriate considerations in hiring. The Department also developed 
new briefing and training materials for Department political appointees 
which emphasized that the process for hiring career attorneys must be 
merit based.
    In addition, the Department has faced criticism about the conduct 
of its prosecutors in several recent prosecutions, including the 
prosecution of former Alaska Senator Ted Stevens. After a jury trial, 
the Department moved to dismiss the indictment of Senator Stevens 
because the Department had concluded that certain information should 
have been disclosed to the defense for use at trial. The Department's 
handling of this case created concern about the prosecutors' conduct, 
and Federal judges in other districts also have questioned whether the 
Department is adequately adhering to professional standards of conduct 
and addressing concerns of prosecutorial misconduct.
    In response to the concerns about attorney conduct, the Department 
has taken a variety of actions. In June 2009, a Department working 
group appointed by the Deputy Attorney General produced a report 
reviewing the Department's discovery and case management policies, 
procedures, and training, and made recommendations for improvement. In 
response to that report, the Department conducted a training conference 
at the National Advocacy Center in October 2009 on criminal case 
management and discovery for newly designated ``discovery trainers'' 
from all United States Attorneys' Offices. The discovery trainers were 
required to present mandatory training to all Assistant U.S. Attorneys 
in their districts on discovery issues. In January 2010, the Department 
provided guidance to prosecutors concerning best practices on discovery 
in criminal cases. The guidance set forth an approach for prosecutors 
to follow in gathering, reviewing, and producing discoverable 
information in a timely manner. In addition, the Department created the 
position of National Criminal Discovery Coordinator to oversee the 
ongoing training process for prosecutors on discovery issues, to assess 
the need for additional improvements, and to ensure continued 
implementation of the reforms.
    In short, we believe that restoring confidence is a continuing 
challenge for the Department. The Department needs to ensure that the 
diligence, hard work, and sound ethics of the overwhelming majority of 
Department employees are not undermined by the few but highly visible 
incidents of potential misconduct. While the Department's leadership, 
both at the end of the past administration and during this 
administration, has taken important steps to confront this challenge, 
the Department must remain focused on this important issue.

            FINANCIAL CRIMES, VIOLENT CRIME AND CYBER CRIME

    While the Department's highest priority is counterterrorism, it 
must also focus attention on its traditional law enforcement functions, 
including the investigation and prosecution of financial crimes, cyber 
crimes, and violent crimes.
    The investigation of financial crimes, including mortgage fraud, 
white collar crimes, healthcare fraud, and grant and procurement fraud, 
is an important priority. The Department recently created the Financial 
Fraud Enforcement Task Force, an inter-agency initiative aimed at 
implementing a coordinated and proactive approach to investigating and 
prosecuting financial crimes. The Task Force is composed of 
representatives from a broad range of Federal agencies, regulatory 
authorities, Inspectors General, and State and local law enforcement. 
For the Task Force to be effective, the Department needs to ensure 
effective collaboration with these partners, with private industry, and 
with consumers.
    In addition to the growing problem of financial crimes, the 
Department faces significant new challenges in combating cyber crime. 
Rapid technological advances and the widespread use of the Internet 
make cyber crime more challenging to detect and deter. For example, 
recent estimates suggest that identity theft is one of the fastest 
growing crimes in the United States and that it affects an estimated 10 
million Americans annually. In addition to financial losses, identity 
theft victims suffer tremendous inconvenience and emotional trauma when 
attempting to repair damage to their names or credit histories.
    The OIG recently assessed the Department's efforts to combat 
identity theft. Our audit found that the Department had not adequately 
coordinated its efforts to combat identity theft, and that to some 
extent identity theft initiatives had faded as a Department priority. 
We determined that the Department did not have its own internal 
strategy to combat identity theft and had not appointed any individual 
or office to have responsibility for coordinating the Department's 
overall identity theft efforts. We also identified problems with the 
Department's data collection efforts on identity theft investigations 
and with the notification of victims of identity theft. Our audit 
concluded that additional leadership is needed to ensure that the 
Department's efforts to combat identity theft are coordinated and given 
greater priority.
    The Department must also ensure that it places appropriate emphasis 
on combating violent crime, and that it coordinates its efforts in this 
area. For example, as noted previously in my testimony, we found that 
the FBI and ATF are not adequately coordinating their explosives-
related investigations and operations.
    Similarly, a review we issued in November 2009 concluded that two 
Department gang intelligence and coordination centers have not 
significantly improved the coordination and execution of the 
Department's anti-gang initiatives. Administered by the FBI, the 
National Gang Intelligence Center (NGIC) is a multi-agency center that 
develops and shares gang-related information. However, NGIC has not 
established a centralized gang information database as directed by 
statute due to technological limitations and operational problems, and 
has not shared gang intelligence and information effectively with other 
law enforcement organizations. The National Gang Targeting, 
Enforcement, and Coordination Center (GangTECC), administered by the 
Criminal Division, is a coordination center for multi-jurisdictional 
gang investigations, but we found that the lack of an operating budget 
prevents GangTECC from providing essential coordination and outreach. 
We recommended that the Department consider merging the two centers or 
ensure that their activities are better integrated. Because of the 
prevalence of gang violence, it is critical that the Department of 
Justice take swift action to improve the coordination of its anti-gang 
initiatives. The Department has recently informed us that it is 
progressing toward establishing a formal working agreement to collocate 
NGIC at the Organized Crime Drug Task Force fusion center and GangTECC 
at the Special Operations Division, and may begin moving personnel in 
early summer. We will continue to monitor the Department's actions to 
improve the coordination and effectiveness of its anti-gang operations.
    Another area of increasing concern is violent crime along the 
Southwest border. The OIG is reviewing ATF's implementation of Project 
Gunrunner, ATF's initiative to reduce firearms trafficking to Mexico 
and associated violence along the Southwest border. Our review follows 
another OIG review, completed in September 2009, which examined ATF's 
planning, hiring, staffing, and allocation of resources for Project 
Gunrunner.
    Apprehending violent fugitives is critical in the effort to address 
violent crime. The United States Marshals Service (USMS) is the Federal 
Government's primary agency for apprehending violent fugitives. In July 
2005, the OIG reported that the USMS had increased its apprehension of 
violent fugitives by 51 percent from fiscal year 2001 to fiscal year 
2004 and also increased the efficiency of its apprehension efforts. 
However, the increase in violent Federal fugitives at large outpaced 
the USMS's progress, rising 3 percent from fiscal year 2001 through 
fiscal year 2004. In response to recommendations in the OIG report, the 
USMS increased the number of regional fugitive task forces (there are 
now seven); established performance measures and goals related to the 
apprehension of violent fugitives; and established requirements to 
ensure that warrants for violent offenders are entered into the Warrant 
Information Network within one business day.
    Another aspect of the challenge of addressing violent crimes 
relates to the Department's efforts to implement the requirements of 
the Sex Offender Registration and Notification Act to help identify, 
arrest, and prosecute sex offenders who violate registration laws, and 
to help improve the quality of information available to law enforcement 
and the public about registered, non-compliant, and fugitive sex 
offenders. In a report issued in December 2008, we found that the 
Department's efforts have led to more investigations and arrests of 
fugitive sex offenders. However, the registries that make up the 
national sex offender registration system were missing records; 
existing records often failed to identify known fugitives; and the 
records often did not contain sufficient information to enable law 
enforcement or the public to accurately identify registered, non-
compliant, or fugitive sex offenders. Since our report, the FBI has 
modified the National Sex Offender Registry so that it now reflects the 
fugitive status of registered sex offenders, initiated quality control 
audits of the State sex offender registries that contribute records to 
the registry, and started providing the USMS with data from the 
registry for use in USMS fugitive sex offender investigations.
    It is also important that the Department ensures that it is taking 
full advantage of forensics tools available for the investigation and 
prosecution of violent crime. To that end, the OIG is examining the 
FBI's efforts to reduce its backlog in the forensic analysis of DNA 
samples. We are finding a continuing backlog that can affect the 
investigation of violent crimes.

               RECOVERY ACT FUNDING AND GRANT MANAGEMENT

    The Department faces challenges each year in managing the award of 
more than $3 billion in grant funds. In addition to these grants, the 
American Recovery and Reinvestment Act of 2009 (the Recovery Act) 
provided the Department an additional $4 billion in grant funds to 
award. The management and oversight of these Recovery Act funds is a 
significant challenge for the Department which must distribute this 
large amount of grant funding quickly, monitor the use of these funds, 
and continue to manage its annual grant programs at the same time. 
Moreover, despite the significant influx of Recovery Act money and the 
expansion of the Department's grant programs, the number of grant 
administrators who award and oversee grant programs has not 
significantly increased.
    Effective monitoring by each of the Department's grant-making 
agencies is crucial to the early identification and correction of 
problems among the Recovery Act grant recipients.
    The OIG is conducting a series of audits of the Department's 
Recovery Act grant award programs. For example, we reviewed the Office 
of Justice Program's (OJP) selection of grants in the Edward Byrne 
Memorial Justice Assistance Grant Program, and found that the 
Department generally awarded these grants in a timely and transparent 
manner. In addition, the OIG is completing reviews of the 
administration of Recovery awards for the Office of Community Oriented 
Policing Services (COPS) Hiring Recovery Program, Office of Violence 
Against Women (OVW) programs, the Office for Victims of Crime programs, 
and Bureau of Justice Assistance Grants for Correctional Facilities on 
tribal lands. These programs represent $3.8 billion of the Department's 
approximately $4 billion in Recovery Act grant funding. As each of 
these audits progressed, we issued interim reports and informed the 
Department of any concerns related to transparency of the grant 
process, allocation of grant funds, interagency coordination, and 
improving grant management. We intend to continue to monitor and issue 
reports on these grant programs.
    At the same time the Department faces the challenge of overseeing 
the infusion of Recovery Act funding, it must continue to focus on 
making timely awards of its regularly appropriated grant funds and in 
maintaining proper oversight over grantees to ensure the funds are used 
as intended. Several recent OIG reviews demonstrate the difficulties 
the Department has faced in the past in ensuring proper management of 
its grant funds. In September 2009 the OIG issued a report that raised 
concerns about the fairness and openness of OJP's National Institute of 
Justice's (NIJ) practices for awarding tens of millions of dollars in 
grants and contracts from fiscal year 2005 through fiscal year 2007. 
Our audit, which was requested by this subcommittee, found that the 
NIJ's process for reviewing grant applications--including initial 
program office reviews, peer reviews, documentation of program office 
recommendations, and documentation of NIJ Director selections--raised 
concerns about the fairness and openness of the competition process.
    In addition, we found that several NIJ staff involved in the grant 
award process had potential conflicts of interest when participating in 
the approval process for certain grants. We also determined that the 
NIJ did not adequately justify the sole-source basis for some non-
competitively awarded contracts and could not demonstrate that these 
contracts were exempt from the competitive process. We made nine 
recommendations in this report to improve NIJ's grant process, and the 
Department agreed to implement them.
    We believe that the Department has taken some significant steps 
toward improving its grant management process during the past 2 years. 
For example, in May 2008 the Department issued a memorandum directing 
OJP, COPS, and OVW to document all discretionary funding 
recommendations and decisions. In addition, OJP has made progress in 
staffing its Office of Audit, Assessment, and Management (OAAM), a unit 
intended to improve internal controls and streamline and standardize 
grant management policies and procedures. However, we believe that OJP 
needs to ensure that our audit recommendations regarding a particular 
grant program will be implemented throughout all applicable Department 
programs, rather than only in the specific program the OIG audited.
    To help the Department meet its grant management challenges, the 
OIG drafted a guide entitled, ``Improving the Grant Management 
Process.'' This document, which was based on our prior work regarding 
grant management issues throughout the Department, provides 43 
recommendations and examples of best practices that granting agencies 
should consider adopting to minimize opportunities for fraud, waste, 
and abuse in awarding and overseeing both Recovery Act and non-Recovery 
Act grant funds. The Department has taken positive steps in response to 
the recommendations in this document. For example, OJP is more 
aggressively identifying and working to mitigate risks among individual 
grantees by assessing each potential grantee's risk during the grant-
award process and imposing on high-risk grantees special conditions 
that provide a range of potential sanctions, including the withholding 
of funds. OJP also is working more closely with the OIG and now meets 
with the OIG on a quarterly basis to discuss grant issues.
    We believe that the Department is demonstrating a commitment to 
improving the grant management process, and we have seen significant 
signs of improvement. However, considerable work remains in ensuring 
effective grant management of the Recovery Act funds and the billions 
of dollars awarded annually in Department grants.

 INFORMATION TECHNOLOGY SYSTEMS PLANNING, IMPLEMENTATION, AND SECURITY 
                         UPGRADES AND SECURITY

    The Department faces ongoing challenges in managing the more than 
$2 billion it annually spends on information technology (IT) systems 
and in ensuring that its IT planning, development, and security 
measures maximize the effectiveness of these expenditures.
    One of the major challenges in this area has been the FBI's ongoing 
development of its Sentinel case management project. This project is 
intended to upgrade the FBI's electronic case management system and 
provide the FBI with automated workflow processes. The OIG has issued a 
series of reports examining the FBI's ongoing development of Sentinel. 
In March 2010, we issued our sixth report in this series.
    In this latest report, we identified significant concerns about the 
progress of the FBI's Sentinel project. Specifically, because of 
continuing issues regarding the usability, performance, and quality of 
Phase 2 of the Sentinel project that was delivered by Lockheed Martin 
to the FBI, on March 3, 2010, the FBI issued a partial stop work order 
to Lockheed Martin for portions of Phase 3 and all of Phase 4. In 
addition, the stop work order returned Phase 2 of the project from an 
operations and maintenance phase to a development phase.
    As a result, the cost of the Sentinel project is rising and the 
completion of Sentinel has been delayed. In a previous report, we had 
noted that Sentinel's overall completion date had already been 
postponed to September 2010, which was 9 months later than originally 
planned, and the total projected cost was $451 million, $26 million 
more than originally planned. Because of the recent problems with Phase 
2 of Sentinel and the stop work order, the FBI currently does not have 
official cost or schedule estimates for completing Sentinel. But the 
FBI has now acknowledged that Sentinel will cost more than $451 million 
and that Sentinel will likely not be completed until 2011.
    Our report noted that the FBI has taken several steps to improve 
Sentinel's chances for success, including the use of independent 
assessments, performed by other contractors of the primary contractor's 
deliverables. However, our report identified major issues that the FBI 
needs to address. For example, the FBI does not have a documented 
strategic plan outlining how it will transfer remaining case file data 
from its Automated Case Support system to Sentinel. We also noted our 
concern that the FBI has either discontinued or delayed some of the 
internal assessments of Sentinel's progress that it previously was 
performing on a routine basis, which could compromise the FBI's ability 
to perform real-time evaluations of the project's development and apply 
appropriate risk management strategies.
    Given the importance of Sentinel to the future of FBI operations, 
our recent report concluded that the FBI must ensure that its revisions 
to Sentinel's budget, schedule, and requirements are realistic, 
achievable, and satisfactory to its users. The FBI must also ensure 
that users' concerns and perspectives are integrated into all phases of 
the remaining development of Sentinel. While we believe that Sentinel 
can succeed, it will take close scrutiny and careful oversight by the 
FBI to minimize any further schedule delays and budget increases and to 
ensure that the final product meets users needs.
    We believe that the Department has made some progress in planning 
for other new IT systems, but it still faces challenges of delayed 
implementation, deficient functionality, and cost overruns in IT 
systems. Historically, the Department's components have resisted 
centralized control or oversight of major IT projects, and the 
Department's Chief Information Officer (CIO) does not have direct 
operational control of Department components' IT management. We believe 
the Department should enhance the CIO's oversight of the development of 
high-risk IT systems throughout the Department.
    Several of our audits identified concerns about the development of 
critical Department IT systems. For example, last year an OIG audit 
report examined the Department's progress toward developing the 
Litigation Case Management System (LCMS). The LCMS project was intended 
to develop an IT infrastructure for storing case information, managing 
it centrally, and making it available to the approximately 14,500 
authorized users in the Department's 7 litigating divisions. Our audit 
found that the LCMS project, which the Department began in 2004, was 
more than 2 years behind schedule, approximately $20 million over 
budget, and at significant risk of not meeting the Department's 
requirements for litigation case management.
    Our audit concluded that both the Department and its contractor 
shared responsibility for the significant delays and budget overruns in 
this project. We urged better oversight of this project to minimize or 
avoid further schedule and cost overruns. In response to our report, 
the Department has expressed a strong commitment to implementing the 
LCMS and to fully adopting our recommendations. However, the 
implementation of LCMS is still struggling.
    Another example of delays in implementing a new IT system involves 
the FBI's efforts to implement a Laboratory Information Management 
System for the FBI Laboratory, which the FBI has been working on since 
1998.
    As the Department develops its new IT systems, it also must ensure 
the security of those systems and the information they contain. The 
Department must balance the need to share intelligence and law 
enforcement information with the need to ensure that such information 
sharing meets appropriate security standards.
    A December 2008 OIG audit found that the Department lacked 
effective methodologies for tracking the remediation of identified IT 
vulnerabilities. Our report made four recommendations to assist the 
Department in its efforts to address such vulnerabilities. Since the 
issuance of our report, the Justice Security Operations Center (JSOC), 
which provides real-time monitoring of the Department's networks to 
detect vulnerabilities and threats, became fully functional, and now 
covers all of the Department's components. The JSOC mitigates threats 
and vulnerabilities by blocking known threats from accessing the 
Department's systems and creating real-time alerts to components for 
immediate remediation as issues arise. In addition, the Department has 
developed an inventory of all IT devices on the Department's networks, 
updated annually, to ensure that monthly scans adequately cover the 
Department's entire IT environment. As part of our follow-up efforts, 
we intend to initiate an audit of the JSOC that will review its 
capabilities to detect and respond to intrusion incidents and 
communicate computer-intrusion efforts.
    Portable IT media continues to pose IT security risks in the 
Department and across Government. In an effort to assess the 
Department's efforts to safeguard information stored on portable 
devices, the OIG recently conducted audits of both the Civil Division's 
and the Criminal Division's laptop computer encryption program and 
practices. These audits found that a significant percentage of the 
laptop computers owned by contractors working with the Civil Division 
and the Criminal Division were not encrypted, and the contractors were 
not notified of Department laptop encryption requirements. In addition, 
we found that 25 percent of the Criminal Division laptops that we 
tested had sensitive data but did not have encryption software 
installed and did not have operating system passwords enabled. We asked 
the Department to ensure that all components are aware of the findings 
of our reports and also ensure that laptops are properly encrypted, 
even though our audit findings were directed at the Civil and Criminal 
Divisions.
    In sum, the Department must closely manage its IT projects to 
ensure the systems are cost-effective, well-run, secure, and able to 
achieve their objectives.

                      DETENTION AND INCARCERATION

    The Department's responsibility to safely and economically manage 
its rising Federal inmate and detainee populations is a challenge that 
has significant budget implications. The Federal inmate population has 
dramatically increased over the past 30 years, from fewer than 25,000 
inmates in the Federal Bureau of Prisons' (BOP) custody in 1980 to more 
than 210,000 inmates in 2010. Approximately 83 percent of these inmates 
are confined in BOP-operated facilities, with the balance housed in 
privately managed or community-based facilities and local jails. 
Overcrowding continues to be a serious concern in BOP facilities.
    In addition to issues presented by overcrowding, the BOP must 
address other safety threats, including staff sexual abuse of 
prisoners. Staff sexual abuse has severe consequences for victims, 
undermines the safety and security of prisons, and in some cases leads 
to other crimes. For example, Federal correctional workers who are 
sexually involved with prisoners have been subject to extortion demands 
and may be more easily pressured to violate other prison rules and 
Federal laws. Compromised personnel who have sexually abused prisoners 
also have been found to have provided contraband to prisoners, accepted 
bribes, and committed other serious crimes in an effort to conceal 
their sexual involvement with Federal prisoners.
    In a September 2009 review, we concluded that the Department and 
the BOP both need to take additional steps to effectively deter, 
detect, investigate, and prosecute staff sexual abuse of Federal 
prisoners. Allegations of criminal sexual abuse and non-criminal sexual 
misconduct at BOP institutions more than doubled from fiscal year 2001 
through fiscal year 2008. Yet, our review found that deterrence and 
detection of staff sexual abuse are hampered by the practice at some 
BOP prisons of automatically isolating, segregating, or transferring 
victims, which inmates often regard as punitive. We also concluded the 
BOP needs to improve staff training, inmate education, and program 
oversight on sexual abuse of inmates. In addition, we found that some 
Department prosecutors have a general reluctance to prosecute certain 
staff sexual abuse cases, and we concluded that training Federal 
prosecutors on the detrimental impact of staff sexual abuse on inmates, 
other prison staff, and prison security would improve the Department's 
effectiveness in prosecuting these cases.
    The Prison Rape Elimination Act of 2003 requires the Department to 
promulgate national standards for the detection, prevention, reduction, 
and punishment of sexual abuse in detention facilities by June 2010. 
The Department is now engaged in creating these standards.
    The OIG is also reviewing other aspects of the BOP's efforts to 
handle its difficult mission of housing inmates in safe, secure, and 
cost-efficient facilities. For example, the OIG is currently examining 
the BOP's strategies and procedures for hiring correctional officers. 
In another review, we are investigating allegations that the BOP failed 
to adequately address concerns that staff and inmates at several BOP 
institutions were exposed to unsafe levels of lead, cadmium, and other 
hazardous materials in computer recycling operations. We also are 
conducting a follow-up audit of the BOP's efforts to manage inmate 
healthcare.
    In addition to the BOP's challenges, the Department must also 
provide adequate and economical housing for the increasing number of 
Federal detainees taken into custody by the USMS. Over 50,000 Federal 
detainees awaiting trial or sentencing are housed each day by the USMS, 
primarily in jails under contract with the USMS. The Department's 
Office of the Federal Detention Trustee (OFDT) oversees the USMS's 
detention activities and manages the budget for housing USMS detainees. 
For fiscal year 2011, the OFDT is requesting over $1.5 billion to pay 
for housing, transporting, and providing medical care for detainees.
    The USMS places the majority of its Federal detainees in space 
leased from State and local governments, with the remaining detainees 
housed in BOP facilities or in private correctional facilities. The 
USMS maintains contracts, known as Intergovernmental Agreements (IGA), 
with about 1,800 State and local facilities to house its detainees. 
Over the years we have found problems with the manner in which the per 
diem charges that the Department pays for each detainee (also known as 
a jail-day rate) are determined and with the Department's monitoring of 
the charges. Increases in these charges can have an enormous affect on 
the OFDT's budget. We are now conducting another audit of OFDT's 
process for identifying and negotiating fair and reasonable per diem 
rates.
    In addition, the Department plays an important role in integrating 
released inmates back into society and attempting to reduce recidivism 
by providing grants to State and local agencies, law enforcement, and 
community groups for prisoner re-entry programs. We currently are 
auditing the Department's design and management of its prisoner re-
entry initiative grant programs. This audit will assess whether the 
Department has an effective system for monitoring grantees and for 
determining whether the grantees are meeting program goals.

                          FINANCIAL MANAGEMENT

    Our audits have found that the Department has made significant 
improvements in its financial reporting. At the same time, there is an 
increasing demand for financial accountability and transparency 
throughout the Federal Government, and the need for accurate, near 
real-time financial information continues to present a significant 
management challenge for the Department.
    In fiscal year 2009, the Department again earned an unqualified 
opinion and improved its financial reporting. For the 3rd straight 
year, the financial statement audit did not identify any material 
weaknesses in the Department's consolidated financial statements. 
Additionally, Department components reduced significant deficiencies in 
their financial statements from 14 in fiscal year 2008 to 8 in fiscal 
year 2009. The Department deserves significant credit for these 
efforts.
    Similar to past years, however, much of this success was achieved 
through heavy reliance on contractor assistance, manual processes, and 
protracted reconciliations done for quarterly and year-end statements. 
We remain concerned about the sustainability of these ad hoc and costly 
manual efforts.
    The decentralized structure of the Department also presents a major 
challenge to obtaining current, detailed, and accurate financial 
information about the Department as a whole because there is no one 
single source for the financial data. The Department currently uses six 
major accounting systems that are not integrated with each other. In 
some cases, the Department components' outdated financial management 
systems are not integrated with all of their own subsidiary systems and 
therefore do not provide automated information necessary to support the 
need for timely and accurate financial information throughout the year. 
As a result, many financial tasks must be performed manually at interim 
periods and at year end. These costly and time-intensive efforts will 
continue to be necessary to produce financial statements and to satisfy 
other financial requirements until automated, integrated systems are 
implemented that readily produce financial information throughout the 
year.
    The Department has placed great reliance on the implementation of 
the Unified Financial Management System (UFMS), which is intended to 
replace the six major accounting systems currently used throughout the 
Department. This unified system is expected to address many of the 
Department's financial management automation issues. The UFMS is 
intended to standardize and integrate financial processes and systems 
to more efficiently support accounting operations, facilitate 
preparation of financial statements, and streamline audit processes. It 
also will enable the Department to exercise real-time, centralized 
financial management oversight. We support the Department's 
implementation of the UFMS and believe the system can help eliminate 
the weaknesses in the Department's current disparate financial 
management systems.

                               CONCLUSION

    In sum, the Department has made progress in addressing many of its 
top management challenges, but improvements are needed in important 
areas. The Department must maintain its focus on counterterrorism while 
effectively pursuing its traditional law enforcement duties, protecting 
civil rights and civil liberties, restoring public confidence in the 
Department, providing effective oversight of the billions of dollars in 
grant awards each year, ensuring safe and economic detention 
facilities, and effectively managing information technology and 
financial management systems.
    These are difficult tasks which require constant attention and 
strong leadership by the Department. To aid in this effort, the OIG 
will continue to conduct vigorous oversight of Department programs and 
provide recommendations for improvement.
    This concludes my prepared statement, and I would be pleased to 
answer any questions.

    Senator Mikulski. Well, thank you very much, Mr. Fine. And 
as I said earlier when we welcomed you to the table, you have 
been at Justice since 1995. Am I correct, sir?
    Mr. Fine. That is correct, yes.
    Senator Mikulski. So we really want to thank you for your 
service, and we would like to thank the entire staff of the 
inspector general's office for the work that they do. As you 
can see, I intend to be a watchdog and a reformer in terms of 
the administration.
    You know, it is not whether you are for big government or 
small government, but are you for smart government? And I think 
we are in alignment here.
    I am not going to ask questions about Sentinel, but I am 
going to thank you for bringing that forward as an issue. Well 
before this hearing, this Chair and staff have been actively 
involved with both the Director of the FBI, the contractor, and 
so on to make sure that the original purpose--that Sentinel 
does happen and happens the way it is supposed to happen, 
within appropriate budget parameters. We are not going to go 
back to the boondoggle that we had with the previous attempt.
    Now you heard today from the exchange by Senator Murkowski, 
and even me, with the Attorney General, about this watch list 
issue. In your testimony, you say that the FBI needs to do 
more. You talk about in your audit report that you had made 16 
recommendations to the FBI, and they have improved 9. But we 
are all deeply troubled by this watch list, and the watch lists 
don't seem to be working the way they were intended.
    And you know the story. In this case, this man got on this 
plane when there was actually active hot pursuit going on. At 
the same time, I know in my own State, there is a prominent 
business man who travels to the west coast every single week at 
the same time, getting on the same plane. Everybody knows him 
because of the regularity of his habits. Because of his last 
name, he is on a list, and he has to go through it like he just 
arrived in the country and is paying cash for every single 
thing in the world.
    So those are two sides of the coin. Do you have any further 
thoughts on how we could make this more effective, or, in light 
of what has happened over the last couple of days, where some 
things work well in a spectacular way and others really raise 
some flashing yellow lights, like the watch list?

                           WATCH LIST REFORM

    Mr. Fine. We have done a series of reviews on the watch 
list, and we have had concerns about it. Both areas that you 
talk about, making sure that people, appropriately, are put on 
the watch list in a timely fashion, in an accurate way, and 
also that people who shouldn't be on the watch lists are taken 
off.
    We found problems with the FBI getting people on quickly 
and also accurately putting them on. In fact, our review found 
that 15 percent of the FBI terrorism investigations we reviewed 
had failed to nominate terrorism suspects to the consolidated 
watch list. That is unacceptable because it increases the risk 
that these people can move about freely. So we think that needs 
to be done more quickly.
    We think, also, the information needs to get to the front-
line screeners who need it in a quicker fashion, both the 
Customs and Border Patrol people and the individuals at the 
airport. And one of the things that we looked at a long time 
ago was the issue of secure flight and who was going to 
actually be doing the screening of the people on the manifest 
of the airplanes.
    And now it is with the airlines. My understanding, it is 
moving toward the TSA who will take over that responsibility. 
And hopefully, with that, there will be more expeditious, 
quicker, and effective screening of those passengers before 
they get on a plane.

                           GRANT DISBURSEMENT

    Senator Mikulski. Well, in light of what has happened, I 
think there are going to be a lot of recommendations, and we 
would welcome your views on that.
    Let us go to the issue of grant disbursement. We want it to 
be fair, meet criteria, and be done in a timely way. We have 
asked them to do, what--I think you said $3 billion?
    Mr. Fine. It is $3 billion each year for the Department.
    Senator Mikulski. That is like 10 percent of the 
Government's funding. And I know at another hearing, our 
colleague Senator McCaskill raised issues about how, in the 
previous administration, the Byrne grants were handled and so 
on. So I am not here to finger point. I am here to pinpoint.
    Are there things that we need to encourage through the 
appropriation process, a way that to improve the grant 
disbursal, the grant management process?
    Mr. Fine. I think there are some things that the Department 
can do to improve and that this subcommittee can spur the 
Department to do. I think it is important to get that money 
out, but it has to be used effectively, and there has to be 
monitoring of where that money goes.
    So we need to have a fair and open process. There has to be 
documentation about why we are giving it to one person or the 
other, not simply discretionary, subjective views, and that 
when it goes out there, there has to be training to how it is 
to be used. There also has to be an assessment of whether there 
are high-risk grantees that need extra monitoring and extra 
training to ensure that that money is used appropriately.
    OJP, the Office of Justice Programs, has an office audit 
assessment management. That should be an internal screening 
mechanism to go out and do monitoring to make sure the 
financial reports are in, to make sure that the money is used 
for its intended purposes and it is being effective, and I 
believe OJP has made progress in beefing up that office. But it 
ought to do more of that.
    It shouldn't wait for the OIG to come in and find problems. 
It ought to prevent the problems in the first place, find 
problems on their own, and not wait for an outside entity like 
the OIG to find problems. So I think that is a critical area--
--
    Senator Mikulski. Could I chime in? Do you think it is an 
issue related to staffing, training, or culture?
    Mr. Fine. I think it is all of the above, all of those. It 
has not been staffed up adequately, I don't think. I think the 
culture has been, in the past, to get that money out quickly, 
but not to ensure that it is being used appropriately. I think 
that is changing with the new head of OJP. But I also think 
that there needs to be training on that money as well, to not 
simply expect that it will be used appropriately.
    Senator Mikulski. You know what I have found, and you heard 
me raise some of the issues with making sure we have law 
enforcement that is not only putting ``boots on the ground.'' 
We often in Congress will provide money for staff, but then not 
for training or for technology that maximizes the efficacy of 
what they are doing. Would you say that this is an area we 
should focus on, which is not only the adequacy of people, but 
that we really look at training and the--well, of course, the 
technology issues in the Government are a whole other one. But 
would you concur with that?

                         TRAINING AND OVERSIGHT

    Mr. Fine. Yes. I think there does need to be adequate 
training, and I think that is a core function of what these 
grant-making entities need to do. Not simply to get that money 
out there, but to train people on how it is to be used and how 
it is to be used effectively.
    It only takes a small percentage of that $3 billion to be 
held back for adequate management and oversight to have 
effective use of it, and I think there ought to be a small 
percentage of that to go for effective management, to go for 
training, to go for adequate oversight internally by the 
Department of Justice and also by the Office of the Inspector 
General. So I think that is an important thing that should be 
considered in the appropriations and makeup of those grant 
programs.
    Senator Mikulski. Well, thank you. There are other issues 
that we want to talk about as well with you, particularly in 
the area of the detention of prisoners. And you very rightfully 
brought forward that when we have the responsibility of holding 
people in an incarcerated situation, the issue of violence 
against prisoners, and then concurrently also violence against 
prison officers is deeply troubling. I am going to ask my staff 
to talk with you in more detail about that.
    But you know, I want to ask a question where it sounds like 
Senator Barb Mikulski meets Senator Tom Coburn. One of the 
areas where we absolutely agree is where the Federal Government 
provides funds, but we end up in conferences where it is 66 
bucks per person to provide bagels. And I was at a community 
fair, and there was something that someone gave me a little 
plastic shopping bag with the name of an agency, not a Federal 
agency head, and said, ``Here, enjoy it. You paid for it.''
    Well, that is not what I go to my taxpayers to ask them to 
do. There are a lot of--and that is where we get a bad rep. You 
know, that is where, quite frankly, some of the folks who are 
cranky with government have every right to be cranky.
    You know the famous $4 Swedish meatball? I think there was 
some extravagant spending at conferences and so on. How does 
the inspector general see getting a grip on that?
    I mean, I do believe in conferences. Gosh, you go to the 
gang conference that we have in Maryland with the support of 
the U.S. Attorney and all of us at the local level, and they 
really do share information and further those important 
relationships that are so critical in law enforcement for rapid 
response and so on. But you know, 66 bucks for a bagel 
breakfast is a little high.
    Mr. Fine. You are absolutely right, and I think at the 
request of this subcommittee, I believe, we did a review of 
conference expenditures of the Department and found those 
abuses. And you don't need lavish spreads to have an effective 
conference, and we were very concerned by that.
    We found, as you point out, a cost of $4 meatballs. We 
found cost of sodas; a can of soda would cost $4.55 that they 
would charge for one can of Coke. And it was just over the top.
    As a result of our review, the Department has implemented 
oversight procedures. They make sure that the funding for meals 
is at a reasonable level. They make sure that there are 
alternative locations sought to see that it is done in an 
economic fashion. They look at the per diem cost. You have to 
get Department approval for non-Federal facilities.
    So I think there have been reforms made as a result of the 
issues that were brought to the table. But you are absolutely 
right. You don't need that kind of funding or that kind of 
excess to have an effective conference, and I think the 
Department of Justice understands that and has gotten a handle 
on that. We are actually continuing to--we are doing a follow-
up review, actually about to initiate one right now to see what 
reforms have been made. Have they been effective, and do they 
have a handle on this?
    Senator Mikulski. Well, we estimate that we won't be 
marking up our bill, of course, until June, waiting for the 
House. But we will look forward to your report, if it comes 
again, and that is all part of our smart government 
initiatives, and again, I am for conferences or the kinds of 
meetings that occur. I think that is the only way you can do 
training, and--I think you would concur in your many years at 
Justice--where law enforcement, particularly at the State and 
local level, can come together and forge those relationships 
that work so well.
    After the terrible events of 9/11, our local law 
enforcement around the Beltway, meaning Maryland, Virginia, and 
the District, I think developed much closer relationships. And 
then, along comes something like the terrible sniper case. 
Remember that?
    Mr. Fine. Absolutely.
    Senator Mikulski. You are a local guy. But because they 
knew each other, talked with each other, trusted each other, we 
didn't have to Federalize our response. Because they had been 
trained, equipped, and trusted, we were able to bring that 
sniper to justice.
    And so, I believe in the training and the camaraderie that 
comes from collaboration and training, but we have to be 
prudent.
    So I am going to say thank you, and we want to have ongoing 
other conversations with you, and please, you have to know we 
really do appreciate the work of the Attorney General, and if 
you could convey that to your staff, I, and speaking for 
Senator Shelby, who himself is a watchdog on these issues, we 
would very much appreciate it.
    Thank you.
    Mr. Fine. Thank you very much.
    Senator Mikulski. Before I conclude, I want to reiterate 
the fact that Senator Shelby wanted very much to be here, and 
he, too, sir, might have additional questions for you. And we 
invite his staff, if there are any others.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are no further questions, the Senators may submit 
additional questions to the subcommittee. We request the 
Department of Justice's response within 30 days. Now because of 
so many controversial issues in the subcommittee pertaining to 
both the administration of justice, the space committee, we 
reserve the right to hold ongoing hearings as we do our due 
diligence on this year's appropriation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted to Hon. Eric H. Holder, Jr.
           Questions Submitted by Senator Barbara A. Mikulski

                   FINANCIAL FRAUD--PREDATORY LENDING

    Question. The collapse of the subprime mortgage market has brought 
about an explosion of mortgage fraud cases all across the United 
States. Predatory lenders destroy families and communities, and 
undermine faith in financial systems. The Justice Dept's financial 
fraud workload is sure to increase as more predatory lenders are 
exposed.
    Last year, this subcommittee gave you $438 million to hire 54 new 
agents, 165 new attorneys and 142 new professional support staff 
dedicated to investigating financial fraud, bringing the total number 
working on this problem to over 4,000 Federal personnel. We need to 
continue this surge in financial fraud investigations.
    How many more agents, forensic accountants and analysts will you 
need to address the mortgage fraud workload?
    Answer. Congressional support in prior fiscal years has greatly 
enhanced the FBI's ability and capacity to address mortgage fraud. In 
the 12 month period between October 1, 2008 and September 30, 2009, the 
FBI obtained 494 mortgage fraud convictions. On June 18, 2010, 
Operation Stolen Dreams, a 3\1/2\ month sweep was concluded which, with 
the assistance of 7 participating Federal agencies, has thus far 
resulted in 863 indictments and information and 391 convictions.
    However, the scope of the criminal threat, as well as the resources 
available to address it, continues to require the prioritization of 
investigations. In fiscal year 2010, over 68 percent of the FBI's 3,045 
mortgage fraud cases involved losses exceeding $1 million per case. In 
addition, the FBI anticipates it will receive over 75,000 Suspicious 
Activity Reports (SARS) in fiscal year 2010, an increase of over 241 
percent since 2005. FBI intelligence, industry sources such as the 
Mortgage Asset Research Institute (MARI), and recent reports by the 
special inspector general of the Troubled Asset Relief Program 
(SIGTARP) predict an increase in foreclosures, financial institution 
failures, regulatory agency/independent auditor fraud referrals, and 
governmental housing relief fraud. These risk-based indicators of 
mortgage fraud indicate that even prioritized investigations will 
persist or grow in fiscal year 2011 and beyond. Therefore, the nature 
of the criminal problem, the prolonged economic downturn, increased 
foreclosures, and continued profitability of mortgage fraud may 
increase mortgage fraud workload, which may, in turn, require the 
investment of FBI resources to address the threat.
    The FBI has approximately 358 Special Agents, 26 Intelligence 
Analysts and 39 Forensic Accountants/Financial Analysts devoted to 
investigating mortgage fraud matters in fiscal year 2010. The 
administration's fiscal year 2011 request includes another $75 million 
for 367 positions (143 agents) to combat white collar crime and 
mortgage fraud. Like all criminal matters, the FBI makes every effort 
to implement new and innovative methods to detect and combat mortgage 
fraud, and focuses on the most egregious cases to address mortgage 
fraud crimes.
    Question. Will you be able to add agents to conduct these 
investigations, even as you lose criminal agents to counterterrorism 
work?
    Answer. While it is accurate that the FBI moved criminal 
investigative resources to counterterrorism in the months and years 
immediately following September 11, 2001, more recently the FBI has 
reallocated resources from lower priority white collar criminal 
programs to address the growing mortgage fraud problem. The FBI has 
more than 358 Special Agents addressing mortgage fraud, and many of 
those resources have come from other lower priority white collar crime 
investigations. For example, since fiscal year 2007, the FBI has 
doubled the number of mortgage fraud investigators, leaving only 106 
Special Agents available to investigate the approximately 1,900 
remaining financial institution fraud cases. As previously mentioned, 
congressional support, specifically for mortgage fraud, in prior fiscal 
years has greatly enhanced our capability; however, the scope of the 
criminal threat, as well as the resources available to address it, 
continues to require the prioritization of investigations.
    Question. What new training will you need to give agents and 
analysts to investigate predatory lenders?
    Answer. Predatory lending occurs primarily during the loan 
origination process, and the FBI is continuing to investigate loan 
origination fraud. Therefore, the FBI will continue to educate 
analysts, investigators, and accountants on ways to identify and 
investigate schemes where industry insiders target vulnerable 
populations, and how to address this and other loan origination 
schemes. Successfully addressing the problem will require understanding 
the ways to identify where origination fraud has occurred, what factors 
leave a community vulnerable, and which techniques can be best employed 
to mitigate the threat. In addition to new training that will be 
developed, the FBI continues to provide regular training to new and 
experienced agents and regularly shares information on best practices, 
emerging trends, and successful sophisticated techniques with its law 
enforcement partners. For example, the mortgage fraud training courses 
focus on proactive intelligence, basic mortgage fraud investigative 
tools and resources, and enforcement measures that can be used to 
efficiently and effectively combat mortgage fraud. The training also 
provides an understanding of the mortgage lending process, including 
the entities, paperwork, and regulatory agencies involved. These 
training classes include industry and law enforcement experts, such as 
the Department of Housing and Urban Development--Office of the 
Inspector General and the Federal Deposit Insurance Corporation, to 
educate agents, analysts, and forensic accountants on the various types 
of mortgage fraud schemes, including predatory lenders.
    Question. How can you better help State and local officials 
investigate predatory lenders?
    Answer. As mentioned previously, addressing loan origination fraud 
where a vulnerable population is exploited by industry insiders is 
largely a matter of identifying and understanding who is vulnerable, 
how they are targeted, and the best means of mitigating that 
vulnerability. The FBI uses its 23 mortgage fraud task forces and 67 
mortgage fraud working groups not only to pool resources to investigate 
the crime problem, but also to share valuable intelligence. By 
expanding these partnerships and building on our current successes, the 
FBI can continue to work with state and local officials to address this 
crime problem.

                           HEALTH CARE FRAUD

    Question. Now that the historic healthcare reform legislation is 
law, we must do more to combat healthcare and insurance fraud that cost 
U.S. citizens more than $60 billion annually.
    We need to make sure law enforcement has the resources it needs to 
investigate these crimes and prosecute the scammers.
    What roles is the Justice Department already playing in healthcare 
fraud investigations and prosecutions?
    Answer. The Department of Justice (DOJ) has been both investigating 
and prosecuting healthcare fraud for many years, working with the 
Department of Health and Human Services (HHS) to root out waste, fraud, 
and abuse from the Federal healthcare system.
    While the FBI does the majority of the criminal investigative work, 
the Department's Civil Division investigates qui tam relator cases and 
the Civil Rights Division investigates violations of the Civil Rights 
of Institutionalized Persons Act (CRIPA), 42 U.S.C. Sec. 1997. In 
addition to these investigatory roles, the Civil Division, Criminal 
Division, Civil Rights Division, and U.S. Attorneys Offices all 
prosecute healthcare fraud.
    Specifically, the Department's efforts to combat healthcare fraud 
are as follows:
United States Attorneys
    The 93 United States Attorneys and their assistants, or AUSAs, are 
the Nation's principal prosecutors of Federal crimes, including 
healthcare fraud, and each district has a designated Criminal Health 
Care Fraud Coordinator and a Civil Health Care Fraud Coordinator. Civil 
and criminal healthcare fraud referrals are often made to United States 
Attorney's Offices (USAOs) through the law enforcement network 
described herein, and these cases are usually handled primarily by the 
USAOs, although civil cases are sometimes handled jointly with the 
Civil Division. The other principal source of referrals of civil cases 
for USAOs is through the filing of qui tam (or whistleblower) 
complaints. These cases are often handled jointly with trial attorneys 
within the Civil Division, but may be handled solely by the USAO. USAOs 
also handle most criminal and civil Federal appeals.
    The Executive Office for United States Attorneys' Office of Legal 
Education (OLE) trains AUSAs and other Department attorneys, as well as 
paralegals, investigators, and auditors in the investigation and 
prosecution of healthcare fraud. For example, in 2009, OLE offered a 
Health Car Fraud Seminar for AUSAs and Department attorneys, which was 
attended by over 100 attorneys, as well as a Medicare Fraud Strike 
Force Seminar and an Affirmative Civil Enforcement Conference, 
including healthcare fraud issues, for paralegals, auditors and 
investigators.
    USAOs play a major role in healthcare fraud enforcement by bringing 
affirmative civil cases to recover funds wrongfully taken from the 
Medicare Trust Funds and other taxpayer-funded healthcare systems as a 
result of fraud, waste, an abuse. Civil AUSAs, similar to their 
criminal counterparts, litigate a wide variety of healthcare fraud 
matters including false billings by doctors and other providers of 
medical services, overcharges by hospitals, Medicaid fraud, and 
kickbacks to induce referrals of Medicare or Medicaid patients, fraud 
by pharmaceutical companies, and failure of care allegations against 
nursing home owners.

Civil Division
    Civil Division attorneys pursue civil remedies in healthcare fraud 
matters, working closely with the USAOs, the HHS/Office of Inspector 
General (OIG), the FBI, the Department of Defense, and other Federal 
and State law enforcement agencies. Civil Division attorneys 
investigate and litigate a wide range of healthcare fraud matters, 
including allegations that Medicare and Medicaid providers and 
suppliers (e.g., hospitals, doctors, skilled nursing facilities, 
pharmaceutical and device manufacturers) overcharged the Government for 
healthcare services or goods, or, that they billed for goods and 
services that were not provided or not medically necessary. Oftentimes, 
these allegations are linked to allegations that the doctors and others 
were paid kickbacks or other remuneration to induce referrals of 
Medicare or Medicaid patients in violation of the Anti-Kickback Act and 
Physician Self-Referral laws. The Civil Division also investigates a 
wide range of pharmaceutical and device fraud, including allegations of 
drug price manipulation and illegal marketing activity that caused the 
Medicare and Medicaid programs to pay for drug uses that were not 
medically accepted indications (i.e., they were neither approved by the 
FDA nor supported by applicable drug compendia, medical literature, or 
accepted standards of medical practice).
    In addition to its recovery efforts, the Civil Division provides 
training and guidance in connection with pharmaceutical and device 
fraud matters. Given the nationwide scope of the defendants' conduct, 
as well as the complex legal and factual issues in these cases, the 
Civil Division plays a critical role in coordinating both investigative 
efforts and the legal positions taken by the Department.
    Lastly, the Elder Justice and Nursing Home Initiative coordinates 
and supports law enforcement efforts to combat elder abuse, neglect, 
and financial exploitation. The Initiative supports law enforcement 
efforts by maintaining an information bank of Elder Justice related 
materials (including briefs, opinions, indictments, plea agreements, 
subpoenas templates); funding medical reviewers, auditors, and other 
consultants to assist Department attorneys and AUSAs in their nursing 
home and/or long term care facility cases; hosting quarterly 
teleconferences with Department attorneys and AUSAs across the country 
to discuss issues or developments in connection with our nursing home 
and failure of care cases; and coordinating nationwide investigations 
of skilled nursing facilities.

Criminal Division
    The Criminal Division supports criminal healthcare fraud litigation 
and interagency coordination, which is carried out primarily by two of 
its sections: the Fraud Section and the Organized Crime and 
Racketeering Section (OCRS).
    The Fraud Section initiates and coordinates complex healthcare 
fraud prosecutions and supports the USAOs with legal and investigative 
guidance and training, and trial attorneys to prosecute healthcare 
fraud cases. Beginning in March 2007, the Criminal Division's Fraud 
Section working with the local USAOs, the FBI, law enforcement partners 
in HHS, and State and local law enforcement agencies launched the 
Medicare Fraud Strike Force in Miami-Dade County, Florida to prosecute 
individuals and entities that do not provide legitimate healthcare 
services, but exist solely to defraud Medicare and other Government 
healthcare programs. Since 2007, the Department and HHS have expanded 
the Strike Force to seven locations.
    In addition to healthcare fraud litigation, the Fraud Section also 
provided legal guidance to FBI and HHS agents, health program agency 
staff, AUSAs and other Criminal Division attorneys on criminal, civil 
and administrative tools to combat healthcare fraud; provided advice 
and written materials on patient medical record confidentiality and 
disclosure issues, and coordinated referrals of possible criminal HIPAA 
privacy violations from the HHS Office for Civil Rights; monitored and 
coordinated Department responses to legislative proposals, major 
regulatory initiatives, and enforcement policy matters; reviewed and 
commented on healthcare provider requests to the HHS/OIG for advisory 
opinions, and consulted with the HHS/OIG on draft advisory opinions; 
worked with CMS to improve Medicare contractors' fraud detection, 
referrals to law enforcement for investigation, and case development 
work; and prepared and distributed to all USAOs and FBI field offices 
periodic summaries of recent and significant healthcare fraud cases.
    The Criminal Division's Organized Crime and Racketeering Section 
(OCRS) supports investigations and prosecutions of fraud and abuse 
targeting the 2.8 million private sector health plans sponsored by 
employers and/or unions, including schemes by corrupt entities that 
sell insurance products. Such private sector group health plans are the 
leading source of healthcare coverage for individuals not covered by 
Medicare or Medicaid. OCRS also provides strategic coordination in the 
identification and prosecution of domestic and international organized 
crime groups engaged in sophisticated fraud posing a threat to the 
healthcare industry.

Civil Rights Division
    The Civil Rights Division pursues relief affecting public, 
residential healthcare facilities, and has established an initiative to 
eliminate abuse and grossly substandard care in public, Medicare and 
Medicaid funded nursing homes and other long-term care facilities.
    The Special Litigation Section of the Civil Rights Division is the 
sole Department of Justice component responsible for enforcing the 
Civil Rights of Institutionalized Persons Act (CRIPA). CRIPA authorizes 
the investigation of conditions of confinement at State an local 
residential institutions (including facilities for persons with 
developmental disabilities or mental illness, and nursing homes) and 
initiation of a civil action for injunctive relief to remedy a pattern 
or practice of violations of the Constitution or Federal statutory 
rights. The review of conditions in facilities for persons who have 
mental illness, facilities for persons with developmental disabilities, 
and nursing homes comprises a significant portion of the program. The 
Special Litigation Section works collaboratively with the USAOs and 
HHS.

Federal Bureau of Investigation
    The FBI is the primary investigative agency involved in the fight 
against healthcare fraud that has jurisdiction over both the Federal 
and private insurance programs. With healthcare expenditures rising at 
three times the rate of inflation, it is especially important to 
coordinate all investigative efforts to combat fraud within the 
healthcare system. More than $1 trillion is spent in the private sector 
on healthcare and its related services and the FBI's efforts are 
crucial to the overall success of the program. The FBI leverages its 
resources in both the private and public arenas through investigative 
partnerships with the HHS/OIG, the FDA, the DEA, the Defense Criminal 
Investigative Service, the Office of Personnel Management, the Internal 
Revenue Service and various State and local agencies.
    On the private side, the FBI is actively involved with national 
groups, such a the National Health Care Anti Fraud Association (NHCAA), 
the Blue Cross and Blue Shield Association and the National Insurance 
Crime Bureau, as well as many other professional and fundamental 
efforts to expose and investigate fraud within the system.
    Healthcare fraud investigations are a priority within the White 
Collar Crime Program Plan. FBI field offices throughout the United 
States have proactively addressed significant healthcare fraud through 
coordinated initiatives, task forces, and undercover operations to 
identify and pursue investigations against the most egregious 
offenders, which may include organized criminal activity and criminal 
enterprises. Organized criminal activity has been identified in the 
operation of medical clinics, independent diagnostic testing 
facilities, durable medical equipment companies and other healthcare 
facilities. The FBI is committed to addressing this criminal activity 
through disruption, dismantlement and prosecution of criminal 
organizations.
    Question. What new responsibilities does the historic Patient 
Protection and Affordable Care Act place on the Justice Department when 
it comes to healthcare fraud?
    Answer. The Affordable Care Act did not place additional 
responsibilities on the Department of Justice as it relates to 
enforcement. However, the act did provide additional tools for the 
Department of Justice and made the following changes to existing 
Federal law which will assist the Department's efforts to prosecute 
healthcare fraud:
  --Directs the Sentencing Commission to increase the Federal 
        sentencing guidelines for healthcare fraud offenses, by 20-50 
        percent for crimes that involve more than $1,000,000 in losses;
  --Updates the definition of ``healthcare fraud offense'' in the 
        Federal criminal code (18 U.S.C. Sec. 24(a)) to include 
        violations of the anti-kickback statute, the Food, Drug and 
        Cosmetic Act, and certain provisions of the Employee Retirement 
        Income Security Act, allowing these important healthcare 
        offenses to be more vigorously enforced. These changes will:
    --Make the proceeds of these offenses subject to criminal 
            forfeiture,
    --Render obstruction of an investigation of these offenses a crime,
    --Include these offenses as specified unlawful activity for 
            purposes of money laundering, and
    --Authorize the use of administrative subpoenas for the production 
            of documents;
  --Clarifies that a violation of the anti-kickback statute constitutes 
        a violation of the False Claims Act. This will ensure that all 
        false claims resulting from illegal kickbacks are themselves 
        illegal, even if the claims are submitted by an innocent third-
        party and not directly by the wrongdoers themselves;
  --Revises the False Claims Act public disclosure bar narrowing the 
        categories of public disclosures, revising the definition of an 
        original source, and eliminating the jurisdictional nature of 
        the bar;
  --Clarifies that the term ``willful'' under the healthcare fraud 
        statute (18 U.S.C. Sec. 1347) does not require proof that 
        defendants either had knowledge of that particular statute or 
        had specific intent to violate that law. The act clarifies that 
        ``willful conduct'' in this context does not require proof that 
        the defendant had actual knowledge of the law in question or 
        specific intent to violate that law;
  --Provides the Department of Justice with subpoena authority for 
        investigations conducted pursuant to the Civil Rights of 
        Institutionalized Persons Act, allowing the Government to 
        better protect the health and civil rights of individuals 
        living in institutional facilities;
  --Amends a key obstruction statute (18 U.S.C. Sec. 1510) so that 
        obstruction of criminal investigations involving administrative 
        subpoenas under the Health Insurance Portability and 
        Accountability Act of 1996 is treated in the same manner as 
        obstruction of criminal investigations involving grand jury 
        subpoenas;
  --Directs the Attorney General or designee to participate in the 
        Elder Justice Coordinating Council, Chaired by the Secretary of 
        HHS;
  --And appropriates additional HCFAC mandatory funds.
    Question. What is the Health Care Fraud Prevention and Enforcement 
Action Team (HEAT) initiative and what role does the Department of 
Justice play in it?
    Answer. On May 20, 2009, Attorney General Holder and Secretary 
Sebelius announced the Health Care Fraud Prevention and Enforcement 
Action Team (HEAT), a new effort with increased tools and resources, 
and a sustained focus by senior level leadership to enhance the 
collaboration levels between the Departments of Justice and Health and 
Human Services. With the creation of the new HEAT effort, the 
Department of Justice and HHS enhanced our commitment to fighting 
Medicare Fraud as a Cabinet-level priority for both this Department and 
HHS. HEAT, which is jointly led by the Deputy Attorney General and HHS 
Deputy Secretary, is comprised of top level law enforcement agents, 
prosecutors and staff from the Justice Department and HHS and their 
operating divisions, and is dedicated to joint efforts across 
Government to both prevent healthcare fraud and enforce current anti-
fraud laws around the country.
    The mission of HEAT is:
  --To marshal significant resources across Government to prevent 
        waste, fraud and abuse in the Medicare and Medicaid programs 
        and crack down on the fraud perpetrators who are abusing the 
        system and costing us all billions of dollars.
  --To reduce skyrocketing healthcare costs and improve the quality of 
        care by ridding the system of perpetrators who are preying on 
        Medicare and Medicaid beneficiaries.
  --To highlight best practices by providers and public sector 
        employees who are dedicated to ending waste, fraud and abuse in 
        Medicare.
  --To build upon existing partnerships that already exist between DOJ 
        and HHS like our Medicare Fraud Strike Forces to reduce fraud 
        and recover taxpayer dollars.
    Another key HEAT objective is to improve and expand information and 
data sharing procedures between HHS and the Justice Department so that 
law enforcement has access to critical data and information on a near 
``real-time'' basis in order to identify patterns of fraud and abuse 
more rapidly, increase efficiency in investigating and prosecuting 
complex healthcare fraud cases, and turn off funding and profits to 
those who may be defrauding the system.
    The Attorney General and HHS Secretary have instigated several HEAT 
initiatives.
    Significantly, the Medicare Fraud Strike Force has been expanded to 
a total of seven cities. The HHS/OIG implemented cutting-edge 
electronic discovery tools to maximize investigative efficiency in the 
processing and review of voluminous electronic evidence obtained during 
the course of our healthcare fraud investigations. The Centers for 
Medicare and Medicaid Services (CMS) launched several projects designed 
to improve the Durable Medical Equipment (DME) provider enrollment 
process, Medicare Parts C and D compliance and enforcement activities, 
and compliance training for providers to prevent honest mistakes and 
help stop potential fraud before it happens. Finally, the CMS has 
several new authorities to help State Medicaid officials conduct 
audits, monitor activities and detect fraud. One example is the 
authority to establish a Medicaid Recovery Audit Contractor (RAC) 
program.
    In addition, CMS and law enforcement agency representatives, such 
as members of the Civil and Criminal Divisions, the United States 
Attorneys' Offices (USAOs) and Executive Office for the United States 
Attorneys (EOUSA), the FBI and HHS/OIG, meet on a periodic basis 
through numerous local or regional healthcare fraud working groups and 
task forces. EOUSA and CMS also sponsor a monthly national conference 
call during which Assistant United States Attorneys from all districts 
have the opportunity to interact directly with CMS representatives, 
receive timely reports on CMS operations, and obtain answers to 
questions related to specific issues regarding current investigations. 
The Departments also convene interagency staff-level working groups as 
needed to develop mutual proposals for improving our healthcare fraud 
fighting capabilities.
    Each Department routinely enlists senior staff from the other to 
participate in staff training programs, thereby encouraging the free-
flow of shared expertise and accessibility. Since 2007, the Department 
of Justice's Criminal Division and HHS/OIG have provided an opportunity 
for HHS/OIG counsel to serve 6 month details to gain experience 
managing criminal healthcare fraud investigations and trial experience 
in Federal court with Criminal Division colleagues. In addition, 
attorneys from HHS/OIG have been detailed to U.S. Attorneys' Offices as 
Special Assistant U.S. Attorneys to provide USAOs with additional 
prosecutorial resources.
    Question. The Department's efforts to combat healthcare fraud are 
funded by the Health Care Fraud and Abuse Control account, administered 
by HHS. The fiscal year 2011 request is $272 million for these 
activities.
    Do you believe more funding is needed to stop fraud in Medicare, 
Medicaid and other healthcare benefits programs?
    Answer. As it relates to healthcare fraud enforcement, the 
Department has received sufficient increases in recent years to allow 
it to adequately investigate and prosecute healthcare fraud.
    The fiscal year 2011 President's budget request includes a 
discretionary increase of $250 million for the Health Care Fraud Abuse 
and Control account. The Department of Justices portion of this 
increase is $60 million, which will provide a total of $90 million in 
discretionary resources for the Department in fiscal year 2011. In 
addition to the fiscal year 2011 discretionary increase, the Department 
will also receive $61.9 million in mandatory funding, provided through 
the Health Care Fraud Abuse and Control Account. This amount includes 
$6.7 million in additional funding provided through the recently 
enacted healthcare legislation.
    In fiscal year 2011, the FBI will receive $128.8 million in 
mandatory funding made available through the Health Insurance 
Portability and Accountability Act of 1996.
    In sum, the Department will receive $280.7 million in fiscal year 
2011 in reimbursable funding to support healthcare fraud investigations 
and prosecution, if Congress funds the discretionary HCFAC request. 
This represents a 33 percent increase over the Department's fiscal year 
2010 efforts, and will allow the Department to deploy additional 
Medicare Strike Force Task Forces, fund additional pharmaceutical and 
False Claims Act litigation, and address civil rights violations as 
they relate to healthcare fraud.

              TASK FORCES--STATE AND LOCAL LAW ENFORCEMENT

    Question. Joint Terrorism Task Forces (JTTFs) are teams of Federal, 
State and local law enforcement and intelligence agencies working 
together to identify and respond to terrorist threats at the local 
level. There are now more than 100 JTTFs led by the FBI, with over 
4,500 task force participants.
    The crucial work done by these teams has been front and center this 
week to investigate this past weekend's failed bombing attempt in Times 
Square. Their efforts, along with the New York Police Department and 
other Federal law enforcement and intelligence agencies, led to the 
swift capture of the suspect responsible for what could have been a 
deadly attack on Americans.
    How beneficial are the Task Forces in responding to terrorist 
threats? What unique role do they play in terrorism investigations?
    Answer. The participation of State, local, and Federal law 
enforcement partners on JTTFs creates a ``force multiplier'' benefit. 
By having State and local officers and participants from other Federal, 
State, and local agencies, the JTTFs are able to address many more 
cases than the FBI could handle alone.
    The FBI is faced with a formidable task that experience has shown 
is best achieved through the utilization of the vast resources and 
personnel dedicated to task forces. The JTTFs cover thousands of leads 
in response to calls regarding counterterrorism-related issues. These 
leads address potential threats to national security and require a 
significant amount of coordination and resources.
    Overall, greater interaction and cooperation between FBI Special 
Agents and their counterparts exist due to the task force concept, 
which has led to a more focused, integrated and resource-conscious 
approach to counterterrorism investigations.
    Question. Will their role be expanded in the future?
    Answer. In recent years, the FBI has expanded the number of JTTFs 
within the United States to promote interoperability and better 
leverage Federal, State, and local agencies and their resources. There 
are currently 104 JTTFs across the United States in 56 FBI field 
offices and 48 FBI Resident Agencies. The total national staffing level 
of Federal, State and local officers, including FBI personnel, is 
4,492. Currently, there are 656 State and local agencies that 
participate on JTTFs nationwide. In addition, JTTFs include 
representatives from the U.S. Intelligence Community, Departments of 
Homeland Security, Defense, Justice, Treasury, Transportation, 
Commerce, Energy, State, Interior, and others. The FBI anticipates that 
the level of Federal, State, and local participation on the JTTFs will 
grow in the future to more effectively and efficiently address emerging 
threats.
    Question. What additional resources would you need to expand the 
program?
    Answer. The FBI anticipates that the level of Federal, State, and 
local participation in the JTTFs will continue to grow in the future. 
This growth will result in the need for an increased allocation of 
funding to reimburse Federal agencies for their participation on the 
JTTFs, as well as to State and local agencies for overtime costs, 
funding for equipment, funding to lease additional vehicles, and rent 
and renovation funding required in connection with the assignment of 
additional personnel to the FBI JTTF locations.

                        STOPPING CHILD PREDATORS

    Question. The Adam Walsh Act gives the U.S. Marshals Service the 
authority to treat convicted sex offenders as fugitives if they fail to 
register. It also directs the Marshals to assist jurisdictions locate 
and apprehend these individuals. There are roughly 135,000 non-
compliant offenders in the United States. The Marshals Service 
estimates they need a dedicated force of 500 deputies to fully 
implement the Adam Walsh Act.
    In March, President Obama appeared on ``America's Most Wanted'' to 
pledge increased funding and personnel for enforcement of the Adam 
Walsh Act. The President highlighted that ``it is very important for us 
to build up U.S. Marshals' capacity. That is something we want to do in 
the Federal budget . . . my expectation is that we will get support, 
bipartisan support, from Congress on this issue because it is so 
important to every family across America.''
    How many Deputy U.S. Marshals are currently dedicated full-time to 
Adam Walsh Act enforcement?
    Answer. In fiscal year 2010, the USMS had 177 positions dedicated 
full-time to Adam Walsh Act (AWA) enforcement (132 of the positions are 
Deputy U.S. Marshals (DUSM). When USMS received the fiscal year 2010 
appropriation, USMS revaluated the current Adam Walsh Act positions and 
increased the number of DUSMs for AWA enforcement. Of the 177 
positions, the USMS placed 66 new and reassigned 20 existing Senior 
Deputy U.S. Marshals to districts throughout the United States to 
coordinate AWA enforcement activities.
    Question. Why didn't DOJ seek additional resources in the fiscal 
year 2011 budget request for the Marshals Service to hire more deputies 
for this work?
    Answer. The Adam Walsh Child Protection and Safety Act is landmark 
legislation that considerably enhances the Department's ability to 
respond to crimes against children and vulnerable adults and prevent 
sex offenders who have been released back into the community from 
victimizing other people. In fiscal year 2011, the administration is 
requesting $336 million for Adam Walsh Act related activities, an 
increase of $20 million (6.3 percent) to support implementation of the 
act. The fiscal year 2011 funding will enable the Department to 
continue existing base operations; manage expanding program workloads; 
provide grants to States to offset costs associated with implementing 
the act; and provide administrative, policy, and technical assistance 
for State and local government.
    The Department appreciates the recent statement by the President on 
``America's Most Wanted'' pledging increased funding and personnel for 
enforcement of the Adam Walsh Act. President Obama highlighted that 
``it is very important for us to build up U.S. Marshals' capacity. That 
is something we want to do in the Federal budget . . . my expectation 
is that we will get support, bipartisan support, from Congress on this 
issue because it is so important to every family across America.''
    Question. Do you plan to stand behind President Obama's commitment 
for more resources for Adam Walsh Act enforcement in the upcoming 
fiscal year? If so, will the fiscal year 2011 budget request be amended 
to include this support?
    Answer. The Department and the USMS fully support the mandates of 
the Adam Walsh Act and appreciate its importance to this subcommittee. 
We stand ready to use the resources, both monetary and nonmonetary, to 
ensure the safety of the public.
    The fiscal year 2011 President's budget requests $336 million for 
the Department to implement Adam Walsh Act related activities, an 
increase of 6.3 percent over the prior year. The Department is not 
aware of any pending supplemental requests or budget amendments that 
would direct additional resources to the Department specifically to 
enforce the Adam Walsh Act. However, most of the activities authorized 
by the act are already performed as part of the Justice Department's 
traditional mission. In most instances, for programs where the act 
authorized specific funding levels, the Department is spending at or 
above those levels.

                           SECOND CHANCE ACT

    Question. We have to look at the whole crime problem in a holistic 
way. We need to look at what ways can we prevent people from becoming 
criminals and we need to figure out how to make prisoner re-entry into 
regular society more successful than it has been in the past.
    The Second Chance Act became law in 2008. Since then, our 
subcommittee has provided $125 million for State and local offender re-
entry programs with the goal of reducing criminal recidivism. President 
Obama's fiscal year 2011 request includes another $100 million for 
Second Chance Act programs, but does not specify which of those 
programs it intends to fund.
    Last year, this subcommittee specified funding for several 
different Second Chance Act areas, like adult and juvenile offender 
reentry, family-based substance abuse treatment, and grants for 
mentoring and transitional services. What specific programs authorized 
by that law do you propose to fund in fiscal year 2011?
    Answer. The President's fiscal year 2011 budget request includes 
$100 million for the Second Chance Act, which is the same amount 
appropriated in fiscal year 2010. The fiscal year 2011 request 
specifies three allocations from the $100 million:
  --$9.0 million to implement section 111, Reentry Courts, which 
        authorizes the creation of State, local, and tribal reentry 
        courts to oversee the reentry process--including monitoring, 
        supervision, case management, service provision, and community 
        involvement.
  --$10.0 million under section 112, Prosecution Drug Treatment 
        Alternatives to Prison (DTAP), to provide grants to State and 
        local prosecutors to develop, implement, or expand qualified 
        drug treatment programs that are alternatives to imprisonment.
  --$1.7 million under section 245, Reentry Research, to develop and 
        implement an ongoing reentry and recidivism statistics program.
    Of the remaining $79.3 million from the fiscal year 2011 
President's budget request, OJP plans to continue support for 
priorities such as adult and juvenile demonstration programming, pre- 
and post-release mentoring programs, and targeting risk factors for 
recidivism through treatment strategies such as family treatment and 
treatment of offenders with co-occurring disorders. Funding will also 
provide ongoing support for the National Reentry Resource Center. OJP 
will continue to seek input from stakeholder groups and to consider 
guidance from Congress to determine the allocation of the funds.
    Question. What benefits do you as a law enforcement officer see in 
providing robust funding for re-entry programs?
    Answer. The Department sees tremendous benefit in providing funding 
for reentry programs because the aim is to ensure that those returning 
to our communities have an opportunity to contribute to the success of 
society and do not commit additional crimes. The challenges associated 
with offenders' reentry from jails and prisons are daunting; a 
significant number experience substance addiction, job and housing 
instability, mental illness, health problems, and a host of other 
problems. The Department's approach to reentry is a research-driven 
process which has shown that providing offenders a broad range of 
services when they leave incarceration helps ensure their successful 
transition to the community. Successful reintegration strategies 
translate into public safety gains in the form of reduced recidivism 
and victimization, improved community safety, and the long-term 
reintegration of formerly incarcerated individuals as productive 
members of their families and their communities.

                      TIMES SQUARE BOMBING ATTEMPT

    Question. Just 53 hours passed from the time Faisal Shahzad's 
(pronounced Fi-zel Sha-zod) car was smoking in Times Square until he 
was arrested. Press reports indicate Mr. Shahzad was cooperating both 
before and after he was read his Miranda rights.
    First, is he still cooperating with investigators and what new 
information are we learning?
    Answer. Faisal Shahzad is no longer cooperating with investigators. 
He pled guilty and has been sentenced to life in prison.
    Question. How were the FBI, DOJ, and NYPD able to turn this around 
in such a remarkably short period of time? In other words, why was this 
investigation and arrest so successful?
    Answer. The investigation of the Times Square bombing attempt was 
able to come to a swift conclusion due to the dedication and 
professionalism of all agencies involved. Specifically, the New York 
Police Department and FBI's New York Field Division were able to 
quickly obtain the Vehicle Identification Number of the SUV, despite 
efforts by Shahzad to obscure the number.
    Investigative leads were sent to various divisions to identify the 
last known owner of the vehicle. The results of these efforts provided 
a series of additional leads which ultimately led to the identification 
of the last owner of the vehicle used in the Times Square attack. Using 
information provided by this individual, FBI's New Haven Field Division 
was able to conduct toll analysis to ultimately identify Faisal Shahzad 
from Department of Homeland Security's Customs and Border Protection 
(CBP) records.
    In addition to this effort, a canvass of New York fireworks 
distributors linked Shahzad to a location where he purchased fireworks 
used to construct the vehicle-borne improvised explosive device. 
Investigators obtained computerized records from this location, which 
showed that Shahzad made the purchase of several large fireworks and 
used his Connecticut driver's license to verify his age. This driver's 
license photograph was subsequently shown to the previous owner of the 
SUV used in the attack, and she verified that Shahzad had purchased the 
vehicle.
    Based on this timely information, the FBI's investigators were able 
to quickly refine their search and focus on Shahzad as the perpetrator 
of the attempted attack in Times Square.
    Question. Press reports also indicate that Mr. Shahzad was 
nominated for the ``No-Fly'' list on Sunday, yet he was still able to 
board a flight to Dubai on Monday. What caused this to happen? Has the 
U.S. Government still not learned its watch-listing lessons from the 
failed Christmas Day bombing attempt?
    Answer. Faisal Shahzad was nominated for placement on the 
Transportation Security Administration's ``No-Fly'' list mid-day on 
Monday, May 3, 2010, and was placed on the ``No-Fly'' list shortly 
thereafter. At the time Shahzad was nominated, airlines were required 
to update their databases with U.S. Intelligence Community watchlisting 
information every 24 hours. This update was typically performed by the 
airlines at the end of each day. Emirates Airlines had not yet updated 
their system with the latest watchlisting information when Shahzad 
purchased his ticket and boarded the plane the evening of May 3, 2010. 
An additional review of the flight manifest by the Customs and Border 
Protection National Targeting Center (NTC) identified the presence of a 
No-Fly subject on the plane. The NTC immediately contacted Customs and 
Border Protection Officers located at JFK, and directed them to contact 
the airline immediately to ensure that the aircraft did not depart 
prior to their arrival at the gate. Upon arrival, CBP Officers removed 
the passenger from the aircraft. As a result of this investigation, 
foreign airlines are now required to update their watchlisting 
information within 30 minutes of receiving a new or revised ``No-Fly'' 
list from TSA. Additionally, TSA anticipates that all airlines required 
to implement Secure Flight will do so by the end of this calendar year.
    Question. Press reports state Mr. Shahzad received some training in 
Pakistan. Is there a terrorist group responsible for his training? If 
so, who? When was the training provided? What cooperation have we 
received from Pakistan on this investigation?
    Answer. Shahzad received training from the terrorist group Tehrik-
e-Taliban Pakistan (TTP). He attended a TTP training camp in North 
Waziristan from December 2009 to January 2010, where he obtained 4 to 5 
days of explosives training.
    The Pakistan authorities have been very helpful in this 
investigation and have taken the attempted attack on the United States 
very seriously.

                      FUNDING FOR TERRORIST TRIALS

    Question. One of the major obstacles facing our bill this year is 
the debate over the transfer of Guantanamo Bay detainees to the United 
States to stand trial. The fiscal year 2010 CJS conference agreement 
included language to restrict Guantanamo Bay detainees from coming into 
the United States except for prosecution. In November 2009, you 
announced your intentions to bring five 9/11 terrorist suspects to New 
York City for trial. As we all know, that plan is now in limbo.
    The President's fiscal year 2011 request for the Justice Department 
includes what I consider now to be placeholders. The request includes 
$73 million for security-related or associated with civilian trials, 
but the location of the trials is now unknown.
    How does the Justice Department plan to address the additional risk 
for these high threat trials on U.S. soil?
    Answer. The development of the funding request in the fiscal year 
2011 President's budget took into account the additional security 
requirements associated with these high threat trials. The request 
reflects the additional law enforcement officers and infrastructure 
requirements needed to manage the risk associated with these trials. 
Specifically, the funding will be used to harden cell blocks, 
courthouse facilities, and housing facilities, to increase electronic 
surveillance capability, and to provide protection for judges and 
prosecutors.
    Question. What unique costs are associated with these trials 
compared to other trials held in Federal courts?
    Answer. The category of costs for these trials would be similar to 
other trials held in Federal courts. These categories include prisoner 
housing and transportation, courthouse security and litigation costs. 
However, the security requirements associated with trying these 
suspects are higher than most other trials, increasing the cost. For 
example, for these trials, the Department anticipates needing 
additional funding to harden cell blocks, courthouse facilities, and 
housing facilities, to increase its electronic surveillance capability, 
and to provide increased protection for judges and prosecutors.
    Question. Are these costs sufficient to keep a community safe 
wherever trials are held?
    Answer. The funding requested in fiscal year 2011 reflects the 
resources needed to address the additional security requirements 
associated with these trials. The additional security requirements take 
into consideration the safety of the communities.
    Question. The only 9/11 terrorism case tried in U.S. courts was 
that of Zacarias Moussaoui. It cost taxpayers millions of dollars and 
took over 4 years to convict him. The $73 million in the budget would 
only cover trial-related costs in fiscal year 2011. What costs have you 
estimated for the following years? What factors would make costs 
increase over the first year estimate?
    Answer. As reflected in the President's budget request, the 
Department anticipates the costs for future years to be similar to 
fiscal year 2011, with adjustments for pay raises and other 
annualization costs. In developing the fiscal year 2011 budget request, 
many assumptions were made, including the location of the trials.
    Question. If you decide to prosecute more Guantanamo Bay detainees 
in U.S. Courts, there will an additional strain on U.S. Marshals whose 
mission is to protect judges, transfer detainees and secure courtrooms. 
Will this strain on resources compromise U.S. Marshal's mission? How 
will this new mandate affect other Marshal priorities, such as tracking 
down and arresting fugitive sex offenders?
    Answer. No, these prosecutions will not compromise the USMS's 
mission to protect judges, transfer detainees, and secure courtrooms. 
However, resources will be needed to cover the anticipated 
extraordinary costs associated with these trials, including: additional 
security measures for the judiciary, the courtroom, the courthouse, and 
the assistance of local law enforcement in assisting with the large 
crowds and high media interest.
    The Department does not anticipate that these prosecutions will 
affect other USMS priorities. The fiscal year 2011 President's budget 
includes $72.8 million for the Department's anticipated increases in 
security and prosecutorial costs associated with high security threat 
trials. The requested resources would finance a variety of functions, 
including transportation and prisoner production, prisoner housing, 
security, litigation, and other costs associated with high threat 
trials.

                          COURTHOUSE SECURITY

    Question. A recent inspector general's report found ``critical 
deficiencies'' in the Justice Department's ability to protect Federal 
judges and prosecutors as threats against them escalate. The number of 
threats against court officials has more than doubled since 2003, 
rising to 1,400 in the last year, but the number may be significantly 
higher.
    The U.S. Marshals Service has primary responsibility for ensuring 
the safety and security of more than 2,000 Federal judges and 5,000 
court personnel. The Executive Office for U.S. Attorneys, U.S. 
Attorneys' Offices and the FBI are also involved in responding to 
threats.
    Are Federal judges and prosecutors counseled before a threat occurs 
about the security options provided by the Marshals Service and the 
Executive Office for U.S. Attorneys?
    Answer. Yes, the U.S. Marshals Service (USMS) provides security 
presentations for members of the Judiciary in a variety of official 
forums, including Judicial Nominee Briefings, New Chief Judge 
Orientations, judicial conferences, and annual judicial security 
training in each district. The judiciary has also been provided with a 
judicial security DVD, entitled Project 365--Security Starts with You. 
This DVD clearly presents the importance of reporting of threats and 
inappropriate communications on a timely basis to USMS, as well as the 
ramifications of not doing so.
    U.S. Attorney's Office employees are provided security information 
during the annual judicial security training provided to the court 
family agencies in each of the districts. The USMS also provides 
security briefings at U.S. Attorney and District Office Security 
Manager conferences. At these conferences, the USMS explains that 
threats are not limited to judges and that any member of the court 
family is susceptible to receiving a threat. In addition, the USMS 
participates in interactive ``webinars'' regarding security that are 
coordinated by the Executive Office for U.S. Attorneys.
    Question. What is the Justice Department doing to address the 
inspector general's recommendations for improved threat responses to 
ensure the safety of judges, court officials and their families?
    Answer. USMS has updated the training materials provided to the 
Judiciary and U.S. Attorneys to further emphasize the importance of 
quickly reporting threats and inappropriate communications, as well as 
the ramifications of not doing so. USMS is upgrading its Threat 
Management Information System (TMIS) to allow for faster searches and 
searches on larger data sets.
    In addition, the USMS has directed all of its district offices to 
send notification letters to local law enforcement agencies informing 
them if a Federal judge resides within their jurisdiction. These 
notification letters request that the judges' information be added to 
the local 911 system and that the local USMS office be contacted 
immediately for any emergencies reported at a judge's residence.
    Question. The Department requests $42 million, a $4 million 
increase over last year, to hire 12 new Deputy Marshals and support 
courthouse security. Are more resources needed to ensure the safety of 
all employees of the Federal judiciary and U.S. Attorneys? What gaps in 
security measures are still present?
    Answer. In the fiscal year 2011 President's budget, the USMS 
requests $42 million for Tactical Operations, a $5 million or 14 
percent increase over the fiscal year 2010 appropriation. This increase 
will support 14 additional positions (including 12 Deputy U.S. 
Marshals) for the Special Operations Group, which supports USMS and 
other agencies with rapidly deployable, highly trained law enforcement 
officers. These resources will strengthen the USMS's ability to prevent 
and respond to terrorist and other attacks against the Federal 
judiciary and protected witness.
    Question. Is there a central location for the Federal judiciary and 
U.S. Attorneys to report threats? What formal protocols have you put in 
place to ensure that the Executive Office for U.S. Attorneys, U.S. 
Attorneys' Offices and the FBI properly coordinate investigations with 
the Marshals Service? What funds are requested in their respective 
budgets to carry out their roles in protecting judges and prosecutors?
    Answer. The local USMS district office should receive information 
on all threats. This information is then forwarded to the USMS Threat 
Management Center within the Judicial Security Division at Marshals 
Service headquarters. In addition, the USMS, the FBI, and EOUSA work 
well together and will continue to seek ways to improve the security of 
Federal judges and prosecutors. The USMS, FBI and EOUSA are in the 
process of formalizing Memoranda of Understanding that will define the 
roles and responsibilities of each organization in protecting Federal 
judges, U.S. Attorneys, and Assistant U.S. Attorneys. The USMS fiscal 
year 2011 President's budget requests $440 million for Judicial and 
Courthouse Security. The request is a 3.2 percent increase over the 
fiscal year 2010 enacted budget.

                     SOUTHWEST BORDER VIOLENCE--DEA

    Question. I continue to have concerns that the current resources 
for the Department of Justice to combat violence along the border are 
inadequate. If the current wave of violence in the border States cannot 
be contained, cartel-related crime will most likely expand to major 
metropolitan areas, including areas like Atlanta, Chicago and even 
Baltimore.
    The explosion of violence in Mexico and along the southern border 
is caused by a limited number of large, sophisticated and vicious 
criminal organizations--not by isolated individual drug traffickers. 
The Department's fiscal year 2011 request includes $584 million to 
support investigations and prosecutions relating to border violence.
    How concerned should communities along the border--and throughout 
the United States as a whole--be about cartel-related violence?
    Answer. To date, the cartel-related violence in Mexico has not 
spilled over into the U.S. border communities. In fact, by and large, 
violent crime in many of the U.S. border cities is lower now than it 
has been in recent years. (See the Federal Bureau of Investigation 
Uniform Crime Report).
    Despite the relative safety and security in the U.S. communities, 
however, the Department of Justice is acutely aware of the escalation 
of violence by drug cartels, gangs, and other criminal organizations 
just over our border with Mexico. This violent activity is not solely 
an international threat; it is a national security issue for the United 
States. The Department of Justice is firmly committed to preventing and 
responding to spill-over violence as aggressively as possible.
    The root cause of the explosion of violence just south of our 
border is the conflicts within and among a limited number of 
sophisticated, transnational criminal organizations. These 
hierarchical, Mexico-based cartels are responsible for smuggling into 
the United States most of our Nation's illegal drug supply. While the 
cartels' primary business is drug trafficking, they also sponsor a 
panoply of other crimes that support their illegal operations. These 
other crimes include extortion, torture, murder, corruption of public 
officials, sheltering of wanted fugitives, kidnapping and human 
smuggling, laundering of illicit criminal proceeds through the existing 
financial system and through bulk cash smuggling, and the illegal 
acquisition, trafficking, and use of firearms and explosives.
    The Merida Initiative is the administration's four-pillar strategy 
to help bring security to Mexico. It focuses on: (1) Disrupting the 
capacity of organized crime to operate; (2) institutionalizing capacity 
to sustain rule of law; (3) creating a 21st century border structure; 
and (4) building strong and resilient communities. The Department of 
Justice plays a key role in implementing pillars one and two.
    The Department of Justice plays a primary role and brings to bear 
its special expertise in taking down Mexico's organized, multi-faceted 
criminal enterprises. The Department's view--based on decades of 
experience in investigating, prosecuting, and dismantling organized 
criminal groups, such as the Mafia, international terrorist groups, and 
domestic and transnational gangs--is that the best way to fight large 
scale criminal organizations is through prosecutor-led, intelligence-
driven, multi-agency task forces that blend the strengths, resources, 
and expertise of the complete spectrum of Federal, State, local, and 
international investigative and prosecutorial agencies. Through their 
participation in such task forces, the Department's prosecutors, 
together with its component law enforcement agencies--the DEA, ATF, the 
FBI, and the USMS--give the Department the capacity to carry out the 
full range of activities necessary to succeed against these 
organizations.
    The Department has embraced a proactive model to achieve these 
comprehensive goals, in which we develop priority targets through the 
extensive use of intelligence. Sharing information, we build cases, 
coordinating long-term, extensive investigations to identify all the 
tentacles of a particular organization. Through sustained coordination 
of these operations, we are able to execute a coordinated enforcement 
action, arresting as many high-level members of the organization as 
possible, disrupting and dismantling the domestic transportation and 
distribution cells of the organization, and seizing as many of the 
organization's assets as possible, whether those assets be in the form 
of bank accounts, real property, cash, drugs, or weapons. Finally, we 
prosecute the leaders of the cartels and their principal facilitators, 
locating, arresting, and extraditing them from abroad as necessary. In 
this effort, we coordinate closely with our Mexican counterparts to 
achieve the goal: destruction or weakening of the drug cartels to the 
point that they no longer pose a viable threat to U.S. interests and 
can be dealt with by Mexican law enforcement in conjunction with a 
strengthened judicial system and an improved legal framework for 
fighting organized crime.
    In most places, along the border and throughout the country, the 
Department of Justice-led, multi-agency Organized Crime Drug 
Enforcement Task Force (OCDETF) provides an effective mechanism for law 
enforcement agencies from within the Department of Justice, from 
elsewhere in the Federal Government (including the Departments of 
Homeland Security and Treasury), and State and local law enforcement, 
to combine with Federal prosecutors to form a ``virtual task force'' 
for the purpose of investigating and prosecuting a particular high-
value drug trafficking organization. In certain key locales, OCDETF has 
established actual, brick-and-mortar co-located Strike Forces, for the 
pursuit of the highest level traffickers of drugs, guns, and money. For 
instance, the Department uses the OCDETF Strike Force concept to target 
all the organized crime activities of the drug cartels--not just those 
crimes directly related to the drug trade. By further leveraging and 
coordinating the investigative expertise and jurisdiction of law 
enforcement agencies outside the drug enforcement area, the Department 
tasks the Strike Forces to disrupt and dismantle every area of the 
cartels' infrastructures and undermine their ability to operate 
successfully in any illegal activity.
    On a local level, each Strike Force co-locates law enforcement 
resources that are supplemented by one or more on-site Assistant United 
States Attorneys. Working through the Strike Force structure, 
specifically the co-location and intensive and early prosecutorial 
involvement, ensures that the Department capitalizes upon the proven 
synergy of these Strike Forces to maximize the effectiveness of long-
term investigations of these organizations. The synergy created by co-
locating the diverse expertise of Federal, State, local, and tribal law 
enforcement agencies with prosecutors from the U.S. Attorney's Office, 
has had demonstrable success against major criminal organizations 
operating throughout the country. It is for this reason that the 
Attorney General and Deputy Attorney General make use of the 
flexibility to call upon and leverage the resources of the already 
successful multi-agency task forces around the country, including the 
OCDETF Strike Forces, High Intensity Drug Trafficking Area (HIDTA) Task 
Forces, DEA task force groups, FBI Safe Streets Task Forces, FBI Border 
Corruption Task Forces, FBI Hybrid Task Forces, ATF Violent Crime 
Impact Teams (VCITs) and ATF Gunrunner Impact (GRIT) Teams, drawing 
upon the expertise of all of the agencies that contribute to them.
    It is for this reason that the Obama administration secured an 
additional $600 million in supplemental funding for Southwest border 
enforcement, including $196 million for the Department of Justice. This 
money will be used to fund the most-effective, intelligence-driven law 
enforcement and prosecutorial initiatives focused specifically on the 
violence created by the cartels. For example, the supplemental funding 
allows ATF to deploy seven new Gunrunner Impact Teams--community 
focused initiatives that target and disrupt the illegal flow of 
firearms across the border into Mexico; it supports the creation of 
five new FBI hybrid teams--which target kidnapping and violent crime; 
as well as additional DEA analysts, U.S. Marshals deputies, and 
prosecutors.
    These additional resources will bolster a number of enhancements to 
U.S. civilian law enforcement efforts in the Southwest border region to 
ensure that the United States is doing all that it can to safeguard the 
population there and deter illegal flows in both directions across that 
border. The Department of Justice's key recent enhancement efforts 
include:
  --Two new DEA Southwest Border Enforcement Groups created in El Paso 
        and Phoenix and 25 new DEA intelligence analyst positions added 
        to key cities;
  --The deployment of two FBI Border Corruption Task Forces in Del Rio 
        and Houston;
  --A surge of ATF agents to Arizona to target gun trafficking to 
        Mexico;
  --Increased funding through the OCDETF Program to support targeted 
        Southwest border investigations and prosecutions through its 
        co-located Strike Forces, increasing the presence of ATF, FBI, 
        USMS, and Assistant U.S. Attorneys in those Strike Forces as 
        well as providing needed operational funding, and, 
        additionally, to hire 41 new OCDETF prosecutors to implement 
        the U.S. Attorneys' Offices' Southwest border Prosecutorial 
        Initiative;
  --Two hundred new U.S. Marshal Service positions, including Deputy 
        U.S. Marshals and Asset Forfeiture Criminal Investigators at 
        the Southwest border to increase fugitive apprehension and 
        cross border violent crime response; to identify and seize the 
        financial assets of the cartels; to increase court security and 
        prisoner operations; and to investigate and mitigate security 
        threats and improve security awareness for judiciary and other 
        court personnel;
  --The hiring of nearly 50 additional Department of Justice attorneys 
        to prosecute drug and arms trafficking and bulk cash smuggling 
        by the Mexican cartels, as well as the addition of five 
        Department of Justice attorneys to focus solely on extradition 
        requests from Mexico;
  --Planned expansion of the El Paso Intelligence Center (EPIC) to 
        include additional staffing to collect, analyze and disseminate 
        intelligence and support law enforcement operations against a 
        broad array of transnational threats.
  --Increased cooperation with United States and Mexican law 
        enforcement to target money laundering and bulk cash smuggling, 
        including $50 million in Department of Justice grants to 
        Federal, State, and local law enforcement and the hiring of a 
        Department prosecutor dedicated exclusively to targeting money 
        laundering cases in and to Mexico;
  --The resumption of the Department's asset-sharing of forfeited 
        proceeds with the Mexican Government as a result of successful 
        bi-lateral criminal investigations; and
  --Enhanced U.S. forensic analysis and support for Mexican 
        prosecutions of drug traffickers.
    The safety of these border communities--and indeed, the impact on 
cities throughout the United States--remains of paramount importance to 
the Department of Justice. We look forward to partnering with Congress 
to ensure that we can best contain and curtail the wave of violence 
spreading throughout the border communities in Mexico.
    Question. How is the Department working with the Mexican Government 
to dismantle these violent cartels?
    Answer. The Department of Justice is working aggressively in 
partnership with the Government of Mexico on a number of fronts to 
dismantle violent Mexican drug cartels through a two-prong strategy 
that focuses on advancing the rule of law in Mexico, as well as 
criminal investigations and prosecutions. The two sides of our work are 
vital to disrupting and dismantling the cartels.

                CRIMINAL INVESTIGATIONS AND PROSECUTIONS

    The Department of Justice's focus on criminal investigations and 
prosecutions includes U.S. based efforts targeting the cartels; work in 
partnership with our Mexican counterparts; as well as extradition of 
many of the worst criminals who have fled to Mexico to avoid 
prosecution in the United States.
    The Department's Strategy for Combating the Mexican Cartels, issued 
by the Attorney General in January 2010, is premised on the notion that 
a large share of the violence, drug trafficking, and other criminal 
activity occurring along the Southwest border is perpetrated by a 
relatively small number of hierarchical criminal organizations. The 
Department believes that the most effective mechanism to attack those 
organizations is the use of intelligence-driven, prosecutor-led, multi-
agency task forces, that simultaneously attack all levels of, and all 
criminal activities of, the operations of the organizations. The 
Department's Strategy is executed through such task forces, with the 
Organized Crime Drug Enforcement Task Forces (OCDETF) Program and the 
Special Operations Division (SOD) serving the primary coordinating 
functions.
    The key objectives of the Department's Strategy are to:
  --Increase the safety and security of U.S. citizens throughout the 
        United States by enforcing violations of Federal law that have 
        a particular nexus to the threats posed by the Mexican Cartels, 
        i.e. drug trafficking, money laundering and bulk cash 
        smuggling, firearms trafficking, and corruption.
  --Reduce the flow of narcotics and other contraband entering the 
        United States.
  --Reduce the flow of illegal weapons, ammunition, explosives, and 
        currency exiting the United States and entering Mexico.
  --Strengthen Mexico's operational capacities and enhance its law 
        enforcement institutions.
  --Increase bilateral cooperation between Mexico and the United States 
        on fugitive capture and extradition activities.
  --Increase intelligence and information sharing to achieve focused 
        targeting of the most significant criminal organizations.
  --Improve case building through interagency coordination, leveraging 
        the expertise and authority of each investigative and 
        prosecutorial agency.
  --Maximize the effectiveness of prosecution by locating, arresting, 
        extraditing, and trying all levels, including most importantly 
        the leadership, of these criminal organizations, and disrupting 
        and dismantling the organizations' domestic transportation and 
        distribution cells.
  --Coordinate enhanced enforcement initiatives to address 
        ``downstream'' impacts on judicial security, court and 
        detention operations, prison management and fugitive 
        apprehension.
    The DEA-led, multi-agency Special Operations Division (SOD) targets 
the communications devices the criminal organizations' leaders use to 
communicate with each other. SOD actively supports multi-
jurisdictional, multi-national, and multi-agency electronic 
surveillance investigations, coordinating overlapping investigations 
and ensuring that tactical and operational intelligence is shared 
between law enforcement agencies. In addition, the OCDETF task force 
model, including in particular its co-located Strike Forces, is the 
Department's model platform for law enforcement agencies from within 
the Department of Justice, from elsewhere in the Federal Government, 
and State and local law enforcement to combine with Federal prosecutors 
to investigate and prosecute the largest and most dangerous Mexico-
based criminal organizations.
    For example, OCDETF Strike Forces have been key participants in 
some of the most successful SOD-coordinated operations responsible for 
striking some of the hardest blows against the major Mexican CPOTs, 
such as Operation Xcellerator, a multi-agency, multi-national effort 
beginning in May 2007 that targeted the Mexican drug trafficking 
organization known as the Sinaloa Cartel. This Cartel is responsible 
for bringing tons of cocaine into the United States through an 
extensive network of distribution cells in the United States and 
Canada. Through Operation Xcellerator, Federal law enforcement--along 
with law enforcement officials from the Governments of Mexico and 
Canada and State and local authorities in the United States--delivered 
a significant blow to the Sinaloa Cartel. In addition to the arrests of 
781 persons, authorities seized more than $61 million in U.S. currency, 
12,000 kilograms of cocaine, 1,200 pounds of methamphetamine, 17,000 
pounds of marijuana, 1.5 million Ecstasy pills, and other illegal 
drugs. Also significant was the seizure of 191 firearms, 156 vehicles, 
4 aircraft, and 3 maritime vessels.
    Similarly, Project Reckoning, announced in September 2008, was a 
15-month, SOD-coordinated OCDETF Strike Force operation that severely 
damaged the Gulf Cartel. It was one of the largest and most successful 
joint law enforcement efforts ever between the United States and 
Mexico. Project Reckoning resulted in 869 arrests in the United States 
and Mexico, plus the seizure of more than 17,000 kilograms of cocaine, 
82,000 pounds of marijuana, 1,000 pounds of methamphetamine, 960 
weapons, 324 vehicles, 6 maritime vessels, and $139 million in U.S. 
currency and other assets. Perhaps most importantly, Project Reckoning 
led to the indictment against the three top leaders of the Gulf Cartel.
    Project Coronado, announced in October 2009, was a 44-month SOD-
coordinated investigation involving multiple OCDETF Strike Forces that 
targeted the violent Mexican drug trafficking organization known as La 
Familia. Through Project Coronado, 1,254 persons were arrested in at 
least 19 States in the United States, and law enforcement authorities 
seized more than 2,000 kilograms of cocaine, 19,000 pounds of 
marijuana, 3,900 pounds of methamphetamine, 269 vehicles, 5 maritime 
vessels, 389 weapons, 5 clandestine drug labs, and more than $73 
million in U.S. currency and other assets.
    Finally, in the largest single strike to date against Mexican drug 
cartels, on June 9, 2010, 429 persons were arrested in 16 States as 
part of Project Deliverance, a 22-month, SOD-coordinated multi-agency 
investigation involving eight OCDETF Strike Forces that targeted the 
transportation infrastructure of Mexican drug trafficking organizations 
in the United States, especially along the Southwest border. More than 
3,000 agents and officers operated across the United States to make the 
arrests, seizing $5.8 million, 17 pounds of methamphetamine, 112 
kilograms of cocaine, 2,951 pounds of marijuana, 141 weapons and 85 
vehicles. During the entire course of the operation, Project 
Deliverance has led to the seizure of more than 74.1 tons of illegal 
drugs and has inflicted a debilitating blow to the network of shadow 
facilitators and transportation cells controlled by the major Mexican 
drug cartels. In addition to 2,266 arrests overall, Project Deliverance 
operations have resulted in the seizure of $154 million in currency and 
other financial assets, and 1,262 pounds of methamphetamine, 2.5 tons 
of cocaine, 1,410 pounds of heroin, 69 tons of marijuana, 501 weapons, 
and 527 vehicles.
    In addition to our U.S. based efforts, the Department participates 
actively in the broader U.S. Government effort to provide assistance to 
Mexican authorities to further their efforts to investigate, capture, 
and prosecute, or extradite to the United States for prosecution, 
leaders and other key members of Mexico's most dangerous and powerful 
drug cartels. The Department continues to conduct bilateral 
investigations with the Mexican Government, to coordinate the sharing 
of intelligence information that is beneficial to both Mexico and the 
United States and to provide training in investigations to Mexican law 
enforcement and prosecutors. We also are assisting the Mexican 
Government to establish drug enforcement institutions, such as a 
nationwide intelligence center focused on organized crime, including 
drug trafficking, and we are conducting training programs in a variety 
of subject areas that are discussed further below. These efforts 
include the establishment of a dedicated unit within our Office of 
International Affairs to handle evidence requests from Mexico, 
including requests pertaining to drug trafficking cases, as well as a 
unit assigned to work with Mexican officials on their requests for 
extradition from the United States.
    Finally, the Department of Justice is aggressively seeking 
extraditions of significant targets from Mexico for prosecution in the 
United States. Beginning only weeks after his inauguration in December 
2006, President Calderon began extraditing high-profile criminals to 
face criminal prosecution here, beginning with the notorious head of 
the Gulf Cartel, Osiel Cardenas-Guillen. The Calderon administration 
has since extradited several other significant drug traffickers, 
including large-scale marijuana trafficker Miguel Caro-Quintero (whose 
brother Rafael Caro-Quintero was prosecuted in Mexico for his role in 
the 1985 kidnapping, torture, and murder of DEA Special Agent Enrique 
Camarena), and Vicente Zambada-Niebla. In 2009, the United States saw a 
record number of extraditions from Mexico, culminating in 107 in 2009, 
up from 12 in 2000.

                       ADVANCING THE RULE OF LAW

    The Department is now also deeply involved in the rule of law work 
that Mexico has undertaken under the Merida Initiative, a multi-year 
program that aims to improve law enforcement capabilities to identify, 
disrupt, and dismantle transnational drug trafficking organizations and 
organized crime. We currently have a number of senior Federal 
prosecutors stationed in Mexico City to work on rule of law issues with 
their Mexican counterparts. Our work in Mexico runs the gamut from 
high-level advice on criminal code reform--as Mexico moves forward on 
its own decision to create a more adversarial system--to practical 
training on investigations and prosecutions. To date, working with U.S. 
Federal law enforcement agencies and the Department of State, we have 
trained over 5,500 individuals at all ranks--at the State and Federal 
level--and in the executive and judicial branches and are on target to 
train over 9,000 by the end of 2010.
    Mexican prosecutors, in turn, are working with our Department of 
Justice prosecutors on case development, evidence collection, trial 
advocacy, money laundering, and asset forfeiture. The Department of 
Justice and the U.S. Agency for International Development are training 
judges, prosecutors, and law schools on oral trials. We also have 
engaged in specialized training, such as offering a symposium on 
prosecuting complex crimes, training Mexican prosecutors and 
investigators on how to meet extradition challenges in the United 
States, and facilitating meetings between U.S. and Mexican prosecutors 
to more efficiently and effectively prosecute sex trafficking cases 
involving both countries. We are also partnering with law enforcement 
and prosecutors in Colombia and have sent Mexican prosecutors and law 
enforcement officers to train in tandem with their Colombian 
counterparts on code reform, strengthening internal affairs and 
corruption investigations, and creating effective witness protection 
programs. Through this work, our primary goal is to ensure that Mexico 
is a true partner in this fight.
    Question. What additional resources would you need to expand 
investigations and prosecutions along the Southwest border given the 
escalating violence?
    Answer. Funding provided in the 2010 Emergency Border Security 
Supplemental Appropriations bill will allow us to increase the level of 
investigations and prosecutions. With the $196 million provided, the 
Department will be able to surge Federal law enforcement officers to 
high crime areas in the Southwest border region by funding more than 
400 new positions and temporarily deploying up to 220 personnel. 
Specifically, Justice funding would increase the presence of Federal 
law enforcement in the Southwest border districts by adding seven ATF 
Gunrunner Teams, five FBI Hybrid Task Forces, additional DEA agents and 
Deputy U.S. Marshals, equipment, operational support, and additional 
attorneys and immigration judges. Justice funding also would support 
additional detention and incarceration costs for criminal aliens in 
coordination with DHS enforcement activities. In addition, the 
supplemental provides funding to support Mexican law enforcement 
operations with ballistic analysis, DNA analysis, information sharing, 
technical capabilities, and technical assistance.

              DHS-DOJ DISPARITY ALONG THE SOUTHWEST BORDER

    Question. On April 19, Senators McCain and Kyl released a 10-point 
plan to increase security along the Southwest border. The plan proposes 
adding resources to the Department of Homeland Security, particularly 
Border Patrol, but not for Justice Department components that share 
many of the border protection responsibilities.
    Many Southwest border districts are already operating at capacity, 
particularly the Marshals Service and Office of Detention Trustee, in 
terms of space to hold detainees. Adding more resources without 
balancing the request to include DOJ agencies could lead Southwest 
border districts to the breaking point.
    Does the administration believe there is parity between DHS and DOJ 
along the Southwest border?
    Answer. The administration is working to ensure that there is 
parity between DHS and DOJ on the Southwest border. Any increase in 
Department of Homeland Security (DHS) enforcement activity has a 
``downstream'' impact on workload and resource requirements that affect 
the rest of the criminal justice system, including both DOJ and the 
Judiciary. A principal area of concern along the Southwest border is 
the existing capacity of the prosecutorial, judicial, detention and 
incarceration components to respond to increased efforts by law 
enforcement. Currently, the annual number of apprehensions outpace: 
prosecutorial capacity for criminal cases involving illegal 
immigration, drug trafficking, border violence and gangs; litigation 
and adjudication capacity for immigration cases moving through the 
Federal courts; detention capacity for the criminally accused as they 
move through the criminal justice system; and incarceration capacity 
for the criminally convicted after they are sentenced.
    Additional funding directed at certain critical chokepoints could 
make matters worse if it is provided without considering the entire 
scope of Southwest border requirements. These chokepoints include: 
limits in human capital, training and facilities for new personnel 
(both operational and administrative); and infrastructure and other 
physical constraints along the Southwest border, particularly USMS 
cellblock/courthouse space, detention/incarceration beds, and tactical 
support resources. Outside of the DOJ, the limited number of 
courtrooms, judges, magistrates, and other members of the judiciary 
further restrict the Federal Government's ability to increase 
prosecutorial caseload and process larger numbers of offenders in the 
justice system, despite increases in the scope and scale of criminal 
threats along the Southwest border.
    Question. How would DOJ component agencies (Marshals Service, 
Office of Detention Trustee, U.S. Attorneys' office, etc.) be affected 
if Operation Streamline is expanded to all districts along the 
Southwest border?
    Answer. The capacity of the criminal justice system in the 
Southwest border region presents a very real impediment that needs to 
be addressed before Operation Streamline can be expanded beyond its 
present scope. These impediments include the physical constraints of 
courthouses along the border, including the number of defendants that 
can be housed and processed in a given day; the number of judges, 
magistrates, and other judicial personnel; and the number of detention 
beds where defendants can be housed in reasonable proximity to a given 
courthouse. Presently, courthouse structures in the region are 
inadequate to process large numbers of additional defendants. Moreover, 
USMS and USAO would need additional resources in order to process an 
increase in defendants. Even increasing the number of Deputy U.S. 
Marshals and Assistant U.S. Attorneys at courthouses (particularly in 
Tucson, Arizona and San Diego, California), would be insufficient to 
process the increase in defendants likely to arise from expanding 
Operation Streamline.
    Increased Department of Homeland Security (DHS) enforcement 
activity in the Southwest border region would have a ``downstream 
impact'' on workload and resource requirements in other ways as well, 
affecting the rest of the criminal justice system, including DOJ and 
the Administrative Offices of the U.S. Courts (AOUSC). For example, 
felony drug arrests and subsequent additional investigations would 
likely increase, resulting in the need for additional DEA agents and 
support staff, and the need for additional attorney and intelligence 
analyst personnel deployed as part of the Organized Crime Drug 
Enforcement Task Forces Program. Further, additional ATF personnel 
would be needed to address gun trafficking arrests and investigations. 
In addition, Operation Streamline would increase the fugitive warrant 
workload, which in turn further impacts the USMS. The workload of other 
parts of the system, including the Executive Office for Immigration 
Review and the Civil Division's Office of Immigration Litigation, would 
also increase. As stated previously, AOUSC would likely require 
additional courthouse space, judges, magistrates, and other judicial 
personnel to accommodate pressures resulting from the increased DOJ 
investigative and prosecutorial workload.
    Question. Can DOJ provide this subcommittee with a detailed report 
about the resources needed if Operation Streamline was expanded to all 
Southwest border districts?
    Answer. Operation Streamline has been viewed as a consequence-based 
prosecution initiative in which many U.S. Customs and Border Protection 
(CBP) apprehensions are criminally prosecuted. Operation Streamline is 
currently in place in some form in several sectors in the Southwest 
border region. However, even in those sectors where Operation 
Streamline is in place, many of the programs have a ``daily cap'' in 
terms of prosecutions based on resource limitations of Department 
components and Federal courts. For example, although CBP arrests 
several hundred individuals each day in the Tucson, Arizona Sector, 
only 70 cases per day are prosecuted under the auspices of Operation 
Streamline. This number is capped at 70 cases due to resource 
limitations of the U.S. Marshals Service cellblock and personnel, 
courtroom space, availability of court personnel, and detention bed 
space.
    In order to implement Operation Streamline across the entire 
Southwest border region in a true zero-tolerance form, Department 
components and the Federal court system would need additional 
resources, such as:
  --Additional personnel would be needed by the U.S. Marshals Service, 
        the U.S. Attorneys Offices, and the courts.
  --Additional resources for the Federal Prisoner Detention Fund would 
        also be required.
  --Additional construction funding would be needed to exponentially 
        enlarge cellblock space in all Southwest border U.S. 
        Courthouses.
    At this time, the Department cannot provide a detailed report about 
the resources needed Government-wide if Operation Streamline was 
expanded to all Southwest border districts. Many of the Department cost 
inputs fluctuate. For example, detention costs are dependent on both 
detainee population levels and per diem jail rates. These levels and 
the average per diem jail rate would fluctuate as the immigration 
workload shifted to other border zones with less stringent immigration 
enforcement policies. Other factors impacting costs, also unknown, 
include time in detention (which is at the discretion of the courts; 
average sentence terms from Operation Streamline cases have not been 
uniform across Operation Streamline locations) availability of bed 
space, as well as courthouse and cellblock space limitations.
    Funding provided in the 2010 Emergency Border Security Supplemental 
Appropriations bill will allow us to expand our investigations and 
prosecutions. With the $196 million provided, the Department will be 
able to increase the presence of Federal law enforcement in the 
Southwest border districts by adding seven ATF Gunrunner Teams, five 
FBI Hybrid Task Forces, additional DEA agents and Deputy U.S. Marshals, 
equipment, operational support, and additional attorneys and 
immigration judges and to support additional detention and 
incarceration costs for criminal aliens in coordination with DHS 
enforcement activities.

               AFGHANISTAN--FIGHTING NARCO-TERRORISM--DEA

    Question. The Drug Enforcement Administration plays a critical role 
in combating narco-terrorism in Afghanistan. It is helping the Afghan 
Government establish drug enforcement institutions and capabilities 
needed to enforce the rule of law. This means successfully identifying, 
disrupting, and dismantling major drug trafficking organizations that 
fuel the insurgency and profit from the narco-economy.
    Afghanistan's heroin production is a world-wide threat, accounting 
for 93 percent of global supply. As DEA expands operations in 
Afghanistan, the focus will be on high value targets, including members 
of the Taliban, who use the heroin trade to fund insurgents' attacks on 
U.S. and coalition military forces.
    What is DEA's current role in Afghanistan? How do you expect those 
operations to be expanded in the future?
    Answer. DEA supports U.S. national security policy goals in 
Afghanistan through close partnership with the Office of National Drug 
Control Policy, the Departments of State and Defense and other elements 
of the interagency to carry out the U.S. Counternarcotics Strategy for 
Afghanistan. DEA works directly, bilaterally, and multilaterally with 
host nation and regional counterparts to identify, investigate, and 
bring to justice the most significant drug traffickers in Afghanistan 
and the region.
    The Taliban and other insurgent groups continue to receive 
substantial funding from the Afghan and regional drug trade. Their 
monies fuel attacks on U.S. and coalition military personnel and 
interests. The drug trade is also the major driver of corruption in 
Afghanistan, and distorts the legal economy. DEA directly supports 
Afghan counternarcotics efforts in the following ways:
  --Advisory support for host nation counterparts through enforcement 
        groups in Country and Resident offices;
  --Intelligence Support;
  --Financial Investigations--DEA leads the interagency Afghan Threat 
        Finance Cell (ATFC);
  --Sponsorship of a Sensitive Investigative Unit (SIU);
  --Communications Intercept Program--Technical Investigative Unit 
        (TIU);
  --Advice on legislation needed to enforce drug laws; and
  --DEA's Foreign-deployed Advisory Support Team (FAST) partners with 
        Afghan Counternarcotics Police (CNP-A) and U.S. Special Forces 
        to conduct high-risk missions in southern Afghanistan to 
        disrupt narco-insurgent networks, deny revenue and implement 
        the Rule of Law.
    As DEA completes its expansion in Afghanistan to nearly 100 
personnel, our investigations will extend outward from Kabul to key 
provinces of Afghanistan. DEA's five enforcement groups will operate 
jointly with their counterparts in the CNPA's vetted units from forward 
operating bases and will continue to pursue investigative and 
interdiction activities in support of the U.S. Counternarcotics 
Strategy.
    Question. How are DEA's activities coordinated with those of the 
U.S. and Afghan military?
    Answer. DEA coordinates with the Departments of State and Defense 
as a member of the Ambassador's Country Team, through close cooperation 
with the Department of State Bureau for International Narcotics and Law 
Enforcement Affairs (INL) and representation in the Interagency 
Operations Coordination Center (IOCC), and by direct liaison with U.S. 
Forces--Afghanistan (USFOR-A). A key point of coordination is the list 
that the interagency (with DEA participation) has compiled of Afghan 
High Value Targets (HVTs)--the most significant traffickers in 
Afghanistan. HVT designations focus DEA's investigations and alert U.S. 
military personnel to the value of such individuals. At present DEA has 
identified 13 HVTs, all of whom have ties to, or are members of, the 
Taliban. The HVT list is constantly reviewed and updated by DEA in 
coordination with other U.S. and Coalition elements. DEA plans and 
executes civilian-military operations supporting the USFOR-A's campaign 
strategy together with subordinate military units under this command. 
DEA does this in Kabul through the IOCC and in southern and western 
Afghanistan through direct liaison at Regional Command South, the I 
Marine Expeditionary Force (Forward)(I MEF (Fwd)) in Helmand, the 
Combined Joint Special Operations Task Force Afghanistan (CJSOTF-A), 
and through the Combined Joint Inter-Agency Task Force Nexus (CJIATF-N) 
in Kandahar, Afghanistan.
    Question. DEA plays the lead role in investigating and alerting 
U.S. military about High Value Targets and has already identified 13 
such individuals who are members of the Taliban or have close ties to 
the Taliban. Does DEA have the resources it needs to continue to track 
down these high value targets?
    Answer. DEA's counter-narcotics activities in Afghanistan remain 
closely linked to the overall Afghan security situation and capacity of 
the Counternarcotics Police of Afghanistan. As these improve, so will 
DEA's ability to impact high value drug traffickers.
    DEA's Afghanistan expansion established the staffing and resources 
needed to track down HVTs. DEA fully obligated the fiscal year 2009 
supplemental expansion funding transferred from the Department of State 
prior to its expiration on September 30, 2010. In September 2010, the 
State Department transferred $8.5 million to DEA to support Afghanistan 
operations during the first quarter of fiscal year 2011. Continued 
funding of DEA's operations in Afghanistan in fiscal year 2011 will 
ensure that this effort continues without interruption.

         RACHAEL WILSON CASE--PUBLIC SAFETY OFFICERS' BENEFITS

    Question. In February 2007, Baltimore City Fire Cadet Rachael 
Wilson died tragically in a live-burn training exercise. Two and a half 
years later, her children were denied compensation under DOJ's Public 
Safety Officers' Benefits program. Since then, the family filed a 
timely appeal, which I asked be heard and decided expeditiously. The 
appeal was heard on January 20, 2010, and the independent hearing 
officer asked for significant additional information, which was 
provided by February 5. Now, more than 60 days after providing that 
information and 90 days after the appeal hearing, the family has yet to 
receive any communications from the hearing examiner, despite repeated 
requests by the family's attorney and my office.
    This family has already suffered so much and endured too many 
delays. They deserve a timely response from the Justice Department--
something that they have never received at any point throughout this 
process. It is appalling and unacceptable to treat a family in such a 
cavalier and unresponsive manner. Tragic incidents like Ms. Wilson's 
death should not be met with endless delays and outright bureaucratic 
hostility.
    What is the status of this claim? What is the Justice Department 
doing to get a determination on this appeal for Ms. Wilson's family?
    Answer. On October 22, 2010, the Public Safety Officers' Benefits 
(PSOB) Office provided the family of fallen Fire Cadet Rachael Wilson 
with notice that the claim had been approved.
    Question. What are you doing to address the Office of Justice 
Programs' (OJP) ability to promptly and efficiently process claims that 
are on appeal?
    What problems does OJP face when determining whether or not to 
award benefits on appeal, and how do those add to delays?
    Are the difficulties in processing claims and making determinations 
for awards in the appeals process small, unrelated issues that come up 
on a case by case basis, or are there signs of larger systematic 
issues?
    Answer. We are fully committed to finding new ways to increase the 
efficiency and effectiveness of the PSOB appeals process. In fiscal 
year 2010, the PSOB Office brought on-board two new paralegals to 
increase the administrative support for PSOB appeals; retained a cadre 
of medical reviewers to conduct medical reviews nationwide; and have 
plans underway to add additional hearing officers, to prevent any wait 
time for the assignment of hearing officers to new appeals.
    A hearing officer's consideration of a PSOB claim is de novo, 
allowing survivors the opportunity to have a hearing and submit new 
information that may not have been available when the claim was 
determined by the PSOB Office. Delays often arise due to claimants' 
difficulty in obtaining additional information from agencies and 
medical entities; in many cases, limits on claimants' availability for 
hearings and their challenges encountered in obtaining counsel also 
cause delays in the process. For these reasons, the hearing officers 
work together with the claimants to try to move the claim forward as 
expeditiously as possible, using subpoena power where necessary to help 
obtain information that will assist in determining the claim. When a 
hearing officer determines that the claim should be approved, the BJA 
Director reviews the approval determination and, if finding no cause to 
decide it differently, approves it without delay.
    Difficulties in making determinations for PSOB benefits in the 
appeals process arise on a case-by-case basis, based on the unique 
facts and complexities of each case, and are not inherent to the 
process. Many cases move very quickly, while others take longer to 
resolve.
    Question. Independent contractors are routinely hired by the 
Department of Justice as Hearing Officers to review claims that were 
initially denied and the claimant chooses to appeal, such as the Wilson 
case.
    What criteria does OJP use in hiring those contractors?
    What oversight and review do independent hearing officers receive 
from the Justice Department?
    Answer. By regulation, hearing officers ``may be appointed from 
time to time by the [BJA] Director, to remain on the roster of such 
Officers at his pleasure.'' The BJA Director appoints qualified 
individuals who have the requisite skills to fact-find and analyze 
relevant information and to apply the law faithfully and fairly; 
understands the PSOB program and the public safety field; and who have 
the capacity to work sensitively and compassionately with survivors and 
injured disability claimants.
    All PSOB hearing officers are assigned an attorney from OJP's 
Office of the General Counsel who serves as a legal advisor to provide 
advice on all questions of law relating to the appeal. The PSOB Office 
and the Office of the General Counsel together monitor the progress and 
track the workflow of the appeals, reassigning cases as necessary and 
providing additional administrative support, to help ensure timely 
processing of the appeals. The hearing officers submit draft 
determinations for review to the legal advisors to check for legal 
accuracy. The hearing officers then submit their final determinations 
to the BJA Director, the PSOB Office, and OJP's General Counsel. If the 
hearing officer denies the claim, not only may the claimant appeal to 
the BJA Director, but the BJA Director, on his own initiative, may 
review the entire claim and issue a final agency decision. If the 
hearing officer approves the claim, this triggers a mandatory review of 
the determination by the BJA Director, who may leave the hearing 
officer's determination undisturbed, or issue his own decision.

                        CURBING LAVISH SPENDING

    Question. Under the previous administration, we were shocked and 
outraged to learn of lavish spending at the Justice Department. There 
was one instance when the Department spent $1.4 million to host a 
single conference, and another report of spending $4 on Swedish 
meatballs.
    In the wake of such extravagant spending, Senator Shelby and I 
required the Justice Department to create uniform guidelines on 
conference spending to prevent further debacles at the Justice 
Department. This requirement was right in line with the inspector 
general's recommendation that internal checks were needed at the 
Department to avoid such irresponsible spending.
    Attorney General Holder, under your leadership, what steps have you 
taken to ensure that the Justice Department is following those new 
requirements to avoid lavish spending and cost overruns so that the 
American people's tax dollars are not being squandered?
    Answer. The Justice Management Division issued policy guidance in 
April 2008 on Conference Planning, Conference Cost Reporting, and 
Approvals to Use Non-Federal Facilities. The Assistant Attorney General 
for Administration issued a memorandum to the Department's Component 
Heads in June 2008 and the Deputy Attorney General issued a similar 
memo in May 2009 highlighting the importance of fiscal responsibilities 
with respect to conferences sponsored by the Department. The following 
bullets were included in the Deputy Attorney General's memorandum.
  --Conference locations are to be selected based on business need and 
        minimization of travel and other costs.
  --Locations and accommodations should not be selected based on their 
        lavish or resort qualities. Component Heads are required to 
        submit written justification if the facility gives the 
        appearance of being lavish or is a resort location. The 
        Component Head approval cannot be re-delegated.
  --Components must restrict the number of people traveling to 
        conferences to the minimum necessary to accomplish the official 
        purpose.
  --Ensure the selected lodging location is within per diem rates.
  --Meals should be provided on an infrequent basis and only as a 
        working meal when necessary to accomplish the purpose of the 
        event. Refreshments should be kept to an absolute minimum. 
        Grant making organizations should instruct grant recipients 
        that Department grant funding is not to be used for lavish 
        food, refreshments, or entertainment purposes.
  --Ensure that travelers are aware of their responsibility to reduce 
        per diem when meals are provided at the conference.
  --Ensure that reporting of costs for all non-Federal facility events 
        and conferences are submitted by Component Heads no later than 
        45 days following the close of each fiscal quarter.
    In addition, the Attorney General is required to submit a report of 
conferences held by the Department to the inspector general. The report 
is submitted on a quarterly basis. The Office of the Inspector General 
recently initiated an audit of the Department's fiscal year 2008 and 
2009 Conference Reports.
    Question. American families are tightening their belts in this 
tough economy. What are other ways that the Department of Justice can 
tighten its belt and clean up waste, fraud and abuse?
    Answer. The Attorney General, in June 2009, issued a call for ideas 
to reduce Department costs and improve efficiency, and operations. 
Sixteen savings and efficiency initiatives were identified, 12 
initiatives for immediate implementation and 4 initiatives that 
required additional review and are in the process of being phased in 
over time. The 16 initiatives address a range of efficiencies such as 
contract consolidation, leveraging purchasing power, reduction of 
travel, and centralizing IT functions. The identified initiatives 
resulted in saving $4.7 million in fiscal year 2009. Through the third 
quarter of fiscal year 2010, 13 initiatives have been implemented and 
the Department recorded a savings of approximately $20.5 million for a 
total to-date of $25.2 million (for fiscal year 2009 and fiscal year 
2010 combined), and we are on track to meet our fiscal year 2010 
savings targets. Most importantly, these savings ideas have given us a 
basis for implementing a broader, more formal savings program across 
the Department.
    In July 2010 the Attorney General's Advisory Council for Savings 
and Efficiencies (SAVE Council) was created. The SAVE Council will 
institutionalize the Department's early savings efforts and pave the 
way for the development of future on-going initiatives that will be 
incorporated into departmental budgets and strategic plans. The SAVE 
Council will be responsible for developing and reviewing Department-
wide savings and efficiency initiatives and monitoring component 
progress to ensure positive results for cost savings, cost avoidance 
and efficiencies. The goals of the SAVE Council are to achieve real and 
sustainable Justice-wide savings and efficiencies.

                    PRISONS--THOMSON PRISON FACILITY

    Question. The President's fiscal year 2011 budget request for the 
Federal Prison System includes $170 million for the BOP to acquire and 
renovate the Thomson Correctional Center in Illinois. An additional $67 
million is requested for activation costs to get the facility up and 
running. I have visited BOP facilities and I know firsthand the 
terrible crowding situation in U.S. prisons.
    I appreciate and support our Federal investigators and prosecutors 
who are so very successful. However, the end result is that the U.S. 
Federal prison inmate population continues to grow exponentially. In 
fact, growth in that population has far outpaced growth in prison 
capacity and reached grave proportions.
    What are your plans for the immediate future--to relieve dangerous 
overcrowding now--and in fiscal year 2011 and beyond?
    Answer. The fiscal year 2010 appropriation provided funds for the 
BOP to begin activating two medium security institutions, Federal 
Correctional Institution (FCI) Mendota and FCI McDowell, which will 
expand rated capacity by 2,432 beds. The fiscal year 2011 President's 
budget requests new resources to acquire, renovate and begin activating 
the Thomson facility (1,600 high security cells) and begin activating 
FCI Berlin (1,280 beds).
    I also convened a Sentencing and Corrections Working Group 
comprised of multiple bureaus and offices to identify alternatives to 
incarceration and reduce recidivism. The working group recommendations 
are being discussed within the Department. I look forward to sharing 
these ideas with Members of Congress and working together to reduce 
crowding over rated capacity in the Federal Prison System.
    Question. How will purchasing the Thomson facility address BOP 
crowding?
    Answer. The number of administrative maximum (ADX or ``super max'') 
beds available in the Federal prison system has not increased since ADX 
Florence was activated in 1994. Acquisition of the Thomson facility, 
which is significantly larger than ADX Florence, will expand BOP's 
capacity by up to 1,600 high security cells. The acquisition will allow 
BOP to confine ADX and Special Management Unit (SMU) inmates at a lower 
cost and within a shorter timeframe than building a new facility. High 
security facilities are currently 53 percent crowded over rated 
capacity. The Thomson facility is projected to reduce high security 
crowding to 46 percent over rated capacity. Without this acquisition, 
crowding in high security facilities is projected to rise to 57 
percent.
    Question. What role--if any--will the Defense Department and 
Guantanamo detainees have if the BOP acquires and activates this high 
security facility?
    Answer. The fiscal year 2011 President's budget includes $170 
million for the BOP to acquire and modify the Thompson Correctional 
Center (Thomson, Illinois) for high security Federal prison use. The 
priority is to reduce crowding over rated capacity in BOP facilities by 
acquiring and renovating the Thomson facility, independent of the 
Defense Department's (DOD) interests or goals. Thomson expands BOP's 
capacity by 1,600 high security cells and would reduce crowding over 
rated capacity in high security facilities from 53 percent (as of 
August 12, 2010) to 46 percent. BOP will be responsible for all inmates 
designated to the Bureau.
    Acquisition and activation of the Thomson facility will reduce the 
BOP's shortage of high security, maximum custody cell space. If it is 
determined that a portion of the facility is required for detainee 
management purposes, then the BOP would operate the Thomson facility as 
a high-security administrative maximum prison with Federal inmates and 
make a portion available to the Department of Defense (DOD) to house a 
limited number of detainees. DOD would also be solely responsible for 
the detainees housed in its separate portion of the facility and DOD 
would be responsible for any additional security upgrades to the 
institution that it deemed necessary. However, the facility would be 
owned by the BOP, and the Department would intend to pay the 
acquisition costs.

                         PRISONS--OVERCROWDING

    Question. I understand that you would intend to house at Thomson 
general population high security inmates, some supermax inmates, and 
inmates designated for special management units. I am also concerned 
about the current crowding rate at high security institutions. By the 
end of 2011, it is expected there will be 228,000 inmates incarcerated 
in BOP institutions nationwide.
    What is the current crowding rate in Federal prisons?
    Answer. As of August, 12, 2010, system-wide crowding over rated 
capacity was 37 percent in facilities operated by BOP. By security 
level, BOP facilities are crowded over rated capacity by 53 percent at 
the high security level, 46 percent at the medium security level, and 
37 percent at the low security level.
    Question. What does it mean for staff and inmate safety?
    Answer. As of August 12, 2010, crowding in BOP high security 
institutions was 53 percent over rated capacity. High security 
institutions confine the most violent offenders and crowded conditions 
increase safety and security risks for staff, inmates, and the 
community. If the BOP acquires the Thomson facility and begins the 
activation process during fiscal year 2011, the crowding rate for high 
security institutions is projected to decrease to 46 percent over rated 
capacity. Without Thomson or a facility of similar capacity, crowding 
in BOP high security institutions is projected to increase to 57 
percent.
    Question. Can you help the subcommittee to understand the impact 
that would be made on this problem by having the additional bed space 
at Thomson or elsewhere?
    Answer. The number of administrative maximum (ADX or ``super max'') 
beds available in the Federal prison system has not increased since ADX 
Florence was activated in 1994. Acquisition of the Thomson facility, 
which is significantly larger than ADX Florence, will expand the BOP's 
capacity by up to 1,600 high security cells. The acquisition will allow 
BOP to confine ADX and Special Management Unit (SMU) inmates at a lower 
cost and within a shorter timeframe than building a new facility. High 
security facilities are currently 53 percent crowded over rated 
capacity. The Thomson facility is projected to reduce high security 
crowding to 46 percent over rated capacity. Without this acquisition, 
crowding in high security facilities is projected to rise to 57 
percent.

                         PRISONS--UNDERSTAFFING

    Question. The administration and the Department continued efforts 
to address the operating needs of the Federal prison system. The fiscal 
year 2011 President's budget's request resources for the Bureau of 
Prisons (BOP) to fill 1,200 vacant base positions, addressing BOP 
staffing needs. Increasing the number of staff in Federal prisons will 
improve the inmate to staff ratio, which will result in better 
supervision, safety, and programming of the inmates. Further, the 
fiscal year 2011 President's budget also requests an additional 1,316 
new positions (including 652 correctional officers). For context, 
during fiscal year 2009, BOP achieved a net increase of 775 staff 
across the agency. The fiscal year 2010 operating plan will allow BOP 
to increase the total number of staff on-board this year by about 925, 
including staffing for new institutions.
    The President's fiscal year 2011 request for BOP provides funding 
to hire an additional 1,200 correctional staff, including 652 
correctional officers, in BOP facilities. Does this increase addressing 
the shortfall in staffing?
    Answer. The President's budget request contains half year funding 
for an additional 1,200 correctional workers at existing institutions. 
Yes, these positions are meant to increase staffing in the BOP 
facilities.
    Question. Understaffing of prisons has put prison guards and 
inmates at great risk and the Bureau of Prisons needs to hire 
additional prison guards. The number of Federal correctional officers 
who work in BOP prisons, however, is failing to keep pace with this 
tremendous growth in the prison inmate population.
    The BOP system is currently staffed at an 86.6 percent level, as 
contrasted with the 95 percent staffing levels in the mid-1990s. BOP 
believes to be the minimum staffing level for maintaining safety and 
security should not be less than 90 percent. The current BOP inmate-to-
staff ratio is 5 inmates to 1 staff member, versus the 1997 inmate-to-
staff ratio of 3.6 to 1.
    In the last year, there have been numerous assaults on prison 
guards, including an incident at a BOP facility when an inmate stabbed 
an officer 7 times. What steps are you taking to protect officers in 
BOP facilities?
    Answer. BOP has taken a number of steps to improve security at BOP 
facilities, including: (1) increased staffing on evenings and weekends; 
(2) enhanced emergency response procedures and training of all staff to 
ensure more rapid responses to emergencies; (3) quicker access to less-
lethal munitions; and (4) improved internal controls for inmate 
movement.
    High security institutions were authorized two additional staff for 
evening watch and day watch shifts on weekends and Federal holidays at 
penitentiaries. The staff members assigned to these posts function as 
rovers and provide additional assistance to housing unit staff. 
Therefore, two additional evening positions were incorporated into the 
roster as well as two positions on the weekends and holidays.
    Question. The Department of Justice must award billions of dollars 
in State and local law enforcement grants each year. This year, we 
expect it to administer $3.5 billion in grants alone. We must make sure 
the Office of Justice Programs, the COPS Office, and the Office on 
Violence Against Women have sufficient resources to get grants out the 
door and monitor how those funds are spent.
    Given the dramatic increase in grant applications and funding 
available for State and local law enforcement activities in recent 
years, what steps has the Justice Department taken to improve 
accountability of taxpayer dollars when processing and awarding grants?
    Answer. The Department is committed to improving the grant 
management process. Each of the Department's grant-making components 
began implementing the OIG's recommendations with their fiscal year 
2009 and Recovery Act grants. As the inspector general noted in his 
November 13, 2009 report of the Department's Top Management and 
Performance Challenges, ``[t]he Department has taken positive steps,'' 
and ``is demonstrating a commitment to improving the grant management 
process.''
    Fairness, transparency, and accountability in the review, selection 
and administration of the OJP grant programs are among the Department's 
highest priorities. OJP is committed to ensuring that grant award 
decisions are transparent and that it is accountable for effective 
grant management.
    Prior to making new grant awards, OJP considers whether grantees 
have appropriately managed past grant award funding. OJP's Office of 
Audit, Assessment, and Management (OAAM) administers a DOJ-wide high-
risk grantee program, working collaboratively with OJP bureaus and 
program offices, the Office on Violence Against Women (OVW), and the 
Community Oriented Policing Services (COPS). Prior to making new grant 
awards to high-risk grantees, OJP determines whether additional special 
conditions and oversight may be needed based on the grantees' 
designated level of risk, including whether the grantee used the funds 
appropriately in the past.
    OJP has taken several actions to establish uniform peer review 
policies and procedures, which apply across all OJP program offices and 
bureaus. In July 2008, OJP issued peer review policies providing for a 
sound and consistent methodology for scoring applications. OJP also 
created a common peer review form for all program offices. These 
policies were implemented to ensure that peer reviews are rigorous, 
cost-effective, and transparent across all OJP program offices and that 
funding decisions are clearly documented and justified. These policies 
also ensure that peer review panels include subject matter experts.
    Also in 2008, OJP implemented a policy issued by the Associate 
Attorney General requiring DOJ grant-making components to maintain 
documentation to support all discretionary funding recommendations and 
decisions. On March 10, 2009, the OJP Assistant Attorney General issued 
a memorandum to all OJP bureaus and program offices, which continues 
the requirement that all discretionary grant recommendations must 
include clear explanations of the funding choices made, the reasons for 
the choices, and the policy considerations on which the decisions were 
based. The OJP bureaus and offices now maintain records detailing and 
supporting their grant recommendation decisions.
    Beginning in fiscal year 2009, OJP award decisions are posted on 
the OJP Web site, including the type of award, the recipient, and the 
award amount.
    For its fiscal year 2010 hiring program, the COPS Office conducted 
a thorough internal review process where applications are scored based 
on local economic indicators, crime rates and the applicant's local 
community policing plan--the same factors that were used for grading 
applications under the Recovery Act. In order to measure and compare 
the necessary factors, the COPS Office worked in consultation with 
experts in the fields of policing, criminology, and public finance to 
develop the appropriate questions. COPS asked applicants to submit 
information about:
  --Reported crimes for the previous calendar year;
  --Planned community policing activities;
  --Changes in budgets for law enforcement agencies and local 
        governments; and
  --Poverty, unemployment and foreclosure rates.
    In asking a variety of fiscal health questions, the COPS Office 
tried to get as complete a view as possible of the fiscal distress 
being experienced by applicants through objective and verifiable 
indicators that all agencies, from rural communities to large cities, 
could accurately report. The grant selection methodology, final 
rankings and applicant scores were all posted online, a process that 
the COPS Office will replicate for its future hiring programs.
    The COPS Office has an external vetting process as well, including 
all United States Attorneys' Offices and the Justice Department's Civil 
Rights Division, Criminal Division, OJP's Office for Civil Rights, and 
Office of the Inspector General Investigations Division. These 
components are asked to identify any ongoing investigations or other 
matters that could make it inappropriate or inadvisable for the COPS 
Office to make a grant award to a particular agency.
    The COPS Office also uses Sex Offender Registration and 
Notification Act (SORNA) expert peer reviewers to review the Project 
Narrative and Budget Narrative for its Child Sexual Predator Program. 
Each application was reviewed and scored three times by three separate 
peer reviewers. OVW is also committed to ensuring the fair and 
transparent awarding of grants. One critical component in the OVW 
grant-making year is the peer review process. Through this process, 
professionals with expertise in addressing violence against women 
participate in evaluating grant proposals. OVW conducts peer reviews in 
accordance with its Peer Review Guidelines. Applicants are scored based 
on criteria established in program solicitations. Peer review is well 
documented and ensures consistency and fairness in the process.
    OVW's Technical Assistance Program provides OVW grantees and sub-
grantees with the expertise and support they need to develop and 
implement successful State, local, tribal, U.S. territories and campus 
projects; increase victim safety; and bolster accountability. OVW 
supports education initiatives, conferences, peer-to-peer 
consultations, and targeted assistance for OVW grantees to learn from 
experts and one another about how to overcome obstacles and incorporate 
promising practices in their efforts to address violence against women. 
The primary purpose of the OVW Technical Assistance Program is to 
provide direct assistance to grantees and sub-grantees to enhance the 
success of local projects they are implementing with VAWA grant funds. 
OVW conducts on-site monitoring of grantees to ensure that the millions 
of dollars in OVW awards each year to States, tribes, units of local 
governments, and nonprofit organizations are being used in accordance 
with the intended purpose of OVW programs. On-site monitoring allows 
OVW program specialists to offer guidance regarding grant compliance, 
gather information on grantees implementing innovative best practices, 
support implementation of practices that enhance victim safety and 
promote offender accountability, and identify professionals who can 
serve as peer reviewers and expert consultants. Also, early on-site 
monitoring can prevent long-term challenges, including fraud, waste, 
and abuse.
    In an effort to improve accountability and increase efficiency for 
its award making processes, the Justice Department's grant-making 
components created a streamlined approach for American Indian and 
Alaska Native tribal communities to apply for fiscal year 2010 funding 
opportunities. The Coordinated Tribal Assistance Solicitation (CTAS) 
will serve as a single solicitation for existing tribal government-
specific grant programs administered by OVW, COPS, and OJP. This move 
comes after consultation with tribal leaders, including sessions at the 
Department's Tribal Nations Listening Session last year.
    Question. Does the Department have the necessary resources, 
equipment and staff to process applications for programs funded in the 
fiscal year 2010 Omnibus?
    Answer. While the fiscal year 2010 appropriations for OJP's 
Salaries and Expenses (S&E) account did not provide sufficient funds to 
support the programs funded in the fiscal year 2010 Omnibus, the 
Department of Justice subsequently submitted Congressional 
reprogramming notifications to the Subcommittees on Appropriations for 
Commerce, Justice, Science, and Related Agencies (``the 
subcommittees'') to address DOJ grant components' critical fiscal year 
2010 shortfalls. The Department appreciates the support received from 
the subcommittees for these reprogramming notifications.
    The Omnibus Appropriations Act of 2009 (Public Law 111-8) 
established a new (S&E) account for OJP, OVW, and the COPS Office. 
Staff of the subcommittees advised OJP of their understanding that 
certain costs previously distributed to OJP programs (i.e., as 
programmatic costs) should now be considered S&E. Because these costs 
were previously distributed to programs, they were not taken into 
consideration when the fiscal year 2010 appropriation level for the S&E 
account was established. The Department submitted a reprogramming 
notification for $8.5 million to the subcommittees to address these 
requirements, and the subcommittees responded on April 29 to the 
notification, without objection.
    In addition, the Department submitted two reprogramming 
notifications to the subcommittees to address critical contractual 
services requirements. The subcommittees responded on July 29 to one 
notification totaling $14.3 million, without objection. The 
subcommittees responded on September 21 to the second reprogramming 
notification totaling $8.0 million, without objection.
    Similarly, for OVW, since the change in methodology occurred after 
the President's budget had already been submitted, the peer review and 
previously distributed costs were not taken into consideration in the 
fiscal year 2010 budget request. Therefore, OVW submitted a $7.6 
million Congressional reprogramming notification to reclassify funds 
from OVW programs to S&E in order to cover costs that were previously 
distributed to programs, but that are now considered S&E. It should be 
noted that $600,000 of these reprogrammed funds were for a one-time 
purpose to move OVW offices from its current location to Two 
Constitution Square. The subcommittees responded on March 3 to this 
notification, without objection.
    In fiscal year 2011 OVW anticipates receiving an additional 40 
positions and 25 full-time equivalents (FTE). Additionally, the 
President's fiscal year 2011 budget requests $22.7 million for OVW's 
S&E account, which includes adjustments to base as well as a program 
increase. These FTEs and funds are critical to OVW's ability to carry 
out its grant-making function, accomplish administration and 
congressional priorities and mandates, and ensure sound stewardship of 
OVW's mandate to improve the Nation's response to domestic violence, 
sexual assault, dating violence, and stalking--largely through 
administration of the Violence Against Women Act's grant programs.
    OVW and the Department, as a whole, are committed to ensuring the 
fair and transparent awarding of grants. One critical component in the 
OVW grant making year is the peer review process. Through this process, 
professionals with expertise in addressing violence against women 
participate in evaluating grant proposals. Applicants for OVW grant 
funds have confidence in the fairness of the selection process largely 
because of the OVW peer review. In fiscal year 2010 for the first time, 
however, OVW was not able to use grant program dollars to support peer 
review of our grant applications. Peer review expenses were moved to 
OVW's Management & Administration account without a commensurate 
increase in that account to adequately support peer review. The Office 
on Violence Against Women submitted a reprogramming of $7.6 million to 
Congress on February 24, 2010 for costs which were previously 
distributed to programs, including peer review, that were not taken 
into consideration when the fiscal year 2010 appropriation level for 
the S&E account was established. The subcommittees responded on March 3 
to the notification, without objection. Supporting peer review will 
continue to present a challenge in fiscal year 2011.
    The Department's inspector general identified grant management as 
one of the Department's Top Ten Management Challenges. The inspector 
general noted the importance of making timely awards as well as the 
necessity of maintaining proper oversight over grantees to ensure funds 
are used as intended. The inspector general has stated that, while it 
is important to efficiently award the billions of dollars in grant 
funds appropriated by Congress annually, it is equally important to 
maintain proper oversight over the grantees' use of these funds to 
ensure accountability and to ensure that funds are effectively used as 
intended. In addition, although the inspector general noted that the 
Department is demonstrating a commitment to improving the grant 
management process, and there have been significant signs of 
improvement, ``considerable work remains before grant management of the 
billions of dollars awarded annually in Department grants is no longer 
considered a top Department challenge.'' We take the inspector 
general's observation seriously and are working to meet this challenge. 
Doing so requires funding for additional personnel to carry out 
critical functions such as programmatic and financial monitoring and 
grantee outreach and training. This ``post award'' work is fundamental 
to preventing fraudulent, wasteful, or inappropriate use of the 
billions of taxpayers' dollars that the Department awards in grants 
each fiscal year.
    Question. Do you anticipate needing additional resources for grants 
management and administration, either this year or next?
    Answer. In the fiscal year 2011 President's budget request, OJP 
identified a total requirement of an additional 63 full-time 
equivalents (FTE) and $56 million for the S&E account, which includes 
adjustments to base as well as a program increase. These funds are 
critical to OJP's ability to carry out its grant-making mission, 
accomplish administration and congressional priorities and mandates, 
and ensure sound stewardship of OJP's annual multi-billion grant 
programs and the $2.765 billion appropriated pursuant to the Recovery 
Act.
    Similarly, the fiscal year 2011 budget request for the COPS Office 
includes a total of $40.3 million for management and administration 
expenses. The COPS request supports the administrative and oversight 
costs of the $690 million in grant program funding requested in the 
budget, as well as for management and administration of programs 
appropriated in prior fiscal years, including the $1 billion COPS 
Hiring Recovery Program (CHRP) funded by the Recovery Act in 2009. The 
fiscal year 2011 request is $2.5 million above the current services 
level, and includes an increase in COPS staffing levels of 22 positions 
and 11 FTEs. With enhanced grant funding, it is vital for COPS to have 
the staff and the systems in place to handle the thousands of new grant 
awards to be made as well as continue to efficiently monitor, maintain 
and close grants awarded in previous fiscal years. Additional resources 
and staff in fiscal year 2011 and fiscal year 2012 will further promote 
transparency and accountability for both the COPS Office and COPS 
grantees and will assist to ensure the worthwhile investment of 
taxpayer dollars.
    In fiscal year 2011 OVW anticipates receiving an additional 40 
positions and 25 full-time equivalents (FTE). Additionally, the 
President's fiscal year 2011 budget requests $22.7 million for OVW's 
S&E account, which includes adjustments to base as well as a program 
increase. These FTEs and funds are critical to OVW's ability to carry 
out its grant-making function, accomplish administration and 
congressional priorities and mandates, and ensure sound stewardship of 
OVW's mandate to improve the Nation's response to domestic violence, 
sexual assault, dating violence, and stalking--largely through 
administration of the Violence Against Women Act's grant programs.
    As noted above, both OVW and the Department as a whole are 
committed to ensuring the fair and transparent awarding of grants. One 
critical component in the OVW grant-making year is the peer review 
process. Through this process, professionals with expertise in 
addressing violence against women participate in evaluating grant 
proposals. Applicants for OVW grant funds have confidence in the 
fairness of the selection process largely because of the OVW peer 
review. In fiscal year 2010 for the first time, however, OVW was not 
able to use grant program dollars to support peer review of our grant 
applications. Peer review expenses were moved to OVW's Management & 
Administration account without a commensurate increase in that account 
to adequately support peer review. OVW did receive Congressional 
approval to reprogram fiscal year 2010 grant funds to OVW's Management 
& Administration account to support peer review. Supporting peer review 
will continue to present a challenge in fiscal year 2011.
    The Department's inspector general identified grant management as 
one of the Department's Top Ten Management Challenges. The inspector 
general noted the importance of making timely awards as well as the 
necessity of maintaining proper oversight over grantees to ensure funds 
are used as intended. The inspector general has stated that, while it 
is important to efficiently award the billions of dollars in grant 
funds appropriated by Congress annually, it is equally important to 
maintain proper oversight over the grantees' use of these funds to 
ensure accountability and to ensure that funds are effectively used as 
intended. In addition, although the inspector general noted that the 
Department is demonstrating a commitment to improving the grant 
management process, and there have been significant signs of 
improvement, ``considerable work remains before grant management of the 
billions of dollars awarded annually in Department grants is not longer 
considered a top Department challenge.'' We take the inspector 
general's observation seriously and are working to meet this challenge. 
Doing so requires funding for additional personnel to carry out 
critical functions such as programmatic and financial monitoring and 
grantee outreach and training. This ``post award'' work is fundamental 
to preventing fraudulent, wasteful, or inappropriate use of the 
billions of taxpayers' dollars that the Department awards in grants 
each fiscal year.
    Question. What assurances do the American people have that DOJ is 
awarding grants without waste, fraud or abuse?
    Answer. The Department is committed to performing quality and 
complete grant monitoring across OJP to detect and prevent waste, 
fraud, or abuse. OJP has established common procedures and guidance and 
provides training and effective tools to its grants managers to 
properly conduct and document desk reviews and on-site monitoring, 
formally communicate with grantees through the Grants Management System 
(GMS), and track the resolution of open issues.
    OJP's Office of Audit, Assessment, and Management (OAAM) is 
dedicated to the oversight of OJP and COPS Office monitoring activities 
and the assessment of grant program performance. OAAM reviews the 
procedures and internal controls of OJP's grant management processes, 
provides recommendations for improvement, and monitors actions to 
ensure improvements are implemented. OAAM conducts program assessments 
of OJP and COPS Office grants and grant programs to measure performance 
against intended outcomes and assess compliance with applicable 
regulations and statutes. Assessment reports will include targeted 
recommendations for making program improvements and enhancing grant 
oversight practices, as well as program accomplishments and best 
practices.
    OJP has embraced and implemented many of the recommendations from 
the Department's Office of the Inspector General's February 2009 report 
entitled ``Improving the Grant Management Process.'' OJP has 
implemented the inspector general's recommendations relating to grant 
program development and its grant application and award processes. OJP 
has an action plan in place to implement the OIG's recommendations 
relating to grant monitoring, program performance, and training to 
grantees and staff. At every possible opportunity, OJP is implementing 
OJP-wide corrective actions to respond to the inspector general's 
grant-related and program-specific audit recommendations.
    In 2009, over 500 OJP staff attended OIG-led training on detecting 
and preventing fraud. OJP works with OIG staff to coordinate grant 
fraud training at OJP sponsored conferences and meetings. Additionally, 
a grant fraud component has been included in the Office of the Chief 
Financial Officers' Regional Financial Management training seminars.
    Both OJP and COPS worked closely with the OIG throughout the 
Recovery Act grant pre-award phase and have taken proactive measures to 
reduce the risk of waste, fraud, and abuse as it relates specifically 
to Recovery Act funds. The COPS Office, working in conjunction with the 
OIG, has uploaded Post-Award Grant Record-Keeping Tips to ensure 
grantees are maintaining proper documentation for the CHRP grants and 
COPS intends to replicate this for its future grant-making processes.
    In addition to audits by the Office of the Inspector General, COPS 
has a comprehensive grant monitoring process which provides serious 
consequences for misuse of grant funds. This is particularly important 
for Recovery Act funds. COPS barred 26 agencies across the country from 
receiving CHRP funding because of previous violations. Eighteen of 
these agencies were audited by the Office of Inspector General. Each 
agency went through an audit resolution process, all had various 
compliance violations, and most were found to owe money to the 
Government. When these agencies demonstrated that they could not pay 
back the funds, COPS and the OIG resolved these audits by barring these 
agencies from receiving future COPS funding for a set period of time 
based on the amount of funding owed or the type of violation. The 
typical bar period is a maximum of 3 years.
    In addition to the sanctions imposed by OIG, agencies found to be 
in violation of the COPS retention requirement may be barred from 
receiving future grant awards. Those agencies that did not qualify for 
a retention exemption based on severe fiscal distress were barred for 3 
years in accordance with the COPS retention policy. Eight of the 
agencies had violations that were identified after going through COPS 
comprehensive grant monitoring processes.
    Grant monitoring and evaluation are also critical aspects of all 
COPS grant programs. The COPS Office has a progress reporting system 
that is being used to document grantees' use of funds. Recipients of 
CHRP grant awards are required to use grant funds for the specific 
hiring categories awarded and maintain documentation pertinent to the 
officers hired/rehired with CHRP grant funding.
    The Recovery Act requires grantees to report their financial and 
programmatic progress within 10 days after the end of each calendar 
quarter. The COPS Office requests information from grantees consistent 
with section 1512 of the Recovery Act, including collecting information 
on the number of new jobs created and the number of jobs preserved 
using CHRP funding. The COPS Office is currently updating its grant 
monitoring strategy for CHRP, and is also working with the OJP's Office 
of Assessment, Audit, and Management to ensure implementation of a 
consistent grants monitoring approach across the Department.
    In addition, the COPS Office will use the following measures to 
track the program's progress against achievement of Recovery Act and 
program-specific objectives. The COPS Director will be accountable for 
each of these measures.
  --Number of New Jobs Created (Number of Newly Hired Sworn Officer 
        Positions).--A newly hired sworn officer is an additional 
        career law enforcement officer hired using Recovery Act funds. 
        This officer is over and above the number of officer positions 
        that a grantee would otherwise fund or redeploy in the absence 
        of the CHRP grant award. This outcome will be measured 
        quarterly.
  --Number of Jobs Preserved (Number of Rehired Sworn Officer 
        Positions).--A rehired sworn officer is either an already laid-
        off career law enforcement officer that is being rehired with 
        Recovery Act funds or an officer that is scheduled to be laid 
        off, but will not be, due to a CHRP grant award. This outcome 
        will be measured quarterly.
  --Average Community Policing Capacity Implementation Rating (0 to 
        100) of CHRP Grantees.--One of the key measures COPS Office 
        management will use to evaluate the program is the average 
        community policing capacity implementation rating of CHRP 
        grantees. COPS management has asked an independent research 
        firm to conduct a survey to determine how COPS grants have 
        increased grantee agencies' capacity to implement community 
        policing strategies. Each survey will produce a rating, which 
        will be on a scale of 0 to 100 points, with 100 being the most 
        favorable rating. Grantees will be asked to answer questions 
        related to how CHRP grants have increased their agency's 
        capacity to implement community policing strategies with regard 
        to the three primary elements of community policing: (1) 
        developing community/law enforcement partnerships; (2) problem-
        solving; and (3) organizational change. This outcome will be 
        measured on an annual basis.
    OVW has identified detailed performance measures for each of its 
grant programs. These measures are included in OVW grant program 
solicitations and are collected through grantee progress reports. All 
OVW grant program solicitations include Government Performance and 
Results Act (GPRA) measures. Program solicitations also include a link 
for applicants to access samples of the progress report forms that 
grantees must complete during the life of the grant. These semi-annual 
progress reports (for OVW discretionary grantees) and annual progress 
reports (for OVW formula grantees and subgrantees) collect data 
regarding program measures for each of OVW grant programs. Although 
there are some similarities across progress report forms, OVW spends a 
significant amount of time developing these forms based on the goals 
and objectives of the individual grant programs.
    The Department is committed to performing quality and complete 
grant monitoring across OVW to detect and prevent waste, fraud, or 
abuse. OVW has established common procedures and guidance and provides 
training and effective tools to its grants managers to properly conduct 
and document desk reviews and on-site monitoring, formally communicate 
with grantees through the Grants Management System (GMS), and track the 
resolution of open issues.
    The objectives of OVW grant monitoring are to ensure that the 
grantee complies with the programmatic, administrative, and financial 
requirements of relevant statutes, regulations, policies, and 
guidelines and/or special conditions applied to a specific award; to 
verify that programs/projects initiated by grantees are carried out in 
a manner consistent with the grantee's approved project goals and 
objectives; to promote responsible stewardship of awarded funds by 
reporting fraud, waste, and abuse, as well as suspected violations, 
serious irregularities, and sensitive issues; and to provide guidance 
or technical assistance to grantees on OVW policies and procedures, 
grant program requirements, general Federal regulations, and basic 
programmatic, administrative, and financial reporting requirements.
    OVW imposes a special condition on all awards requiring grantees 
to: ``. . . promptly refer to the DOJ OIG any credible evidence that a 
principal, employee, agent, contractor, subgrantee, subcontractor, or 
other person has either (1) submitted a false claim for grant funds 
under the False Claims Act; or (2) committed a criminal or civil 
violation of laws pertaining to fraud, conflict of interest, bribery, 
gratuity, or similar misconduct involving grant funds.'' This condition 
also applies to any subrecipients.
    OIG staff makes presentations regarding fraud awareness, waste, and 
abuse at all of OVW's new grantee orientations, which are mandatory for 
new grantees to attend. OVW also has similar OIG presentations at its 
annual STOP Administrators meetings, which are attended by officials 
from the 56 States and territories that administer funding under the 
STOP Formula Program. OVW will include OIG presentations at all 
conferences directed at grantees and will require that current grantees 
attend OIG grantee orientations on an annual basis or when there is a 
key staff change on their grant. OVW is also currently drafting a Grant 
Program Development Manual to provide guidance to OVW staff on 
developing new grant programs. Several sections are in final draft, and 
we hope to have the entire manual completed in fiscal year 2011.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

                          RISS PROGRAM FUNDING

    Question. I believe that information sharing among law enforcement 
agencies plays a critical role in the fight against crime and 
terrorism. I have long supported the Regional Information Sharing 
System (RISS) program, which enhances the ability of local, State, 
Federal, and tribal criminal justice agencies to keep our communities 
safe by improving law enforcement technology and information sharing. 
The Department's fiscal year 2011 budget requests $9 million for the 
RISS program, a reduction of $36 million from last year's enacted 
level. I am concerned that this severe reduction could result in the 
dismantling of the RISS program and hamper our ability to share law 
enforcement information and technology across jurisdictions.
    Information and intelligence sharing are critical to fighting 
increasingly expansive criminal networks, and RISS has proven to be 
successful in identifying and targeting criminal conspiracies and 
terrorist cells.
    Do you agree that information sharing among law enforcement 
agencies is critical for the safety and security of our country?
    Answer. Without question, the Department of Justice agrees that 
information sharing among Federal, State, local and tribal law 
enforcement is critical for national security and public safety. It is 
for this reason that the Department joined with more than 30 national 
organizations representing State, local, and tribal law enforcement; 
the Department of Homeland Security; and the FBI in signing the 
National Criminal Intelligence Sharing Plan (NCISP). The NCISP still 
serves as a blueprint document, along with the National Information 
Sharing Strategy issued by the White House, in protecting the safety 
and security of America.
    The Department promotes greater sharing of national security and 
criminal justice information among Federal, State, and local law 
enforcement partners through a number of programs, including the FBI's 
Law Enforcement Online, which provides access to the National Data 
Exchange system. Additionally, the Department has demonstrated its 
support for information sharing by providing over $335 million to the 
Regional Information Sharing System (RISS) Program since fiscal year 
2000.
    Question. Why did the Department of Justice request only $9 million 
for the RISS program in fiscal year 2011?
    Answer. RISS provides a very important resource for sharing law 
enforcement information through a secure network by Federal, State, 
local, and tribal law enforcement agencies, while maintaining local 
control over the data to be shared. Since 2000, the Department of 
Justice has provided more than $335 million for the RISS Program, in 
addition to millions in discretionary funding through various 
competitive and non-competitive programs.
    While the Department proposed a reduction to dedicated funding for 
the RISS program in the fiscal year 2011 budget, it remains committed 
to ensuring that the vital functions of law enforcement information-
sharing continue without interruption. We will continue to work with 
our partners to maintain and expand current capabilities through 
discretionary funding requested in the fiscal year 2011 budget by 
considering options such as:
  --Engaging RISS through the Byrne Justice Assistance Grants (JAG) 
        Program or Byrne Competitive Program to provide competitive 
        grant-funded training and technical assistance to law 
        enforcement around the United States.
  --Seeking support for State-maintained RISS Centers through the Byrne 
        JAG Program.
  --Re-evaluating user fees charged to member agencies to determine if 
        such fees, with moderate increases or restructuring, can better 
        support RISS.

                      POST CONVICTION DNA TESTING

    Question. One of the key programs created in the Innocence 
Protection Act was the Kirk Bloodsworth Post Conviction DNA Testing 
Grant Program. Kirk Bloodsworth was a young man just out of the Marines 
when he was arrested, convicted, and sentenced to death for a heinous 
crime that he did not commit. He was the first person in the United 
States to be exonerated from a death row crime through the use of DNA 
evidence.
    This program provides grants to States for testing in cases like 
Kirk's where someone has been convicted, but where significant DNA 
evidence was not tested. The last administration resisted implementing 
the program for several years, but we worked hard to see the program 
put into place. This year however the Department's budget did not 
include a request for the Kirk Bloodsworth grant program. Can you 
explain why the Department did not specifically request any funds for 
post conviction DNA testing?
    Answer. In fiscal year 2008, the Office of Justice Programs (OJP) 
awarded $7.8 million under the Post-Conviction DNA Testing Assistance 
program, and in fiscal year 2009, awarded an additional $9.8 million.
    The program has been very successful and based on initial reports 
from the fiscal year 2009 grantees, significant progress has been made. 
However, in response to the fiscal year 2010 solicitation, the 
Department's National Institute of Justice (NIJ) received only four 
applications requesting a total of $1.6 million. Of these four 
applications, only one was a new applicant. The remainder was current 
grantees requesting continuation funds. Given this demand history in 
fiscal year 2010, the Department did not request funding for this 
initiative in fiscal year 2011. However, funds within the fiscal year 
2011 request for the DNA Initiative, which includes ``$150 million for 
DNA-related and forensic programs and activities (including related 
research and development, training and education, and technical 
assistance),'' can be made available to meet the needs in this area.

                         MENTALLY ILL OFFENDERS

    Question. The Mentally Ill Offender Treatment and Crime Reduction 
Act (MIOTCRA) was signed into law in 2004 and authorizes a $50 million 
grant program to be administered by the Department of Justice. The bill 
received unanimous, bipartisan support in both chambers of Congress and 
is supported by a broad spectrum of leaders representing the diverse 
fields of law enforcement, corrections, the courts and mental health. 
The Mentally Ill Offender program provides assistance to States and 
communities to mount new programs or expand existing programs that can 
both reduce costs and help these offenders return to productive lives.
    The MIOTCRA program received $12 million in fiscal year 2010 and is 
in high demand. Of the 250 grant applications submitted in 2006, only 
11 percent were funded, awarding only 28 jurisdictions in 19 States 
with additional resources to design and implement or improve upon their 
mental health programs. Despite this need, the Department's fiscal year 
2011 budget request did not include funds for the MIOTCRA program.
    I appreciate the Department's request for increased funding of 
Drug, Mental Health and Problem-Solving Courts, but unfortunately that 
funding would not encompass many of the key elements of the Justice and 
Mental Health Collaboration Program, which was established by MIOTCRA. 
Court-based grantees constitute only 40 percent of the current MIOTCRA 
grantees, and MIOTCRA program dollars also go toward many other types 
of initiatives, including mental health and substance abuse treatment 
for incarcerated mentally ill offenders, community reentry services, 
and cross-training of criminal justice, law enforcement and mental 
health personnel. How does the Department plan to address this gap in 
services?
    Answer. The Department agrees that the Mentally Ill Offender 
Treatment Crime Reduction Act (MIOTCRA) Program has produced very 
promising results and is committed to furthering these efforts to 
promote the use of evidence-based and innovative strategies to address 
mental health issues. It is important to note, however, that the 
proposed Problem-Solving Courts Program funding, while required to be 
awarded to a court or court agency initially, could be sub-awarded to 
other types of agencies in the community to address mental health needs 
in order to form a more effective response to mental health issues. 
Additionally, OJP has consistently made Byrne JAG funds and Byrne 
Competitive Program funds available for the MIOTCRA Program, in 
addition to new resources recently made available to address mental 
health issues within the justice system, such as Second Chance Act 
funding.

                   INTELLECTUAL PROPERTY ENFORCEMENT

    Question. Intellectual property is critical to our Nation's 
economy. It is the engine that drives our contemporary economy and will 
fuel our future. Industries that rely on intellectual property 
protection accounted for roughly one-half of all U.S. exports and 
represented an estimated 40 percent of U.S. economic growth in 2006, 
the last year in which our economy grew in all four quarters.
    I authored the Prioritizing Resources and Organization for 
Intellectual Property Act of 2008 (PRO-IP Act) (Public Law 110-403), 
which authorized programs to strengthen the protection of our 
intellectual property. I am pleased that the Department's fiscal year 
2011 budget request includes funds for economic, high technology and 
Internet crime prevention grants, including grants authorized by the 
PRO-IP Act. I believe there is a critical need for the Federal 
Government to take a leading role in protecting intellectual property 
rights in order to prevent billions of dollars in losses due to piracy 
and mitigate health and safety risks from trade in counterfeit goods. 
Will you work with Congress to ensure that a significant portion of 
funds provided for economic, high technology and Internet crime 
prevention are devoted to intellectual property enforcement?
    Answer. Yes, the Department of Justice and the Department of 
Homeland Security will work with Congress to ensure that an appropriate 
level of funds is devoted to intellectual property enforcement.

        NEW BLACK PANTHER PARTY VOTER INTIMIDATION INVESTIGATION

    Question. Some constituents have expressed a continuing interest in 
the Justice Department's decisions with regard to its resolution last 
year of a civil suit against members of the New Black Panther Party for 
voter intimidation. I know that you have explained the basis of these 
decisions in the past, but in order to ensure clarity on the subject, 
please set out why the Department decided to resolve the New Black 
Panther Party case in the way that it did, how the decision was made, 
what steps were taken if any to ensure that the decision was made on 
the merits and not based on political motivations, and what the results 
were in the case.
    Answer. Please see the Department's response to this question set 
forth in its letter to Senator Leahy of August 10, 2010. See Attachment 
1.

                        U.S. Department of Justice,
                             Office of Legislative Affairs,
                             Washington, DC 20530, August 10, 2010.
The Honorable Patrick J. Leahy,
United States Senate,
Washington, DC 20510.
    Dear Mr. Chairman: This responds to your letter, dated August 2, 
2010, regarding United States v. New Black Panther Party for Self-
Defense, a case arising out of events in Philadelphia, Pennsylvania in 
2008, and filed under section 11(b) of the Voting Rights Act, 42 U.S.C. 
Sec. 1973i(b).
    On January 7, 2009, the Department filed a complaint seeking 
injunctive and declaratory relief under section 11(b) of the Voting 
Rights Act against four defendants: two individuals who appeared at the 
Philadelphia polling place on November 4, 2008, Minister King Samir 
Shabazz and Jerry Jackson; the New Black Panther Party for Self-
Defense; and its leader, Malik Zulu Shabazz, who is not alleged to have 
been present at the Philadelphia polling place. The complaint alleged 
that the defendants violated section 11(b) because they attempted to 
engage in, and engaged in, both voter intimidation and intimidation of 
individuals aiding voters.
    None of the defendants responded to the complaint in the case. That 
did not, however, absolve the Department of its legal and ethical 
obligations to ensure that any relief sought was consistent with the 
law and supported by the evidence. The entry of a default judgment is 
not automatic, and the Pennsylvania Bar Rules impart a clear duty of 
candor and honesty in any legal proceeding; those duties are heightened 
in the type of ex parte hearing that occurred in this matter. See Pa. 
RPC 3.3(d). At the remedial stage, as with the liability stage, the 
Department remains obliged to ensure that the request for relief is 
supported by the evidence and the law. In discharging its obligations 
in that regard, the Department considered not only the allegations in 
the complaint, but also the evidence collected by the Department both 
before and after the filing of the complaint.
    For the reasons explained below, based on that review, the 
Department sought and obtained an injunction against defendant Minister 
King Samir Shabazz, the only individual known to the Department to have 
brought a nightstick to a Philadelphia polling place in November 2008. 
Following its review, the Department concluded, however, that the 
evidence did not warrant seeking an injunction against the other 
defendants named in the complaint, and dismissed the claims against 
those defendants.

LEGAL ANALYSIS RELEVANT TO LIABILITY UNDER SECTION 11(B) OF THE VOTING 
                               RIGHTS ACT

    Section 11(b) of the Voting Rights Act prohibits anyone, whether or 
not acting under color of law, from intimidating, threatening, or 
coercing, or attempting to intimidate, threaten, or coerce, any person 
for voting or attempting to vote or for aiding any person to vote or 
attempt to vote or for exercising any powers or duties under certain 
sections of the Voting Rights Act. Section 12(d) of the Voting Rights 
Act, 42 U.S.C. Sec. 1973j(d), provides for the filing of a civil action 
by the Attorney General to secure preventive relief for a violation of 
such statute. In 1968, Congress repealed the criminal penalties for 
violations of section 11(b) that were part of the original 1965 Voting 
Rights Act. Public Law 90-284, Sec. 103, 82 Stat. 73, 75 (1968).
    There have been very few cases brought under section 11(b). 
Possible explanations include the limited remedies available under 
section 11(b) of the Voting Rights Act and the challenging legal 
standard of proof. As a result, the Department can find records of only 
three civil actions filed under this provision since its enactment in 
1965, prior to the case of United States v. New Black Panther Party for 
Self-Defense. One of these cases settled before trial, and in both of 
the others, the court ruled that the Department had failed to establish 
a section 11(b) claim. Those cases are: (1) United States v. Harvey, 
250 F. Supp. 219 (E.D. La. 1966) (Threats of eviction and other 
economic penalties against black sharecroppers who had recently 
registered to vote found not to be form of intimidation, threat or 
coercion prohibited by section 11(b)); (2) United States v. North 
Carolina Republican Party, Civil Action No. 91-161-CIV-5-F (E.D.N.C.) 
(section 11(b) claim regarding pre-election mailing resolved by consent 
decree dated Feb. 27, 1992); and (3) United States v. Brown, 494 F. 
Supp. 2d 440, 477 n. 56 (S.D. Miss. 2007) (Publication by county 
political party chairman of list of voters to be challenged if they 
attempted to vote in party primary election found not to be form of 
intimidation, threat or coercion prohibited by section 11(b)). Indeed, 
as demonstrated in the Brown case, section 11(b) cases can be extremely 
difficult to prove. In that case, the most recent Federal district 
court to reject a section 11(b) claim noted that the United States had 
``found no case in which plaintiffs have prevailed under this 
section.'' Id.
    The events that led to the Philadelphia section 11(b) case 
referenced in your letter occurred at a predominantly African American 
polling place, on the day of the most recent Federal general election, 
November 4, 2008. The Department concluded that the evidence collected 
established that Minister King Samir Shabazz violated section 11(b) by 
his conduct at the polling place on that election day. This evidence 
included his display of a nightstick at the polling place during voting 
hours, an act which supported the allegation of voter intimidation. The 
Department therefore decided to seek an injunction against defendant 
Minister King Samir Shabazz. In approving the injunction, the district 
court found that the United States had alleged that Minister King Samir 
Shabazz ``stood in front of the polling location at 1221 Fairmont 
Street in Philadelphia, wearing a military style uniform, wielding a 
nightstick, and making intimidating statements and gestures to various 
individuals, all in violation of 42 U.S.C. Sec. 1973i(b).'' (Order of 
May 18, 2009, at 1). The court entered judgment ``in favor of the 
United States of America and against Minister King Samir Shabazz, 
enjoining Minister King Samir Shabazz from displaying a weapon within 
100 feet of any open polling location in the city of Philadelphia, or 
from otherwise violating 42 U.S.C. Sec. 1973i(b),'' Judgment (May 18, 
2009). The Federal court retains jurisdiction over enforcement of the 
injunction until 2012.
    After reviewing the evidence, the Department concluded that there 
was insufficient evidence to establish that the New Black Panther Party 
or Malik Zulu Shabazz, who was not at the polling place when the 
relevant events occurred, violated section 11(b). Prior to the 
election, the New Black Panther Party for Self-Defense made statements 
and posted notice that over 300 members of the New Black Panther Party 
for Self-Defense would be deployed at polling locations during voting 
on November 4, 2008, throughout the United States. To the Department's 
knowledge, the single polling place in Philadelphia is the only 
location where an incident occurred. This apparent fact is inconsistent 
with the notion that the Party or Malik Zulu Shabazz directed a 
campaign of intimidation. The Department also considered the statement 
posted by the Party on its Web site regarding the incident. The 
statement posted on the Party Web site provided: ``Specifically, in the 
case of Philadelphia, the New Black Panther Party wishes to express 
that the actions of people purported to be members do not represent the 
official views of the New Black Panther Party and are not connected nor 
in keeping with our official position as a party. The publicly 
expressed sentiments and actions of purported members do not speak for 
either the party's leadership or its membership.'' As of May 2009, the 
Department had information indicating that this statement was posted 
prior to the filing of the civil action. A separate statement posted on 
the Party Web site, dated January 7, 2009 (the same date that the 
complaint in this case was filed), reported the suspension of the 
Philadelphia chapter because of these activities.
    Absent sufficient proof that the New Black Panther Party or Malik 
Zulu Shabazz directed or controlled unlawful activities at the polls, 
or made speeches directed to immediately inciting or producing lawless 
action on election day, claims against those parties based merely upon 
their alleged ``approval'' or ``endorsement'' of Minister King Samir 
Shabazz's activities were, in our view, insufficient to establish legal 
liability. See NAACP v. Claiborne Hardware Co., 458 U.S. 886, 927 
(1982). The Department therefore decided, based on its review of 
applicable legal precedent and the totality of the evidence, to dismiss 
the claims against the New Black Panther Party and Malik Zulu Shabazz.
    Finally, the Department also concluded that the allegations in the 
complaint against Jerry Jackson, the unarmed defendant present at the 
Philadelphia polling place, did not have sufficient evidentiary 
support. The Department's determination was based on the totality of 
the evidence. In reaching this conclusion, the Department placed 
significant weight on the response of the law enforcement first 
responder to the Philadelphia polling place on election day. A report 
of interview of the local police officer who responded to the scene, 
which is included in the Department's extensive production to the U.S. 
Commission on Civil Rights indicates that the officer interviewed Mr. 
Jackson, confirmed that he in fact was a certified poll watcher, and 
permitted Jackson to remain at the polling place.

LEGAL ANALYSIS APPLICABLE TO THE SCOPE OF THE INJUNCTION UNDER SECTION 
                                 11(B)

    After the clerk of court filed an administrative entry of default 
against defendant Minister King Samir Shabazz, the Department was 
required to file a motion with the court, setting forth its view of the 
legally appropriate scope of injunctive relief. Based on the facts in 
the case and the relevant legal precedent, the Department concluded 
that a nationwide injunction was not legally supportable in the case 
against Minister King Samir Shabazz. The Supreme Court has emphasized 
that an injunction must be ``no broader than necessary to achieve its 
desired goals.'' Madsen v. Women's Health Ctr., 512 U.S. 753, 765 
(1994). To that end, a reviewing court must pay ``close attention to 
the fit between the objectives of an injunction and the restrictions it 
imposes on speech'' in keeping with the ``general rule . . . that 
injunctive relief should be no more burdensome to the defendant than 
necessary to provide complete relief to the plaintiffs.'' See ibid. 
(citation omitted).
    Because injunctive relief is tailored to its objectives, a focus 
upon the facts alleged by the Department was critical to determining 
the scope of the injunction that could have been obtained. The 
Department alleged that Minister King Samir Shabazz is a resident of 
Philadelphia and is the leader of the Philadelphia chapter of the NBPP. 
Complaint  5. The complaint alleged that on November 4, 2008, Minister 
King Samir Shabazz brandished a weapon and made racially threatening 
and insulting remarks while standing in front of the entrance of a 
polling place in Philadelphia. Complaint  8-10. The complaint further 
alleged that on this specific occasion Minister King Samir Shabazz 
pointed the weapon at individuals, tapped it in his hand and elsewhere, 
and made menacing and intimidating gestures, statements and movements 
toward individuals who were present to aid voters. Complaint  9-10.
    The evidence was insufficient to show that Minister King Samir 
Shabazz had engaged or planned to engage in a nationwide pattern of the 
kind of conduct he exhibited at the polling place in Philadelphia, or 
that he was inclined to disregard the injunction. Cf. United States v. 
Dinwiddie, 76 F.3d 913, 929 (8th Cir. 1996) (finding the scope of a 
nationwide injunction in a Freedom of Access to Clinic Entrance Act 
(FACE) case appropriate because of a protestor's ``consistent, 
repetitious, and flagrant unwillingness or inability to comply'' with 
the proscriptions of the law, his ``serious intent to do bodily harm to 
the providers and recipients of reproductive health services,'' and the 
possibility, if the injunction were geographically limited, that he 
``could easily frustrate the purpose and spirit of the permanent 
injunction simply by stepping over State lines and engaging in similar 
activity at another reproductive health facility'' (quotation and 
citation omitted)). Absent such facts, in other FACE cases, the 
geographic scope of injunctions the Department has obtained has been 
quite narrow, generally limited to a certain number of feet from a 
given clinic, see United States v. Scott, No. 3:95cv1216, 1998 U.S. 
Dist. LEXIS 10420 (D. Conn. June 25, 1998), or simply preventing 
protestors from impeding ingress and egress to a particular clinic. See 
United States v. Burke, 15 F. Supp. 2d 1090 (D. Kan. 1998); United 
States v. Brock, 2 F. Supp. 2d 1172 (E.D. Wis. 1998).
    Given the facts presented, the injunction sought by the Department 
prohibited Minister King Samir Shabazz from displaying a weapon within 
100 feet of any open polling location on any election day in the city 
of Philadelphia, or from otherwise violating 42 U.S.C. 1973i(b), (see 
Order of May 18, 2009, at 4). The Department considers this injunction 
tailored appropriately to the scope of the violation and the 
requirements of the First Amendment, and will fully enforce the 
injunction's terms. Section 11(b) does not authorize criminal 
penalties, monetary damages, or other kinds of relief.
    In sum, we believe that the decision of the then Acting Assistant 
Attorney General for Civil Rights to proceed with the claims against 
Minister King Samir Shabazz and to dismiss the claims against the three 
other defendants was based on the merits and reflects the kind of good 
faith, case-based assessment of the strengths and weaknesses of claims 
that the Department makes every day.
    We hope this information is helpful. Please do not hesitate to 
contact this office if we may provide additional assistance regarding 
this, or any other matter.
            Sincerely,
                                              Ronald Weich,
                                        Assistant Attorney General.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                       MAY 2010 TIMES SQUARE PLOT

    Question. I believe the HIG should be used where we can obtain the 
most valuable intelligence possible, but I also understand that the HIG 
cannot be everywhere and that intelligence officials from CIA and other 
agencies make up the Joint Terrorism Task Force (JTTF) in each field 
office.
    Was the HIG deployed in this case? If not, what does the HIG have 
that the Joint Terrorism Task Force personnel could not provide as far 
as expertise for interrogations?
    Answer. The High-Value Detainee Interrogation Group (HIG) deployed 
in the Shahzad case to assist the New York Joint Terrorism Task Force 
(JTTF) with interrogators, subject matter experts, and reports 
officers. During the deployment, the HIG brought counterterrorism 
subject matter experts from FBI, the Central Intelligence Agency, the 
National Geospatial-Intelligence Agency, the Department of Defense, the 
National Counterterrorism Center, and others to observe the 
interrogation, and to provide advice, counsel, and intelligence 
requirements to the interrogators. In addition, HIG reports officers 
ensured that the results of the interrogation were disseminated to the 
Intelligence Community (IC) within hours after each session. This 
detailed level of expertise in areas as diverse as geospatial mapping, 
behavioral analysis, and foreign terrorist network associations does 
not typically reside in the JTTF. The interagency composition of the 
HIG, and its full-time focus on coordinating interrogation resources 
across the IC, enables the HIG to rapidly identify and deploy the right 
resources and IC counterterrorism assets to augment a JTTF as needed.
    Question. Does the New York JTTF have the lead for this case? 
Please describe what kind of experience the New York JTTF has 
interrogating terrorist suspects.
    Answer. Yes, the New York JTTF has the lead for this case. 
Currently, the New York JTTF has more than 400 personnel from 50 
different law enforcement, public safety, intelligence, military, and 
critical infrastructure agencies. The New York JTTF has handled some of 
the most high-profile, high-threat terrorism investigations, including 
the first bombing of the World Trade Center in 1993, the bombing of the 
USS Cole in 2000, the second attack on the World Trade Center in 2001, 
and the most recent attempted bombing in New York's Times Square.

                      SHAHZAD ARREST ALTERNATIVES

    Question. It is my understanding that Mr. Shahzad is cooperating 
and has waived his Miranda warnings as well as his right to be 
presented before a magistrate judge.
    Please tell us what other options the FBI had other than arresting 
Shahzad and reading him his rights. As an American citizen could he be 
detained without formal charges against him? For how long?
    Answer. Regardless of nationality, any person arrested in the 
United States is entitled to certain Constitutional rights. There are a 
number of laws and rules that govern what must occur when a suspect is 
arrested. First and foremost, the U.S. Supreme Court has held that the 
Fourth Amendment requires that the facts justifying the arrest be 
presented to a court ``promptly.'' Moreover, Rule 5 of the Federal 
Rules of Criminal Procedure requires that the defendant be taken before 
a judicial officer ``without unnecessary delay,'' at which time the 
court will advise the defendant of his rights. With the exception of 
questions designed to ensure the immediate public safety and the safety 
of the arresting officers (the so-called Quarles exception), Miranda 
warnings are generally required in order for responses to questions 
posed while the defendant is in custody to be admissible in court 
against the defendant.
    The FBI has no legal authority to proceed against a terrorism 
suspect who is arrested within the United States in any venue other 
than an Article III court. There have been only two instances since 
2001 in which civilians arrested within the United States were placed 
in military custody for some period of time. In both instances, the 
individuals were initially taken into custody and detained by Federal 
law enforcement officials. The transfers from law enforcement to 
military custody occurred by order of the President, and the civilians 
were later returned to Article III courts for disposition of their 
cases.
    Question. Please explain how reading someone their Miranda rights 
can facilitate their cooperation in a criminal case. Is reading a 
suspect their rights sometimes part of a plan to get them to waive 
their rights to allow more intelligence gathering than not reading 
someone their Miranda rights would produce?
    Answer. Many criminal defendants, including those arrested for 
crimes related to terrorism, waive their Miranda rights and talk 
voluntarily to investigators. In many other cases, defendants decide to 
cooperate after consulting with counsel. Indeed, where defense 
attorneys conclude that the Government has strong evidence to support a 
conviction and lengthy sentence, they often encourage their clients to 
cooperate. Miranda warnings are far less determinative of the prospects 
for obtaining long-term cooperation in the criminal justice system than 
other factors, such as the strength of the Government's case against a 
defendant, the skill and expertise of the interrogator, and the 
interrogator's background knowledge about the target and the subject 
matter.

                       FBI SURVEILLANCE RESOURCES

    Question. Chairwoman Mikulski and I are very intent on getting the 
FBI the surveillance resources it needs. I believe we could use more 
FBI teams--especially in our major cities.
    Is it true that the FBI surveillance team lost Shahzad?
    Answer. In May 2010, Faisal Shahzad attempted to detonate a car 
bomb in Times Square. Attempts by the FBI New Haven Division's armed 
Mobile Surveillance Team to keep him under surveillance failed when he 
slipped away and eluded surveillance until his capture aboard a 
commercial flight preparing to depart the country. Bad weather 
precluded the use of aviation to track Shahzad. Had a surveillance 
aircraft been available, it is likely that Shahzad would not have been 
able to break contact with the squad covering him.
    Question. I think we should spend more money to give the FBI the 
resources it needs, so how much more money can you spend in fiscal year 
2011 to hire and train more FBI surveillance teams?
    Answer. The FBI's fiscal year 2011 Request to Congress includes an 
additional 30 Mobile Surveillance Team--Armed (MST-A), positions (18 
agents) and $6,100,000.\1\ The fiscal year 2011 cost per new Mobile 
Surveillance Team (MST) \2\ position is $174,000; the cost per new MST-
A position is $217,000.
---------------------------------------------------------------------------
    \1\ MST-A was formerly known as the Special Operations Group (SOG).
    \2\ MST was formerly known as the Special Surveillance Group (SSG).
---------------------------------------------------------------------------
    The MST-A program does not directly hire new agents; MST-A Agents 
work FBI investigative cases for 11 years, on average, prior to their 
assignment to a MST-A squad. Upon assignment to a MST-A squad, the MST-
A program provides surveillance training, photography training, and 
Tactical Emergency Vehicle Operations Course (TEVOC) training, which 
totals 3 weeks. The MST-A program can train 63 agents per year, which 
equates to 7 MST-A teams.
    Question. How long will it take to get more teams hired and trained 
to deploy?
    Answer. The FBI has a large applicant pool for the MST positions, 
which traditionally can be hired and trained within the fiscal year. 
The MST-A positions, which are filled by experienced FBI Agents, are 
also traditionally filled and trained within the fiscal year.

                     DEPARTMENT OF JUSTICE FUNDING

Border Law Enforcement Grants
    Question. Through the American Recovery and Reinvestment Act in 
2009, the Chula Vista Police Department, on behalf of the local HIDTA, 
the California Border Alliance Group, was awarded $2.86 million from 
the Justice Department's Bureau of Justice Assistance to support 
existing HIDTA-supported task forces with local representation from 
five agencies along the southern border.
    With only 6 months into the grant project, the task force thwarted 
seven kidnappings and two murders in the United States and prevented 
two murders in Mexico.
    As the United States continues to combat narcotics trafficking and 
related violence, this grant permitted more local participation in 
Federal task forces ultimately allowing for better intelligence 
gathering.
    This grant model has proven successful in San Diego. Have other 
grant recipients experienced similar success? If so, do you plan to ask 
for a continuation of this grant opportunity in the fiscal year 2012 
budget?
    Answer. The progress you have described in Chula Vista is 
impressive. While other grantees have reported strong progress in 
creating and retaining jobs as well as in enhanced criminal 
enforcement, they are early in the process of implementation and 
progress will continue to be monitored.
    Regarding future budget requests, the President has included in the 
fiscal year 2011 budget request a program called Smart Policing, which 
allows local law enforcement agencies such as Chula Vista to apply for 
funding to implement evidence-based and innovative enforcement efforts, 
which could include involvement in task forces. In addition, the Byrne 
Justice Assistance Grants (JAG) Program was proposed at $519 million, 
and the Byrne Competitive Program was proposed at $30 million. Each of 
these programs could fund initiatives such as that implemented in Chula 
Vista. In addition, we are working closely with the Office of National 
Drug Control Policy (ONDCP) to coordinate our funding efforts with 
those under the High Intensity Drug Trafficking Area (HIDTA) Program.
    Question. Would it be worthwhile to extend these grants for longer 
terms to allow better planning and sustainability by law enforcement?
    Answer. The Department's Bureau of Justice Assistance (BJA), which 
administers the Chula Vista grant, takes a proactive stance on this 
issue. Typically, grantees that submit a 12-month budget are given as 
much as 18 months to plan and implement the project. Additionally, BJA 
is flexible with grant extensions, allowing local agencies to expend 
funding for additional time, when needed and when the law permits, to 
accommodate planning and sustainability concerns.

                   EL PASO INTELLIGENCE CENTER (EPIC)

    Question. As Chair of the Senate Caucus on International Narcotics 
Control, I hosted a hearing entitled ``Drug Trafficking Violence in 
Mexico: Implications for the United States''. Several witnessed 
discussed the importance of intelligence sharing and the great benefit 
that the El Paso Intelligence Center (EPIC) is to the administration's 
National Southwest Border Counternarcotics Strategy, which was released 
in June 2009. DEA has requested funding for an expansion and renovation 
project to enlarge the existing EPIC facility since 22 of the agencies 
participating at EPIC, 8 are planning add personnel in the next year.
    Is this expansion at EPIC critical for the intelligence sharing 
process?
    Answer. In order to facilitate information sharing with the various 
El Paso Intelligence Center (EPIC) partners, a DOJ-DHS Leadership 
Meeting was held at EPIC on June 8, 2010. Attending the meeting were 
Drug Enforcement Administration Administrator M. Leonhart; DEA Chief of 
Intelligence A. Placido; DHS Under Secretary C. Wagner; Customs and 
Border Protection (CBP) Commissioner A. Bersin; United States Border 
Patrol (USBP) Chief M. Fisher; U.S. Immigration and Customs Enforcement 
(ICE) Deputy Assistant Secretary Pena; FBI Deputy Assistant Director D. 
Cardona, USMS Assistant Director M. Earp; Bureau of Alcohol, Tobacco, 
Firearms and Explosives (ATF) Deputy Director K. Melson; and several 
other high-ranking officials. Various topics regarding the information 
sharing process were discussed and ultimately decided upon at this 
meeting. A few examples are detailed below:
  --EPIC shall provide enhanced tactical cueing, analysis and analytic 
        products designed to assist field investigators and 
        interdictors perform their official duties.
  --ATF will stand-up a joint interagency Firearms and Explosives 
        Trafficking Unit. (Note: This unit became operational in July 
        2010 with 3 ATF staff.)
  --The EPIC sharing model will be expanded to provide interdictors 
        access to sensitive information via inclusion of CBP personnel 
        in SOD and the OCDETF Fusion Center;
  --DOJ/DEA would seek funds to develop a backup of the OCDETF Fusion 
        Center's database at EPIC;
  --EPIC will work with the Intelligence Community to acquire 
        additional information to assist law enforcement operations;
  --EPIC and its members will explore ways to expand technical 
        collection along the entire length of the SWB;
  --EPIC should expand training opportunities to State and local law 
        enforcement officers which will forge/enhance the bond between 
        interdictors at the border and the interior of the United 
        States. Increasing the flow of information between these two 
        groups will enhance the quality of intelligence and the 
        efficiency of interdiction operations and criminal 
        investigations; and
  --Rather than creating another center, the focus should be on the 
        formation of a new EPIC Section (Border Intelligence Fusion 
        Section) to address border centric intelligence needs. The 
        number of personnel for this new EPIC Section has not yet been 
        determined.
    To allow space for the various agencies relocating to EPIC, 
expansion is necessary to provide for plans discussed/agreed upon at 
the IS Conference. In December 2008, the Army Corps of Engineers (ACE) 
conducted a study at EPIC regarding current space versus growth 
potential in the existing facility. At that time, the study showed that 
the facility consisted of a total of 324 available work spaces and that 
it housed 340 personnel from the various participating agencies. Since 
the ACE study, EPIC has grown to its current staffing level of 460. 
Conversion and reallocation of other-than-workspace areas has provided 
an additional 65 workstations for a total of 389 existing work spaces. 
The recently converted gym and mail room to office space has provided 
the facility an additional 17 work areas.
    During fiscal year 2011, 8 agencies (listed below) plan to add a 
total of 47 positions to the current EPIC staff of 460 and during 
fiscal year 2012-2015, 7 agencies (listed below) plan to add an 
additional 83 positions.

------------------------------------------------------------------------
                         Agency                              Increase
------------------------------------------------------------------------
Current EPIC Staff......................................             460
                                                         ===============
Fiscal Year 2011:
    ATF.................................................              +6
    FBI (Southwest Intel Group).........................              +1
    USMS................................................              +7
    National Guard Bureau...............................             +17
    Texas Counterdrug...................................              +3
    JTF-North J-2.......................................              +9
    USCG................................................              +2
    DEA.................................................              +2
                                                         ---------------
      Total Fiscal Year 2011............................             +47
                                                         ===============
New EPIC Section........................................         ( \1\ )
                                                         ===============
Fiscal Year 2012-Fiscal Year 2015:
    ATF.................................................              +2
    USMS................................................              +4
    National Guard Bureau...............................             +47
    JTF-North J-2.......................................             +14
    CBP.................................................              +9
    USCG................................................              +3
    DEA.................................................              +2
                                                         ---------------
      Total Fiscal Year 2012-Fiscal Year 2015...........             +83
------------------------------------------------------------------------
\1\ TBD.

The above increases would bring the EPIC staffing level to 590 by fiscal
  year 2014-2015.

                            NARCO-TERRORISM

    Question. I believe that unless we address the drug problem in 
Afghanistan with the same level of resolve as the insurgency we will 
fail to stabilize the country. The Drug Caucus has found that the 
Taliban's terrorist operations are increasingly propelled by its huge 
narcotics profits, with as much as $169 million coming from a single 
heroin trafficker in a 10-month period. At present, the DEA, which has 
units to address this type of narco-terrorism, does not have the 
manpower to devote to fulltime operations in Afghanistan, but has 
already been effective in combating major drug violators who are 
providing weapons to the Taliban. For a fraction of our national 
investment in Afghanistan, a DEA unit could be dedicated to removing 
narco-terrorists from the battlefield in direct support of the 
administration's top national security priorities.
    I am asking for funding in the fiscal year 2010 supplemental or in 
fiscal year 2011 appropriations to stand up a new Terrorism 
Investigations Unit at DEA's Special Operations Division to focus on 
Afghanistan.
    Have the existing Terrorism Investigations Unit been effective and 
do you agree that more resources are needed to address threat of narco-
terrorism?
    Answer. DEA has two enforcement groups within its Special 
Operations Divisions (SOD) with the mission of investigating high-level 
foreign-based drug traffickers and narco-terrorists organizations--the 
Bilateral Investigations Unit and the Terrorism Investigations Unit. 
Both units have been able to disrupt and dismantle some of the world's 
most dangerous drug trafficking organizations, as well as organizations 
that have supplied funding and arms to terrorists. The investigative 
success of these units has strengthened DEA's international 
partnerships and proven to be an invaluable prosecutorial tool for the 
U.S. Government.
    The groups primarily conduct joint investigations with DEA Foreign 
Offices working toward U.S.-based prosecutions in coordination with 
SOD's Counter-Narcoterrorism Operations Center (CNTOC), DEA's central 
hub for addressing the increase in narco-terrorism related issues and 
investigations. The CNTOC's primary mission is to coordinate all DEA 
investigations and intelligence linked to counter-terrorism and narco-
terrorism; targeting, investigating, and extraditing individuals who 
are involved with drug proceeds that finance terror; and coordinating 
terrorism-related information with the FBI and other U.S. Government 
agencies.
    The Bilateral Investigations Unit primarily pursues cases of drugs 
being exported to the United States under 21 U.S.C. Sec. 959, and has 
actively investigated major Mexican and Colombian drug traffickers. 
Since its formation in 2002, the Bilateral Investigations Unit has 
realized numerous successes including the indictments of Ismael 
Zambada-Garcia and two key lieutenants; Ignacio Coronel Villarreal; and 
the late Arturo Beltran Leyva and Hector Beltran Leyva. Additionally, 
the Bilateral Investigations Unit indicted 17 Gulf Cartel members under 
Operation Dos Equis.
    In 2007, the DEA established the Terrorism Investigations Unit, a 
second enforcement group that works within SOD. Under the authority of 
21 U.S.C. Sec. 960a, this Unit investigates international criminal 
organizations that use illicit drug proceeds to promote and finance 
foreign terrorist organizations and acts of terror. These DEA agents 
have also produced impressive case results such as the arrest of 
notorious arms trafficker Viktor Bout and his associate Andrei Smulian; 
the arrest of arms trafficker and terrorist Monzer Al Kassar; the 
capture of Haji Bashir Noorzai, reputedly Afghanistan's biggest drug 
kingpin with ties to the Taliban and Al Qaeda and the leader of one of 
the largest drug trafficking organizations in the Central Asia region; 
and the capture of Haji Baz Mohammad, an Afghan heroin kingpin who was 
the first defendant ever extradited to the United States from 
Afghanistan.
    During December 2009, the investigative efforts of the Terrorism 
Investigations Unit resulted in Federal prosecutors charging three West 
Africans with plotting to transport tons of cocaine across Africa in 
concert with Al Qaeda, using 21 U.S.C. Sec. 960a for the first time 
against that group. This investigation highlights the growing trend of 
ties between drug traffickers and Al Qaeda as the terrorist group seeks 
to finance its operations in Africa and elsewhere.
    While the nexus between drugs and terrorism is not a new 
phenomenon, the speed of its growth in the recent past has been 
dramatic. Based on the overwhelming success of these two investigative 
units and the potential to further expand the Government's 
prosecutorial reach beyond our traditional borders, DEA believes that a 
third enforcement group would generate immediate results on a global 
scale; specifically in Afghanistan. Senate Report 111-229, that 
accompanies the Senate's fiscal year 2011 appropriations bill for 
Commerce, Justice, Science, and related agencies, directs DEA to use 
existing resources to create an additional Terrorism Investigations 
Unit.

                               GUN SHOWS

    Question. This April marked the 11th anniversary of the Columbine 
High School massacre. All four of the guns used by the killers were 
purchased through private sellers at gun shows. No background checks 
were required for these sales due to a gap in Federal law known as the 
Gun Show Loophole. Moreover, according to ATF data, gun shows are a 
major source of firearms trafficked into Mexico by drug cartels. Mayors 
Against Illegal Guns--a bipartisan coalition of over 500 mayors from 
across the country--has written a memorandum to the administration, 
called the Blueprint for Federal Action on Illegal Guns, that lays out 
specific administrative reforms that the Justice Department and ATF 
could undertake to improve enforcement at gun shows.
    What is the Justice Department's overall strategy to address 
illegal sales at gun shows?
    Answer. In support of efforts to reduce violent crime and protect 
the public, ATF has a comprehensive strategy for addressing illegal 
firearms trafficking at gun shows. While gun shows and flea markets 
provide an outlet for firearms collectors, dealers and sportsmen to 
engage in the lawful commerce of firearms, they can also provide 
opportunities for prohibited persons, including violent offenders, to 
illegally obtain firearms. The unregulated sale of personal firearms at 
gun shows can increase the likelihood of criminal activity such as 
trafficking and straw purchases. Frequently at these events, criminals 
are able to obtain firearms with no background check and crime guns may 
be transferred with no records kept of the transactions.
    ATF's National Firearms Trafficking Enforcement Strategy went into 
effect in June 2009, guided by a detailed implementation plan to 
identify, investigate, disrupt, and refer for prosecution illicit 
firearms traffickers, including proactive strategies to identify and 
target illegal firearms traffickers at gun shows and flea markets in 
their jurisdictions. There are two main elements to this strategy:
    Element 1 (Pursue Investigations Where There is Reasonable Cause to 
Believe Violations Have Occurred).--ATF Special Agents conduct 
investigations when there is reasonable cause to believe a violation of 
the Federal firearms laws has occurred. As with all investigations, ATF 
bases its decisions to conduct investigative operations at gun shows on 
significant law enforcement intelligence and information from sources 
that indicate illegal activity is occurring at a specific gun show. ATF 
often conducts these operations with the support of and in cooperation 
with State and local law enforcement agencies. These joint law 
enforcement efforts have proven to be successful in ensuring the 
lawfulness of firearms transactions at gun shows.
    In addition to investigating Federal firearms licensees (FFL) 
believed to be violating Federal law, ATF also investigates private 
sellers who appear to be engaged in the business of dealing firearms 
without a license. Some individuals may do so without criminal intent 
and in ignorance of the law. Others engage in firearms trafficking 
purposefully. In both cases, through coordinated investigative and 
outreach efforts, ATF seeks to identify such persons, whether they 
operate out of gun shows or other venues, and deter this illegal 
activity.
    Element 2 (Conduct Proactive Outreach Activities That Educate Gun 
Show Participants and Attendees).--ATF industry operations 
investigators (IOIs) provide outreach at gun shows by proactively 
educating attendees and preventing the illegal diversion of firearms. 
ATF IOIs have held pre-gun show seminars for sellers to educate them on 
Gun Control Act requirements and assist them in detecting and 
preventing straw sales. ATF IOIs have also staffed booths at numerous 
gun shows to provide information and assist with questions from sellers 
and purchasers. In addition, ATF IOIs have displayed posters and 
distributed flyers to gun show attendees on the ``Don't Lie for the 
Other Guy'' program. These flyers explain the legal requirements 
applicable to gun show participants, which vary as among FFL from 
within the State where the gun show is held, FFLs from other States, 
and private individuals.
    Question. Has the Justice Department and ATF implemented the 
mayors' recommendation to enhance gun show enforcement? Does it have 
any plans to do so?
    Answer. ATF's responses to the mayors' recommendations are listed 
below:
  --Recommendation 10.--When tracing guns, ATF National Tracing Center 
        (NTC) personnel should be trained to routinely ask the FFL who 
        sold the gun whether the recovered gun was purchased at a gun 
        show and the location of that gun show, and then use the data 
        to identify problematic gun shows. The NTC began requesting 
        information regarding the location where the sale of a firearm 
        took place (specifically whether the sale occurred at a gun 
        show and if so, the location thereof) from FFLs in June 2008. 
        Our ability to retrieve this information in an automated manner 
        will be improved when ATF's firearms systems are fully 
        upgraded, a process which is estimated to be completed 
        approximately 2 years from now.
  --Recommendation 11.--ATF field agents should have the discretion to 
        conduct criminal enforcement operations at gun shows when trace 
        data, prosecutions, and witness statements suggest a particular 
        show is a source of crime guns. ATF field divisions currently 
        have the necessary latitude to conduct criminal enforcement 
        investigations at gun shows given the set of facts outlined by 
        the mayors.
  --Recommendation 12.--ATF should increase enforcement activities to 
        deter sales to prohibited purchasers by unlicensed gun sellers. 
        ATF currently uses all available information and intelligence 
        to target unlicensed sellers at gun shows who are engaging in 
        illegal activities. ATF recognizes that gun shows are often 
        used by illegal firearms sellers and buyers, and targets these 
        illegal activities as an investigative priority. Through ATF's 
        coordinated investigative and outreach activity, ATF seeks to 
        deter sales to prohibited persons by licensed and unlicensed 
        sellers. ATF Industry Operations Investigators (IOIs) 
        complement ATF's criminal enforcement endeavors at gun shows by 
        taking a proactive approach to educate attendees and prevent 
        diversion of firearms. ATF IOIs have held pre-gun show seminars 
        for sellers to educate them on Gun Control Act (GCA) 
        requirements and assist them in detecting and preventing straw 
        sales. ATF IOIs have also staffed booths at numerous gun shows 
        to provide information and assist with questions from sellers 
        and purchasers. In addition, ATF IOIs have displayed posters 
        and distributed flyers to gun show attendees on the ``Don't Lie 
        for the Other Guy'' program. These flyers explain the legal 
        requirements applicable to gun show participants, which vary as 
        among FFLs from within the State where the gun show is held, 
        FFLs from other States, and private individuals.
  --Recommendation 13.--ATF should investigate private sellers at gun 
        shows who appear to be engaged in the business without a 
        license. ATF currently performs such investigations as part of 
        its firearms trafficking strategy. ATF investigates private 
        sellers who appear to be engaged in the business of dealing 
        firearms without a license. Some individuals may do so without 
        criminal intent and in ignorance of the law. Others engage in 
        firearms trafficking purposefully and with full knowledge of 
        the law. In both cases, ATF seeks to identify such persons, 
        whether they operate out of gun shows or other venues, and 
        deter this activity.
  --Recommendation 14.--At gun shows known for criminal activity, 
        agents should have discretion to compare purchasers' addresses 
        reported on Form 4473 to their State driving records. At gun 
        shows, as with sales at other locations, FFLs are required to 
        confirm a buyer's residence address by comparing the address 
        documented by the purchaser on the ATF Form 4473 with the 
        purchaser's identification document. The information provided 
        by purchasers is particularly important because it is used to 
        initiate the background check process required by the GCA. 
        Confirmation of residence addresses through residence checks 
        has proven to be an important tool to ensure the lawfulness of 
        firearms transactions and to prevent straw purchases. However, 
        Federal laws do not require firearm buyers to submit to any 
        background checks from private non-licensed dealers.

                             ATF RESOURCES

    Question. The stated goal of ATF is to inspect Federal licensed 
firearms dealers once every 3 years--an important practice for ensuring 
dealer compliance with Federal laws and regulations. Yet in 2007, ATF 
inspected only 9.3 percent of FFLs--an average rate of one inspection 
every 11 years.
    Do you believe DOJ, and specifically ATF, currently receive 
adequate funding and resources to conduct firearms compliance 
inspections of dealers every 3 years?
    Answer. ATF currently has approximately 640 industry operation 
investigators (IOIs) conducting firearms compliance inspections on a 6-
year cycle. This amounts to 11,000 firearms compliance inspections 
conducted a year. The primary objectives of these inspections are to 
educate the industry concerning regulatory requirements, and to promote 
compliance and additional internal controls to prevent and detect 
diversion. Although ATF believes a 3-year inspection cycle would be 
optimal, its current ``risk-based'' approach directs existing resources 
to Federal firearms licensees (FFLs) with a history of noncompliance. 
Additionally, with the added resources provided in recent years to 
address firearms violence along the Southwest border ATF has increased 
the number of IOIs on-board and has been able to conduct 3-year 
inspection cycles in this high priority geographic area.
    Question. In addition, when do you expect the President to announce 
a nominee for the Director of the ATF?
    Answer. The administration recognizes the importance of the ATF 
Director position, and we expect that the President will announce a 
nominee for Director of ATF as soon as possible.

                SOUTHWEST BORDER PROSECUTION INITIATIVE

    Question. In April, I wrote a letter to the subcommittee with 
Senators Boxer, Cornyn, Hutchison, Bingaman and Udall asking that 
funding for Southwest Border Prosecution Initiative (SWBPI) be restored 
in fiscal year 2011. The SWBPI program reimburses State, county, 
parish, tribal, and municipal governments for costs associated with the 
prosecution and pre-trial detention of Federal-initiated criminal cases 
declined by local offices of the United States Attorneys. This 
important funding provides local law enforcement agencies with the 
means to prosecute drug trafficking and violent crime cases that have 
been initiated federally but referred to local jurisdictions along the 
southwest border.
    If this funding is not restored, will U.S. Attorneys continue to 
refer cases to State and local jurisdictions for prosecution? If not, 
do the U.S. Attorneys in the Southwest border States have sufficient 
resources to deal with the increased caseload?
    Answer. Local, State, and tribal prosecution offices are important 
partners with the five Southwest border Districts in prosecuting 
criminal offenses that originate along the border between the United 
States and Mexico. Without this partnership, thousands of criminal 
cases, namely narcotic offenses, would not be prosecuted.
    Although the U.S. Attorney's Offices have been allocated additional 
Assistant U.S. Attorney (AUSA) positions to devote to the investigation 
and prosecution of Southwest border type offenses and criminal 
immigration offenses, they still require the assistance of the State, 
local and tribal prosecution offices to prosecute lower level drug 
trafficking crimes, simple possession drug offenses and certain 
juvenile offenses. Since 2008, the Department has allocated an 
additional 111 new AUSA positions to the 5 SWB Districts. Due to the 
additional attorney resources, each of the five SWB Districts saw a 
dramatic increase in its felony caseload from fiscal year 2007 to 
fiscal year 2009. Arizona increased its felony caseload by 1,153 cases; 
southern California increased its felony caseload by 1,567 cases; New 
Mexico increased its felony caseload by 1,155 cases; southern Texas 
increased its felony caseload by 2,674 cases and western Texas 
increased its felony caseload by 2,118 cases. The additional resources 
that the State, local and tribal courts can employ to address and 
combat criminal offenses along the Southwest border increases the total 
number of criminal offenders that can be successfully prosecuted.

                            THOMSON FACILITY

    Question. The fiscal year 2011 Bureau of Prisons (BOP) budget 
request for the Thomson prison is $236.9 million, including funds to 
purchase ($155 million), renovate ($15 million), and staff ($66.9 
million) the facility. The prison will add 1,600 high security beds to 
the Federal system. Some have argued, I believe incorrectly, that 
moving these detainees creates a new terrorist target ``in the 
heartland of America''.
    Can you describe the modifications that will be made to the 
facility to ensure that it will be able to house high-risk Federal 
inmates and former Guantanamo detainees?
    Answer. Additional modifications would be needed to meet BOP's 
security standards to house high security inmates. Below is a list of 
the major modifications needed, together with examples of the necessary 
security enhancements: New stun-lethal fence and new razor ribbon to 
meet BOP guidelines; new fence alarm system; new rear gate and 
sallyport gates; construction of facilities building and storage area; 
and security upgrades, such as: Door locks, hardening of recreation 
cages behind units, adding security fencing within compound, installing 
additional cameras tied to the monitoring system, installing radio 
system base and portables, adding additional security lighting within 
compound, installing anti-crash bollards in front of institution and 
rear, and constructing holding cells in receiving and discharge area.
    Acquisition and activation of the Thomson facility will reduce the 
BOP's shortage of high security, maximum custody cell space. If it is 
determined that a portion of the facility is required for detainee 
management purposes, then the BOP would operate the Thomson facility as 
a high-security administrative maximum prison with Federal inmates and 
make a portion available to the Department of Defense (DOD) to house a 
limited number of detainees. DOD would also be solely responsible for 
the detainees housed in its separate portion of the facility and DOD 
would be responsible for any additional security upgrades to the 
institution that it deemed necessary. However, the facility would be 
owned by the BOP, and the Department would intend to pay the 
acquisition costs.
    Question. How different will this facility be from the Supermax 
facility in Florence, Colorado?
    Answer. The Thomson facility was built for the State of Illinois as 
a maximum security prison and was completed in 2001. It could be used 
fairly quickly after some modifications, which would reduce costs and 
save several years of construction time, as compared to constructing a 
new facility. Moreover the Thomson facility would enable the Bureau of 
Prisons (BOP) to move the most disruptive and violent inmates out of 
existing general population U.S. Penitentiaries (USPs) to a newer, more 
modern facility better suited to the controls required to manage the 
Special Management Unit (SMU) and Administrative Maximum (ADX) type 
population.
    Once modified, Thomson would be similar to ADX Florence in security 
standards and daily operations. Acquiring Thomson would not replace ADX 
Florence, but rather help alleviate inmate crowding levels and provide 
safer conditions for staff and inmates. The number of supermax beds 
available in BOP facilities has not increased since ADX Florence was 
activated in 1994. ADX type and SMU inmates require specific higher 
security standards. Individual cells are required for ADX type inmates 
and, therefore, require more space to operate. The Thomson facility is 
not only larger than the ADX, but by acquiring Thomson, the BOP would 
gain a fairly new high security facility with ample bed space to house 
ADX type and SMU inmates, at a lower cost and within a shorter 
timeframe, than building a new facility from the ground up.
    As it stands now, its size, age, and existing security features 
make it the best, and possibly, only, candidate to be retrofitted to 
meet Federal maximum security requirements.

                              VOCA FUNDING

    Question. On June 24, 2009, Senator Leahy introduced the Crime 
Victims Fund Preservation Act of 2009, of which I am a cosponsor. The 
bill would establish minimum funding levels for the Crime Victims Fund 
for fiscal years 2010 through 2014. The amount made available to the 
fund would be increased by 23 percent each year from $705 million in 
fiscal year 2010 to $1.6 billion in fiscal year 2014.
    Does the Justice Department have a position on this bill and are 
the funding levels proposed in the bill sufficient?
    Answer. The administration remains strongly committed to preserving 
the integrity of the Crime Victims Fund and to supporting all victims 
of crime. The Crime Victims Fund also provides support for programs 
targeting women who are victims of crime and provides resources for 
victim service providers. Like the Crime Victims Preservation Act, the 
fiscal year 2011 President's budget contemplates an increase in the cap 
for the Crime Victims Fund. For fiscal year 2011, the administration 
has proposed a $95 million (13.5 percent) increase to the Crime Victims 
Fund cap for a total of $800 million. Of the total amount requested, 
$100 million is set-aside to support programs to combat violence 
against women. For a given year, the cap for the Crime Victims Fund is 
determined as part of the budget development process for that year. 
Therefore, at this time, the Department has no position on the 
appropriate level for the cap in future years.

                         CRIME VICTIMS CLINICS

    Question. In 2004, Senator Kyl and I successfully enacted 
legislation, the Crime Victims' Rights Act, to provide the victims of 
violent crimes a set of procedural rights under Federal law, and to 
ensure that they have a standing to assert their rights before a court.
    The act also authorized Federal funding for victims' clinics for 
pro bono legal counsel and support services. With the assistance 
provided through these clinics, victims understand their rights, learn 
how to actively engage in the case against their offender, and ensure 
that they are not treated by the justice system as only a ``witness 
to'' or ``piece of evidence in'' the case.
    These clinics are essential to victims' understanding of their 
rights and their subsequent ability to request the enforcement of these 
rights at court. The Office for Victims of Crime has been helpful in 
providing startup funds for clinics in some States, but this funding is 
almost exhausted. In order to fully implement and validate the Crime 
Victims' Rights Act, we believe that the clinics require a constant 
stream of funding.
    Will you work with us to locate a dedicated funding stream for 
these victim clinics?
    Answer. OVC formally communicated to State Victims of Crime Act 
(VOCA) Victim Assistance Administrators in June 2010 that they were 
authorized to use formula VOCA funding to support legal clinics that 
offer legal services to crime victims. This clarification was a pivotal 
step in support for the legal clinics, as previously most States 
believed that the existing VOCA Guidelines prohibited them from 
supporting legal clinics with VOCA funding. To ensure continued 
progress, the Department's Office for Victims of Crime (OVC) supports 
the institutionalization and expansion of the crime victims' rights 
enforcement programs authorized for funding by subsections 103(A) and 
(b)(4) of the CVRA. OVC is in the process of revising existing 
guidelines for VOCA victim assistance funding and developing 
regulations that will further clarify and articulate the policy that it 
is appropriate and allowable to use this funding to support legal 
assistance to crime victims for issues related to their criminal 
victimization, including legal representation during criminal 
proceedings.

                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg

    Question. My understanding is that a legally purchased firearm was 
recovered in the Times Square bombing suspect Faisal Shazad's car at 
JFK Airport. As you know, NICS background check records for firearm 
purchases are destroyed in 24 hours after a purchase is approved.
    Do you think that destroying NICS background check records that 
were used in approving a gun purchase in just 24 hours is a good idea?
    Answer. National Instant Criminal Background Check System (NICS) 
background check records for ``proceeded'' transactions (i.e., 
background checks that reveal no prohibiting information about the 
purchaser) are contained in the NICS Audit Log. Information in the NICS 
Audit Log concerning proceeded transactions is required by law to be 
destroyed within 24 hours. NICS has been complying with that 
requirement since July 21, 2004, without incident. Regardless of the 
length of retention, moreover, information in the NICS Audit Log 
concerning proceeded transactions may only be used for limited 
purposes, which do not include routine law enforcement functions. As a 
result, changing the retention period for NICS Audit Log information 
would not necessarily make that information more available as an 
investigative tool.
    Question. In the absence of the requirement to destroy the NICS 
background check record of Faisal Shahzad in 24 hours, do you believe 
that the FBI would have known right away by reviewing his background 
check record that the suspect had purchased a firearm and could be 
armed with it?
    Answer. If Mr. Shahzad attempted to purchase a firearm from a 
Federal firearm licensee, a NICS background check record would have 
been created. Even assuming that this record was maintained in the NICS 
Audit Log beyond 24 hours, however, it would not reveal whether the 
firearm was actually transferred. Moreover, as noted above, the FBI's 
ability to use that record for law enforcement purposes is constrained 
by law.

                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

                             NIST FORENSICS

    Question. Attorney General Holder, The National Academy Forensics 
Study made 13 recommendations to shore up deficiencies identified by 
their investigation. The areas requiring attention are standards, 
practices, protocols, research, ethics, education, training, 
accreditation, certification, proficiency testing, report writing and 
testimony. Included in the recommendations is the creation of a 
national institute of forensic science.
    What is your opinion on this report and its recommendations?
    Answer. The Department welcomed the report of the National Research 
Council of the National Academies of Science (NAS) entitled, 
Strengthening Forensic Science in the United States: A Path Forward 
(the NAS report). The report is an important contribution to the public 
discourse on the state of the forensic science community, and it 
recommends many useful steps to strengthen the community and enable it 
to continue to support an effective criminal justice system. In fact, 
many of these steps are familiar to those in the forensic science 
community, including DOJ, and have been discussed among practitioners 
for some time.
    Question. What is your Department doing to address these 
recommendations? Is there a timeline for action?
    Answer. The Department of Justice is participating in the inter-
agency Subcommittee on Forensic Science (SOFS) of the National Science 
and Technology Council, organized by the White House's Office of 
Science and Technology Policy. The SOFS is currently preparing 
recommendations for coordinated, comprehensive executive branch action 
to advance the goals of the NAS report.
    Question. The report cites the need for increased scientific 
research in the forensic disciplines, how is the administration going 
to address this recommendation? Are you working with science agencies 
like NIST, NSF, and OSTP?
    Answer. The Department of Justice is participating in the inter-
agency Subcommittee on Forensic Science (SOFS) of the National Science 
and Technology Council, organized by the White House's Office of 
Science and Technology Policy. DOJ and NIST are the co-chairs of the 
SOFS, and NSF is an active participant. The SOFS is working on 
coordinated, comprehensive executive branch action to advance the goals 
of the NAS report, including increased scientific research. For 
example, on a recommendation from the SOFS, in September 2010 NSF 
sponsored a symposium on cognitive bias and forensic science. This 
recommendation from the SOFS responds directly to issues raised in 
chapter 4 of the NAS report.
    In addition, the Department's National Institute of Justice (NIJ) 
has several projects in place that address the need for more funding of 
forensic science research:
  --NIJ awarded $7.9 million in fiscal year 2009 and $7.2 million in 
        fiscal year 2010 under a solicitation entitled, ``Fundamental 
        Research to Improve Understanding of the Accuracy, Reliability, 
        and Measurement Validity of Forensic Science Disciplines.''
  --NIJ recently issued its first-ever grant solicitation focused on 
        research and development for medicolegal death investigations 
        and in June 2010, NIJ held its first symposium for medical 
        examiners and coroners in an effort to identify their research 
        needs.
  --NIJ's Office on Investigative and Forensic Sciences recently 
        initiated an NIJ-Forensic Sciences Foundation grant program 
        which provides research grants to students in FEPAC accredited 
        colleges and universities.
    Question. In my opinion, the solution to the issues raised by the 
NAS is going to involve more than just the Department's assets. While I 
don't think the creation of a separate and independent National 
Institute of Forensic Science is realistic, I do think that some type 
of partnership between Justice, NIST, and NSF will be required. Would 
you be supportive of this type of arrangement?
    Answer. As noted above, the Department already works closely with 
NIST and NSF through the SOFS and supports continued close cooperation 
to jointly improve forensic science.

                        ADAM WALSH ACT RESOURCES

    Question. There are an estimated 135,000 non-compliant sex 
offenders in the United States and the Marshals Service estimates they 
need a dedicated force of 500 deputies working on these cases to fully 
implement the Adam Walsh Act.
    In March 2010, President Obama appeared on ``America's Most 
Wanted'' with John Walsh and made a pledge to increase funding and 
personnel for enforcement of the Adam Walsh Act. The President 
highlighted that ``it is very important for us to build up U.S. 
Marshals' capacity. That is something we want to do in the Federal 
budget . . . my expectation is that we will get support, bipartisan 
support, from Congress on this issue because it is so important to 
every family across America.''
    If fully funding the Adam Walsh Act is a priority for the 
President, why didn't DOJ request additional resources for the Marshals 
Service in the fiscal year 2011 budget request?
    Answer. The Adam Walsh Child Protection and Safety Act is a 
significant and landmark piece of legislation that considerably 
enhances the ability of the Department to respond to crimes against 
children and vulnerable adults and prevent sex offenders who have been 
released back into the community from victimizing other people. In 
fiscal year 2011, the administration is requesting $336 million for 
Adam Walsh Act related activities, an increase of $20 million (6.3 
percent) to support implementation of the provisions of the Act.
    Question. Can Congress expect to receive an amended fiscal year 
2011 request adding resources for Adam Walsh Act enforcement?
    Answer. The Department is not aware of any pending supplemental 
requests or budget amendments that would direct additional resources to 
the Department specifically to enforce the Adam Walsh Act. However, 
most of the activities authorized by the act are already performed as 
part of the Justice Department's traditional mission. In most 
instances, for programs where the act authorized specific funding 
levels, the Department is spending at or above those levels.

            DANGER PAY FOR USMS AND ATF PERSONNEL IN MEXICO

    Question. While the DEA and FBI receive danger pay for their 
personnel in Mexico due to prior authorizations passed in 1990 and 
2002, the Marshals Service and ATF do not have this same authorization 
language. USMS and ATF personnel face the same risks as their DEA and 
FBI counterparts in Mexico and should be equally compensated.
    Due to recent killings of consulate workers in Juarez, the State 
Department added danger pay for all U.S. Government employees working 
in six Mexican cities (Juarez, Matamoros, Monterrey, Nogales, Nuevo 
Laredo, and Tijuana). State's guidelines are limited to where personnel 
are ``posted''; therefore, USMS and ATF personnel who are officially 
posted in Mexico City (not on State's list of six Mexican cities) will 
not receive danger pay.
    How is this administration working to rectify this danger pay 
disparity among DOJ law enforcement personnel working in Mexico?
    Answer. This subject is complicated by the random nature of the 
violence that could put our employees in harm's way, and the diversity 
of operational requirements between FBI, DEA, USMS, and ATF. We have 
made great strides in the last year to better understand this issue and 
other steps besides danger pay are promotions for those who serve in 
Mexico.
    Within the last year, the Department of State has authorized danger 
pay for five cities in Mexico. In addition, during recent discussions 
with State, we have been made aware that a 5 percent Hardship Allowance 
based upon ``danger'' factors at a post has been authorized for four 
additional cities in Mexico, including Mexico City.
    Currently Danger Pay is authorized for the following cities in 
Mexico: Ciudad Juarez at 15 percent; Matamoros at 15 percent; Monterrey 
at 15 percent; Nogales at 15 percent; and Tijuana at 15 percent.
    Danger factors within the Hardship Differential provide 5 percent 
additional at the following posts: Guadalajara is at 5 percent but 
would be at zero otherwise; Hermosillo is at 15 percent but would be at 
10 percent otherwise; Merida is at 15 percent but would be at 10 
percent otherwise; and Mexico City is at 15 percent but would be at 10 
percent otherwise.
    The Department of State has assured us that they are regularly 
monitoring the situation in Mexico.
    Question. Why was danger pay for USMS and ATF not included as a 
legislative need in the fiscal year 2011 budget request?
    Answer. The administration is currently addressing this issue; 
therefore, a legislative proposal at this time would be premature.
    Question. When can Congress expect to see a proposed legislative 
solution to this issue?
    Answer. DOJ and the Department of State are working collaboratively 
on the issue of Danger Pay in Mexico and have made great strides within 
the last year, as noted in response to your previous question. We are 
actively engaged in discussions on a legislative package that would 
bring parity between our agencies, though the timing of such 
legislation has not been decided. We are committed to ensuring the 
safety of our employees stationed abroad and appreciate the level of 
interest and support you have provided us on this issue.

              DHS-DOJ DISPARITY ALONG THE SOUTHWEST BORDER

    Question. On April 19, Senators McCain and Kyl released a 10-point 
plan to increase Southwest border security. The plan proposes adding 
resources to DHS, particularly Border Patrol, but not for DOJ's 
components. Many Southwest border districts are already operating at 
capacity, particularly the Marshals Service and Office of Detention 
Trustee, in terms of space to hold detainees. Adding more resources 
without balancing the request to include DOJ agencies could lead 
Southwest border districts to the breaking point.
    Does the administration believe there is parity between DHS and DOJ 
along the Southwest border?
    Answer. The administration is working to facilitate parity between 
DHS and DOJ on the Southwest border. Any increase in Department of 
Homeland Security (DHS) enforcement activity has a ``downstream'' 
impact on workload and resource requirements that affect the rest of 
the criminal justice system, including both DOJ and the Judiciary. A 
principal area of concern along the Southwest border is the existing 
capacity of the prosecutorial, judicial, detention and incarceration 
components to respond to increased efforts by law enforcement. 
Currently, the annual number of apprehensions outpace prosecutorial 
capacity for criminal cases involving illegal immigration, drug 
trafficking, border violence and gangs; litigation and adjudication 
capacity for immigration cases moving through the Federal courts; 
detention capacity for the criminally accused as they move through the 
criminal justice system; and incarceration capacity for the criminally 
convicted after they are sentenced.
    Additional funding directed at certain critical chokepoints could 
make matters worse if it is provided without considering the entire 
scope of Southwest border requirements. These chokepoints include: 
limits in human capital, training and facilities for new personnel 
(both operational and administrative); and infrastructure and other 
physical capital constraints along the Southwest border, particularly 
USMS cellblock/courthouse space, detention/incarceration beds, and 
tactical support resources. Outside of the DOJ, the limited number of 
courtrooms, judges, magistrates, and other members of the judiciary 
further restrict the Federal Government's ability to increase 
prosecutorial caseload and process larger numbers of offenders in the 
justice system.
    Question. If the McCain-Kyl plan makes its way to legislation, what 
resources would DOJ agencies need to maintain parity with DHS?
    Answer. Funding provided in the 2010 Emergency Border Security 
Supplemental Appropriations bill will allow the Department of Justice 
to expand our investigations and prosecutions. With the $196 million 
provided, the Department will be able to surge Federal law enforcement 
officers to high crime areas in the Southwest border region by funding 
more than 400 new positions and temporarily deploying up to 220 
personnel. Specifically, Justice funding would increase the presence of 
Federal law enforcement in the Southwest border districts by adding 
seven ATF Gunrunner Teams, five FBI Hybrid Task Forces, additional DEA 
agents and Deputy U.S. Marshals, equipment, operational support, and 
additional attorneys and immigration judges and to support additional 
detention and incarceration costs for criminal aliens in coordination 
with Department of Homeland Security enforcement activities. The 
supplemental would also provide funding to support Mexican law 
enforcement operations with ballistic analysis, DNA analysis, 
information sharing, technical capabilities, and technical assistance. 
However, some of these funds were required for Justice to prosecute the 
current level of Operation Streamline prosecutions. Any significant 
increase in resources of the Border Patrol will have a significant 
downstream impact on the Department of Justice and the Administrative 
Office of the Courts.
    Question. How would DOJ component agencies--the Marshals Service, 
Office of Detention Trustee, U.S. Attorneys Office--be affected if 
Operation Streamline is expanded to all districts along the Southwest 
border?
    Answer. The capacity of the criminal justice system in the 
Southwest border region presents a very real impediment that needs to 
be addressed before Operation Streamline can be expanded beyond its 
present scope. These impediments include the physical constraints of 
courthouses along the border, including the number of defendants that 
can be housed and processed in a given day; the number of judges, 
magistrates, and other judicial personnel; and the number of detention 
beds where defendants can be housed in reasonable proximity to a given 
courthouse. Presently, courthouse structures in the region are 
inadequate to process large numbers of additional defendants. Moreover, 
the U.S. Marshals Service and U.S. Attorneys would have to modify or 
waive a number of their internal requirements in order to process an 
increase in defendants. Even increasing the daily shift of operations 
within the courthouses, particularly in Tucson, Arizona and San Diego, 
California, would be insufficient to process the increase in defendants 
likely to arise from expanding Operation Streamline.
    Increased Department of Homeland Security (DHS) enforcement 
activity in the Southwest border region would have a ``downstream 
impact'' on workload and resource requirements--affecting the rest of 
the criminal justice system, including the Justice Department and the 
Administrative Office of the U.S. Courts (AOUSC). For example, felony 
drug arrests and subsequent additional investigations would likely 
increase, resulting in the need for additional Drug Enforcement 
Administration agents and support staff, and the need for additional 
attorney and intelligence analyst personnel deployed as part of the 
Organized Crime Drug Enforcement Task Forces Program. Further, 
additional Alcohol, Tobacco, Firearms and Explosives personnel would be 
needed to address gun trafficking arrests and investigations. In 
addition, Operation Streamline would increase the fugitive warrant 
workload, which in turn further impacts the USMS. The workload of other 
parts of the system, including the Executive Office for Immigration 
Review and the Civil Division's Office of Immigration Litigation, would 
also increase. As stated previously, AOUSC would likely require 
additional courthouse space, judges, magistrates, and other judicial 
personnel to accommodate pressures resulting from the increased DOJ 
investigative and prosecutorial workload.
    Question. Can DOJ provide this subcommittee with a detailed report 
about the resources needed if Operation Streamline was expanded to all 
Southwest border districts?
    Answer. Operation Streamline has been viewed as a consequence-based 
prosecution initiative in which many U.S. Customs and Border Protection 
(CBP) apprehensions are criminally prosecuted. Operation Streamline is 
currently in place in some form in several sectors in the Southwest 
border region. However, even in those sectors where Operation 
Streamline is in place, many of the programs have a ``daily cap'' in 
terms of prosecutions based on resource limitations of Department 
components and Federal courts. For example, although CBP arrests 
several hundred individuals each day in the Tucson, Arizona Sector, 
only 70 cases per day are prosecuted under the auspices of Operation 
Streamline. This number is capped at 70 cases due to resource 
limitations of the U.S. Marshals Service cellblock and personnel, 
courtroom space, availability of court personnel, and detention bed 
space.
    In order to implement Operation Streamline across the entire 
Southwest border region in a true zero-tolerance form, Department 
components and the Federal court system would need additional 
resources, such as:
  --Additional personnel would be needed by the U.S. Marshals Service, 
        the U.S. Attorneys Offices, and the courts.
  --Additional resources for the Federal Prisoner Detention Fund would 
        also be required.
  --Additional construction funding would be needed to exponentially 
        enlarge cellblock space in all Southwest border U.S. 
        Courthouses.
    At this time, the Department cannot provide a detailed report about 
the resources needed Government-wide if Operation Streamline was 
expanded to all Southwest border districts. Many of the Department cost 
inputs fluctuate. For example, detention costs are dependent on both 
detainee population levels and per diem jail rates. These levels and 
the average per diem jail rate would fluctuate as the immigration 
workload shifted to other border zones with less stringent immigration 
enforcement policies. Other factors impacting costs, also unknown, 
include time in detention (which is at the discretion of the courts; 
average sentence terms from Operation Streamline cases have not been 
uniform across Operation Streamline locations) availability of bed 
space, as well as courthouse and cellblock space limitations.
    Funding provided in the 2010 Emergency Border Security Supplemental 
Appropriations bill will allow us to expand our investigations and 
prosecutions. With the $196 million provided, the Department will be 
able to increase the presence of Federal law enforcement in the 
Southwest border districts by adding seven ATF Gunrunner Teams, five 
FBI Hybrid Task Forces, additional DEA agents and Deputy U.S. Marshals, 
equipment, operational support, and additional attorneys and 
immigration judges and to support additional detention and 
incarceration costs for criminal aliens in coordination with DHS 
enforcement activities.

                              DEA-EPIC-ICE

    Question. Mr. Attorney General, I understand that there is 
considerable confusion about providing support to the law enforcement 
community in the interdiction of bulk currency and that at least two 
centers--the El Paso Intelligence Center or EPIC and the Bulk Currency 
Smuggling Center operated by ICE--are competing with one another to 
provide similar services to law enforcement.
    Are you aware of this and what can you tell us about plans to 
assure that tax dollars are not being wasted?
    Answer. DEA and the Department of Justice are aware of the ICE Bulk 
Currency Smuggling Center (BCSC). The Department is aware that there 
may be duplication of effort and confusion over the bulk currency 
activities of the BCSC and DEA's El Paso Intelligence Center (EPIC). 
Several meetings between DEA--representing EPIC--and ICE--representing 
the BCSC--have recently been held to address this matter and to assure 
the effective and efficient expenditure of appropriated funds. There 
has been some progress in these discussions but the matter has not yet 
been conclusively resolved. Since 1974, EPIC has operated as an 
interagency intelligence center providing tactical support to law 
enforcement organizations dealing with illegal aliens, weapons, 
contraband drugs and, by extension, the currency that represents the 
proceeds of these illegal activities. As a multi-agency tactical 
intelligence center with representatives from 20 Federal agencies, 
including ICE, and liaisons assigned from Colombia and Mexico. EPIC has 
been responsible for tactical cueing and providing intelligence and de-
confliction for law enforcement agencies from across the country for 
more than three decades.

             BUREAU OF PRISONS/THOMPSON CORRECTIONAL CENTER

    Question. The fiscal year 2011 budget requests a total of $237 
million--$170 million for purchase and renovation and $67 million for 
equipping and staffing--the Thompson Correctional Center. The Thompson 
Correctional Center is an Illinois State Prison that would be converted 
into a high security U.S. Penitentiary. It is also the site that the 
administration has identified for relocating terrorists who are 
currently housed at GITMO.
    Mr. Attorney General, was the $237 million for Thompson 
Correctional Center part of the Department of Justice fiscal year 2011 
budget request to OMB? Or was this funding added to the Department's 
request by the administration?
    Answer. Regarding budget deliberations, the nature and amounts of 
the President's decisions and the underlying materials are 
confidential. As described in the fiscal year 2011 Congressional 
Justification, the Thomson facility provides an opportunity to 
alleviate prison overcrowding in a cost effective manner. As of August 
12, 2010, BOP institutions are crowded 37 percent over rated capacity, 
causing triple bunking in low and medium security institutions, and 
double bunking in high security institutions. Crowding is 53 percent 
over capacity in high security facilities. Capacity must be expanded to 
promote safe prison operations for both staff and inmates.

                   NATIONAL DRUG INTELLIGENCE CENTER

    Question. The Department is requesting $45 million for the National 
Drug Intelligence Center.
    Mr. Attorney General, was the $45 million for the National Drug 
Intelligence Center part of the Department of Justice fiscal year 2011 
budget request to OMB? Or was this funding added to the Department's 
request by the administration?
    Answer. The Department of Justice fully supports the $45 million 
included in the fiscal year 2011 President's budget request for NDIC. 
The funding represents the ongoing cost to maintain NDIC operations and 
does not reflect an enhancement of NDIC's programs. Deliberations that 
led to the President's budget decisions are confidential to the 
executive branch, and congressional justification materials describe 
requests made in the fiscal year 2011 President's budget.

                        DRUG INTELLIGENCE CENTER

    Question. The subcommittee understands that OMB suggested shutting 
down all but the Document and Media Exploitation activities of the 
National Drug Intelligence Center since OMB believed the drug analysis 
functions are duplicated in other Federal drug intelligence centers. 
OMB believed such an action would save $22 million in fiscal year 
2011--$22 million that could be used for combating terrorism and other 
high priorities that I believe OMB has not funded at the appropriate 
levels.
    Mr. Attorney General, do you believe there is merit to the OMB 
suggestion? Is the analytical function of the National Drug 
Intelligence Center duplicative of other centers?
    Answer. The National Drug Intelligence Center (NDIC) provides 
beneficial intelligence products to the Department as well as other 
drug law enforcement stakeholders. Deliberations on the future of NDIC 
that led to the President's budget decisions are confidential to the 
executive branch, and congressional justification materials describe 
requests made in the fiscal year 2011 President's budget.
    Question. Mr. Attorney General, you are requesting $42 million to 
expand the DEA's El Paso Intelligence Center. Would it make sense to 
consolidate the drug analysis work at the National Drug Intelligence 
Center into DEA's El Paso Intelligence Center?
    Answer. The funds being requested to expand EPIC are to accommodate 
an anticipated growth in the number of U.S. and international partners 
that are now collaborating to advance our interests in securing the SWB 
and confronting transnational criminal organizations.
    Deliberations that led to the President's budget request are 
confidential to the executive branch, and congressional justification 
materials describe requests made in the fiscal year 2011 President's 
budget.

                      ADMINISTRATION ``EARMARKS''

    Question. Congress is often chastised by the administration for 
funding projects and programs--derisively called ``earmarks''--that 
were not proposed in the President's budget. What the administration 
does not willingly identify are the ``earmarks'' that they add to an 
agency's budget for their initiatives. So, Madame Chairwoman, I'd like 
to bring some transparency to the process--just as we are required to 
declare and itemize our requests, so should the administration.
    Mr. Attorney General, for the record, would you provide a list of 
the projects and programs and associated funding that was added to your 
fiscal year 2011 budget request by the administration and which were 
not included in your original budget request to the OMB.
    Answer. Regarding budget deliberations, the nature and amounts of 
the President's decisions and the underlying materials are 
confidential. Information describing the President's request can be 
found in congressional justifications.

                        PEER REVIEW COSTS AT DOJ

    Question. Previously at OJP, there had been questionable peer 
review problems, in particular at the National Institute of Justice, 
where peer reviewers were actually reviewing contracts that their 
lobbyist were competing for.
    What is the average cost of reviewing an application within the 
Office of Justice Programs?
    Answer. Office of Justice Programs (OJP) peer review cost averages, 
as well as a breakdown of the costs for each of the OJP bureaus and 
program offices from fiscal year 2006 through fiscal year 2009, are 
detailed on the attached spreadsheet. See Attachment 2.

                                                SUMMARY OF OFFICE OF JUSTICE PROGRAMS PEER REVIEW COST DATA FISCAL YEAR 2006 TO FISCAL YEAR 2009
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                            Fiscal Year  Fiscal Year                Fiscal Year  Fiscal Year                Fiscal Year                                 Fiscal Year  Fiscal Year
                              Fiscal Year   2006 Total       2006     Fiscal Year   2007 Total       2007     Fiscal Year   2008 Total     Fiscal Year    Fiscal Year   2009 Total       2009
                               2006 Total    Number of     Average     2007 Total    Number of     Average     2008 Total    Number of     2008 Average    2009 Total    Number of     Average
       Program Office         Peer Review  Applications  Peer Review  Peer Review  Applications  Peer Review  Peer Review  Applications    Peer Review    Peer Review  Applications  Peer Review
                                  Cost         Peer        Cost per       Cost         Peer        Cost per       Cost         Peer          Cost per         Cost         Peer        Cost per
                                             Reviewed    Application                 Reviewed    Application                 Reviewed    Application \1\                 Reviewed    Application
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
BJA.........................     $280,000           789         $355   $1,061,058         2,486         $427   $1,381,184         2,046           $675     $3,959,506         7,215         $549
BJS \2\.....................      ( \3\ )       ( \3\ )      ( \3\ )      ( \3\ )       ( \3\ )      ( \3\ )      ( \3\ )       ( \3\ )        ( \3\ )        $49,082           156         $315
CCDO........................      $22,050            63         $350      $20,950            55         $381      $23,891            56           $427        $53,222            91         $585
NIJ \4\.....................   $1,176,233         2,019         $583   $1,282,720         2,383         $538   $1,572,875         1,609           $978     $1,536,148         1,679         $915
OJJDP.......................     $296,021           663         $446     $509,815         1,164         $438     $747,979           949           $788     $2,601,590         4,421         $588
OVC.........................      $60,448           135         $448      $83,862           116         $723     $136,051           102         $1,334       $400,316           452         $886
SMART \5\...................      ( \3\ )       ( \3\ )      ( \3\ )      ( \3\ )       ( \3\ )      ( \3\ )     $102,832           110           $935        $85,349            90         $948
                             -------------------------------------------------------------------------------------------------------------------------------------------------------------------
      Total Amount \6\......   $1,834,752         3,669  ...........   $2,958,405         6,204  ...........   $3,964,812         4,872  ...............   $8,685,213        14,104
      Average Amount........  ...........  ............         $436  ...........  ............         $501  ...........  ............           $856    ...........  ............         $684
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2008 costs included the development and implementation of an OJP peer reviewer database that is used by all OJP bureaus and offices.
\2\ BJS did not implement the OJP peer review process until fiscal year 2009. Prior to fiscal year 2009, BJS conducted their peer review entirely in-house and did not use OJP's Grants
  Management System (GMS).
\3\ N/A.
\4\ Concept papers are included in NIJ's total number of applications, and did not have in-person peer review. The number of concept papers were fiscal year 2006: 967; fiscal year 2007: 1,159;
  fiscal year 2008: 636; fiscal year 2009: 180.
\5\ SMART did not start administering and peer reviewing their own grants until fiscal year 2008.
\6\ Fiscal year 2009 cost and application data includes American Reinvestment and Recovery Act of 2009 (ARRA) funding applications. The peer review contract cost in fiscal year 2009 decreased
  due to the volume of ARRA applications, many of which were reviewed internally.

    Question. What has OJP done to ensure this hasn't happened again?
    Answer. Within 48 hours of OJP assigning applications to a peer 
reviewer, the peer reviewer is required to disclose any conflict of 
interest on the OJP Disclosure of Conflict of Interest form. This form 
is retained in OJP's Grants Management System (GMS). If a peer reviewer 
discloses a conflict of interest with any applicant, OJP's Bureau or 
Program Office, in consultation with the Office of the General Counsel 
(OGC), will review the Disclosure of Conflict of Interest form and 
determine if the peer reviewer needs to be removed from the peer review 
of the application(s). If the peer reviewer is removed from the peer 
review process, the reviewer's access to the application(s) is 
eliminated.
    To prevent conflicts of interest during the application review 
process, NIJ issued, in June 2010, internal guidance entitled National 
Institute of Justice Guidelines on the Administration and Management of 
NIJ Grant Programs (the ``Guidelines''), for the administration and 
management of all NIJ grant programs to ensure that key aspects of the 
pre-award and award process for grants and cooperative agreements are 
documented. Beginning with fiscal year 2010 awards, all NIJ staff 
involved in the pre-award evaluation process are required to complete a 
Disclosure of Conflict of Interest form, which is reviewed by the 
immediate supervisor, certifying that they have reviewed the OJP OGC 
Guidance on Conflicts of Interest and indicate if they perceive that 
they have a conflict with any of the applications they have been 
assigned to review. If the memorandum cites a possible conflict, the 
supervisor will review the signed memorandum, consider the conflict, 
review the subject employee's Confidential Financial Disclosure Report, 
and make a determination about whether or not a conflict exists. The 
supervisor may work with NIJ's Office of Operations staff to consult 
with OGC when input is deemed necessary. If the supervisor determines a 
conflict exists, he or she must recuse the staff member from dealing 
with a specific grant application or from an entire solicitation. 
Similar procedures to avoid conflicts of interest exist throughout OJP.
    Additionally, NIJ staff attended mandatory ethics training in 
November 2009 conducted by OJP's OGC.
    Question. There will be differences in costs between bureaus in 
OJP. Why is there such a difference?
    Answer. OJP bureaus and program offices conduct one or more of the 
following three types of peer review: standard review, internal review, 
and in-person review. The type of peer review determines, in large 
part, the cost.
    A standard peer review process includes, but is not limited to: 
creating standard forms for solicitations; three peer reviewers 
reviewing approximately 15 applications each; a $125 per application 
stipend for each peer reviewer; technical assistance for the peer 
review process and OJP's Grants Management System (GMS); a conference 
call or a webinar with the peer reviewers to discuss the initial peer 
review scores within a defined variance; and post review activities 
such as developing the funding tables and drafting the non-funded 
letters. External reviewers are used in this process, but are not 
brought to a central location for discussion and consensus review.
    An internal review process includes the same activities as the 
standard review process, but DOJ employees are used as reviewers. 
Unlike outside reviewers, Federal employees do not receive a stipend 
for reviewing applications. Finally, an in-person review also includes 
costs such as travel, hotel, and per diem, for bringing the reviewers 
to a central location.
    The following chart details estimated fiscal year 2010 costs based 
on the type of peer review process utilized by the respective bureau or 
program office.

------------------------------------------------------------------------
                                    Estimated
                                   Fiscal Year
    Bureau or Program Office      2010 Cost Per     Elected Processes
                                   Application
------------------------------------------------------------------------
Bureau of Justice Assistance               $800  Standard Peer Review
 (BJA).                                           Process.
Bureau of Justice Statistics               $500  Internal and External
 (BJS).                                           Reviewers.
Community Capacity Development   ..............  CCDO cancelled
 Office (CCDO).                                   competitive
                                                  solicitations in
                                                  fiscal year 2010.
National Institute of Justice              $925  Standard Process with 4
 (NIJ).                                      or   (versus 3) reviewers.
                                                  The additional peer
                                                  reviewer increases the
                                                  cost by $125 per
                                                  application.
                                         $1,250  In-Person Meeting.
Office of Juvenile Justice and             $800  Standard Peer Review
 Delinquency Prevention (OJJDP).                  Process.
Office for Victims of Crime                $860  Standard Peer Review
 (OVC).                                           Process.
Sex Offender Sentencing,                   $860  Standard Peer Review
 Monitoring, Apprehending,                        Process.
 Registering, and Tracking
 Office (SMART)
------------------------------------------------------------------------

  --BJS costs are lower because BJS conducts mostly internal (DOJ 
        employee) peer reviews. An internal peer review process 
        eliminates the $125 stipend that is paid to non-Federal 
        employee peer reviewers. Also, the contractor does not need to 
        provide technical assistance on how to use OJP's Grants 
        Management System.
  --NIJ, as an independent scientific research agency, has higher costs 
        because of the complexity of its research methodological 
        issues, and its need to conduct both standard and in-person 
        peer reviews. In-person peer reviews allow for the effective 
        exchange of scientific information and provide a forum for peer 
        reviewers to discuss and debate various approaches to 
        conducting criminological experiments. The in-person costs are 
        higher because they include travel costs (airfare, hotel, meals 
        and expenses) for the peer reviewer. Also, NIJ costs are higher 
        for standard peer reviews because NIJ often uses four or more 
        peer reviewers instead of three peer reviewers. An additional 
        peer reviewer increases the cost of a standard peer review by 
        $125 per application. For both standard and in-person peer 
        reviews, additional activity is undertaken to develop the NIJ 
        specific funding tables (in lieu of the more standardized 
        scoring/tier reports prepared for other agencies/offices, and 
        to identify each application's principal investigator for 
        inclusion in the funding table and application summary).
  --OVC and SMART generally conduct standard peer reviews, but the 
        costs are slightly higher because a reduced number of 
        applications are assigned per panel, thereby increasing the 
        number of reviewers and panels. In addition, all or most 
        applications are discussed during consensus reviews, which 
        increase the duration of the reviews.
    Question. Please list the costs from fiscal year 2006 to fiscal 
year 2009 and explain if there is a significant difference in costs.
    Answer. Please see the attached chart that lists, for each year 
from fiscal year 2006 to fiscal year 2009, the total peer review cost, 
the number of applications peer reviewed, and the cost per application 
for each fiscal year for each OJP bureau and program office.
    The current OJP peer review contract supported the fiscal year 2008 
and fiscal year 2009 peer review process. The overall cost of peer 
review increased from approximately $4 million in fiscal year 2008 to 
$8.7 million in fiscal year 2009 because the number of applications 
peer reviewed increased from 4,872 to 14,104. The increase in the 
number of applications OJP received and peer reviewed in fiscal year 
2009 was largely due to funding appropriated pursuant to the American 
Reinvestment and Recovery Act (Recovery Act) of 2009. It is important 
to note that per application peer review costs were less in 2009 than 
in 2008 due to the fact that program offices had to assume many of the 
peer review tasks themselves in order to handle the unanticipated 
volume of Recovery Act applications.
    In fiscal years 2006 and 2007, the peer review services for each of 
the OJP bureau and program offices were covered under individual 
contracts in each of the program offices. In fiscal year 2007, OJP 
awarded a new consolidated peer review contract. The consolidated peer 
review contract did not start providing peer review support for the OJP 
bureaus and program offices until fiscal year 2008. The consolidated 
peer review contract supported a standard peer review process across 
OJP. This included additional tasks and a standard fee of $125 per 
application for the peer reviewers. It also included the development 
and maintenance of an OJP Peer Review Database. Development of the 
database was a necessary, but added peer review cost. The OJP Peer 
Review Database currently has over 4,000 peer reviewers registered. The 
OJP bureaus and program offices must select peer reviewers from the 
Peer Review Database.
    Comparing application costs across fiscal years is difficult for 
two primary reasons: (1) Different contractors were used in 2006 and 
2007 than in 2008 and 2009, and (2) the number and complexity of the 
tasks were different in each of the fiscal years. Comparing different 
tasks between fiscal years and among program offices is made more 
difficult by several variables that determine the per application 
costs. Among those variables that account for varying costs are:
  --The number of tasks conducted by the contractor (Program offices 
        request different levels of support, so costs are not standard 
        across program offices in OJP.)
  --The number of peer reviewers on each panel (Some program offices 
        require four peer reviewers instead of the standard three 
        reviewers per panel.)
  --Whether reviews are conducted onsite or via telephone (The costs of 
        transporting peer reviewers in to a central location is 
        exponentially more expensive, but is often necessary.)
  --The specialization and qualifications of the peer reviewers 
        (Program offices, such as the National Institute of Justice, 
        require professionals with specific qualifications, such as 
        doctoral degrees, or professional expertise in an unusual 
        subject.)
  --Whether the contract costs include mailing non-funding letters with 
        edited panel comments (Some program offices prepare and mail 
        their own non-funding letters.)
  --The manner in which consensus is reached (in person vs. via 
        telephone) and whether or not consensus is required (Again, 
        this relates to the transportation costs for bringing together 
        panel members for a consensus review. Larger awards may require 
        onsite consensus review.)
    Accordingly, it is difficult to make an absolute comparison among 
fiscal years because contractors, tasks, practices, and scenarios 
differed during this time span. While many efficiencies have been 
introduced over the past 3 years, OJP also has placed new and 
additional requirements on the contractor in order to ensure that there 
is transparency in the award process and that fair and open competition 
can be properly documented.
    See Attachment 2.
    Question. If the application costs increased under the current 
contract for peer review services over the last 3-4 years, what is this 
attributable to?
    Answer. The current OJP peer review contract supported the fiscal 
year 2008 and fiscal year 2009 peer review process. The overall cost of 
peer review increased from approximately $4 million in fiscal year 2008 
to $8.7 million in fiscal year 2009 because the number of applications 
peer reviewed increased from 4,872 to 14,104. The increase in the 
number of applications OJP received and peer reviewed in fiscal year 
2009 was largely due to funding appropriated pursuant to the American 
Reinvestment and Recovery Act of 2009.
    Question. Finally, what cost containment strategies are 
contemplated?
    Answer. In an effort to streamline the process and reduce costs, 
OJP released a Request For Quotation (RFQ) in July 2010 for peer review 
activities in fiscal year 2011-fiscal year 2015. In addition, the OJP 
bureau and program offices perform continuous reviews to reduce costs 
and, whenever appropriate, choose to complete peer review tasks in-
house and/or conduct a standard peer review instead of a higher-cost 
in-person peer review.
    Question. Please have OJP's OCFO task OAAM (Office of Audit 
Assessment and Management) to prepare these cost work ups, and the 
bureaus and program offices confirm the figures for accuracy before 
submitted.
    Answer. See attached chart, also provided in response to Senator 
Shelby's Questions 20 and 23. See Attachment 2.

                        FORENSICS COST ANALYSIS

    Question. As you know I am opposed to NIJ's efforts of bailing out 
their friends with taxpayer dollars to cheapen the quality of evidence 
by outsourcing DNA work to private contractors, as I believe we need to 
build our crime labs up and increase their capacity so that they can 
respond to the ongoing increase of cases that come that way. I find it 
unfortunate that many politicians have put unrealistic mandates on the 
crime labs yet they have not provided them the tools to meet those 
mandates and as a result they are forced to outsource. I am very 
concerned with your agencies clear leaning toward private contractors 
on this matter, particularly NIJ. Your office continues to put together 
panels with handpicked agencies so that you can present outcomes that 
support your position.
    Please provide me a clear cost analysis of doing business with a 
private lab and include in that the cost to work the case from 
reception; including detection of stains on all items, identification 
of those stains, isolating and examining portions of those stains, and 
testifying in court.
    Answer. NIJ provides Forensic DNA Backlog Reduction grants directly 
to State and local government laboratories for the purpose of reducing 
their backlogs. Backlog reduction activities may include the provision 
of overtime to DNA analysts, the purchase of supplies required for the 
DNA analysis of samples, and/or the outsourcing of samples to 
accredited fee-for-service laboratories for DNA analysis. NIJ also 
provides funding to State and local government laboratories to purchase 
equipment and hire/train DNA analysts so they can build their capacity 
to the point where they will not have to rely on assistance from 
private labs.
    NIJ's primary backlog reduction program, the Forensic DNA Backlog 
Reduction Program, provides funding to States and units of local 
government through grants. Recipients of these grants may choose to 
send casework evidence samples to accredited fee-for-service 
laboratories for DNA analysis if they do not have the capacity to 
conduct the analysis themselves. Because NIJ does not establish or 
manage casework contracts with private laboratories, it is difficult to 
assess the total cost of doing business with the private laboratories. 
Some private laboratories post their fee schedules publicly (e.g. 
http://www.bodetech.com/solutions/dna-identification-services/forensic-
casework-price-list), and based on the examination of selected budgets 
submitted with requests for funding in fiscal year 2009, the estimated 
cost of outsourcing casework can range from $200 to $2,500 per case, 
with an approximate average of $994 per case; however, this is not a 
full analysis of all costs involved and may be influenced by other 
variables such as the number of samples tested per case, the extent of 
forensic testing (i.e., identification of stains or screening for 
biological fluids), differing types of DNA analysis methods (e.g., STR, 
Y-STR, mtDNA), or variations in the number of samples requested per 
month. Additionally, NIJ does not allow Forensic DNA Backlog Reduction 
Program grant funds to be used for expert witness testimony, and as 
such, does not collect information regarding the costs associated with 
court testimony.
    NIJ's other Forensic DNA backlog reduction program, the Convicted 
Offender and/or Arrestee DNA Backlog Reduction Program, provides 
funding through grants to State laboratories that perform forensic DNA 
analysis for upload to the Offender Index of the Combined DNA Index 
System (CODIS). Through the grant program, a State may request up to 
$35 per sample to perform DNA analysis in its own CODIS laboratory, or 
it may contract up to $35 per sample to a qualifying private fee-for-
service laboratory to perform the DNA analysis. Qualifying laboratories 
are those that are accredited, have obtained a National Environment 
Policy Act Finding of No Significant Impact from OJP, receive mandatory 
annual DNA audits, and as such, are on the list of approved vendors. 
The current list of qualifying laboratories consists of five private 
laboratories; however, any accredited laboratory can become a 
qualifying laboratory by contacting NIJ and meeting and completing all 
requirements.
    If a State has samples that were collected from convicted offenders 
and/or arrestees and are pending DNA analysis for upload to CODIS, and 
the State does not wish to establish or manage a contract with a 
private laboratory, that State can request that NIJ contract directly 
with the private laboratory for the DNA analysis of the backlogged 
convicted offender and/or arrestee samples. Because NIJ allows States 
that receive grants from the Convicted Offender and/or Arrestee DNA 
Backlog Reduction program to use granted funds to send backlogged 
samples to private laboratories, contracts between OJP and private 
laboratories are established only at a State's request. These contracts 
are established and managed by OJP's Acquisitions Management Division. 
In fiscal year 2009, the contracted cost per sample ranged from $22.90 
to $32.00. Similar costs are anticipated for fiscal year 2010.

                   NATIONAL ACADEMY OF SCIENCE STUDY

    Question. Does the Department of Justice have or is it developing a 
position on any of the issues of forensic reform as noted in the 
National Academy of Science report? Please include accreditation of 
laboratories and other forensic service providers, certification of 
those individuals who provide testimony in court regarding their 
findings, initiating research to determine what has yet to be done to 
improve the various examinations conducted, what support can be given 
to help laboratories to develop the capacity to handle casework 
received in an acceptable timeframe, and what support can be given to 
encourage students to pursue careers in forensic science and forensic 
pathology?
    Answer. The Department of Justice has not itself taken a position 
on the specific recommendations of the NAS report, but rather has 
participated in the inter-agency Subcommittee on Forensic Science 
(SOFS) of the National Science and Technology Council, organized by the 
White House's Office of Science and Technology Policy. The SOFS is 
currently preparing recommendations for coordinated, comprehensive 
executive branch action to advance the goals of the NAS report.

                                  FBI

    Question. In an effort to fully understand this change in FBI 
Laboratory policy and what prompted this sudden policy change, I'm 
submitting the same questions I mailed to Director Mueller in a letter, 
to the Department of Justice so we can have these answers on record. I 
request that you provide the answers to the following questions and 
produce all documents and information requested for the record.
    The FBI laboratory is one of the few executive board members of 
American Society of Crime Lab Directors (ASCLD), who issued the 
aforementioned position statement in support of the status quo and 
restricting access to NDIS to public labs. Explain why the FBI 
Laboratory, who has representation on this body's executive board, 
contradicts the position so soon after ASCLD's release of its position 
statement. Did undue pressure change the FBI position?
    Answer. The FBI Laboratory's position regarding private laboratory 
access to the National DNA Index System (NDIS) does not contradict that 
of the American Society of Crime Lab Directors (ASCLD). The FBI's March 
23, 2010 press release clearly states, ``The administration and 
operation of the National DNA database is an inherently governmental 
function that supports criminal investigations conducted by our 
Federal, State, local, and tribal law enforcement partners. Therefore, 
the FBI's assessment does not include re-evaluating access to NDIS.'' 
Both the ASCLD position statement and the FBI's press release reaffirm 
support for the status quo that private laboratories should not have 
access to the NDIS. Both statements also support looking for ways to 
enhance the NDIS process so that DNA profiles can optimally assist in 
fighting crime.
    Several members of the forensic community, including ASCLD, have 
been interested in improving the process of analyzing, reviewing, and 
entering DNA profiles into NDIS. The President of ASCLD requested the 
FBI's ex-officio (non-voting) member of the Board of Directors to 
communicate with the ASCLD Advocacy Committee. The extent of those 
communications was to understand the problems perceived by State and 
local crime laboratory directors and to advise of potential efforts the 
FBI Laboratory may consider to help all NDIS laboratories. However, 
there was no pressure whatsoever put upon the FBI's ex-officio member 
for the FBI to change its policy on private laboratory access to NDIS 
or other related policies that would benefit private DNA laboratories.
    Question. The FBI's Scientific Working Group on DNA Analysis 
Methods (SWGDAM), CODIS State Administrators, and ASCLD have all issued 
positions strongly supporting the status quo and restricting access to 
NDIS. With these and other subject matter experts supporting the 
current FBI procedures and national standards, who specifically at the 
FBI decided to move toward loosening these standards and made the 
decision to change this policy?
    Answer. As previously noted, the FBI's March 23, 2010 press release 
clearly states, ``The administration and operation of the National DNA 
database is an inherently governmental function that supports criminal 
investigations conducted by our Federal, State, local, and tribal law 
enforcement partners. Therefore, the FBI's assessment does not include 
re-evaluating access to NDIS.'' The scope of the current review is 
limited to a re-evaluation of NDIS procedures to determine whether 
time/backlog efficiency improvements would be possible, with no 
diminution in the current level of NDIS integrity. Again, the FBI 
Laboratory is not considering any changes to NDIS access, which is 
currently limited to Federal, State and local criminal justice 
agencies.
    Question. Provide the names, dates, and attendees of any meetings 
held between the FBI Laboratory Director or his representative, and 
representatives of vendor DNA laboratories prior to this press release.
    Answer. The FBI Laboratory Director has had the following relative 
interactions with vendor laboratory representatives prior to the 
release of the March 23, 2010, press release:
  --Brief courtesy discussions with vendor participants at professional 
        meetings, such as the International Association of Chiefs of 
        Police (IACP), American Academy of Forensic Sciences, ASCLD, 
        CODIS Conference, etc. At no time at any of these events did he 
        discuss FBI Laboratory requirements or vendor capabilities.
  --On October 23, 2009, at the request of the IACP, the FBI Laboratory 
        Director and the Executive Assistant Director of the FBI's 
        Science and Technology Branch, Louis Grever, met with IACP 
        deputy executive director Jim McMahon and IACP member Howard 
        Safir (former NYPD Police Commissioner, IACP president, and 
        current CEO of Bode Technology). Mr. McMahon's and Mr. Safir's 
        stated purpose was to represent the opinions of senior law 
        enforcement officials regarding the value of DNA and the need 
        for faster turnaround times. All present were cognizant of Mr. 
        Safir's current position with Bode Technology, and the 
        conversation was never allowed to stray into discussion of 
        Bode's capabilities or FBI requirements relative to contracted 
        DNA analysis. It is noted that Bode Technology is currently 
        under contract to the FBI for providing DNA support to 
        Metropolitan Police Department (MPD) casework and laboratory 
        workspace for MPD laboratory staff.
  --On November 2, 2009 Jeff Boschwitz of Orchid Cellmark approached 
        the FBI Laboratory Director on the exhibitor floor of the CODIS 
        Conference and requested a meeting to discuss various issues of 
        interest to Orchid Cellmark. The FBI Laboratory Director 
        expressed that this meeting would be inappropriate per the 
        Federal Acquisition Rules and FBI Ethics procedures. Subsequent 
        e-mail attempts by Mr. Boschwitz to engage the Laboratory 
        Director were unanswered. The FBI Laboratory Director has had 
        no other communications of any kind with Mr. Boschwitz or 
        Orchid Cellmark.
    Prior to issuing the press release, representatives of the FBI 
Laboratory engaged in conversations with the ASCLD, SWGDAM, CODIS State 
Administrators, the Police Executive Research Forum (PERF), the IACP, 
and other Federal, State, local, and tribal agencies, including the Los 
Angeles Police Department (LAPD), to determine if a re-evaluation was 
necessary. The FBI did not engage with lobbyists or industry 
representatives on this issue.
    Question. Did the FBI issue this press release because of pressure 
from Congress, lobbyists, or industry representatives?
    Answer. No, the FBI did not issue the March 23, 2010 press release 
because of pressure from Congress, lobbyists, or industry 
representatives. Rather, the decision by the FBI to re-evaluate current 
policies, standards, and protocols was informed and influenced by 
inquiries to the FBI Laboratory by members in the law enforcement and 
forensic community.
    The issue of DNA backlogs and the technical review process has 
drawn significant attention from Congress, and the FBI has been 
contacted by Members of Congress and/or their staffs by letter and 
phone. FBI representatives have had meetings and conversations with 
Members of Congress and/or their staff regarding the DNA backlog, 
technical review, and other related issues. For example, 
representatives of the FBI Laboratory met with staff from the Senate 
Judiciary Committee on March 2, 2010 to discuss potential efficiencies 
that could be gained by this re-evaluation of policies, standards, and 
protocols. Members of Congress and/or their staffs have expressed their 
interest in legislating on the issue of DNA backlogs. While the FBI is 
aware that Congress has the authority to legislate this issue, the FBI 
is more concerned with the accuracy, the backlogs, and the long 
turnaround times for casework, which decreases the utility of NDIS to 
solve crime.
    Prior to the press release, the FBI Laboratory engaged in 
conversations with the LAPD, ASCLD, SWGDAM, CODIS State Administrators, 
PERF, the IACP, and other Federal, State, local, and tribal agencies to 
determine if a re-evaluation was necessary.
    The FBI Laboratory is aware of activity by lobbyists and industry 
representatives who seek either private laboratory access to CODIS and/
or a repeal of the 100 percent technical review requirement. The FBI 
has not interacted with individuals representing either of these 
groups.
    Question. Was the FBI told by Congress, lobbyists, or industry 
representatives that if the FBI does not move in this direction, 
changes will be legislated? If so, who?
    Answer. While Members of Congress and/or their staffs have 
expressed interest in legislating these issues, the FBI was not 
expressly told by Congress, lobbyists, or industry representatives that 
changes would be legislated in the absence of action by the FBI. While 
the FBI is aware that Congress has the authority to legislate this 
issue, the FBI is more concerned with the accuracy, the backlogs and 
the long turnaround times for casework, which decreases the utility of 
NDIS to solve crimes. The FBI Laboratory is obligated to ensure the 
quality and integrity of the data in NDIS, as well as ensure 
operational efficiency. The re-evaluation described in the March 23, 
2010 press release is a responsible measure to fulfill these 
obligations.
    Question. Has the FBI attended any meetings with the National 
Institute of Justice (NIJ) and discussed vendor laboratories? If so, 
please provide details and all documentation of the items discussed.
    Answer. The FBI has not attended any meetings with the National 
Institute of Justice (NIJ) to discuss vendor laboratories since 2006.
    Question. Provide specific details of the FBI's past experience 
with vendor DNA laboratories, to include the name of the vendor 
laboratory and the results of any lab errors that were detected by the 
FBI after the vendor review was conducted.
    Answer. Since 2003, the FBI Laboratory has participated in four 
outsourcing contracts. These contracts are as follows:
  --Outsourcing to Orchid Cellmark of nuclear DNA casework for serology 
        and Short Tandem Repeat (STR) analysis. Contract amount was 
        $1,100,000. Period of performance was from September 2003 
        through July 2007.
  --Outsourcing to Orchid Cellmark of nuclear DNA casework for 
        retesting purposes. Contract amount was $113,000. Period of 
        performance was from September 2003 through September 2005.
  --Outsourcing to The Bode Technology Group of Federal Convicted 
        Offender database samples for STR analysis. Contract amount was 
        $1,000,000. Period of performance was from February 2004 
        through December 2006.
  --Outsourcing to The Bode Technology Group of Metropolitan Police 
        Department (MPD) backlog cases for serology and STR analysis, 
        as well as space for the operation of the MPD DNA Laboratory, 
        has totaled $2,100,000 to date. The period of performance has 
        spanned September 2008 to present.
    During the FBI's technical review of the outsourced Federal 
Convicted Offender data, several errors were identified with the vendor 
(The Bode Technology Group) laboratory data. These errors can be 
classified into the following categories: administrative, clerical, 
quality, and incorrect profiles. Administrative and clerical errors 
included items such as missing or incomplete paperwork and 
typographical errors. Quality issues occurred when the vendor 
laboratory reported data that did not meet the FBI's interpretation 
guidelines. These samples had to be reanalyzed by the vendor 
laboratory. Finally, there were instances in which the reported profile 
was determined to be incorrect during the FBI technical review of the 
data. In these instances, the samples had to be reanalyzed by the 
vendor laboratory. Any errors that were identified during the FBI's 
technical review of data submitted by the vendor laboratory were 
subsequently corrected and ultimately accepted by the FBI.
    Administrative, clerical, and quality issues were also observed 
with the outsourced serology and STR analyses conducted by the vendor 
laboratory (Orchid Cellmark) on both contracts initiated in September 
2003. Most significantly, the vendor laboratory notified the FBI 
Laboratory of the improper testing and reporting of laboratory results 
by an Orchid Cellmark examiner on submitted FBI Laboratory casework. In 
these instances the samples were reanalyzed by the vendor laboratory, 
and further reviewed by the FBI Laboratory, prior to ultimate 
acceptance.
    Question. Provide specific details on the architecture and scope of 
what the FBI plans to do after this press release. What will the 
process entail? How long will this evaluation last?
    Answer. The FBI's ``Initiative to Enhance NDIS Efficiency'' began 
with a kick-off meeting on April 26, 2010 during which the objectives 
of this re-evaluation were established. The participants invited to 
this meeting included representatives from the IACP, SWGDAM, the Police 
Executive Research Forum, ASCLD, the American Society of Crime 
Laboratory Directors/Laboratory Accreditation Board (ASCLD/LAB), 
Forensic Quality Services-International, the National Institute of 
Standards and Technology (NIST), the National Institute of Justice 
(NIJ), and the New Scotland Yard Metropolitan Police Service (United 
Kingdom). Representatives from these agencies attended the meeting, 
with the exception of the IACP and the New Scotland Yard Metropolitan 
Police Service.
    At this meeting, the FBI presented a strawman proposal for the re-
evaluation of NDIS policies, standards, and procedures and began 
discussions with these groups on the process under which the NDIS re-
evaluation is to be conducted. The FBI Laboratory has reached out to 
additional stakeholder groups most likely to be affected by any change 
in NDIS processes and practices for their comments. The FBI then 
presented this strawman proposal to additional stakeholders, such as 
the NDIS Board, CODIS State Administrators, SWGDAM Executive Board, and 
ASCLD Board. The groups were requested to provide feedback and 
suggestions. The FBI is looking at all proffered proposals and comments 
to determine the best course of action.
    The FBI expects to maintain communication with these various groups 
as their comments and information is gathered. The FBI will continue to 
seek their input on the acceptability and feasibility of any proposed 
changes to the operation of the National DNA Index. Additionally, the 
FBI hopes to collect data and suggestions from jurisdictions that have 
been successful in reducing their DNA backlogs. Once the FBI has all 
the relevant information, it will evaluate the data and determine a 
timeline, as well as if a pilot project is needed. Based on the 
stakeholder input, the changes will be discussed with SWGDAM, who, if 
necessary and in agreement, will recommend changes to the Quality 
Assurance Standards to the FBI Director.
    Question. Once the evaluation is completed, who at the FBI will 
decide whether any procedures should be changed?
    Answer. Once the FBI's re-evaluation of all NDIS policies, 
standards, and procedures is complete, FBI Laboratory management will 
propose recommended changes (if any) to the FBI Director. When the FBI 
Director approves changes to the Quality Assurance Standards, the NDIS 
Procedures Board will make changes to the operational procedures of 
NDIS. The NDIS Procedures Board is composed of 12 individuals 
representing the FBI, SWGDAM, CODIS State Administrators, and State and 
local labs providing the highest volume of criminal and offender 
casework to NDIS. The NDIS Procedures Board approves changes to NDIS 
Procedures based upon a majority vote for which a quorum of members is 
present. Any proposed changes will be compliant with current 
legislation governing the operation of CODIS.
    Question. If any changes are recommended, will the FBI require the 
CODIS State Administrators to unanimously endorse the proposed changes 
as it is the individual States who are affected most by a reduction in 
the review of vendor DNA data? If not, why is the FBI ignoring the 
opinions and concerns of these experts?
    Answer. The FBI recognizes that the States, and the DNA records 
that they contribute, are responsible for the success of the NDIS. The 
FBI's practice has always been to seek out the views and opinions of 
the CODIS State Administrators, the NDIS Procedures Board, and the 
SWGDAM, with respect to any fundamental changes in the operation of 
NDIS. This is generally done at either the semi-annual CODIS State 
Administrators meetings or at NDIS Procedures Board and SWGDAM 
meetings. For situations requiring a more immediate response, the FBI 
solicits comments or input via e-mail requests. The FBI encourages 
CODIS State Administrators to make their views known during such 
meetings or through written communications. All of their views/comments 
are reviewed and carefully considered by the FBI before any new 
procedure or change is implemented. In those instances in which a 
substantial change to existing procedures is contemplated, the FBI 
often institutes such a change on a pilot basis to further evaluate the 
need for the change and the impact, if any, on the CODIS community. The 
FBI understands the importance of the CODIS community in the continued 
success of the CODIS and NDIS Programs.
    With regard to this particular re-evaluation of NDIS policies, 
standards, and procedures, the FBI conducted an initial meeting with 
the CODIS State Administrators May 11-12, 2010, and plans to meet with 
them again in November 2010 to discuss potential revisions to NDIS 
procedures. FBI will solicit the opinions of these individuals at every 
step in the re-evaluation process. The FBI has also established an e-
mail address for distribution of regular updates on the NDIS procedural 
re-evaluation, as well as for ease of solicitation of feedback from all 
interested in the re-evaluation process.
    Question. Federal law directs SWGDAM to oversee changes to the 
FBI's quality assurance standards. Newly revised standards were just 
completed last year. At that time, did the Office of General Counsel of 
the FBI review the new standards and indicate that the FBI should 
loosen the standard of review for vendor labs? Will the FBI require a 
unanimous endorsement from SWGDAM on any proposed changes? If not, why 
not?
    Answer. The DNA Identification Act of 1994 specifies that the FBI 
Director's Quality Assurance Standards shall be developed, and if 
appropriate, revised by the DNA Advisory Board (DAB), an entity 
established by the act and tasked with these responsibilities. The act 
also defined the Board's tenure to not exceed 5 years. The first 
meeting of the DAB occurred in May 1995 and the last in December 2000. 
The DNA Advisory Board recognized the Quality Assurance Standards would 
require direction and management beyond their 5 year tenure, and 
identified TWGDAM (Technical Working Group for DNA Analysis Methods), 
later re-named SWGDAM (Scientific Working Group for DNA Analysis 
Methods) as an appropriate body to provide such support. When the DNA 
Advisory Board was dissolved in December 2000, it was their 
recommendation that future revisions to the Quality Assurance Standards 
be performed by SWGDAM.
    As an advisory authority, and not derived from a statutory role, 
the FBI's SWGDAM accepted the DNA Advisory Board's recommendation for 
maintaining and providing recommendations to the FBI Director for the 
Quality Assurance Standards. SWGDAM revised the Quality Assurance 
Standards in 2007 and 2008. These revisions were vetted not only by 
accrediting agencies, specifically the American Society of Crime 
Laboratory Directors/Laboratory Accreditation Board (ASCLD/LAB) and 
Forensic Quality Services (FQS), but also by the governmental 
laboratories and the public. All comments received by the deadline were 
considered by SWGDAM. After the public review, the proposed revisions 
were forwarded to the FBI's Office of General Counsel (OGC) for review. 
The FBI's OGC requested minor revisions to language in the standards, 
but did not presume to offer counsel on any technical issues, including 
the technical review requirement. The recommended revisions to the 
Quality Assurance Standards were approved by the FBI Director and went 
into effect July 1, 2009.
    The FBI is fully engaging SWGDAM on any proposed changes regarding 
the NDIS enhancement proposals, especially with regard to the FBI 
Director's Quality Assurance Standards. The SWGDAM by-laws specify that 
the affirmative vote of the majority of a quorum of SWGDAM members 
shall be an act of SWGDAM. Therefore, a unanimous endorsement by SWGDAM 
of any proposed changes to the Quality Assurance Standards is not 
required under SWGDAM's current by-laws.
    Question. The FBI's CODIS Unit reports that the current framework 
has aided approximately 100,000 investigations and to date, has never 
incorrectly identified an offender to law enforcement. The FBI is now 
implementing the new Federal law where a DNA sample will be collected 
from Federal arrestees. By the FBI's own estimate, it will receive more 
than a million additional DNA samples a year. Provide the justification 
on why the FBI is considering loosening the quality standards when the 
number of samples the FBI will be putting into the database is going to 
increase dramatically.
    Answer. The FBI continues to endorse the highest quality standards 
possible for DNA analyses as an active member of many groups which 
espouse quality in forensic science, to include SWGDAM, ASCLD, and 
ASCLD/LAB. Having managed NDIS for 12 years, the FBI has a thorough 
understanding of the effect of data quality on the ability of the 
National DNA Database to aid investigations and solve crimes. The re-
evaluation of policies, standards, and procedures being performed must 
ensure that quality and integrity of data are priorities, and under no 
circumstances will the FBI make changes to procedures that will 
endanger the effective operation of NDIS. The FBI has no intention of 
lessening quality standards, but rather has the goal of making the 
operation of NDIS more efficient for all who use information derived 
from this system.
    Question. Do you plan to outsource any of the testing related to 
the increase in Federal DNA collections, and if so, why?
    Answer. The FBI does not currently plan to outsource any of its 
Federal DNA Database Program testing. The FBI does use the services of 
contractor staff working within the FBI Laboratory to process DNA 
samples submitted under the Federal Convicted Offenders Program (FCOP). 
The FBI continues to build its capacity to be able to analyze 90,000 
samples per month and is on track to eliminate its offender backlog 
later this year. When the backlog is eliminated, the FBI Laboratory 
envisions achieving a 30-day turnaround on samples submitted under 
current legislation.
    Question. The FBI is proposing that they perform site visits and 
audits to screen private labs to participate as an ``AOL'' associated 
outsourcing laboratory. Do they know how many private labs they will 
accommodate? Will they use existing resources to do this or ask for 
more money or positions to handle this workload?
    Answer. The FBI Laboratory offered a ``strawman'' proposal to its 
stakeholders to stimulate discussions on if, and how, the operation of 
the National DNA Index System could be enhanced to better serve the law 
enforcement and CODIS communities. Input and comments from its 
stakeholders revealed that the ``strawman'' proposal was not a 
direction that a majority of its CODIS community was comfortable in 
pursuing at this time. As a result, the initial proposal is no longer 
under consideration. Instead, the FBI is reviewing proposals that would 
necessitate minor changes to the FBI Director's Quality Assurance 
Standards (QAS) for Forensic DNA and DNA Databasing Laboratories to 
provide States with additional flexibility in data review and their 
database and searching operations.
    While the associated outsourcing laboratory proposal is no longer 
under consideration, it has been suggested that the FBI's performance 
of site visits, if acceptable under the QAS, would provide some 
additional flexibility to the States for accepting ownership of 
outsourced DNA records. The FBI will be reviewing this proposal with 
all of its stakeholders to determine if additional personnel or 
resources would be necessary to perform on-site visits of private 
laboratories.
    Question. Does the FBI plan to propose this process for offender 
samples and move the process to ease work samples after a pilot 
project?
    Answer. At this time, only minor changes to Quality Assurance 
Standards for both Forensic DNA and DNA Databasing Labs are being 
considered. These changes will give the States options for performing 
the 100 percent technical review, to include the use of contractors or 
assistance from other NDIS-participating laboratories. At this time, 
there are no immediate plans to conduct a pilot project.
    Question. The FBI apparently supports dropping the quality 
assurance practice of public labs technically reviewing data produced 
by private labs prior to upload to CODIS. The American Society of Crime 
Lab Directors (ASCLD) and CODIS technical administrators cite a number 
of concerns with quality of data from private labs that raise the 
concern. If public labs must own the data after it is tested by the 
outsourced private lab, why does the FBI feel that a review of that 
data is no longer warranted as an important quality assurance measure? 
(Note: ASCLD is concerned about taking ownership of data that has not 
been reviewed by public labs only prior to upload. Developing a profile 
and acquiring a hit in the database only generates an investigative 
lead in many cases. Additional work and court testimony often has to be 
performed as follow up.)
    Answer. The ``strawman'' proposal offered to the law enforcement 
community included the concept of transferring the responsibility of 
data quality to the private laboratory. The feedback provided by ASCLD 
and the CODIS State Administrators indicated that this was not a 
favorable option and strongly opposed the removal of the 100 percent 
technical review requirement. Alternative suggestions, which will give 
States additional flexibility on review of outsourced data, are being 
considered.
    Question. Does the FBI plan to make a path for private labs to 
eventually have the capability to upload samples to NDIS to some 
extent? ASCLD opposes any access by private entities, approved by the 
FBI or otherwise, to have access to confidential public information. 
Why does the FBI appear to lean toward developing data to support some 
level of access by private labs to NDIS?
    Answer. As mentioned in our March 2010 press release announcing the 
review of the National DNA Index System, the FBI believes that 
participation in NDIS is an inherently governmental function that is 
properly limited to criminal justice agencies for law enforcement 
identification purposes. The FBI does not support permitting private 
organizations or entities direct access to NDIS, and the FBI has no 
plans to collect data to support any efforts for private entities to 
obtain access to NDIS.
    Question. The FBI stated that private labs have assisted with 
testing one-half of the current offender profiles that public labs have 
uploaded to the database (not casework samples). They appear to site 
this statistic as some sort of justification or entitlement for working 
with private labs. What is their view on the importance of citing the 
number of cases that public labs have been forced to outsource due to a 
lack of capacity in their own labs?
    Answer. In describing the success of the National DNA Index System 
in generating investigative leads for criminal investigations, the FBI 
acknowledges the contributions of Federal, State, local and private 
laboratories that have generated the DNA records contained in NDIS. The 
number of investigations aided by NDIS is attributable to the number of 
DNA records stored at the national level. Through the NDIS review 
process, the FBI is working together with our stakeholders to provide 
the flexibility to the States to operate their DNA databases in the 
most efficient manner appropriate to their individual needs, whether 
the data is generated in-house or outsourced.
    Question. The FBI recently surveyed all NDIS labs in an effort to 
assess the current DNA backlog. The majority of the DNA review problems 
for offenders and cases is limited to only a few labs, and including 
the FBI as one of the worst. The FBI is not in favor of making the raw 
survey results public and are proposing an elaborate plan before even 
looking at the data to even see what the problem is.
    Answer. No response required.
                                  bop
    Question. OMB's Capital Programming Guide (OMB Circular No. A-11, 
Part 7) provides very specific direction regarding the analysis 
required to justify capital investments. Please describe the step-by-
step process the Bureau of Prisons and the Department undertook to 
justify the purchase of the Thompson Correctional Center (TCC). In 
particular, please share with us the results of your cost-benefit and 
risk analyses? What viable alternatives were examined and what were the 
decisive factors that favored Thompson?
    Answer. BOP Capacity Planning Committee has explored various 
possibilities to increase higher security bed space. In considering the 
Thomson Correctional Center, BOP's capacity planning and analysis 
followed the guidance set forth by OMB Circular A-11, Part 7. 
Continuing increases in the Federal inmate population pose a 
substantial and ongoing challenge for BOP--particularly at the medium 
and high security levels. BOP must increase its capacity, and can do so 
by acquiring and renovating existing structures, expanding existing 
facilities (where infrastructure permits), and constructing new 
prisons. The fiscal year 2011 activation of the Thomson facility would 
reduce the crowding rate in BOP high security institutions from 53 
percent to 46 percent over rated capacity. Without this acquisition, 
crowding in BOP high security institutions is expected to reach 57 
percent over rated capacity.
    BOP representatives visited the Thomson facility in 2009 and 2010 
and determined that the institution was suitable, with modifications, 
to meet BOP's specific needs for special administrative high security 
bed space. After the State of Illinois indicated its interest in a 
sale, BOP researched the State's construction costs, met and spoke with 
facilities staff at Thomson, and developed preliminary estimates for 
maintenance and retrofit requirements. As part of the President's 
budget request, the OMB Exhibit 300s are posted on the Department's Web 
site and is available at: http://www.justice.gov/jmd/2011justification/
exhibit300/.
    The Thomson facility is uniquely different than other properties 
the BOP has considered. The Thomson facility is modern, was never fully 
utilized, and was built specifically to house maximum security inmates. 
Based on other ongoing construction projects, BOP estimates that it 
would cost between $200 million and $300 million to construct an 
equivalent high security facility in the current market, and it would 
take approximately 3 to 4 years to complete the Environmental 
Assessment process, proceed through the procurement process, and 
complete construction. The costs and time to activate the Thomson 
facility are expected to be significantly less; given security criteria 
for Administrative Maximum (ADX) and Special Management Unit (SMU) 
inmates, BOP determined the Thomson acquisition would be the best 
value.
    Question. Because of the proximity of the TCC to the Mississippi 
River, environmental concerns were raised about the prison that faded 
when the decision was made not to open the prison. What were those 
concerns? Have you conducted an Environmental Assessment/Environmental 
Impact Statement to support purchase of the TCC? If not, how did you 
by-pass National Environmental Policy Act requirements?
    Answer. The Bureau of Prisons (BOP) has not received information 
regarding specific environmental concerns leading to the decision by 
the State of Illinois to construct the Thomson facility. However, BOP 
intends to conduct an Environmental Assessment pursuant to the National 
Environmental Policy Act; it is anticipated that environmental impacts 
to the Mississippi River will become part of the overall analysis. As 
with any Environmental Assessment, if significant environmental impacts 
would result from the acquisition and activation of the Thomson 
facility that cannot appropriately be mitigated, BOP would conduct an 
Environmental Impact Statement.
    Question. The TCC was completed in 2001 and has remained empty, 
save a 200-bed minimum security unit, since then. The facility appears 
to fit the classic definition of a ``white elephant.'' What happened in 
Illinois that led them to abandon the prison the minute it was 
completed a decade ago? What, specifically, has the State of Illinois 
done and spent to prevent the empty facility from deteriorating over 
the last decade? Have Federal engineers inspected the TCC and reported 
on its material condition? If so, what were the results of their 
inspection? If not, when will such an inspection be conducted?
    Answer. According to the State of Illinois, although the high 
security portion of the Thomson facility was never fully operational, 
the State has been operating a 200-bed minimum security camp adjacent 
to the secure facility. According to State officials, the high security 
portion of the facility was never opened because of statewide fiscal 
concerns. In terms of upkeep, BOP officials have visited the facility 
on multiple occasions and inspected the institution thoroughly. The 
institution has been well-maintained and is suitable, with 
modification, to meet the needs of the Federal Prison System.
    Question. BOP is on record, repeatedly so, opposing the purchase of 
low- or medium-security privately-funded and built prisons, because of 
inherent design flaws that were operationally unacceptable and too 
expensive to fix. How does the TCC compare to BOP design and 
construction standards for the ``Supermax'' or other ultra-secure 
Federal facilities? Presuming much of this was done prior to making 
Thompson known and in anticipation of using it as a replacement for 
Guantanamo Bay's Detention Facility, have military officers responsible 
for the detention of terrorists at Guantanamo Bay inspected the TCC and 
provided an analysis of the security and safety of the facility? If 
not, will such an inspection be conducted?
    Answer. Throughout BOP's history, the agency has acquired former 
military installations, college campuses, and a seminary to convert 
them for Federal prison use. Several of these locations included 
existing buildings that required renovations and security enhancements 
to provide suitable housing for low and minimum security inmates. BOP 
also acquired the U.S. Disciplinary Barracks in Lompoc, California in 
1959, which was modified and converted into U.S. Penitentiary Lompoc, 
now a medium security institution.
    BOP's interest in acquiring Thomson is consistent with its earlier 
position. In contrast to earlier acquisitions, the Thomson facility has 
already been built to modern, high security correctional facility 
specifications rather than having to be converted to prison use. In 
earlier years, most prisons offered to BOP for purchase were old, 
obsolete facilities that were no longer desired by States moving to 
newly constructed, modern prisons.
    Question. The ``Presidential Memorandum--Closure of Detention 
Facilities at the Guantanamo Bay Naval Base,'' issued December 15, 2009 
must have reflected the summation of considerable analysis by the 
Departments of Defense and Justice regarding the incarceration of 
terrorists on U.S. soil. What bodies were convened to conduct this 
analysis, who was involved, and where are the results of their labors?
    Answer. The Justice, Homeland Security, and Defense Departments 
collaborated to assess potential U.S. facilities for the Guantanamo Bay 
detainees, including several interagency meetings and site visits to 
the facility in Thomson. This work was part of a broader effort by the 
Detention Policy Task Force, created pursuant to Executive order 13493, 
to evaluate options for the apprehension, detention, trial, transfer, 
release, or other lawful disposition of individuals captured or 
apprehended in connection with armed conflicts or counterterrorism 
operations. The preliminary evaluation process also included 
discussions with Illinois stakeholders once the administration 
identified the Thomson facility as a likely candidate, such as: the 
Director of the Illinois State Police, the Director of the Illinois 
Department of Corrections, the Director of the Illinois Emergency 
Management Agency, and multiple regional, county, and local law 
enforcement officials.

                             THOMSON PRISON

    Question. How did BOP determine that Thomson met the ADX/high bed 
space need?
    Answer. BOP staff made multiple site visits to tour the Thomson 
facility and compare its security features with BOP administrative 
maximum, special management and general population high security 
bedspace. BOP staff determined that the institution was suitable to 
meet BOP's special administrative high security bedspace needs and 
could become fully operational fairly quickly after acquisition, 
modification and hiring and training staff.
    Question. What were the construction costs to the State of 
Illinois?
    Answer. BOP's understanding is that the cost to the State of 
Illinois has been reported at $140 million.
    Question. What were estimates for maintenance and retrofit 
requirements?
    Answer. As requested in the fiscal year 2011 President's budget, 
the BOP estimates $15 million is required for security and 
infrastructure upgrades.
    Question. Why don't we offer a fire sale price, and no more, for 
this white elephant to ensure costs to acquire, retrofit, and activate 
the facility are ``significantly less'' than new construction?
    Answer. Federal law requires the amount paid for the negotiated 
purchase of real property to be just compensation which is not less 
than the fair market value determined by an appraisal completed in 
accord with 42 U.S.C. Sec. 4651, 49 CFR part 24, and the Uniform 
Appraisal Standards for Federal Land Acquisitions. Further, the 
Department of Justice believes the costs and benefits of acquiring 
(within 1 year) and modifying a never opened, solidly built, 1,600-
cell, high security facility in Thomson, Illinois, for approximately 
$170 million outweighs the cost (up to $300 million in the current 
market) and time for constructing (approximately 3 to 4 years) a new 
high security facility.
    Question. When is the formal appraisal going to be completed?
    Answer. The formal appraisal is expected to be completed in Fall 
2010.
    Question. What are all of the applicable rules and regulations for 
purchasing Thomson that BOP must fully comply with?
    Answer. BOP must comply with the following Federal rules and 
regulations:
  --The National Environmental Policy Act of 1969 and its implementing 
        regulations;
  --The Uniform Relocation Assistance and Real Property Acquisition 
        Policies Act of 1970 and its implementing regulations;
  --A Procedural Guide for the Acquisition of Real Property by 
        Governmental Agencies Title Standards 2001;
  --18 U.S.C. Chapters 301 and 303; and
  --Any other relevant authorization and/or appropriations laws.
    In addition, Illinois State rules and regulations may impact the 
BOP and are unknown at this time.
    Question. Please break down the OMB Circular No. A-11, part 7 into 
its individual steps and provide the documentation required by the 
circular where appropriate.
    Answer. As part of the President's budget request, and in 
accordance with guidelines set forth by OMB Circular A-11, part 7, the 
OMB Exhibit 300s are posted each year at the following Web site: http:/
/www.justice.gov/jmd/2011justification/exhibit300/.
    Question. When does BOP intend to conduct an Environmental 
Assessment pursuant to the National Environmental Policy Act?
    Answer. The Environmental Assessment began in June 2010. BOP 
anticipates the Environmental Assessment will be completed in Fall 
2010.
    Question. Provide an engineer's report on material condition and 
needed modifications.
    Answer. BOP does not produce an ``engineer's report''; however, the 
Bureau's assessment, according to Correctional Programs and Facilities 
experts, concluded that additional modifications would be needed to 
meet BOP's security standards to house high security inmates. The 
following lists the major modifications needed and provides examples of 
the necessary security enhancements: New stun lethal fence and new 
razor ribbon to meet BOP guidelines; new fence alarm system; new rear 
gate and sallyport gates; construct facilities building and storage 
area; and security upgrades, such as door locks, hardened recreation 
cages behind units, addition of security fencing within compound, 
installation of additional cameras and tie to monitoring system, 
installation of radio system base and portables, additional security 
lighting within compound, installation of anti-crash bollards in front 
of institution and rear, and construction of holding cells in receiving 
and discharge area.
    The number of administrative maximum (ADX or ``super max'') beds 
available in the Federal prison system has not increased since ADX 
Florence was activated in 1994. Acquisition of the Thomson facility, 
which is significantly larger than ADX Florence, will expand BOP's 
capacity to confine ADX and Special Management Unit (SMU) inmates at a 
lower cost and within a shorter timeframe than building a new facility.
    The Thomson facility is unique in that it is modern, was never 
fully utilized, and was built specifically to house maximum security 
inmates. Completed in 2001, the Thomson facility could be used fairly 
quickly after some modifications were completed. It could be acquired 
and readied for use, at today's lower costs, more rapidly than 
constructing a new facility, saving several years. The Thomson facility 
would enable BOP to move the most disruptive and violent inmates out of 
existing general populations U.S. Penitentiaries to a newer, more 
modern facility better suited to the controls required to manage the 
ADX- and SMU-type populations. Some features of the Thomson facility 
that compare extremely well with other administrative high units are: 
The amount of bedspace available (1,600 cells); flat land geography 
that allows unobstructed line of sight; good infrastructure with plenty 
of sewer and water capacity; and a central layout for program space, 
hospital, food service, education.
    Question. Provide information on CCA medium-security facilities 
previously negotiated or discussed.
    Answer. BOP currently contracts to house low security criminal 
aliens, BOP is not aware of any Corrections Corporation of America 
facilities offered for sale to BOP.
    Question. Please provide the Defense Department inspection 
findings.
    Answer. The Department of Justice does not have a copy of the 
Defense Department's inspection findings.
    Question. Please provide the December 15 letter from Secretary 
Gates and AG Holder detailing some of the security enhancements 
envisioned for the Thomson facility.
    Answer. Attached is the requested letter to Governor Quinn of 
Illinois, which was signed by Attorney General Holder (Justice), 
Secretary Clinton (State), Secretary Gates (Defense), Secretary 
Napolitano (Homeland Security) and then Director Blair (National 
Intelligence). See Attachment 3.

                                                 December 15, 2009.
The Honorable Pat Quinn,
Governor of Illinois,
Chicago, Illinois 60601.
    Dear Governor Quinn: On January 22, 2009, President Obama issued 
Executive order 13492, directing the closure of the detention center at 
Guantanamo. A key purpose of this Order was to protect our national 
security and help our troops by removing a deadly recruiting tool from 
the hands of al-Qa'ida. This should not be a political or partisan 
issue. This action is by the Nation's highest military and civilian 
leaders who prosecuted the war against al-Qa'ida under the previous' 
and continue to do so today. It is also supported by five previous 
Secretaries of State who in both Democratic and Republican 
administrations, including those of Presidents Nixon, Ford, George H.W. 
Bush, Clinton, and George W. Bush.
    On November 12, 2009, you wrote to Defense Secretary Robert Gates 
and Attorney General Eric Holder proposing that the Federal Government 
work with the State of Illinois to acquire the Thomson Correctional 
Center to house Federal inmates and a limited number of detainees from 
Guantanamo Bay, Cuba. We appreciate the leadership and assistance you 
and Senator Dick Durbin have provided during our evaluation of this 
proposal. We also would like to thank Thomson Village President Jerry 
``Duke'' Hebeler and the people of Thomson and the surrounding region 
for their support and hospitality.
    We write to inform you that the President has directed, with our 
unanimous support, that the Federal Government proceed with the 
acquisition of the facility in Thomson. Not only will this help address 
the urgent overcrowding problem at our Nation's Federal prisons, but it 
will also help achieve our goal of closing the detention center at 
Guantanamo in a timely, secure, and lawful manner.
    Executive order 13492 directed us to close the detention facility 
at Bay and to conduct a review of the most secure and efficient way to 
adjudicate each of the Guantanamo detainee cases. This is part of the 
President's aggressive posture in the fight against al-Qa'ida that uses 
all instruments of our national power, including: keeping the pressure 
on al-Qa'ida and its leadership globally; strengthening homeland 
security and increasing cooperation and intelligence sharing among 
Federal agencies and between the Federal Government and State and local 
authorities; recognizing our values as a critical piece of our battle 
against our enemies; prosecuting detainees in Federal courts, which 
have safely and securely prosecuted terrorists for many years; trying 
detainees for violations of the law of war in military commissions. 
which were reformed by bipartisan legislation signed by the President 
in October; and transferring detainees to their home countries or third 
countries that agree to accept them, when consistent with our national 
security interests and humane treatment policies.
    As the President has made clear, we will need to continue to detain 
some individuals currently held at the Guantanamo Bay detention 
facility. To securely house these detainees, Federal agencies plan to 
work with you and other State officials to acquire the nearly vacant 
maximum security facility in Thomson, Illinois. This facility will 
serve dual purposes. First, the Department of Justice will acquire this 
facility primarily to house Federal inmates. The Bureau of Prisons has 
a pressing need for more bed space in light of current crowded 
conditions. Second, the Defense Department will operate part of the 
facility to house a limited number of detainees from Guantanamo. The 
two parts of the facility will be managed separately, and Federal 
inmates will have no opportunity to interact with Guantanamo detainees.
    The security of the facility and the surrounding region is our 
paramount concern. The facility was built in 2001 to maximum security 
specifications, and after acquisition it will be enhanced to exceed 
perimeter security standards at the Nation's only ``supermax'' prison 
in Florence, Colorado, where there has never been an escape or external 
attack. Federal departments and agencies, including the Departments of 
Homeland Security. Justice, and Defense, will work closely with State 
and local law enforcement authorities to identify and mitigate any 
risks, including sharing information through the State's ``fusion 
center'' and working with the Federal Joint Terrorism Task Force.
    The President has no intention of releasing any detainees in the 
United States. Currant law effectively bars the release of the 
Guantanamo detainees on U.S. soil, and the Federal Government has broad 
authority under current law to detain individuals during removal 
proceedings and pending the execution of final removal orders.
    Federal officials also have consulted with local, county, and State 
law enforcement authorities to begin the process of identifying 
additional resources they may require to handle the increased 
population of Federal inmates and detainees. We are pleased that 
Illinois law enforcement authorities endorsed this plan in a letter to 
the Secretary of Defense and the Attorney General dated December 2, 
2009. We also note that more than 30 villages, towns, cities, counties, 
chambers of commerce, and other community and business organizations 
have sent letters, approved resolutions, or otherwise expressed their 
support for this plan. We are greatly encouraged by this support, and 
we commit to working with local authorities closely as this process 
moves forward.
    There are many steps still to be taken and many requirements still 
to be met, but we look forward to working with you to complete the 
Federal acquisition of the facility in Thomson.
            Sincerely,
                                           Hillary Clinton,
                                                Secretary of State.
                                           Robert M. Gates,
                                              Secretary of Defense.
                                        Eric H Holder, Jr.,
                                                  Attorney General.
                                          Janet Napolitano,
                                    Secretary of Homeland Security.
                                           Dennis C. Blair,
                                 Director of National Intelligence.

    Question. Provide more details and work products in response to the 
original question: What bodies were convened to conduct this analysis 
resulting in the December 15 letter referenced above, who was involved, 
and where are the results of their labors? Any other pertinent info you 
can offer would be appreciated as well.
    Answer. Department of Justice officials have participated in a 
number of interagency meetings, work activities, and site visits of the 
Thomson facility. Visits and discussions have served as opportunities 
to engage local community members and law enforcement representatives; 
inform congressional, Office of Management and Budget, Department of 
Defense staff, and Illinois State legislators; assess compatibility 
with the operational and security needs of the Federal prison system; 
and educate surrounding communities of employment opportunities.
    In addition, the Director of BOP has testified at hearings before 
the Illinois State Legislative Commission on Government Forecasting and 
Accountability and congressional appropriations committees on plans to 
purchase Thomson. The Department has also participated in a several 
congressional briefings with the Senate and House appropriations 
committee staff regarding the acquisition, renovation, and activation 
of the Thomson facility.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell

    Question. Currently, Federal correctional officers from Bureau of 
Prisons facilities in Kentucky, USP McCreary and FCI Manchester, have 
advised that they are not authorized to carry Oleoresin Capsicum (OC) 
spray as a means of defense from personal attacks from inmates who are 
often armed with improvised weapons. In light of the fact that the 
safety device is standard-issue in State prisons and local detention 
facilities across the United States, is the Bureau of Prisons 
considering the use of OC spray as standard-issued equipment to aid in 
increasing officer safety while on duty?
    Answer. The Bureau of Prisons' (BOP) inmate management philosophy 
focuses on constructive and frequent interaction and communication 
between staff and inmates. In accordance with this approach, BOP does 
not issue less lethal devices to staff for everyday interaction with 
inmates and everyday performance of their duties and responsibilities. 
Implementing this policy promotes a less confrontational environment 
between staff and inmates. Further, it does so without providing the 
temptation or opportunity for inmates to obtain such devices through 
aggressive behavior. In all secure institutions (low, medium, and high-
security), staff are authorized to use an array of less lethal 
munitions and devices (e.g., chemical agents and pepper ball launchers, 
etc.), but only during emergency situations. To further enhance safety 
and security, certain less lethal munitions have been placed in 
strategic areas for prompt access. Securely storing devices inside the 
institution with clearly established management controls, rather than 
in the outside armory only, ensures easier access and quicker response 
times to emergency situations.
    BOP's inmate management philosophy, with its focus on the 
utilization of confrontation avoidance techniques, has worked well for 
the vast majority of inmates. BOP continues to review other aspects of 
institution operations and BOP policies and procedures to determine 
what else might be done to enhance safety and security and address 
staff concerns, consistent with the mission of the agency.
    Question. In 2008, Bureau of Prisons Director Harley Lappin enacted 
a policy change to provide correctional officers with stab-resistant 
vests. The policy made the decision to wear a stab-resistant vest 
voluntary for each individual officer. However, the policy also 
dictates that if an officer chooses to wear a vest, he or she must do 
so at all times regardless of an officer's posting, duties, or 
proximity to inmates, thus creating a deterrent to officers opting to 
wear vests. Has the BOP considered whether such a restrictive policy 
discourages officers from wearing these protective vests and has it 
conducted any research to determine the impact of its policy to date?
    Answer. BOP reached an agreement with the Union regarding the vest 
implementation plan. All staff members who request a stab resistant 
vest are required to wear the vest while on duty except (1) during 
Annual Training, (2) when assigned to phone monitoring outside the 
secure confines of the facility, and (3) when assigned to the control 
center. Under the vest Implementation plan, each staff member who 
receives a fitted stab resistant vest is given a 6 month phase-in 
period. At any time during that initial 6 month period, the staff 
member may turn in the vest if he/she no longer desires one.
    Question. In 2004, Congress passed the Law Enforcement Officers' 
Safety Act. This law allows law enforcement officers, including Bureau 
of Prisons correctional officers, to carry firearms when off-duty to 
defend themselves and their families. However, BOP has never reached an 
agreement allowing for storage of officers' personal weapons at BOP 
facilities. Has BOP considered providing storage for staff's personal 
weapons, or in the alternative, allowing staff to equip their vehicles 
with in-car gun safes?
    Answer. The storage of personally owned firearms at Federal 
correctional and detention facilities would reduce the safety and 
security of the environment for staff, inmates, and the community. For 
instance, the storage of personal firearms on BOP property would 
provide opportunities for inadvertent mishaps regarding lost, stolen, 
or misplaced weapons and/or ammunition. In addition, the accidental 
discharge or misplacement of a personal weapon or ammunition could pose 
a significant threat to staff, inmates, and the general public.

                                 ______
                                 
           Questions Submitted by Senator George V. Voinovich

                          OPERATION STREAMLINE

    Question. Operation Streamline is a program where illegal 
immigrants are prosecuted and face jail time for crossing the border. 
This program has contributed to a 49.5 percent reduction in 
apprehensions by the Border Patrol along the Southwest border. It has 
also demonstrated the great cooperation between the U.S. Department of 
Homeland Security, the Department of Justice, and the Judiciary. 
Unfortunately, Operation Streamline, as successful as it is, is not 
fully utilized in all areas of the Southwest border. In the Tucson 
Sector, there is an artificial cap of 70 prosecutions per day in the 
face of hundreds of daily apprehensions. Does the Department of Justice 
support maximizing the use of Operation Streamline in all sectors along 
the Southwest border?
    Answer. Border security and immigration policy continue to be a 
priority for the Department of Justice (the Department or DOJ). With 
regard to the Southwest border, the Department's efforts are focused on 
combating large and sophisticated criminal organizations, and the 
Department has devoted unprecedented resources to that effort. The 
Department generally supports consequence-based enforcement programs 
such as Operation Streamline as one of various tools that assist law 
enforcement in controlling illegal immigration and related violence. 
Operation Streamline programs are in place in four of the five 
Southwest border districts. It is, however, implemented differently in 
each of the districts, as a result of varying local conditions.
    Operation Streamline has an enormous impact on the Department, as 
would any fast track immigration enforcement initiative. For example, 
capacity and infrastructure constraints (e.g. courthouse, cell block 
space, and ventilation systems) restrict the number of detainees or 
cases that can be processed by the Federal courts.
    Funding provided in the 2010 Emergency Border Security Supplemental 
Appropriations bill will allow the Department to expand investigation 
and prosecution efforts along the Southwest border. With the $196 
million provided, the Department will be able to surge Federal law 
enforcement officers to high crime areas in the Southwest border region 
by funding more than 400 new positions and temporarily deploying up to 
220 personnel. Justice funding will also increase the amount of 
equipment, operational support, and attorneys and immigration judges in 
order to support additional detention and incarceration costs for 
criminal aliens in coordination with Department of Homeland Security 
(DHS) enforcement activities.
    Question. In fiscal year 2009, there were 39,183 apprehensions 
accepted for prosecution under Operation Streamline across the entire 
Southwest border. Of those 15,550 were in one sector Tucson. But, these 
15,550 prosecutions represent only a fraction of the 241,673 
apprehensions made in the Tucson Sector in fiscal year 2009. It would 
appear that much more can be done.
    Please identify what additional resources are in the fiscal year 
2011 President's request to expand Operation Streamline.
    Answer. As stated previously, the Department of Justice is a 
committed partner in the Operation Streamline initiative. While the 
fiscal year 2011 President's budget does not break out separately all 
funds related only to Operation Streamline, in total, the fiscal year 
2011 budget requests $3.49 billion for the Department of Justice's 
Immigration and Southwest border related activities. This represents an 
increase of $228 million (7 percent) from the fiscal year 2010 enacted 
level. Additionally, funding provided in the 2010 Emergency Border 
Security Supplemental Appropriations bill will allow the Department to 
expand investigation and prosecution efforts along the Southwest border 
into fiscal year 2011. With the $196 million provided, the Department 
will be able to surge Federal law enforcement officers to high crime 
areas in the Southwest border region by funding more than 400 new 
positions and temporarily deploying up to 220 personnel. Justice 
funding will also increase the amount of equipment, operational 
support, and attorneys and immigration judges in order to support 
additional detention and incarceration costs for criminal aliens in 
coordination with DHS enforcement activities.
    Question. What funding and additional personnel would be required 
for the Department of Justice to support doubling the number of 
Operation Streamline prosecutions in the Tucson Sector in fiscal year 
2011? Please provide a table that displays costs and personnel for each 
component within the Department of Justice and the recurring costs for 
fiscal years 2012 through 2016 needed to do this.
    Answer. Many of the Department's cost inputs along the Southwest 
border are unpredictable. For example, detention costs are dependent on 
both detainee population levels and per diem jail rates. These levels 
and the average per diem jail rate fluctuate depending on a number of 
factors, including sector in which the program operates. In fiscal year 
2009, the highest per diem rate paid was in the San Diego border 
sector. The detention costs range from as little as $41 to as high as 
$111.45 per detainee per day. Other factors impacting costs include 
time in detention and availability of bed space, as well as courthouse 
and cellblock space limitations. Length of sentence is one variable 
that is at the discretion of the courts and sentence terms from 
Operation Streamline cases.
    The differences in how each border sector operates Operation 
Streamline and unpredictable cost inputs make accurately estimating the 
full cost of implementation (however that is defined) difficult. To 
address these complexities, the National Academy of Sciences is 
currently studying the downstream effects of DHS immigration-related 
programs on the Department of Justice. Specifically, the purpose of the 
study is to develop, test, and select a budget model that accurately 
captures fiscal linkages between the two Departments and leverage the 
linkages into an estimate of the Department's immigration-related 
costs. Congress mandated the study in the Commerce, Justice, Science 
and Related Agencies Appropriations Act for 2009. The study started in 
January 2010 and is expected to be completed and provided to Congress 
in June 2011.
    Question. What funding and additional personnel would be required 
for the Department of Justice to support tripling the number of 
Operation Streamline prosecutions in the Tucson Sector in fiscal year 
2011? Please provide a table that displays costs for each component 
within the Department of Justice and the recurring costs for fiscal 
years 2012 through 2016 needed to do this.
    Answer. Many of the Department's cost inputs along the Southwest 
border are unpredictable. For example, detention costs are dependent on 
both detainee population levels and per diem jail rates. These levels 
and the average per diem jail rate fluctuate depending on a number of 
factors, including sector in which the program operates. In fiscal year 
2009, the highest per diem rate paid was in the San Diego border 
sector. The detention costs range from as little as $41 to as high as 
$111.45 per detainee per day. Other factors impacting costs include 
time in detention and availability of bed space, as well as courthouse 
and cellblock space limitations. Length of sentence is one variable 
that is at the discretion of the courts and sentence terms from 
Operation Streamline cases.
    The differences in how each border sector operates Operation 
Streamline and unpredictable cost inputs make accurately estimating the 
full cost of implementation (however that is defined) difficult. To 
address these complexities, the National Academy of Sciences is 
currently studying the downstream effects of DHS immigration-related 
programs on the Department of Justice. Specifically, the purpose of the 
study is to develop, test, and select a budget model that accurately 
captures fiscal linkages between the two Departments and leverage the 
linkages into an estimate of the Department's immigration-related 
costs. Congress mandated the study in the Commerce, Justice, Science 
and Related Agencies Appropriations Act for 2009. The study started in 
January 2010 and is expected to be completed and provided to Congress 
in June 2011.
    Question. Are there any factors that would prohibit the expansion 
of Operation Streamline in the Tucson Sector?
    Answer. In total, the fiscal year 2011 budget requests $3.49 
billion for the Department of Justice's Immigration and Southwest 
border related activities. This represents an increase of $228 million 
(7 percent) from the fiscal year 2010 enacted level. A significant 
expansion of Operation Streamline would require additional appropriate 
enforcement and detention capacity, which could require a redirection 
of resources from other priority mission areas.
    There are a number of factors that would inhibit the expansion of 
Operation Streamline. Capacity and infrastructure constraints (e.g., 
courthouse, cell block space, and ventilation systems) restrict the 
number of detainees or cases that can be processed.
    Question. The Department of Homeland Security Appropriations Act, 
2010, requires the Department of Homeland Security, in consultation 
with the Department of Justice and the Administrative Office of the 
United States Courts, to submit a report to the Committees on 
Appropriations and the Committees on the Judiciary on resources needed 
by the Department of Homeland Security, the Department of Justice, and 
The Judiciary to increase the effectiveness of Operation Streamline 
programs and the resources needed to utilize this program in additional 
sectors. This report was due in December 2009 and is now several months 
overdue. Has the Department of Justice completed its portion of the 
report and submitted that information to the Department of Homeland 
Security and the Office of Management and Budget? If not, when will it 
do so?
    Answer. The Department provided its information to the Department 
of Homeland Security (DHS). DHS has reported that the Operation 
Streamline report was sent to the Hill on August 16, 2010.

                         CONCLUSION OF HEARINGS

    Senator Mikulski. So the subcommittee will stand in recess, 
subject to the call of the Chair in cooperation with the 
ranking member.
    We are in recess.
    [Whereupon, at 11:52 a.m., Thursday, May 6, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
